I nvestigative
Policy &
O versight
 Report on the Service Academy Sexual Assault and
                Leadership Survey
                                            March 4, 2005




      Office of the Inspector General
      of the Department of Defense
  Additional Information and Copies

  The Office of the Assistant Inspector General for Investigative Policy and Oversight, Office of the
  Deputy Inspector General for Inspections and Policy, DoD, prepared this report. To obtain
  additional copies visit our Web site (http://www.dodig.osd.mil/Inspections/ipo/reports), or if you
  have questions contact Mr. Scott Russell, at (703) 604-8718 (DSN 664-8718).

  Suggestions for Evaluations

  To suggest ideas for or to request evaluations, contact the Audit Followup and Technical Support
  Directorate at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932. Ideas and requests
  can also be mailed to:

                           OAIG-AUD (ATTN: AFTS Audit Suggestions)
                           Inspector General of the Department of Defense
                                 400 Army Navy Drive (Room 801)
                                     Arlington, VA 22202-4704


Acronyms
AFOSI          Air Force Office of Special Investigations
AOC            Air Officer Commanding
ART            Academy Response Team
BCT            Basic Cadet Training
CASIE          Cadets Advocating Sexual Integrity and Education
CID            US Army Criminal Investigation Command
Co Officer     Company Officer
CoC            Chain of Command
DoD            Department of Defense
IPO            Investigative Policy and Oversight
MCIO           Military Criminal Investigative Organization
MTL            Military Training Leader
NCIS           Naval Criminal Investigative Service
OIG            Office of the Inspector General
SAVI           Sexual Assault Victim Intervention
SEL            Senior Enlisted Leader
TAC            Tactical Officers
USAFA          United States Air Force Academy
USMA           United States Military Academy
USNA           United States Naval Academy
VWAP           Victim and Witness Assistance Program
                                               INSPECTOR GENERAL
                                               DEPARTMENTOF DEFENSE
                                                 400 ARMY NAVY DRIVE
                                             ARLINGTON,VIRGINIA22202-4704

                                                                                          MAR- 4 2005


        MEMORANDUM FOR SECRETARIESOF THE MILITARY DEPARTMENTS
        SUBJECT Report on Service Academy Sexual Assault and Leadership Survey
                       (Report No. IPO2005EOOI)
            We have completed the first-ever survey of all three Service Academies to collect
    cadet and midshipmen feedback on matters of sexual assault, reprisal, and associated
    leadership challenges. The survey encompassedvirtually all female cadets and
    midshipmen, and a random sample of the males we selected. Participation in the survey,
    even tliough volun~,   was very high (more than 96 percent). The attached report presents
    the results. They should assist you and other senior leaders m addressing issues relating to
    command climate, core values, and the standardsof exemplary conduct expected of our
    mili~    leaders.

            Although we would like to think that problems of a sexual nature do not exist at the
    Academies, we recognize that cadets and midshipmen enter with varying standards of
    conduct and core values. It is the mission of the Academies to mold them over four years
    into officers of character dedicated to selfless service. The survey results, in addition to
    reflecting experiences and perceptions involving sexual conduct, show that a significant
    portion of respondentsperceive mstitutional bias favoring the opposite gender. On the other
    hand, our survey indicates that most cadets and midshipmen think they have good moral and
    ethical values, and they consider integrity, honor, res~ct, commitment, and excellence as
    the values most important to their professional life at the academy.
           The Defense Manpower Data Center will conduct similar surveys annually through
    the 2008 academic year. The collective survey data may help determine if there ISa
    correlation between cadet/midshipmen core values and the number of sexual assaultsat an
    academy. In the meantime, the attached r~rt should be a useful tool for the
    Superintendent; it recommends, among ?ther things, that each Service Academy adopt the
    statutory Exemplary Conduct standards.
           We have shared the survey results with each Academy's leadership. They are
    already involved in acting upon survey results to ensure that their graduatesare pr~ared to
    provide necessaryleadership to the Seryices in addressing critical Issuesof exemplary
    conduct and healthy gender'
                                                     \


    Attachment:
                                              , ~h
                                                ~               .Schmitz

                                                                                .,
                                                                                     ",




                                                                                          ""---
    As stated
                                                                            ~
    cc:
    Under Secretaryof Defensefor Personneland Readiness


    I   Title 10 U.S.C.§§ 3583, 5947, 8583




~
            Office of the Inspector General of the Department of Defense
Project No. 2003C004                                                              March 4, 2005

              Report on the Service Academy Sexual Assault and
                             Leadership Survey

                                     Executive Summary

Who Should Read This Report and Why? Members of Congress; the Secretaries of
Defense and the Military Departments; other senior DoD and Military Department
leaders/managers; and others interested in factual findings and constructive
recommendations relating to sexual assaults, reprisal, and associated leadership
challenges at the United States Service Academies, should read this report.1

Background. In response to requests from the Senate Governmental Affairs Committee
and the Senate Armed Services Committee, the Inspector General of the Department of
Defense conducted an evaluation and issued a report, “Evaluation of Sexual Assault,
Reprisal, and Related Leadership Challenges at the United States Air Force Academy,”
December 3, 2004. The Secretary of Defense concurred with the congressional requests
for the Inspector General of the Department of Defense to conduct a survey on this topic
covering all three Service Academies.2

The survey, conducted in March/April 2004, gathered information from cadets and
midshipmen on (1) their values, (2) their experiences with sexual harassment and sexual
assault while at the academy, (3) Academy climate factors that might cause or contribute
to gender problems, (4) the scope of recent sexual assault incidents at their academies,
and (5) factors that affect sexual assault reporting at the academies. The work was
intended to assist senior Department and Academy leaders, and Members of the
Congress, in identifying changes or adjustments to improve future Academy operations,
gender climates, and perceptions.3

Survey Results. The three Service Academies all experience instances of sexual
harassment, sexual assault, and other gender problems.

        •    Over 50 percent of female respondents and approximately 11 percent of male
             respondents indicated experiencing some type of sexual harassment since
             becoming a cadet or midshipman.

1
    The aggregate data without written comments in this executive summary were released to the Secretary
    of Defense on July 27, 2004, the Superintendents of the Air Force, Military, and Naval Academies on
    July 19, 2004, and the Secretary of the Navy on August 6, 2004.
2
    National Defense Authorization Act for fiscal year 2004, November 7, 2003, Section 527. “Actions to
    Address Sexual Harassment and Violence at the Service Academies,” paragraph (b)(2) “Annual
    Assessment,” requires Service Academy Superintendents to conduct a survey for each Academy
    program year (2004, 2005, 2006, 2007, and 2008) on sexual harassment and violence at the Service
    Academies.
3
    The Defense Manpower Data Center (DMDC) will conduct similar annual assessments at the
    academies during academic years 2005 through 2008.



                                                   i
        •   A total of 262 (of 1,906) female survey respondents indicated they had
            experienced 302 incidents of sexual assault behavior.4 A total of 54 (of 3,107)
            male respondents identified 55 sexual assault incidents. These incidents
            occurred between 1999 and 2004, and most were not reported to authorities.
            Most incidents occurred in a dormitory and the offenders were primarily
            fellow cadets/midshipmen. Sixty-four incidents involving a female
            respondent included sexual intercourse. Most incidents involved touching,
            stroking, or fondling private parts.
       • Based on survey data, it appears that most females arrive at the academy
            perceiving that men and women are treated fairly overall, and the perception
            improves by the time they are seniors. Males also appear to arrive at the
            academy thinking that men and women are treated fairly overall, but after the
            first year, think women are treated more favorably. (There are some
            variations among the academies.)
Recommendations. The Inspector General recommends using survey results as a
leadership tool to address cultural behavior and attitudinal issues suggested by the results.
Another Inspector General recommendation is to implement the “Exemplary Conduct”
leadership standard prescribed in 10 U.S.C. §3583 (Army), §5947 (Navy), and §8583
(Air Force) into the cadet and midshipman curricula and disciplinary systems to ensure
graduates possess and enforce the leadership traits essential for future leaders of the
Military Departments.

The Survey
Anonymity. All responses to survey questions were completely anonymous. Some
survey questions were very personal in nature to enable us to understand cadet and
midshipman views on sexual assault and sexual harassment, as well as learn about
specific incidents or experiences that pose continuing leadership challenges at the
academies.

Composition. The survey has five parts: Demographics, Values, Academy Climate,
Personal Experiences, and Written Comments.

Demographics
Female Respondents. At the time of the survey, the female cadet/midshipman
population was 1,971. Because the female population was small, we attempted to survey
all available female cadets/midshipmen rather than select a statistical sample. The survey
accounted for 100 percent of the female population,5 and resulted in 1,906 (96.7 percent)

4
    We asked respondents “[S]ince becoming a cadet/midshipman, has someone done any of the following
    to you without your consent and against your will?” Touched, stroked, or fondled private parts;
    physically attempted to have sexual intercourse with you, but was not successful; physically attempted
    to have oral or anal sex with you, but was not successful; had sexual intercourse with you; had oral sex
    with you; and, had anal sex with you.”
5
    Although completing the survey was voluntary, the academies all required the cadets/midshipmen
    selected for our survey to report to the survey site and receive the introduction briefing. We accounted
    for each individual on a by-name roster and ensured they all were given the survey instructional
    briefing. Although a limited number of cadets/midshipmen opted not to complete the survey, or were
    not responsive to the questions in completing the survey, participation was very high—more than
    96 percent.



                                                     ii
usable survey responses. Table 1 reconciles the population and usable survey numbers
by academy and overall.

                                  Table 1. Female Participation
                                                      USAFA      USMA      USNA      Total
                 Total Female Population                 685       616       670     1,971
                 Total Excused6                           12        14         9        36
                 Expected Participants                   673       602       661     1,935
                 Non-responsive Participants              20         1         9        29
                 Total Female Responses                  653       601       652     1,906

Because the results are based on a near census of the total female population at each
academy, the results are considered representative of the female population at each
academy.

Male Respondents. From a total 10,408 male cadet and midshipman population, we
randomly selected 3,199 (30.7 percent) to participate in the survey.7 We accounted for
100 percent of the sample and received 3,107 (97.1 percent) usable survey responses.
Table 2 reconciles these numbers by academy and overall.

                                    Table 2. Male Participation
                                                  USAFA         USMA         USNA         Total
          Total Male Population                       3,318        3,486       3,604       10,408
          Random Sample Selected                      1,052        1,069       1,081        3,199
          Total Excused                                   4            0           7           11
          Expected Participants                       1,048        1,069       1,074        3,188
          Non-responsive Participants                    56            0          28           81
          Total Male Responses                          992        1,069       1,046        3,107


In presenting the survey results, we limited our analysis, preferring instead to provide
information from written respondent comments to help provide context. Additionally, to
ensure that our presentation would not lead readers to inappropriate conclusions, we did
not combine information on male and female responses in the same table. Collection
methods were different for each gender and, therefore, not directly comparable.

Values
We collected information on cadet/midshipman morals and whether they are absolute or
relative; for example, something is wrong “only if you get caught.” Additionally, we
were interested in cadet/midshipman beliefs concerning oaths, ethical/spiritual/religious

6
    Individuals who were away from the academy on authorized ordinary or convalescent leave or
    temporary duty travel, in “turnback” status (authorized absence from the academy for medical,
    military, or academic reasons), were not US citizens, had permanently departed the academy due to
    disenrollment or resignation, or who had assisted us in “beta testing” the survey, were excused from
    participating.
7
    The sampling was based on generally recognized and accepted statistical techniques. However, we
    generally have not extrapolated the sample results to the overall population or projected the results.
    (For anyone interested in doing so, appendices to this report include the complete survey results data.)
    Our overall methodology for the survey is described in detail later in the report.



                                                     iii
values, alcohol use/abuse, fraternization, consensual sex between cadets/midshipmen, and
pornography.

The survey solicited views on the values that the respondent believed were most
important to his/her professional life at the academy, as well as the extent to which the
respondent believes cadets or midshipmen at his/her academy adhere to the honor code.
Ultimately, over an extended period encompassing several annual assessments, the data
should permit a determination on whether there is a correlation between
cadet/midshipman core values and the numbers of sexual assaults occurring at an
academy. Each Service has “values” or “core values.” The values for each Academy
are:

        •   Air Force Academy: “integrity first, service before self, and excellence in all
            we do”
        •   Military Academy: “loyalty, duty, respect, selfless service, honor, integrity,
            and personal courage”
        • Naval Academy: “honor, courage, and commitment”
From a list of 18 values,8 we asked each survey participant to select the 3 values most
important to his/her professional life at the academy and rank order the selections based
on importance. Using the results, we calculated the number of times that participants
selected a value as one of their three values (selection frequency).
Female cadets/midshipmen selected the values “Integrity,” “Honor” and “Respect” most
frequently. Table 3 shows female selection frequency by academy. Further detail by
participant class year is included later in the report.

                   Table 3. Female Respondents Values Most Selected
                             Value           USAFA        USMA        USNA
                                              No.          No.         No.
                       Integrity                  431        295         295
                       Honor                        *        225         299
                       Respect9                   199        218           *
                       Commitment                   *          *         229
                       Excellence                 222          *           *

* The listed value was not among the respondents’ top three choices.

Male cadets/midshipmen selected the values “Integrity,” “Honor” and “Commitment”
most frequently. Table 4 shows male selection frequency by academy. Further detail by
participant class year is included later in the report.




8
    The values included: Accountability, Achievement, Ambition, Courage, Commitment, Effectiveness,
    Efficiency, Excellence, Friendship, Honor, Integrity, Loyalty to Country, Money, Power, Respect,
    Selfless Service, Spiritual Faith, and Tolerance
9
    Not a specified core value at USAFA



                                                 iv
                                   Table 4. Male Respondents
                                     Values Most Selected
                        Value         USAFA       USMA        USNA        Total
                                        No         No          No          No
                   Integrity10             589        518         384       1,491
                   Honor11                 328        544         563       1,435
                   Commitment                *          *         320         320
                   Excellence              304          *           *         304
                   Respect                   *        246           *         246
                     Total               1,221      1,308       1,267       3,796

* The listed value was not among the respondents’ top three choices.

Adherence to Standards

We asked the participants, based on their personal experiences, the extent to which they
agreed or disagreed with specific statements regarding adherence to various standards,
including the honor code/concept and academy rules and regulations. Additionally, the
survey addressed cadet/midshipman standards regarding honesty, oaths, moral standards,
exemplary conduct and leadership standards, and ethical/spiritual/religious beliefs.

Female Respondents. Most female respondents (by academy, between 55 percent and
75 percent) agreed that “[c]adets/midshipmen at my Academy adhere to the Honor
Code/Concept,12 even if they know they won’t get caught violating it.” However, less
than half (between 36 percent and 49 percent by academy) agreed that “[c]adets/
midshipmen adhere to significant Academy rules and regulations, even if they know they
won’t get caught violating them.” Further, between 30 percent and 43 percent agreed “I
have felt pressure from others at my Academy to compromise moral standards because of
loyalty to friends/peers,” while between 16 percent and 26 percent agreed “I have felt
pressure from others at my Academy to compromise moral standards in order to meet
academic or training objectives.” Approximately 25 percent agreed “[c]ircumstances
determine whether it is right or wrong for a cadet/midshipman to compromise his or her
moral standards.”

Male Respondents. Depending on academy, between 68 percent and 85 percent of male
respondents agreed “[c]adets/midshipmen at my Academy adhere to the Honor
Code/Concept, even if they know they won’t get caught violating it.” Slightly more than
50 percent agreed “[c]adets/midshipmen adhere to significant Academy rules and
regulations, even if they know they won’t get caught violating them.” Between
25 percent and 39 percent, depending on academy, agreed “I have felt pressure from
others at my Academy to compromise moral standards because of loyalty to
friends/peers.” Between 14 percent and 25 percent agreed “I have felt pressure from
others at my Academy to compromise moral standards in order to meet academic or
training objectives.” Finally, between 20 percent and 25 percent agreed that
“[c]ircumstances determine whether it is right or wrong for a cadet/midshipman to
compromise his or her moral standards.”

10
     Not a specified core value at USAFA
11
     Not a specified core value at USNA
12
     USNA does not have an Honor Code but follows an “Honor Concept,” which emphasizes doing the
     right thing.



                                                 v
  See Tables A.1. and A.2. in Appendix A for details.

  Maintaining Good Order and Discipline

  We asked cadets and midshipmen the extent to which they agreed various behaviors,
  including honor code violations, gender favoritism, fraternization, dating, consensual sex,
  alcohol use, illegal drug use, and pornography would disrupt good order and discipline at
  their academy.

  Female Respondents. Approximately 88 percent of female respondents agreed that
  “[v]iolating the Honor Code/Concept” would disrupt good order and discipline. Over
  92 percent agreed that “favoritism based on gender” would disrupt good order and
  discipline. Between 56 percent and 67 percent, depending on academy, agreed that
  “[e]ngaging in prohibited relationships/fraternization” would disrupt good order and
  discipline. Between 54 and 63 percent agreed that “[v]iewing pornography or other
  sexually graphic content (images or movies),” would disrupt good order and discipline.
  However, less than 10 percent agreed that “[c]onsensual sex between cadets/midshipmen
  OFF academy grounds” would disrupt good order and discipline.

  Male Respondents. More than 83 percent of male cadets/midshipmen agreed
  “[v]iolating the Honor Code/Concept,” disrupted good order and discipline. Between 62
  percent and 71 percent agreed “[n]ot reporting Honor Code/Concept violations” disrupted
  good order and discipline. Over 89 percent agreed “[f]avoritism based on gender,” would
  disrupt good order and discipline. Approximately 21 percent of male midshipmen and
  between 10 percent and 11 percent of USAFA and USMA cadets agreed “[c]onsensual
  sex between cadets/midshipmen OFF academy grounds,” disrupts good order and
  discipline. Between 21 percent and 30 percent agreed “[v]iewing pornography or other
  sexually graphic content (images or movies),” would disrupt good order and discipline.

  See Tables A.3. and A.4. in Appendix A for details.

Academy Climate
  We queried respondents about academy climate factors, such as gender preferential
  treatment, sexual harassment and assault tolerance, fraudulent sexual assault reporting,
  and reporting a sexual assault.

  Gender Preferential Treatment

  We asked cadets and midshipmen to what extent they agree or disagree with the
  following statements:

     •   “Men receive more favorable treatment OVERALL”
     •   “Women receive more favorable treatment OVERALL”

     •   “Men and women are treated fairly OVERALL”

  Females cadets at USAFA and USMA held a majority view that men and women are
  treated fairly overall; however, female midshipmen held a majority view that men
  received more favorable treatment overall. In contrast, male cadets and midshipmen at
  the three Service Academies held a majority opinion that women receive more favorable
  treatment overall. As noted earlier in this summary, approximately 90 percent of both


                                              vi
male and female cadets and midshipmen think that favoritism based on gender would
disrupt good order and discipline at their academy. Additionally, as demonstrated in the
academy specific data, cadets/midshipmen opinions appear to change while at the
academy. The number of females who believe men and women are treated fairly overall
improves as indicated by female senior respondents (Class of 2004), who held a majority
view that the genders are treated fairly overall. Freshmen USAFA and USMA male
cadets held a majority view that men and women are treated fairly overall. However, the
male cadets’ opinion changes during subsequent years at the academy. Sophomore,
junior, and senior male cadets and midshipmen, at all three academies, held the majority
opinion that female cadets/midshipmen received more favorable treatment overall.
Correspondingly, as detailed in Tables A.9 and A.10 in Appendix A, the percentage of
both male and female cadets/midshipmen that indicated senior academy leaders to a very
large or large extent “[t]reat subordinate cadets/midshipmen fairly regardless of gender,”
was a lower percentage than the other senior leader behaviors.

Tables 5 and 6 reflect these results. Table 5 shows percentages of the female respondents
and are representative of the population. The percentages in Table 6 are not projected to
the male cadet/midshipmen population.

             Table 5. Proportion of Female Respondents That Agree or
              Strongly Agree that Genders are Treated Fairly Overall
                              Class Year     Men       Women        Both
                Academies    2004            28.8%       9.6%        57.5%
                Combined     2005            40.6%       7.8%        51.2%
                             2006            41.7%       7.1%        46.0%
                             2007            41.2%       6.3%        52.1%
                             Combined        38.1%       7.7%        51.7%

                USAFA        2004             21.1%        9.4%      60.5%
                             2005             25.0%        7.0%      66.0%
                             2006             27.2%       10.6%      50.3%
                             2007             29.4%        5.7%      64.7%
                             Combined         25.7%        8.2%      60.4%

                USMA         2004             36.7%        6.0%      59.3%
                             2005             43.4%        6.3%      49.0%
                             2006             48.0%        3.4%      42.5%
                             2007             41.9%        8.8%      51.2%
                             Combined         42.5%        6.1%      50.5%

                USNA         2004             28.7%       13.3%      52.7%
                             2005             53.4%       10.1%      38.5%
                             2006             50.0%        7.3%      45.1%
                             2007             52.1%        4.2%      40.5%
                             Combined         46.1%        8.7%      44.2%




                                            vii
                   Table 6. Proportion of Male Respondents That Agree
                or Strongly Agree that Genders are Treated Fairly Overall*
                                    Class Year             Men      Women           Both
                 Academies                 2004              6.1%    52.2%           41.7%
                 Combined                  2005              7.3%    49.8%           42.8%
                                           2006              6.2%    53.7%           40.1%
                                           2007             13.2%    32.4%           54.4%
                                   Combined                  8.6%    44.4%           46.9%

                 USAFA                    2004               2.7%      60.4%         36.9%
                                          2005               3.3%      52.8%         43.9%
                                          2006               1.2%      53.3%         45.5%
                                          2007               4.4%      30.9%         64.7%
                                   Combined                  2.9%      49.0%         48.1%

                 USMA                     2004               7.5%      54.8%         37.6%
                                          2005               7.6%      55.8%         36.7%
                                          2006               7.6%      51.1%         41.4%
                                          2007               8.6%      44.3%         47.1%
                                   Combined                  7.8%      51.4%         40.8%

                 USNA                     2004               4.8%      65.7%         29.5%
                                          2005               6.8%      68.7%         24.5%
                                          2006               9.2%      56.7%         34.2%
                                          2007              18.5%      44.6%         36.9%
                                   Combined                  9.8%      58.8%         31.3%
                  * Not all respondents provided class year

Separation of Genders in Dormitory/Barracks

In response to sexual assault and gender relations problems at USAFA, the Secretary of
the Air Force and Air Force Chief of Staff ordered separate billeting arrangements for
female and male cadets. The new policy required billeting freshmen cadets with their
assigned squadrons during the academic year, with dormitory room arrangements that
provide for squadron integrity. Female cadet dormitory rooms within a squadron are
clustered near the women’s bathrooms. Overall, the intent was “to preserve basic dignity,
deter situations in which casual contact could lead to inappropriate fraternization or
worse, and to aid mentoring of lower-degree female cadets by senior female cadets.”13
In October 2003, the Inspector General of the Department of Defense reminded the
Service Secretaries about the statutory standard for “Recruit basic training: separate
housing for male and female recruits” [10 U.S.C. §9319; similar provisions at 10 U.S.C.
§4319 (Army) and §6931 (Navy)]. The Inspector General intended that the Secretaries



13
     The United States Air Force Academy: Agenda for Change, March 26, 2003, published by the
     Secretary of the Air Force and Air Force Chief of Staff in response to sexual assault problems at
     USAFA.



                                                    viii
reconsider the statutory standards – considering their remedial nature and purpose – as
tools for suppressing sexual misconduct.14
In the survey, we asked cadets/midshipmen whether they agreed that dormitory/barracks
areas should be physically separated (e.g., different floors or buildings) by gender.
Overwhelmingly (on average, 95.5 percent), women disagreed that living areas should be
separated by gender. Approximately 80 percent of the males disagreed that
dormitory/barracks should be separated by gender. Respondents also provided numerous
written comments on physically separated housing that are described later in the report.

Understanding of Sexual Harassment, Assault and Related Services

We also asked Cadets/midshipmen about various factors related to sexual harassment and
sexual assault, including avoiding risky situations, reporting incidents, obtaining care,
counseling and legal services, and the responsibilities of law enforcement and the chain
of command in handling sexual assaults. Almost every female cadet/midshipman
indicated understanding the difference between sexual harassment and sexual assault, and
how to avoid situations that increase sexual assault risks. (We did not define the terms
and only measured the stated understanding levels.) On average, approximately
55 percent of female USNA midshipmen understood: “[t]he services that your
Academy’s legal office can provide to a victim in response to sexual assault”; “[t]he
general responsibilities of law enforcement and criminal investigative agencies in
response to sexual assaults”; and, “[t]he role of the chain of command in handling sexual
assaults.” This proportion was significantly less than female USAFA and USMA cadets.
The understanding levels for all male cadet/midshipman respondents were similar to the
overall female levels.

See Tables A.5. and A.6. in Appendix A for details.

Effectiveness of Academy Military Leaders

We asked cadets/midshipmen questions to identify the extent to which current
cadet/midshipmen leaders and commissioned officers (Tactical Officers, Air Officers
Commanding, and Company Officers) at their Academy, exhibited certain leadership
behavior. Generally, both male and female cadets/midshipmen indicated the more senior
the leader (cadet/midshipman/commissioned officer), the more the leader created a
climate where sexual assault was not tolerated. Comparative proportions for sexual
harassment were similar, but lower.

See Tables A.7. and A.8. in Appendix A for details.

Effectiveness of Senior Leaders and Faculty

We asked cadets/midshipmen questions to identify the extent to which senior leaders
(Superintendent, Commandant of Cadets/Midshipmen, Vice Commandant, and Dean of
Faculty) at their academies exhibited certain leadership behavior. Both male and female
cadets/midshipmen indicated the lowest levels in answering whether senior leaders
“[t]reat subordinate cadets/midshipmen fairly regardless of gender.” By academy, female
ratings ranged from 70.9 percent to78.9 percent, and male ratings ranged from 68.1
percent to 73.9 percent. In that same series of questions, we asked about the extent that
14
     Memorandum for the Service Secretaries, Subject: “Statutory Tools for Suppressing Sexual
     Misconduct at Service Academies,” October 31, 2003.



                                                   ix
faculty members at the three academies exhibited the same leadership attributes. Both
male and female midshipmen rated the USNA faculty substantially lower in each
category than USAFA and USMA male and female cadets rated their respective faculty.

See Tables A.9. and A.10. in Appendix A for details.

Willingness to Confront and Report Sexual Harassment and Sexual Assault

We asked cadets and midshipmen, based on behavior they had observed, to indicate the
extent cadets/midshipmen at their academy would be willing to “[C]ONFRONT other
cadets/midshipmen who engage in sexual HARASSMENT, including inappropriate
comments and actions”; “[R]EPORT other cadets/midshipmen who continue to engage in
sexual HARASSMENT after having been previously confronted”; and “[R]EPORT other
cadets/midshipmen who commit sexual ASSAULT.”

Female Respondents. A higher percentage of USAFA female respondents indicated a
cadet willingness to: “[C]ONFRONT other cadets who engage in sexual
HARASSMENT, including inappropriate comments and actions”; “[R]EPORT other
cadets/midshipmen who continue to engage in sexual HARASSMENT after having been
previously confronted”; and “[R]EPORT other cadets/midshipmen who commit sexual
ASSAULT,” than did USMA and USNA female respondents. A total of 37.5 percent of
USAFA female respondents indicated they would be willing to “[C]ONFRONT other
cadets who engage in sexual HARASSMENT, including inappropriate comments and
actions.” Twenty one percent and 17 percent, respectively, of USMA and USNA female
respondents indicated such willingness. Approximately 20 percent of USMA and
15 percent of USNA female respondents indicated cadets/midshipmen would be willing
to “[R]EPORT other cadets/midshipmen who continue to engage in sexual
HARASSMENT after having been previously confronted,” as compared with 33.7
percent for USAFA female respondents. Only 28.4 percent of USNA female respondents
and 36.6 percent of USMA female respondents indicated cadets/midshipmen would be
willing to “[R]EPORT other cadets/midshipmen who commit sexual ASSAULT,” as
compared with 53.9 percentage for USAFA female respondents.

Male Respondents. A much lower percentage of male respondents at USNA than at
USAFA and USMA indicated cadets/midshipmen would be willing to “[C]ONFRONT
other cadets/midshipmen who engage in sexual HARASSMENT, including inappropriate
comments and actions”; “[R]EPORT other cadets/midshipmen who continue to engage in
sexual HARASSMENT after having been previously confronted”; and “[R]EPORT other
cadets/midshipmen who commit sexual ASSAULT.” Only 34.5 percent of USNA male
respondents indicated midshipmen would be willing to “[C]ONFRONT other
cadets/midshipmen who engage in sexual HARASSMENT, including inappropriate
comments and actions.” This proportion compares to 51 percent and 46 percent,
respectively, for USAFA and USMA male respondents. Approximately 52 percent of
male USAFA respondents, 50 percent of male USMA respondents, and 34.5 percent of
male USNA respondents indicated cadets/midshipmen would be willing to “[R]EPORT
other cadets/midshipmen who continue to engage in sexual HARASSMENT after having
been previously confronted.” Approximately 73 percent of male USAFA respondents, 68
percent of male USMA respondents, and 58 percent of male USNA respondents indicated
cadets/midshipmen would be willing to “[R]EPORT other cadets/midshipmen who
commit sexual ASSAULT.”

See Tables A.11. and A.12. in Appendix A for details.



                                           x
Personal Loyalties, Barriers to Reporting, and Fraudulent Reporting

We asked cadets/midshipmen the extent they think cadets/midshipmen at their academy:
(1) “[a]llow personal loyalties to affect reporting of sexual ASSAULT,” (2) ”[d]o not
report sexual assault out of concern they or others will be punished for infractions, such
as fraternization or underage drinking,” and (3) “[c]onsider fraudulent reporting of sexual
assault incidents to be a problem at the Academy.”
The purpose of this question was to obtain the cadets’/midshipmen’s opinion about how
common fraudulent reporting was at their academy. Because the results were more than
we expected, we consider it possible victims and non-victims may have understood the
question differently, but we can not know for sure. Also, the male victim respondents
were a much smaller number in relation to the male survey sample population.

The detailed reports by academy and gender reflect breakdowns by class year of
graduation.

Female Respondents. Approximately 29 percent of female USAFA respondents,
35 percent of female USMA respondents, and 40 percent of USNA respondents believe
that cadets/midshipmen at their academies “[a]llow personal loyalties to affect reporting
of sexual ASSAULT.” Higher percentages of USMA and USNA female respondents
(52.4 percent and 49.5 percent, respectively) than USAFA female respondents
(32.9 percent) believe that cadets/midshipmen “[d]o NOT report sexual ASSAULT out of
concern they or others will be punished for infractions, such as fraternization or underage
drinking.” Approximately 78 percent of female USAFA respondents, 77 percent of
female USNA respondents, and 65 percent of female USMA respondents “[c]onsider
fraudulent reporting of sexual ASSAULT incidents to be a problem at the Academy.”15
Male Respondents. Approximately 22 percent of male USNA respondents, 18 percent
of male USAFA respondents, and 17 percent of male USMA respondents believe that
cadets/midshipmen “[a]llow personal loyalties to affect reporting of sexual ASSAULT.”
Further, approximately 29 percent of male USNA respondents, 22 percent of male
USMA respondents, and 21 percent of male USAFA respondents believe that
cadets/midshipmen “[d]o NOT report sexual ASSAULT out of concern they or others
will be punished for infractions, such as fraternization or underage drinking.” Finally,
approximately 81 percent of male USAFA respondents, 76 percent of male USNA
respondents, and 60 percent of male USAFA respondents “[c]onsider fraudulent
reporting of sexual ASSAULT incidents to be a problem at the Academy.” (See
Footnote 15. Also, the number of male victims was small in relation to the total number
of male respondents.)

See Tables A.13. and A.14. in Appendix A for details.

Willingness to Report to Various Agencies

We asked cadets/midshipmen whether they would be willing to report a personal sexual
assault to various positions or agencies.

15
     This survey question was intended to produce responses that would enable us to gauge cadet/
     midshipman opinions on the extent to which fraudulent sexual assault reporting is common at the
     academies. The results produced higher victim proportions than expected, indicating a possibility that
     victims and non-victims understood the question differently, or applied interpretations to the question
     that were not intended.



                                                     xi
Female Respondents. At both USAFA and USMA, female respondents were most
willing to report to academy chaplain/clergy, while at USNA female midshipmen were
most willing to report to a peer resource (SAVI Guide). The second highest for USAFA
and USMA females was installation medical personnel, while USNA females chose
SAVI advocate/coordinator.

Male Respondents. Male cadets and midshipmen most frequently chose Academy
Chaplain/Clergy. The second highest choice for USAFA males was installation medical
personnel, USMA males chose “faculty member, coaches, or academy staff not in chain
of command,” and USNA males selected peer resource (SAVI Guide).

See Tables A.15. and A.16. in Appendix A for details.

Sexual Harassment

We asked cadets and midshipmen about sexual talk and/or behavior that were both
uninvited and unwanted, and in which they did not participate willingly. They were
asked “SINCE JUNE OF 2003, how frequently have you been in situations where
persons assigned to your Academy (i.e., cadets/midshipmen and/or other military or
civilian personnel working at your Academy),” (emphasis in original) followed by a
series of behaviors, including:

       •    “Repeatedly told stories or jokes of a sexual nature that were offensive to
            you”;
         • “Made unwelcome attempts to draw you into a discussion of sexual matters
            (for example, attempted to discuss or comment on your sex life)”;
         • “Made offensive remarks about your appearance, body, or sexual activities”;
         • “Made gestures or used body language of a sexual nature that embarrassed or
            offended you”;
         • “Made unwanted attempts to establish a romantic sexual relationship with you
            despite your efforts to discourage it”;
         • “Continued to ask you for dates, drinks, dinner, etc., even though you said
            “No”;
         • “Made you feel like you were being bribed with some sort of reward or
            special treatment to engage in sexual behavior”;
         • “Made you feel threatened with some sort of retaliation for not being sexually
            cooperative (for example, by mentioning an upcoming review or evaluation)”;
         • “Touched you in a way that made you feel uncomfortable;”
         • “Treated you badly for refusing to have sex;” and
         • “Implied better assignments or better treatment if you were sexually
            cooperative.”
Respondents were asked to indicate the frequency they experienced these behaviors. The
possible answers were: never, once or twice, several times, often, or very often. The
most frequent behavior female cadets and midshipmen experienced often or very often
was “[r]epeatedly told stories or jokes of a sexual nature that were offensive to you”—
approximately 23 percent (USNA), 21 percent (USMA) and 10 percent (USAFA). The
rates at which male cadets/midshipmen experienced such behavior was much less
(five percent at each academy). Female respondents also experienced “ . . . offensive


                                           xii
remarks about your appearance, body or sexual activities” often or very often—
approximately 15 percent (USMA and USNA) and 6 percent (USAFA).

See Tables A.17. and A.18. in Appendix A for details.

Both female and male responses indicated that several behaviors never or very seldom
occur at all three academies. These behaviors include:
       •   “Made you feel like you were being bribed with some sort of reward or
           special treatment to engage in sexual behavior”;
       •   “Made you feel threatened with some sort of retaliation for not being sexually
           cooperative (for example, by mentioning an upcoming review or evaluation)”;
       •   “Treated you badly for refusing to have sex”; and,
       •   “Implied better assignments or better treatment if you were sexually
           cooperative.”
The behavior that most cadets and midshipmen (both genders) appear to experience is,
“[t]ouched you in a way that made you feel uncomfortable.” On average, only
approximately 4 percent of male respondents and 21 percent of female respondents
indicated they never experienced this behavior.

See Tables A.19. and A.20. in Appendix A for details.

We also asked cadets and midshipmen whether they considered the behaviors they
marked as happening to them as constituting sexual harassment. Tables 7 and 8 reflect
the responses.

                            Table 7. Female Responses
                      Behaviors Considered Sexual Harassment
                       Behavior             USAFA         USMA      USNA
             None were sexual harassment          37.4%    34.6%      33.7%
             Some were sexual harassment          26.8%    39.8%      40.2%
             Most were sexual harassment           8.0%     7.7%       9.7%
             All were sexual harassment            7.5%     8.3%       6.7%
             Does not apply                       19.6%     9.5%       9.4%


                             Table 8. Male Responses
                      Behaviors Considered Sexual Harassment
                                            USAFA         USMA      USNA
             None were sexual harassment          39.3%    45.8%      38.4%
             Some were sexual harassment           8.3%     6.2%       8.0%
             Most were sexual harassment           1.8%     1.6%       1.2%
             All were sexual harassment            3.2%     1.7%       2.4%
             Does not apply                       46.7%    43.9%      49.3%




                                           xiii
Sexual Assault

We asked the respondents to answer “yes” or “no” to the following question: “[S]ince
becoming a cadet/midshipman, has someone done any of the following to you without
your consent and against your will?” The answer choices included:

         •    “Touched, stroked, or fondled your private parts”
         •    “Physically attempted to have sexual intercourse with you, but was not
              successful”
         •    “Physically attempted to have oral or anal sex with you, but was not
              successful”
         •    “Had sexual intercourse with you”
         •    “Had oral sex with you”
         •    “Had anal sex with you”
These choices describe criminal conduct actions that are punishable under punitive
articles in the Uniform Code of Military Justice (UCMJ), and that are associated with
UCMJ sexual assault offenses specified in Article 134 (Indecent Assault), Article 125
(Nonconsensual Sodomy), Article 120 (Rape), and Article 88 (Attempts). Respondents
who answered “yes,” were instructed to answer 14 additional questions regarding each
incident, for up to 4 incidents. Respondents who answered “no” were not given an
opportunity to answer questions regarding sexual assault incidents.

Female respondents. A total of 262 female respondents (USAFA--79, USMA--100, and
USNA--83) answered “yes” to the question and indicated 302 total incidents.

         • 278 incidents occurred between 1999 and 2004--24 incidents occurred on
           unknown dates
       • 34 respondents indicated experiencing more than one incident
       • 176 of the 302 incidents (58.3 percent) involved touching, stroking, or
           fondling private parts16
       • 171 incidents (56.6 percent) occurred on the installation in the dormitory/
           barracks
       • 266 of 290 offenders (92 percent) were other cadets or midshipmen
Male respondents. A total of 54 male respondents (12--USAFA, 16--USMA, and 26--
USNA) reported 55 incidents between 1999 and 2004 (one USNA respondent reported
two incidents).

         •    40 of the 55 incidents (72.7 percent) involved touching, stroking, or fondling
              private parts17
         •    32 incidents (58.2 percent) occurred on the installation in the dormitory/
              barracks


16
     The respondents were instructed to check all behaviors that applied to each incident. Therefore, the
     number of behaviors indicated may exceed the total incidents identified.
17
     The respondents were instructed to check all behaviors that applied for each incident. Therefore, the
     number of behaviors indicated may exceed the total incidents listed



                                                    xiv
       • 41 of 47 identified offenders (87.2 percent) were other cadets or midshipmen
See Tables A.21. and A.22. in Appendix A for details.

Other questions to respondents who indicated sexual assaults included: “[t]o which
authorities, if any, was this incident reported”; “[d]id anyone in a position of authority
retaliate against you for reporting this incident,” and if so who; and did you “experience
. . . any . . . OTHER repercussions for reporting this incident?”

Reporting of Sexual Assault Incidents

Female Respondents. Of the 302 sexual assault incidents indicated by female
respondents:

       • 39 incidents (12.7 percent) were reported to the Officer/NCO chain of
         command;
      • 24 incidents (7.8 percent) were reported to Military Criminal Investigative
         Organizations (i.e., AFOSI, CID, or NCIS);
      • 20 incidents (6.5 percent) were reported to Academy Counseling and
         Development Center, and
      • 18 incidents (5.9 percent) were reported to Academy Chaplain/Clergy.
      • 206 incidents (67.1 percent) were not reported to authorities.
Male respondents. Of the 55 sexual assault incidents indicated by male respondents:

       •   42 (76.4 percent) were not reported to authorities—”other comments” from
           5 respondents indicated the incidents were not serious enough to report;
       •   2 (3.6 percent) were reported to Officer/NCO chain of command (AOC, MTL,
           TAC, Co. Officer, SEL);
       •   2 (3.6 percent) were reported to academy chaplain/clergy;
       •   7 (1 each—1.8 percent) reported to (1) Academy staff and faculty member
           (not in chain of command), (2) person in cadet chain of command, (3) a peer
           resource, (4) a SAVI Advocate/Coordinator, (5) installation medical
           personnel, (6) Criminal Investigative Organization (AFOSI, USCIDC, or
           NCIS); and (7) civilian law enforcement agency.
See Appendix A, Table A.23 and Table A.24 for further details.

Reprisal for Reporting Sexual Assaults

We asked those cadets/midshipmen who answered, “yes” to the question about
experiencing sexual behavior “against your will and without your consent,” whether
anyone in a position of authority retaliated against them for reporting an incident.
Retaliation was defined as “unwarranted punishment, demotion, or withholding a
favorable duty position.”

Female Respondents. A total of 10 female respondents indicated they experienced 22
instances of retaliation from an authority figure for reporting 11 sexual assault incidents




                                             xv
(USAFA 5, USMA 4, USNA 2).18 Table 9 reflects the authority figures that female
respondents indicated retaliated against them for reporting a sexual assault incident. The
respondents were instructed to “check all that apply.” Therefore the number of
individuals indicated in Table 9 exceeds the number of incidents.

             Table 9. Female Respondents - Reprisal by Academy Officials
                                                            USAFA      USMA      USNA     Totals
        Cadet in my chain of command                            2          2        0          4
        Upperclassmen NOT in my chain of command                3          3        0          6
        Commissioned Officer in my chain of command             2          3        0          5
        Other Academy staff or faculty                          1          3        2          6
        Service officials outside your Academy                  0          1        0          1
         Totals                                                 8         12        2        22


Male Respondents. One USMA male cadet indicated experiencing reprisal for reporting
a sexual assault incident. The same respondent indicated having experienced ostracism,
harassment, or ridicule.

In addition to the 1 male cadet, 31 female respondents reported experiencing
repercussions from cadets/midshipmen NOT in their chain of command, and 13 instances
from cadets/midshipmen within their chain of command. A total of three respondents
reported repercussions from academy staff or faculty members. A total of eight
respondents reported “other significant repercussions.” Table 10 reflects the responses of
female cadets/midshipmen indicating they experienced other repercussions for reporting
an incident of sexual assault. Respondents were instructed to check all answers that
applied to each incident.

          Table 10. Female Respondents - Other Repercussions Experienced
                     Type of Repercussions                     USAFA      USMA      USNA     Total
      Ostracism, harassment, or ridicule from                      13        8         10      31
      other cadets/midshipmen NOT in chain of command
      Ostracism, harassment, or ridicule from                         5         3        5      13
      other cadets/midshipmen in chain of command
      Ostracism, harassment, or ridicule from                         0         2        1         3
      Academy staff or faculty members
      *Other significant repercussions 19                             2         5        1       8
      Did not experience other repercussions                         12        14        9      35
        Total                                                        32        32       26      90


Criminal Investigations

We asked the respondents. “[d]id a military criminal investigative organization (AFOSI,
USACIDC or NCIS) or a civilian law enforcement agency conduct a criminal
investigation?” The female respondents indicated 29 incidents (39.2 percent) were
investigated, 39 incidents (52.7 percent) were not investigated, and the respondents did

18
     One USAFA female respondent indicated experiencing retaliation for reporting two sexual assault
incidents.
19
     “Others” is explained in detail in the body of the report.



                                                  xvi
not know if 6 incidents (8.1 percent) were investigated. Except for one respondent who
did not know, male respondents indicated their incidents were not investigated.

We also asked the respondents why a criminal investigation was not conducted. Female
respondents indicated that criminal investigations were not conducted in 27 incidents
(36.5 percent) because they did not report the incidents to law enforcement officials.
Seven female respondents (9.5 percent) indicated they declined to cooperate with an
investigation. Four female respondents did not know why a criminal investigation was
not conducted. Male respondents indicated that criminal investigations were not
conducted because the incidents were not reported to law enforcement officials.

Reasons for Not Reporting Sexual Assault

Recognizing that individuals have many reasons for not reporting a sexual assault, we
asked the respondents that experienced sexual assault behavior to choose the reasons
most important to them when deciding not to report to authorities. Fear of ostracism,
harassment, or peer ridicule was among the top three choices at only one academy.
Table 11 reflects the top 3 reasons, by academy, for female cadets/midshipmen not
reporting sexual assaults.

                            Table 11. Female Respondents
                     Top Reasons for not Reporting Sexual Assaults
                Reason for Not Reporting                USAFA USMA USNA                 Total
                                                        No. % No. % No. % No. %
    Handled it myself                                    33 33.7 46 33.6 39 35.1 118 34.1
    Shame/embarrassment                                  30 30.6 47 34.3 36 32.4 113 32.7
    Thought I could deal with it myself                  35 35.7             36 32.4 71 20.5
    Feared ostracism, harassment, or peer ridicule                 44 32.1             44 12.7
     Total                                               98 100.0 137 100.0 111 100.0 346 100.0


Table 12 reflects the top 3 reasons, by academy, for male respondents not reporting.

                             Table 12. Male Respondents
                     Top Reasons for not Reporting Sexual Assaults
              Reason for Not Reporting                USAFA    USMA     USNA      Total
                                                     No. % No. % No. % No. %
    Not serious enough to report                       8 44.4 5 25.0 9 42.9 22 37.3
    Handled it myself                                  6 33.3 5 25.0 8 38.1 19 32.2
    Feared public disclosure of the assault                    10 50.0           10 17.0
    Feared people would not believe me                                   4 19.0 4      6.8
    Thought I could deal with it myself                4 22.2                     4    6.8
     Total                                            18 100.0 20 100.0 21 100.0 59 100.0


The answer choices “I handled it myself” and “I thought I could deal with it myself,” are
similar. A total of 13 female USAFA respondents, 19 female USNA respondents, and 3
male USAFA respondents selected both answer choices as reasons for not reporting
sexual assaults.




                                              xvii
Written Comments
The survey included five questions affording respondents an opportunity to provide
written comments. These questions were:
       •    “Would you be willing to report a personal experience of sexual assault to the
            following individuals/agencies?”
        • “To which authorities, if any, was this incident reported?”
        • “Please indicate if you experienced any of the following OTHER
            repercussions for reporting this incident”
        • “If you did not report this incident to MILITARY OR ACADEMY
            AUTHORITIES, please indicate the reasons that were the MOST
            IMPORTANT to you when you decided NOT to report?”
        • “How satisfied were you with how the following individuals/agencies handled
            this incident? If you were NOT satisfied with any of the above, please explain
            why”:
The final four questions repeated as loops if a respondent indicated more than one sexual
assault. We received 785 comments in response to these questions. Appendix A,
Table 25 details the number of comments by question, academy and gender. Where
applicable, the comments are included in the sections of the report that are specific to
each academy.

The survey (Part V) also afforded respondents an opportunity to provide “general”
comments regarding anything they desired in relation to the survey. We received
1,815 ”general” comments, 221 from USAFA females, 182 from USMA females,
300 from USNA females, 404 from USAFA males, 278 from USMA males, and
430 from USNA males. These comments were categorized, based on content, and the
following 12 categories were identified: Sexual Harassment Climate; Academy Leaders;
Agenda for Change; Sexual Assault Climate; Academy Culture/Climate; Honor Code;
Gender segregation in the dormitory/barracks; Gender issues; Training; Victim Witness
Assistance Programs; Improve Assessment Process of Potential Cadets; Alcohol; and
Other. Appendix A, Table A.26, details the number of comments by category, academy
and gender. Because some comments relate to more than one category, the resulting
aggregate numbers may exceed the total comments reported above.

Within each report section by academy and gender, where appropriate, we included
respondent written comments to provide context to survey question data. We also
included an analysis of the comments (specific to each academy) in each section
addressing a particular academy and gender. The respondent comments included in the
report are generally verbatim. However, we performed limited editing as necessary to
ensure respondent anonymity and remove potentially hurtful language.




                                          xviii
                                   TABLE OF CONTENTS
Executive Summary ............................................................................................................. i
The Survey ......................................................................................................................... ii
       Demographics ......................................................................................................... ii
       Values .................................................................................................................... iii
       Academy Climate................................................................................................... vi
       Written Comments ............................................................................................. xviii
I.     Background ............................................................................................................. 1
II.    Methodology ........................................................................................................... 2
       A. Objectives ....................................................................................................... 2
       B. The Survey Instrument ................................................................................... 2
       Development ........................................................................................................... 2
       Refinement.............................................................................................................. 3
       C. Respondent Population................................................................................... 3
       D. Survey Administration.................................................................................... 5
       E. The Data Set ................................................................................................... 6
       Format ..................................................................................................................... 6
       Data Loss ................................................................................................................ 6
       Cleaning .................................................................................................................. 7
       Written Comments .................................................................................................. 8
       Reliability of Data................................................................................................... 9
       Research Limitations ............................................................................................ 10
III.   USAFA Female Survey Results............................................................................ 13
       A. Values ........................................................................................................... 13
       B. Academy Climate ......................................................................................... 17
       C. Sexual Assault Incidents at the Academy .................................................... 33
       D. General Comments ....................................................................................... 47
IV.    USAFA Male Survey Results ............................................................................... 51
       A. Values ........................................................................................................... 51
       B. Academy Climate ......................................................................................... 55
       C. Sexual Assault Incidents at the Academy .................................................... 71
       D. General Comments ....................................................................................... 75
V.     USMA Female Survey Results ............................................................................. 79
       A. Values ........................................................................................................... 79
       B. Academy Climate ......................................................................................... 83
       C. Sexual Assault Incidents at the Academy .................................................. 100
       D. General Comments ..................................................................................... 111
VI.    USMA Male Survey Results............................................................................... 113
       A. Values ......................................................................................................... 113
       B. Academy Climate ....................................................................................... 117
       C. Sexual Assault Incidents at the Academy .................................................. 132
       D. General Comments ..................................................................................... 137
VII. USNA Female Survey Results............................................................................ 139
       A. Values ......................................................................................................... 139
       B. Academy Climate ....................................................................................... 143
        C. Sexual Assault Incidents at the Academy .................................................. 160
        D. General Comments ..................................................................................... 173
VIII.   USNA Male Survey Results ............................................................................... 177
        A. Values ......................................................................................................... 177
        B. Academy Climate ....................................................................................... 182
        C. Sexual Assault Incidents at the Academy .................................................. 197
        D. General Comments ..................................................................................... 202
           Appendix A. Side-by-Side Tables.............................................................. A-1
           Appendix B. Survey Proctor Statement.......................................................B-1
           Appendix C. Categories for Comment Analysis .........................................C-1
           Appendix D.1 – USAFA Female Survey Results ...................................... D-1
           Appendix D.2 – USAFA Male Survey Results .......................................... D-2
           Appendix D.3 – USMA Female Survey Results ........................................ D-3
           Appendix D.4 – USMA Male Survey Results............................................ D-4
           Appendix D.5 – USNA Female Survey Results......................................... D-5
           Appendix D.6 – USNA Male Survey Results............................................ D-6
           Appendix E. Report Distribution................................................................E-1
     I.      Background
During the period April 16, 2003 to December 3, 2004, based on requests from the Senate
Governmental Affairs Committee and the Senate Armed Services Committee, the
Department of Defense Inspector General conducted the “Evaluation of Sexual Assault,
Reprisal, and Related Leadership Challenges at the Unites States Air Force Academy.”
This evaluation included an assessment of root cause(s) of sexual assaults at the Air
Force Academy with suggested remedies. Additionally, the evaluation included a May
2003 survey of all available United States Air Force Academy (USAFA) female cadets to
determine the scope of recent sexual assault incidents and to assess the perceptions of
female cadets concerning the academy’s response to sexual assault (including factors
such as reasons for not reporting, likelihood of reprisal/ostracism for reporting assault,
personal safety on campus, cadet perceptions of the command’s handling of sexual
assault, and cadet perceptions of sexual assault support and training programs).20

In light of the legislation establishing the “Defense Task Force on Sexual Harassment and
Violence at the Military Service Academies,” and the requirement for an “Annual
Assessment” during Service Academy program years 2004 through 2008, in coordination
with the Secretary of Defense and the Superintendents of the Service Academies, the
Inspector General refined the initial survey conducted at the USAFA to provide more
refined information on sexual assaults.

The Department of Defense Inspector General survey team administered the survey
during the period March 29 through April 30, 2004, on-site to male and female cadets
and midshipmen at USAFA, the U.S. Military Academy (USMA), and the U.S. Naval
Academy (USNA). We administered the web-based survey, using stand-alone computer
networks controlled by the survey team to assure anonymity to the participants.

This report provides detailed information on the survey’s results at the three academies
by gender. We did not intend to compare the results and draw conclusions from academy
to academy. However, side-by-side tables are provided for an overview of how
respondents from each academy answered questions. (See Appendix A for details.) We
did not compare female and male results. The females were surveyed using a census
method while males were surveyed using a random sample. In most instances, unless
otherwise indicated, male results are expressed in terms of a percentage of the male
respondent populations’ answers to each question, not as a projection of an academy’s
entire male population. The report provides detailed results of how respondents by
gender answered questions and, where appropriate, provides responses by class year of
graduation, and comparisons of how victims of sexual assault answered questions and
how non-victims responded. The report provides details of female results followed by
male results at USAFA, USMA, and USNA, respectively. We have also attached as
appendixes, copies of the survey for each academy and copies of tables for each gender
reflecting the frequency of respondents’ answers. See appendixes D.1 through D.6 for
details.




20
     The results of that survey were published on September 11, 2003; See
     http://www.dodig.osd.mil/Inspections/IPO/evalreports.htm and link to “Report on the United States
     Air Force Academy Sexual Assault Survey (09/11/03)”.



                                                    1
     II.      Methodology

     A. Objectives
The survey was designed as an independent and objective survey to quantify the scope of
sexual assault and related leadership challenges at each of the Service Academies. The
resulting data will help construct systemic recommendations for Military Department
leaders to eliminate sexual misconduct and, thereby, advance good order and discipline,
leadership, and character development at the three Service Academies. The primary
objectives were to:

                  •    Determine the scope of sexual assaults to include rape.

                  •    Assess the effectiveness of academy leadership/command climate in
                       shaping cadet/midshipmen behavior,21 particularly in eradicating
                       sexual misconduct. Focusing on how well academy leaders:
                       •   educate on standards of conduct (i.e., sexual misconduct won’t be
                           tolerated);

                       •   implement effective processes for reporting sexual misconduct;

                       •   effectively handle misconduct/maintain discipline; and,

                       •   set personal examples.

The secondary objective of the survey was to gather information regarding the cadets’
and midshipmen understanding of core values and their commitment to moral and ethical
values.

     B. The Survey Instrument

Development
The majority of the survey questions (70 percent) support the primary objectives. The
remaining 30 percent support the secondary objective.22
We conducted beta testing of the survey instrument with USAFA and USMA male and
female cadets. (See the “Refinement” section for details.) USNA declined to participate
in the beta test.


21
     “Research on sexual misconduct in the workplace has empirically demonstrated that leadership/climate
     drive this issue. Research indicates that where people report their organizations have low levels of
     sexual misconduct, they also report that their leaders and organizations take the issue seriously, people
     at all levels demonstrate commitment to eradicate sexual misconduct, processes for making complaints
     are widely promulgated and understood, people who get caught doing something wrong are punished,
     etc.” (Quote from DMDC memorandum dated October 29, 2003).
22
     In DMDC’s review of our draft survey, they stated, “the survey contains an excessive number of items
     on moral/ethical development. The focus on sexual assault and moral/ethical development is at the
     expense of items on the overall experience of sexual harassment and leadership/climate. If DMDC
     were conducting this research, we would dramatically expand the coverage of leadership and climate.”



                                                      2
Refinement
We provided the draft survey to the Service Academies for discussion. The survey
needed to make distinctions in terminology that are service specific (such as cadet, versus
midshipman) so as not to alienate any participants. The Services provided valuable
feedback, which allowed us to enhance the survey and make it applicable to each
academy.23 Functional testing was conducted in-house using our own personnel not
involved in survey development. Those personnel provided input regarding readability,
understanding, structure, and the flow of the survey questionnaire.

Through coordination with USAFA and USMA, we identified eight female cadets and
eight male cadets to participate in a survey beta test. Those selected to participate,
represented two female and two male cadets from each class year at both academies.
Participation included post-survey “focus group” sessions to discuss and refine the survey
instrument. We conducted beta testing at USMA on March 4, 2004, and at USAFA on
March 12, 2004. A total of two sessions were held at each academy. The first session
was for females (seven of the eight pre-selected females participated in the beta test) and
the second session was for males (seven of the eight pre-selected males participated.) On
March 12, 2004, 2 sessions were held at USAFA. The first session was for females
(eight pre-selected females participated in the beta test) and the second session was for
males (eight pre-selected males participated in the beta test).

After briefing the participants on the beta test process, we administered the survey. We
read the proctor statement to the beta test group and provided them with unique codes to
access and complete the on-line survey. Following the beta test, the team reviewed the
survey instrument with the test group. We considered their comments and suggestions
and adjusted the survey instrument, software, and hardware to incorporate their feedback.
The beta test participants were excused from the final survey population at the request of
the academies.

     C. Respondent Population
We administered the survey at to a census of available female cadets and midshipmen,
and to a random sample of male cadets and midshipmen.24
    a. Female Cadet/Midshipman Respondent Accountability. The female
cadet/midshipman population at all 3 academies at the time of the survey was 1,971. Of
that total, 1,936 participated25 in the survey, resulting in 1,906 responses26. Several
individuals were excused from participating, which we accounted for by academy as
follows:


23
     USAFA, USMA and, USNA provided input which allowed OIG to develop individual questions to
     accommodate academy or service specific jargon, such as “hotline” and “helpline” or AOC, TAC, Co
     Officer, and SAVI vs. CASIE .
24
     The random sample of males was structured to enable a statistical projection of male respondents at the
     95 percent confidence level by class year.
25
     Some cadets/midshipmen were unable to participate for various acceptable reasons, including
     convalescent leave, separation from the academy, and being international exchange students. The
     remaining 1,936 participated, with 1, 906 responding to the survey.
26
     Cadets/midshipmen were required to sign-in and receive a pre-survey briefing. After the briefing, they
     were directed to the survey room. Some cadets/midshipmen decided to not take the survey.



                                                     3
         (1) US Air Force Academy: There were a total of 685 female cadets scheduled
to participate in the survey. Of those scheduled, 12 were excused for the following
reasons: A total of 8 cadets participated in the survey beta-test, 1 was on convalescent
leave, 1 had disenrolled, 1 had voluntarily departed the academy, and 1 was an exchange
student in Germany. A total of 673 participated and there were 653 responses.27
         (2) US Military Academy: There were a total of 616 female cadets scheduled to
participate in the survey. Of those scheduled, 14 were excused for the following reasons:
7 cadets participated in the survey beta-test, 4 resigned, 1 was on medical leave, 1 was an
international student, and 1 was on medical turnback. A total of 602 participated and
there were 601 responses.

         (3) US Naval Academy: There were a total of 670 female midshipmen
scheduled to participate in the survey. Of those scheduled, 9 were excused for the
following reasons: 5 were international students, 2 had separated, and 2 declined to
participate. A total of 661 participated and there were 652 responses.
       b. Male Cadet/Midshipman Respondent Accountability. From a total of
10,408 male cadets and midshipman at the Service Academies, we selected a stratified
random sample of 3,202 to participate in the survey. Of that total, 3,191 male cadets and
midshipmen participated in the survey,28 resulting in 3,107 usable records.29 Several
individuals were excused from participating, which we accounted for by academy as
follows:

        (1) US Air Force Academy: There were a total of 1,052 male cadets selected to
participate in the survey. Of those selected, four were excused for the following reasons:
one was on convalescent leave, one was traveling on temporary duty, one medical
turnback, and one had out processed (left) the academy. We allowed two male cadets
that were not part of the random sample group to participate in the survey30. A total of
1,048 participated and there were 992 responses included in our study

        (2) US Military Academy: There were a total of 1,069 male cadets selected to
participate in the survey. Of those selected, all participated in the survey. We allowed
two male cadets that were not part of the random sample group to participate in the
survey. There were 1,069 responses included in our study.

        (3) US Naval Academy: There were a total of 1,081 male midshipmen selected to
participate in the survey. Of those selected, seven were excused for the following
reasons: two were on convalescent leave, three were not US citizens, and one
midshipman had resigned. We allowed one male midshipman that was not part of the
27
     A respondent “participated” by signing in, drawing an access code randomly from a bucket, and
     listening to the survey introduction briefing. Not all respondents who “participated” completed the
     survey.
28
     The samples drawn included cadets/midshipmen unable to participate for various acceptable reasons,
     including convalescent leave, separation from the academy, and participation in the beta test of the
     survey. The remaining 3,191 participated, with 3,107 responses to the survey.
29
     Cadets/midshipmen were required to sign-in and receive a pre-survey briefing. After the briefing, they
     were directed to the survey room. Some cadets/midshipmen decided to not take the survey and they
     were not persuaded further to participate.
30
     There were males from USAFA, USMA, and USNA who asked to take the survey who were not part
     of the sample. These males were allowed to draw an access code (which identified them as “walk-
     ins”) and take the survey. Their survey responses were analyzed by the team, but not included in the
     report.



                                                     4
random sample group to participate in the survey. A total of 1,074 participated; and there
were 1,046 responses included in our study.

Tables 13 and 14 contain a breakdown of the female and male cadets/midshipmen by
class year of graduation that participated in the survey.

            Table 13. Female Cadet/Midshipman Respondents by Class Year
                                   of Graduation
                 Class Year             USAFA               USMA                 USNA
             2004                        137                 150                  150
             2005                        156                 143                  148
             2006                        169                 146                  164
             2007                        190                 160                  190
             Missing data31               1                   2                    0
             Total                       653                 601                  652

             Table 14. Male Cadet/Midshipman Respondents by Class Year
                                   of Graduation
                 Class Year             USAFA               USMA                 USNA
             2004                        246                 262                  256
             2005                        231                 263                  259
             2006                        244                 263                  265
             2007                        268                 279                  266
             Missing data32               3                   2                    0
             Total                       992                 1069                 1046

     D. Survey Administration
During the period March 29 through April 30, 2004, the survey team administered the
sexual assault survey at USMA, USNA and USAFA to all available female cadets and
midshipmen and a stratified random sample of male cadets/midshipmen. The academies
were scheduled to take the survey as follows:

             •        USAFA: April 19 - 30, 2004
             •        USMA: March 29 – April 9, 2004

             •        USNA: April 5-8 and 12 – 16, 2004

The following describes the relationships among the cadet/midshipman populations,
those chosen to participate, those who did participate and the survey responses they
provided.

Cadets/Midshipmen were required to report to the survey location during scheduled time
slots to receive a briefing and take the survey. As cadets/midshipmen arrived, they
reported to a survey team member outside the briefing room. A survey team

31
     “Missing Data” reflects the data from respondents who did not identify their class year when asked in
     the survey.
32
     “Missing Data” reflects the data from respondents who did not identify their class year when asked in
     the survey.



                                                     5
representative checked the student’s name off a student roster, and allowed each
cadet/midshipmen to randomly draw an access code from a container.

Using the established proctor statement (see Appendix B for details),33 a team member
briefed the cadets on: the purpose of the survey, its importance as a research tool; the
importance of their honest participation; and the anonymity of their responses, with
emphasis on the latter.34 The team member also provided instructions regarding the
on-line survey and explained that a team member would be available if anyone wanted a
private interview. Participants were directed to computer labs, and allowed to sit
wherever they desired. As each cadet completed the survey and departed the computer
lab, they were met by a survey team member who made a quick visual assessment
regarding the participant’s demeanor to determine whether they appeared upset, and
should be offered assistance. Each participant was provided with written contact
information for the OIG DoD survey team, and for the Defense Hotline in the event they
wanted to provide additional information regarding sexual assault or related matters, and
the location and means to contact available counseling services for the survey taker.
To further assure information security and anonymity, the Department of Defense
Inspector General contracted for stand-alone computer networks for survey
administration. All data was collected on an Inspector General computer server, located
in the survey room. Survey data was backed-up regularly on compact disks and thumb
drives to enhance data integrity.

     E. The Data Set

Format
The survey team collected cadet responses using an on-line survey instrument that saved
each response to a data file on our computer server. The data was provided to the
analysts in ASCII (American Standard Code for Information Interchange) text, in a
format where data fields were separated by commas. OIG DoD Quantitative
Management Division statisticians used Statistical Analysis System (SAS)® software to
compute the results based on various parameters. OIG DoD computer technicians
developed an Oracle® database for analysis of textual comment responses.

Data Loss
We experienced data loss in the first 55 USMA records collected.35 Within that group, 7
female respondents answered, “yes” to question 19;36 however, the incident data for

33
     We modified the Proctor Statement used to brief USAFA female participants to account for the
     participation of the upperclassmen in the May 2003 survey.
34
     To assure anonymity, participants were required to hand-select a unique eight-digit access code from a
     set of access codes that we randomly generated. The access code allowed them to logon and access the
     survey instrument. There were unique male and female codes.
35
     When we electronically collected the responses to the first 55 surveys at USMA, there was a software
     malfunction which caused either the data related to details of sexual assault incidents (question 20
     A-N. through 23A.-N) to not be recorded, or caused those questions to be skipped. Seven of the 55
     participants indicated by their responses that they had been sexually assaulted; however, their detail
     answers were not captured. It is possible that there may have been no responses for 20 A-N through 23
     A-N for those seven records. Similar responses occurred (see Data Cleaning). The data available are
     insufficient to make any inferences or imputations.



                                                     6
questions 20 a-n through 23 a-n, was blank. The incident data breaks down by class year
of graduation as follows: 2004 – 4 records, 2005 – 1 record, 2006 – 1 record, and
2007 - 1 record. This data loss does not effect survey questions 4 through 19, but it may
slightly effect the reporting of sexual assault incident data. We treated these 7 records the
same as other records where a respondent did not provide responses for a question about
a sexual assault incident, by accounting for the missing response as “missing data” in
corresponding frequency tables.

Cleaning
We determined a record was valid if it had a valid access code, and the respondent
selected “yes” regarding US citizenship. The goal was to have 1 record per respondent
with the best response data available. The first step in the data cleaning process was to
eliminate any duplicate records, records from non-U.S. citizens,37 or records without a
valid access code. This eliminated all non-unique responses, and responses from
participants that indicated they were not U.S. citizens. In some instances, we imputed
missing data on academy and gender, based on the access codes used by the
respondents.38 Some records provided details on sexual assault incidents, but the answer
for the general question on whether they ever experienced the listed behaviors (question
19) was blank, or “no.” In those instances, the record was imputed to reflect a “yes”
response to question 19.

USAFA had 1 record with a valid access code and total non-response for the survey. The
gender and academy was imputed for the record and the record was maintained. USAFA
also had 5 access codes with duplicate records (each access code had 2 identical records
associated with it for a total of 10 records). For each of the 5 access codes, only 1 record
was retained for analysis. There were 2 records from male cadets who were not
scheduled to take the survey and chose to “walk-in.” They were allowed to participate
using a “walk-in” access code. Their information was maintained, but not analyzed in
this report’s data set.

USMA had one record where the submitter was not a U.S. citizen with a total non-
response; it was dropped from the data set. One access code had four identical records
(three of which were dropped). Another access code had three identical records (two of
which were dropped), and five access codes had duplicate records (the identical record
was dropped). There were two records from individuals who were not scheduled to take
the survey and chose to “walk-in.” They were allowed to take the survey with a “walk-
in” access code. Their information was maintained, but not analyzed in this report’s data
set.

USNA had five access codes which were total non-response; not U.S. citizen and were
dropped from the data set. Nine access codes contained duplicate responses (the identical

36
     Question 19 asked “SINCE BECOMING A CADET/MIDSHIPMAN, has someone done any of the
     following to you WITHOUT YOUR CONCENT AND AGAINST YOUR WILL: (1) touched,
     stroked, or fondled your private parts, (2) physically attempted to have sexual intercourse with you, but
     was not successful, (3) physically attempted to have oral or anal sex with you, but was not successful,
     (4) Had sexual intercourse with you, (5) had oral sex with you, and (6) had anal sex with you?”
37
     This criteria was established to eliminate the possibility of foreign exchange students taking the
     survey. We did not know that non-U.S. citizens (e.g. permanent resident alien, etc.) were admitted to
     the academies as cadets and midshipmen. Future surveys should consider this.
38
     We were able to do this because we knew which groups of unique access codes were used for the
     various groups of participants by Academy and gender.



                                                      7
response was dropped from each), one access code had three identical records, all of
which indicated they were submitted by non-U.S. citizens, and all three records were
dropped. Four access codes did not identify the respondent’s academy. The records were
imputed to reflect USNA because the records were from the same file as all USNA
records, and the time and date reflected coincided with USNA survey administration
dates. Two records had invalid access codes (“MMM” and “XXXXX”) and contained no
response data. Another record had invalid access code “P” which had survey responses.
All three of these records were deleted. Four access codes had total non-response and not
U.S. citizen and these records were dropped from the data set.

The data set was also adjusted to reflect access codes, which answered “No” to question
19, yet provided data for question 20. The SAS system identified 58 records from the 3
academies that answered “No” to question 19, yet had data for the question 20 series
questions. Since these records provided information regarding a sexual assault incident,
the record was recoded “Yes” to question 19, to reflect that information. A breakdown
by academy for this recoding is as follows:

              •   USAFA: A total of 18 records were identified and scrutinized, with 7
                  of those records recoded to reflect the answer “Yes” to question 19.
                  Only those 7 records provided data for the follow-on questions 20A-
                  20N. All of the records in question were female access codes.

              •   USMA: A total of 14 records were identified and scrutinized, with 7 of
                  those records recoded to reflect the answer “Yes” to question 19. Of
                  the 7 records, 4 were male access codes, and 3 were female access
                  codes.

              •   USNA: A total of 26 records were identified and scrutinized, with 10
                  of those records recoded to reflect the answer “Yes” to question 19.
                  Of the 10 records, 5 had male access codes, and 5 had female access
                  codes.

Written Comments
The survey provided a total of five questions with an opportunity for respondents to
provide written answers “other” than the choices provided. These questions included:

              •   16.p. “Would you be willing to report a personal experience of sexual
                  assault to the following individuals/agencies?”

              •   20.f. “To which authorities, if any, was this incident reported?”

              •   20.i. “Please indicate if you experienced any of the following OTHER
                  repercussions for reporting this incident.”

              •   20.m. “If you did not report this incident to MILITARY OR
                  ACADEMY AUTHORITIES, please indicate the reasons that were the
                  MOST IMPORTANT to you when you decided NOT to report?”




                                            8
                  •   20.n. “How satisfied were you with how the following
                      individuals/agencies handled this incident? If you were NOT satisfied
                      with any of the above, please explain why”:

Questions 20 f., i., m., and n., are sexual assault incident loop questions that repeat as 21,
22, and 23 f., i., m., and n., respectively, if respondents provided answers indicating more
than one sexual assault incident. We received a total of 785 textual comments in
response to these questions.

Of those questions, 2 (question 16.p and Part V comments) were available to all
respondents, while the other fields were presented only to those who provided a “yes”
response to question 19. Question 16.p. “other” (“Would you be willing to report a
personal experience of sexual assault to the following individuals/agencies?”) netted 649
responses from all Service academies combined, with the number of responses from each
academy/gender ranging from 80 to 122 responses each. The other opportunities to
provide verbiage for an “other” response were minimally used (a total of 189 responses
from all academies/genders). Part V of the survey allowed the respondents to provide
other comments or insights regarding the issues raised. There were a total of 221
comments from USAFA females, 182 from USMA females, 300 from USNA females,
404 from USAFA males, 278 from USMA males, and 430 from USNA males.

We analyzed the textual comments using an Oracle® database organized by specific
topics and categories. The categories included: Sexual Assault Climate, Academy
Culture/Climate, Gender Segregation in the Dormitory/Barracks, Gender Issues,
Training, Victim Assistance Programs, Improve Assessment Process of Potential Cadets,
Alcohol and Other. All of these categories had subcategories and in some cases, sub-
subcategories. The next step of analysis was to categorize the comments in each topic or
category table. (See Appendix C for details.)

After categories were developed, the team analyzed the comments and selected all
categories that applied. We then developed queries to further sort the comments based
upon the different categories within each table.

Written comments are used throughout the report to provide context to the data results.

Reliability of Data
All surveys collected were included in our analysis, providing the access code was valid,
and the respondent indicated that he or she was a U.S. citizen. With the exception of the
recoding of responses to question 19 a. [regarding sexual assault behavior], the responses
were taken as received. The overall response rate among 5,127 participants was 97.8
percent.39 Total non-response answers were minimal; among the responses received,
only 14 among the 5,013 were essentially blank (all or most of the response data were
missing). Otherwise, for the remainder of the responses received, the respondents


39
     At USAFA there were 1,645 responses from 1,721 participants (95.6%). At USMA there were 1,670
     responses from 1,671 participants (99.9%). At USNA there were 1,698 responses from 1,735
     participants (97.9%). The number of non-responding cadets at USAFA is approaching a rule of thumb
     5 percent threshold of concern that, if the non-respondents are substantially different, the sample
     results may not be representative. In this instance, there are 13 of 150 USAFA females from the class
     of 2004 who did not respond. If they are disproportionately victims, their exclusion would somewhat
     understate the number of victims and incidents.



                                                    9
answered a substantial part of the questions. This suggests that the participating cadets
and midshipmen sincerely took the time to read and respond to the survey questions.

The reliability of this data is corroborated to some degree by the survey team’s on-site
observations of the demeanor of the cadets when completing the survey. Cadets and
midshipmen did not exhibit outward behavior that led team members to suspect that
participants were taking the survey in a manner that was either flippant or deliberately
untruthful. More importantly, our objective assessment of the respondents’ written
comments overwhelmingly suggests serious consideration of the issues addressed in the
survey, and supports the notion that participants were sincere and truthful.

In general, we did not identify any evidence that would indicate the survey data should be
considered as anything but reliable. While it is impossible to prove the truthfulness of
survey results, the evidence suggests the data is reliable.

Research Limitations
Analysis Methods
The analysis uses one common approach for female responses and two methods for male
responses. The female cadets and midshipmen were treated as a census. Those numbers
are self-representing and involve no projections or associated confidence level and
margin of error. We used the same approach in dealing with sexual assault incident data
reported by male cadets; the numbers are tabulated and no attempt is made to project
their results to all males at their respective academies. In most cases we have displayed
the male results to questions 4 to 19, as a percentage of the male respondents only, and
have made no attempt to generalize to the male population. In some instances, when
analyzing the attitudes and perceptions of male cadets regardless of having encountered
sexual assault or not, we have made some statistical projections. These do generalize to
male cadets at the respective academies.40 We drew the samples of male cadets within a
stratified random sample design with the aim of having samples representative of those
within a given graduating class. We can also analyze the data using the stratified design
to make projections to all males at a given academy.

It is also important to note that the responses of female and male cadets/midshipmen were
taken at face value. We did not perform independent verifications of their responses, and
thus there is an underlying assumption that the responding cadets/midshipmen understood
the survey questions and answered them honestly. During survey administration
sessions, there were proctors available both to respond to questions and to oversee those
taking the survey. As previously mentioned, the data provides no reason to believe this
assumption is false, but it is impossible to establish its truth with perfect certainty.

The survey allowed cadets/midshipmen to record data on up to four incidents of sexual
assault. So, there may be some selectivity among those respondents to record only the
most severe incidents, not all. The results will provide at least a minimal indication of
the scope of recent sexual assaults at the Academies.

In addition, to protect the anonymity of the respondents and to encourage honest
responses to very sensitive questions, the survey instrument included very few
demographic items. As a result, any similarities and variance among squadrons,
40
     The individual estimates have been calculated at the 95 percent confidence level in determining the
     associated margin of error. These are single estimate margins of error, which will substantially
     increase if we need to obtain a collective 95 percent confidence level across all projections.



                                                    10
companies, or other sub-groups of cadets/midshipmen (with the exception of class year)
cannot be identified.




                                          11
12
     III. USAFA Female Survey Results
This section details the responses of USAFA female cadets concerning values, academy
climate, and personal experiences. We included certain written comments that we
believe are noteworthy to illustrate the respondents’ feelings and beliefs concerning the
topics in the survey. When respondents were asked to indicate their level of agreement in
numerous survey questions, their choices were: “strongly agree; agree; no opinion;
disagree; and strongly disagree.” The information provided reflects 653 survey
responses.

     A. Values
Air Force core values are: “Integrity first, Service before self and excellence in all we
do.”

We asked the survey participants to select from a list of 18 values,41 the top values most
important to their professional life at their academy. Although we asked for the three in
order of importance, when we analyzed the data we believed it would be more
meaningful to express the results in terms of the three values most frequently selected.
Respondents selected integrity, excellence, respect, and honor more than any of the other
values as the three values most important to them. Table 15 reflects a breakdown by
class year of values most frequently selected.

                         Table 15. Frequency of Values by Class Year
                                     1st Most         2nd Most          3rd Most
                         Class
                                     Selected         Selected       Selected Value
                         Year
                                      Value            Value
                         2007        Integrity       Excellence         Respect
                                   125 (19.1%)       76 (11.6%)        53 (8.1%)
                         2006        Integrity         Respect        Excellence
                                   99 (15.1%)         54 (8.2%)        53 (8.1%)
                         2005        Integrity       Excellence      Respect/Honor
                                   108 (16.5%)        49 (7.5%)        45 (6.8%)
                         2004        Integrity         Respect        Excellence
                                   99 (15.1%)         47 (7.1%)        44 (6.7%)


These figures were computed by adding the frequency that respondents selected each
value, while they ranked the values in order of importance to them. In essence, this
represents the total number of times a value was selected by respondents while they
ranked them in order of importance as first, second and third most important to them. We
noted that “respect” is not one of the Air Force’s core values.

We also asked the participants based on their experience, to indicate their level of
agreement42 with various statements regarding the honor code, academy rules and
41
     The values included: Accountability, Achievement, Ambition, Courage, Commitment, Effectiveness,
     Efficiency, Excellence, Friendship, Honor, Integrity, Loyalty to Country, Money, Power, Respect,
     Selfless Service, Spiritual Faith, and Tolerance.
42
     For reporting purposes the results reflected the combined results of those indicating “strongly
     agree/agree” and “disagree/strongly disagree.”



                                                     13
regulations, honesty, moral standards, exemplary conduct and leadership standards, and
ethical/spiritual/religious beliefs. Table 16 reflects the percentage of responses by
USAFA female cadets:

              Table 16. USAFA Female Responses to Values Statements
                                                                         Strongly   Disagree/
                                                                          Agree/    Strongly
                                                                          Agree     Disagree
      Cadets at my academy adhere to the honor code/concept,
                                                                          62.5%      28.8%
      even if they know they won’t get caught violating it
      Cadets adhere to significant academy rules and regulations,
                                                                          48.9%      40.0%
      even if they know they won’t get caught violating them
      Cadets hold other cadets accountable to the honor
                                                                          64.6%      19.9%
      code/concept
      Honesty in all things is expected and reinforced at my
                                                                          84.1%       5.2%
      academy.
      I am morally obligated to abide by the oath I took to
      support and defend the Constitution of the United States,           94.8%       1.2%
      regardless of the consequences to me
      I have felt pressure from others at my academy to
      compromise moral standards because of loyalty to                    36.9%      49.3%
      friends/peers
      I have felt pressure from others at my academy to
      compromise moral standards in order to meet academic or             23.7%      64.5%
      training objectives
      Circumstances determine whether it is right or wrong for a
                                                                          23.6%      59.3%
      cadet to compromise his or her moral standards
      I am committed to living by moral standards that exceed
                                                                          94.3%       0.6%
      those of society at large
      As a cadet, it is important for me to meet the same
      exemplary conduct and leadership standards required of a            94.0%       1.8%
      commissioned officer
      My commitment to living by exemplary conduct and
      leadership standards has been reinforced by attending the           80.9%       8.4%
      Academy
      I believe commitment to some form of
      ethical/spiritual/religious beliefs is important to an officer’s    85.1%       6.1%
      character
      I am strongly committed to some form of
      ethical/spiritual/religious beliefs about what is right and         87.6%       4.4%
      wrong
      My experiences at the Academy have enhanced my
                                                                          68.3%      17.5%
      commitment to ethical/spiritual/religious beliefs


Adherence to the Honor Code/Concept
As indicated in Table 16, overall 62.5 percent of the USAFA female respondents strongly
agreed or agreed that cadets adhere to the honor code/concept, even if they know they
won’t get caught violating it. Table 17 reflects a breakdown by respondent’s class year
of graduation, and illustrates the percentage of those who strongly agree/agree cadets
adhere to the honor code/concept, even if they know they won’t get caught violating it.




                                                  14
                       Table 17. Adhere to Honor Code/Concept
                               Class Year              Strongly Agree/Agree
                        2004                                  68.6%
                        2005                                  68.5%
                        2006                                  57.4%
                        2007                                  57.8%


USAFA female respondents made the following noteworthy comments that are germane
to the honor code/concept:

               •   Comment one:
                   “… I also think that the honor code has somewhat deteriorated. I have
                   seen more lying, stealing, and cheating, as well as toleration of it in the
                   last 2 years than [I] did in the first 2 years that [I] was here.”

               •   Comment two:
                   “I think that the general atmosphere here at the AF Academy in
                   reference to the honor code is one that deals with loyalty to friends
                   before the code. There are some serious issues in where the loyalty
                   lies. The number of people that strictly abide by the honor code is
                   drastically smaller than the amount who do not. The climate here
                   seems to be more of one that teaches cadets how to get around the
                   system and avoid getting caught than doing the right thing at all times
                   even when no one is looking.”

               •   Comment three:
                   “I think that the Academy needs to take a tougher stance on Honor
                   violations . . . the presumptive sanction is disenrollment, but this rarely
                   happens to underclassmen.          As a result, the Honor Code is
                   undermined.”

               •   Comment four:
                   “The honor system and code are unique to the service academies and
                   hold a lot of meaning to myself and fellow cadets. However, it seems
                   more and more that our honor is no longer trusted. We are expected to
                   be trustworthy, and told we are held to a higher standard than most of
                   society, however we are never given the chance to demonstrate that. . .”

We asked respondents to indicate their level of agreement with the statement, “Cadets
adhere to significant academy rules and regulations, even if they know they won’t get
caught violating them.” Overall, 48.9 percent of female respondents strongly agreed, or
agreed with the statement. Table 18 reflects respondents’ year of graduation, and
illustrates the percentage of those that strongly agree/agree cadets adhere to significant
academy rules/regulations, even if they know they won’t get caught violating them.




                                                  15
                       Table 18. Adhere to Significant Academy
                                  Rules/Regulations
                              Class Year           Strongly Agree/Agree
                       2004                               48.1%
                       2005                               53.2%
                       2006                               44.3%
                       2007                               50.0%

Maintaining Good Order and Discipline
We also asked Cadets the extent of their agreement or disagreement with how various
behaviors, including honor code violations, gender favoritism, fraternization, dating,
consensual sex, alcohol use, illegal drug use, and pornography disrupts good order and
discipline at their academy. Overall, 86.5 percent of USAFA female respondents agreed
“violating the honor code/concept” disrupts good order and discipline. More than 92
percent of USAFA female respondents agreed “favoritism based on gender” disrupts
good order and discipline. Table 19 reflects the results expressed by female cadets.

              Table 19. Adverse Affects on Good Order and Discipline
                                                                   Agree     Disagree
                                                                  Strongly   Strongly
                                                                   Agree     Disagree
           Violating the honor code/concept                        86.5%      7.0%
           Not reporting honor code/concept violations             62.8%      18.7%
           Favoritism based on gender                              92.8%      4.0%
           Engaging in prohibited relationships/fraternization     67.1%      17.3%
           Cadets dating each other at the same academy             5.8%      89.1%
           Consensual sex between cadets ON academy grounds        32.3%      48.1%
           Consensual sex between cadets OFF academy
                                                                   9.2%       80.7%
           grounds
           Excessive use of alcohol/drunkenness                    76.6%      12.6%
           Illegal drug use, or the abuse of prescription drugs    93.3%      3.5%
           Viewing pornography or other sexually graphic
                                                                   63.1%      18.1%
           content (images or movies)

Consensual Sex
As indicated in Table 19, overall, 32.3 percent of USAFA female respondents strongly
agreed or agreed that consensual sex between cadets, on Academy grounds is disruptive
to good order and discipline, while only 9.2 percent indicated the same opinion about
consensual sex between cadets off the installation. Tables 20 and 21 reflect by class year,
the percentages of respondents who strongly agree or agree consensual sex between
cadets, both on or off academy grounds, disrupts good order and discipline.

                  Table 20. Consensual Sex Between Cadets ON
               Academy Grounds Disrupts Good Order and Discipline
                              Class Year           Strongly Agree/Agree
                       2004                               35.0%
                       2005                               30.1%
                       2006                               23.6%
                       2007                               40.0%




                                              16
                  Table 21. Consensual Sex Between Cadets OFF
               Academy Grounds Disrupts Good Order and Discipline
                             Class Year            Strongly Agree/Agree
                      2004                                10.9%
                      2005                                 5.7%
                      2006                                 8.2%
                      2007                                11.5%


One respondent commented:
                  “I do not believe that consensual sex between cadets/midshipman at
                  any academy should be illegal, on or off base. This may be our place
                  of business, but it is our home as well”

While 48.1 percent of respondents indicated disagreement or strong disagreement that
consensual sex between cadets on academy grounds disrupts to good order and discipline,
80.7 percent of respondents indicated disagreement or strong disagreement that
consensual sex off the installation disrupts good order and discipline.

   B. Academy Climate
Gender Preferential Treatment
Around 60 percent of USAFA females indicated agreement that men and women are
treated fairly overall. A total of 26 percent of USAFA female cadets strongly agreed or
agreed that “[M]en receive more favorable treatment OVERALL.” Table 22 reflects the
overall responses of USAFA female respondents.

         Table 22. USAFA Female Gender Preferential Treatment Results
                                                                  Agree     Disagree
                                                                 Strongly   Strongly
                                                                  Agree     Disagree
           Men receive more favorable treatment OVERALL           26.0%      53.6%
           Women receive more favorable treatment
                                                                   8.1%       69.8%
           OVERALL
           Men and women are treated fairly OVERALL               60.3%       24.5%


Table 23 reflects a breakdown by class year of graduation and illustrates the percentage
of respondents’ answers indicating strong agreement or agreement that men are treated
more favorably, women are treated more favorably, or men and women are treated fairly
overall.




                                              17
         Table 23. USAFA Female Gender Preferential Treatment Results
                               by Class Year
                                                                            Both Treated
             Class Year        Men Favored         Women Favored
                                                                               Fairly
           2004                    21.1%                 9.4%                  60.5%
           2005                    25.0%                 7.0%                  66.0%
           2006                    27.2%                 10.6%                 50.3%
           2007                    29.4%                 5.7%                  64.7%


USAFA female respondents made the following written comments regarding gender
preferential treatment:

              •   Comment one:
                  “AOC’s are much better than past years. By adding counseling to the
                  discipline system it makes them more approachable. I trust my
                  classmates and squadron mates. Think there is some inequality among
                  men and women for jobs.”

              •   Comment two:
                  “I know of certain instances where females received jobs on Group or
                  Wing Staff based on sexual favors they have did for other males who
                  were choosing them and that drastically affects the morale of the Cadet
                  Wing when these instances occur. This is not often but still happens
                  probably every semester.”

              •   Comment three:
                  “I think the Academy leadership is taking the right steps toward
                  eliminating instances of sexual assault and sexual harassment.
                  However, I think at times there are instances where females are treated
                  better or given jobs based on gender. It’s as if they need to meet a
                  quota on the group and wing staffs for certain jobs, and that’s why
                  some girls get the jobs. I’m not saying that they’re unqualified, but one
                  of the factors could be the fact that it would look bad if one of the staffs
                  was completely comprised of men. However, it could work the same
                  way if only women comprised a certain staff. I think the perceived
                  notion that women are given preferential treatment makes the men here
                  at the academy a little upset. With that said, I think that the culture
                  here at the academy has changed for the better. I think people are more
                  conscious of themselves and others as far as what they say and do.”

Separation of Genders in Dormitories
When asked whether the respondents agreed or disagreed that cadet dormitory areas
should be physically separated (different floors or buildings) by gender, the
overwhelming majority (94.5 percent) indicated cadet dorms should not be physically
separated. USAFA female cadets made the following comments:

              •   Comment one:
                  “It is appalling that the academy has responded by completely
                  separating the genders in the dorms and moderately in social life. The


                                                 18
    result is not respect or privacy for women but ostricization. Now we
    are no longer equal and genderless with our peers, but stuck out and
    separated. Now there is a gender battle of girls vs. boys and visa verse.
    it was a HUGE step backwards for us and has negatively affected the
    climate, as well as our futures together in the force.”

•   Comment two:
    “I think that it would be a step in the wrong direction to separate males
    and females at the Academy. In the operational Air Force we will have
    to have relationships with both males and females and this act would
    stunt our interpersonal relationship growth. At the Academy, there are
    already problems with developing social skills, this would just add to
    an already staggering problem…”

•   Comment three:
    “The creation of all girl hallways in the dormitories has greatly hurt my
    studies. All of the doors are open most of the day with male cadets in
    other rooms as well as my own when working on projects or just
    visiting. The concentrated location of female cadets has created an
    extremely noisy area where it is hard to study or even sleep.”

•   Comment four:
    “The briefings at the academy and the separation of males and females
    in the dorms almost makes us feel ostracized and bad because although
    we may have not reported it or had any sexual assault/harassment
    experiences here, we all feel like we are being punished and having our
    classmates punished because we have to attend pointless briefings and
    meeting with “only” females. And the new policies that are not
    implemented in the operational AF are here as if we cannot make good
    judgment on our own. Such as sitting on a trunk would not be allowed
    because it is the same horizontal surface. And I also think some of the
    new rules are making some of the cadets sexually frustrated which
    could have the opposite effect of what the policies are trying to
    implement.”

•   Comment five:
    “By segregating women within the dorms, and emphasizing the fact
    that our male classmates need to “take care of us”, the administration is
    undermining our status as equals. Our male classmates now look at us
    as if we’re the problem or they avoid us as much as possible because
    it’s safer and easier. They are beginning to view us as a potential cause
    for trouble instead of a valued team member.”

•   Comment six:
    “The academy is honestly a very safe place. I think they have a danger
    of putting too much stress on the sexes by segregating the women and
    making the door be open whenever a member of the opposite gender is
    in the room.”




                                  19
              •    Comment Seven
                   “I believe that separating females and males in the dorms is a very bad
                   idea. It isolates the females and creates more hostility than learning to
                   work together in an environment. IT also seems like it avoids the
                   problem instead of confronting it.”

Understanding of Sexual Harassment, Assault and Related Services
We also asked Cadets if they understood various aspects of sexual harassment and sexual
assault, to include avoiding risky situations, how to report and obtain care, counseling,
legal services, and the responsibilities of law enforcement and the chain of command in
handling sexual assaults. Almost every USAFA female cadet indicated understanding the
difference between sexual harassment and sexual assault, and how to avoid situations that
increase the risk of sexual assault. Table 24 reflects the USAFA female responses for
their understanding of sexual harassment, assault and related services.

          Table 24. USAFA Female Responses to Understanding of sexual
                    Harassment, Assault and Related Services
                                                                              Yes      No
           The difference between sexual harassment and sexual
                                                                             97.9%    0.2%
           assault
           How to avoid situations that might increase the risk of
                                                                             98.5%    0.2%
           sexual assault
           How to report sexual assaults                                     92.8%    2.0%
           How to obtain medical care following a sexual assault             92.2%    1.1%
           How to obtain counseling following a sexual assault               94.9%    1.4%
           The services that your Academy’s legal office can provide
                                                                             79.6%    7.8%
           to a victim in response to sexual assault
           General responsibilities of law enforcement and criminal
                                                                             86.5%    4.4%
           investigative agencies in response to sexual assaults
           The role of the chain of command in handling sexual
                                                                             79.9%    7.4%
           assaults
           Where to go if I need additional information on the areas
                                                                             89.1%    3.2%
           above.


One female cadet commented:
                   “I think the academy has done a good job changing this place and the
                   awareness of cadets from how it was last year at this time. I never
                   witnessed sexual assault or knew anyone that had been involved with it
                   so I never recognized a need for changing things but I can say the
                   atmosphere has changed for the better since all these changes have
                   occurred. For the most part I always feel respected by my male peers
                   and I believe they would protect me and support me at all costs, so I
                   have no fear being around any of the male cadets in any situation. I
                   have always felt safe here and I always feel safe when I’m away from
                   here because I don’t put myself in bad situations. And if I am put in a
                   bad situation that is out of my control I always have friends around,
                   males and females, who are there to protect me and keep me safe.
                   Personal responsibility and mutual responsibility are the big issues that
                   will prevent sexual assault, and I honestly think most cadets here
                   understand that and adhere to it.”



                                                 20
Effectiveness of Academy Non Senior Leaders
We asked cadets a series of questions regarding cadet leaders and commissioned officers
(Air Officers Commanding) at their academy, and to indicate the extent these leaders
exhibit the leadership behavior presented in the questions. Table 25 reflects USAFA
female responses.

         Table 25. USAFA Female Responses Regarding the Effectiveness
                     of Academy Cadet/Non Senior Leaders
                                                           Very
                                                                   Moderate/    Not
                                                          Large/
                                                                    Small      at all
                                                          Large
           Demonstrate good examples of          Cadets   63.1%     35.4%      0.3%
           sound moral character                 AOC      72.4%     24.7%      1.7%
           Hold others accountable for their     Cadets   51.1%     46.1%      1.1%
           conduct                               AOC      79.6%     17.3%      1.1%
           Promote and safeguard the welfare     Cadets   64.6%     32.2%      1.4%
           of subordinates                       AOC      73.2%     23.4%      1.7%
           Create a climate in which sexual      Cadets   61.1%     35.8%      1.8%
           HARASSMENT is not tolerated           AOC      79.5%     16.2%      1.4%
           Create a climate in which cadets      Cadets   54.2%     38.7%      4.7%
           are encouraged to report sexual       AOC
                                                          77.3%     16.8%      2.0%
           HARASSMENT
           Create a climate in which sexual      Cadets   81.0%     16.5%      0.8%
           ASSAULT is not tolerated              AOC      86.1%     10.7%      1.2%
           Create a climate in which cadets      Cadets   72.4%     21.6%      3.1%
           are encouraged to report a sexual     AOC
                                                          81.2%     12.7%      2.1%
           ASSAULT
           Ensure those who have reported        Cadets   50.4%     32.6%      4.9%
           sexual HARASSMENT/ASSAULT             AOC
           are treated with dignity and                   68.3%     17.2%      2.0%
           respect
           Provide an appropriate level of       Cadets   47.2%     30.8%      4.3%
           privacy to those who have             AOC
                                                          63.4%     17.8%      2.8%
           experienced sexual ASSAULT
           Provide adequate information to       AOC      74.1%     18.2%      1.8%
           cadets about policies, procedures,
           and consequences of sexual
           ASSAULT


Effectiveness of Senior Leaders and Faculty
We asked cadets a series of similar questions about academy senior leaders
(Superintendent, Commandant of Cadets, Vice Commandant, and Dean of Faculty) and
about academy faculty. Table 26 reflects the results of female respondents.




                                                21
        Table 26. USAFA Female Responses Regarding the Effectiveness of
                     Academy Senior Leaders and Faculty
                                                      Very
                                                               Moderate/    Not
                                                      Large
                                                                Small      at all
                                                      Large
           Demonstrate good examples     Senior
                                                      89.1%    9.3%        0.5%
           of sound moral character      Leadership
                                         Academy
                                                      88.1%    11.3%       0.0%
                                         Faculty
           Hold cadets accountable for   Senior
                                                      91.9%    5.7%        0.9%
           their conduct                 Leadership
                                         Academy
                                                      83.0%    16.1%       0.2%
                                         Faculty
           Promote and safeguard the     Senior
                                                      84.1%    13.0%       0.9%
           welfare of subordinates       Leadership
                                         Academy
                                                      83.3%    13.5%       0.2%
                                         Faculty
           Treat subordinate cadets      Senior
                                                      78.9%    15.8%       2.1%
           fairly regardless of gender   Leadership
                                         Academy
                                                      81.9%    16.1%       0.0%
                                         Faculty
           Create a climate in which     Senior
                                                      89.1%    9.5%        0.3%
           sexual HARASSMENT is          Leadership
           not tolerated                 Academy
                                                      83.2%    12.6%       0.6%
                                         Faculty
           Create a climate in which     Senior
                                                      91.6%    6.9%        0.2%
           sexual ASSAULT is not         Leadership
           tolerated                     Academy
                                                      85.6%    7.5%        0.3%
                                         Faculty


Tables 27 and 28 illustrate the percentage of respondents who answered very large/large
extent academy leaders, to include cadets, commissioned officers, senior leaders, and
faculty, create a climate where “sexual harassment is not tolerated.” Table 27 reflects the
results of respondents who answered “yes” to question 19 (victim of sexual assault).

                   Table 27. Extent That Sexual Harassment is Not
                         Tolerated (Victim of Sexual Assault)
                                                      Very Large/
                                                        Large
                        Cadet Leadership                51.9%
                        AOC                             65.8%
                        Senior Leadership               84.8%
                        Faculty                         79.7%


Table 28 reflects the results of respondents who answered “no” to question 19 (non-
victim of sexual assault).




                                             22
                 Table 28. Extent That Sexual Harassment is Not
                    Tolerated (Non-Victim of Sexual Assault)
                                                           Very Large/
                                                           Large Extent
                      Cadet Leadership                        62.7%
                      AOC                                     81.7%
                      Senior Leadership                       90.0%
                      Faculty                                 83.8%


USAFA female respondents made the following written comments regarding Academy
leadership:

             •   Comment one:
                 “I think that the climate at the Academy has improved drastically due
                 to the measures being taken to remedy the sexual harrassment/assualt
                 issues. I think that it is ridiculous that the image of this fine institution
                 has been slandered by the inappropriate actions of a few people with
                 poor character; however, with all the newly implemented training
                 philosophies I have full faith in saying that I feel as proud to be
                 attending the Academy as I did the day I was accepted.”

             •   Comment two:
                 “I have noticed a significant change in the level of sensitivity of the
                 males when it comes to making sexual remarks and jokes. I think we
                 have made a lot of progress.”

             •   Comment three:
                 “USAFA has improved unbelievably in the area of sexual harassment.
                 Compared to three years ago, it’s a different place. . .”

             •   Comment four:
                 “I have been at USAFA for 4 years and I have seen tremendous change
                 in the number of off-color jokes that are told, the number of
                 upperclassmen who come back drunk and harass underclass girls, etc. I
                 would say that in my 4 years here, USAFA has seen leaps and bounds
                 in the way that women are treated and the things that are tolerated.
                 There has been much improvement . . .”

             •   Comment five:
                 “A lot of new measures have come into the Academy (Agenda for
                 Change, etc) but the results are not visible. I still here girls being
                 harassed the same as a year ago and the climate has not changed for the
                 better. People are just more scared, but continue to act in the same
                 way”




                                                 23
              •   Comment six:
                  “. . . The academy says they want less sexual harassment and
                  fraternization, but they play clips of TOP GUN at lunch, which
                  glorifies a pilot that engages in both behaviors. The particular part of
                  the movie they show was a guy flicking anther guy off . . . “

Sexual Assault Tolerance
Tables 29 and 30 illustrate the percentage of respondents who answered very large/large
extent academy leaders, to include cadet leaders, Air Officers Commanding, senior
leaders and faculty, create a climate where “sexual assault is not tolerated.” Table 29
reflects respondents who answered “yes” to question 19 (victim of sexual assault).

                     Table 29. Extent That Sexual Assault is Not
                        Tolerated (Victim of Sexual Assault)
                                                          Very Large/
                                                            Large
                       Cadet Leadership                     72.1%
                       AOC                                  82.2%
                       Senior Leadership                    88.6%
                       Faculty                              89.8%


Table 30 reflects the results of respondents who answered “no” to question 19 (non-
victim of sexual assault).

                     Table 30. Extent That Sexual Assault is Not
                      Tolerated (Non-Victim of Sexual Assault)
                                                          Very Large/
                                                            Large
                       Cadet Leadership                     82.6%
                       AOC                                  87.0%
                       Senior Leadership                    92.2%
                       Faculty                              85.2%


USAFA female respondents made the following written comments concerning academy
leadership:

              •   Comment one:
                  “I think the Academy leadership is taking the right steps toward
                  eliminating instances of sexual assault and sexual harassment.”

              •   Comment two:
                  I strongly believe that the Air Force Academy has realized that there
                  was a great problem in the past, in how issues about sexual assault and
                  harassment were handled. The new leadership has affected every part
                  of the Academy’s chain of command in making it clear that this type of
                  misconduct will NOT be acceptable. They have also educated all
                  cadets (male and female alike) on how to report assault if you
                  experience it.


                                               24
Willingness to Confront and Report Offenders
We asked cadets, based on the behavior they observed, the extent other cadets at their
academy would be willing to CONFRONT cadets who engage in sexual
HARASSMENT, including inappropriate comments and actions; REPORT other cadets
who continue to engage in sexual HARASSMENT after having been previously
confronted; and, to REPORT other cadets who commit sexual ASSAULT. Table 31
reflects the responses of USAFA female cadets.

        Table 31. USAFA Female Responses Regarding Cadet Willingness to
                        Confront and Report Offenders
                                                        Very
                                                                 Moderate     Not at
                                                        Large
                                                                  Small        all
                                                        Large
           CONFRONT other cadets who
           engage in sexual HARASSMENT,                 37.5%     52.4%        5.5%
           including inappropriate comments
           REPORT other cadets who continue
           to engage in sexual HARASSMENT
           after having been previously                 33.7%     52.4%        6.4%
           confronted
           REPORT other cadets who commit
           sexual ASSAULT                               53.9%     33.1%        3.8%



Personal Loyalties, Barriers to Reporting, and Fraudulent Reporting
We asked cadets the extent they think cadets at their academy: (1) allow personal
loyalties to affect reporting of sexual assault, (2) do not report sexual assault out of
concern they or others will be punished for infractions, such as fraternization or underage
drinking, and (3) consider fraudulent reporting of sexual assault incidents to be a problem
at the academy. Table 32 reflects USAFA female results.

         Table 32. USAFA Female Responses Regarding Personal Loyalties,
                  Barriers to Reporting, and Fraudulent Reporting
                                                       Very
                                                                Moderate
                                                       Large                Not at all
                                                                 Small
                                                       Large
           Allow personal loyalties to affect
                                                       28.5%     50.2%        9.3%
           reporting of sexual ASSAULT
           Do NOT report sexual ASSAULT
           out of concern they or others will
           be punished for infractions, such as        32.9%     47.3%        7.7%
           fraternization or underage
           drinking
           Consider fraudulent reporting of
           sexual ASSAULT incidents to be a            35.5%     42.7%       10.0%
           problem at the Academy


We compared respondents who answered “yes” and “no” to question 19 regarding, “Do
NOT report sexual ASSAULT out of concern they or others will be punished for
infractions, such as fraternization or underage drinking.” Respondents were asked to


                                                  25
select “very large extent,” “large extent,” “moderate extent,” “small extent,” “not at all,”
or “no basis to judge.” For our study, we grouped very large and large extent together,
moderate and small extent together and “other responses” includes “not at all,” and “no
basis to judge.” Table 33 compares those who answered “yes” and “no” to question 19.

          Table 33. Extent That Victims and Non-Victims Do NOT Report
            Sexual Assault - Possible Punishment for Other Infractions
                                        Very Large/          Moderate/
                                                                               Other
                                          Large               Small
                   Victim                 46.8%               45.5%             7.5%
                   Non-Victim             31.1%               47.8%            21.0%


Respondents were asked if they “Consider fraudulent reporting of sexual ASSAULT
incidents to be a problem at the academy.” We compared the respondents who indicated
they were a victim of sexual assault with those that did not. Table 34 compares responses
of victims to non-victims.

              Table 34. Extent That Victims and Non-Victims of Sexual
               Assault Consider Fraudulent Reporting to be a Problem
                                        Very Large/          Moderate/
                                                                               Other
                                          Large               Small
                   Victim                 41.7%               48.1%            10.1%
                   Non-Victim             34.8%               42.2%            22.9%


USAFA female cadets made the following written comments concerning personal
loyalties, barriers to reporting and fraudulent reporting.

               •     Comment one:
                     “ . . . The majority of the cadets (females and males included) believe
                     that in almost all of the sexual assaults and rapes that have been
                     reported that the female is lying and simply trying to get the guy in
                     trouble . . .”

               •     Comment two:
                     “Since changes have been made, there has been a lot of improvement,
                     but I think that the improvements have been too extreme. I have seen a
                     lot of instances where women have been given too much power. They
                     are able to claim sexual assault as a way to attack a man and there is a
                     huge problem with that.”

               •     Comment three:
                      “ . . . Since the sexual assault issues have come out I truly feel that
                     men do not stand a chance even if the claims are fraudulent. I have had
                     some jokes and gestures that bothered me but I must say they were
                     immediately stopped once I addressed my feelings about it.”




                                                  26
Willingness to Report to Various Agencies
We asked cadets about their willingness to report a personal experience of sexual assault
to a variety of individuals/agencies. They were asked to select either “yes, no, uncertain
or service not available.” Although respondents were only asked about their willingness
to report to various agencies, their responses allowed us to rank order their responses in
terms of the number of “yes” answers. USAFA female respondents were most willing to
report to an academy chaplain/clergy. Second highest for USAFA females was
installation medical personnel. Figure 1 depicts individual/agency rankings from
USAFA female cadets.

        Figure 1. Individual/Agency Ranking Among USAFA Female Cadets

                                                                                                                    USAFA Female Cadets


      90%
                             78%




      80%
                                                  72%

                                                                  72%




      70%
                                                                                            66%

                                                                                                                  60%

                                                                                                                                          59%

                                                                                                                                                                   57%
      60%




                                                                                                                                                                                     57%

                                                                                                                                                                                                  55%

                                                                                                                                                                                                                   49%

                                                                                                                                                                                                                                       47%
      50%




                                                                                                                                                                                                                                                       40%
      40%




                                                                                                                                                                                                                                                                     32%

                                                                                                                                                                                                                                                                                    31%
      30%
      20%




                                                                                                                                                                                                                                                                                                  13%
      10%
       0%
                                                                                                                                                                                           MCIO




                                                                                                                                                                                                                                                             DoDIG
                                   Inst Medical




                                                                                                                                                                                                                         Cadet Chain
                                                                        Peer Rsc [not MA]




                                                                                                                                                                                                                                                                           Svc IG
                                                                                                                                                ART [USAFA only]




                                                                                                                                                                                                                                                                                          Other
                                                                                                                                                                                                                                             Acad IG
                                                        Faculty




                                                                                                                                                                         Off Chain
             Acad Chaplain




                                                                                                  Ac ad Hotline

                                                                                                                        Acad Counseling




                                                                                                                                                                                                        Security




With regard to their willingness to report sexual assaults to various agencies, USAFA
female cadets made the following written comments:

                             •           Comment one:
                                         “I wish that cadets weren’t urged to use their chain of command when
                                         reporting an incident. This truly does discourage them from reporting
                                         because people they don’t feel comfortable around will find out. I think
                                         there has to be a better way to handle these situations than to get a lot
                                         of unnecessary people involved. Cadets are not skilled in handling
                                         sexual assault, so why should they (the chain of command) have to
                                         know anyway?”

                             •           Comment two:
                                         “Honestly, they installed this ART team at the Academy but I would
                                         still rather trust the CASIE (cadet run) hotline or going to the IG, OSI,
                                         Clinic before I would ever go to the ART team for help. I don’t care
                                         how many briefings I’ve been given to instill cooperation and a feeling


                                                                                                                                                                   27
                  of trust with the ART team, I do not feel comfortable letting any
                  officers in my chain of command deal with sexual assault. I’d feel
                  much better being able to go to another cadet in a different squadron or
                  someone like the IG/OSI that is completely outside of my chain of
                  command. I don’t need my AOC or upper rank who know who I am
                  already . . . holding my fate in my hands.”

              •   Comment three:
                  “With respect to reporting a personal incident of sexual assault to
                  another CADET in my chain of command, it would also depend on the
                  person him/herself and how well I know them, and whether or not they
                  are on a need-to-know basis. After all, any reasonable person would be
                  hesitant to make a sexual assault common knowledge, just out of self
                  consciousness, I would imagine. But regard the extent to which I
                  TRUST my chain of command and the hotlines, etc. I know that if,
                  God forbid, I was ever in that situation, the people/organizations listed
                  above are just trying to help and I would cooperate and report it.”

              •   Comment four:
                  “Media - because I have experienced situations with close personal
                  friends where even though they went to the proper authorities, nothing
                  was done. As a last resort I would seek attention from those outside the
                  military.”

              •   Comment five:
                   “I would report to anyone who would not have the opportunity to see
                  me on a regular basis; I wouldn’t want someone that I have to see
                  everyday to know something personal: I think they would look at me
                  differently. Also, I would never report to a cadet because often times
                  he or she can be insensitive.”

              •   Comment six:
                  “Definitely not the counseling center, had bad experience, and will
                  never go back for anything. They lack a purpose”

              •   Comment seven:
                  “SPIRE leaders or any spiritual person that I trusted. I would tell my
                  friends as well.”

Sexual Harassment
We asked cadets about sexual talk and/or behaviors that were uninvited and unwanted,
and which they did not willingly participate. They were asked “SINCE JUNE OF 2003,
how frequently have you been in situations where persons assigned to your academy (i.e.,
cadets and/or other military or civilian personnel working at your academy),” (emphasis
in original) followed by a series of behaviors (listed in Table 35). Respondents were
asked to indicate the frequency they experienced these behaviors ranging from never,
once or twice, several times, often and very often. The most frequent behavior
experienced often or very often by female USAFA cadets was “Repeatedly told stories or
jokes of a sexual nature that were offensive to you,” at 9.7 percent. Around 6 percent of
USAFA female respondents indicated they experienced “ . . . offensive remarks about

                                                28
your appearance, body, or sexual activities,” often or very often. Table 35 reflects the
responses of USAFA females indicating the percentages of respondents that experienced
the listed behaviors often or very often.

                  Table 35. Percentage of Female Cadets Indicating
                 Occurrence of Listed Behaviors Often or Very Often.
                                                                                Often/Very
                                                                                  Often
      Repeatedly told stories or jokes of a sexual nature that were offensive
                                                                                  9.6%
      to you
      Made unwelcome attempts to draw you into a discussion of sexual
      matters (for example, attempted to discuss or comment on your sex           5.1%
      life)
      Made offensive remarks about your appearance, body, or sexual
                                                                                  6.0%
      activities
      Made gestures or used body language of a sexual nature that
                                                                                  4.0%
      embarrassed or offended you
      Made unwanted attempts to establish a romantic sexual relationship
                                                                                  2.9%
      with you despite your efforts to discourage it
      Continued to ask you for dates, drinks, dinner, etc, even though you
                                                                                  2.6%
      said “No”
      Made you feel like you were being bribed with some sort of reward
                                                                                  0.6%
      or special treatment to engage in sexual behavior
      Made you feel threatened with some sort of retaliation for not being
      sexually cooperative (for example, by mentioning an upcoming                0.6%
      review or evaluation)
      Touched you in a way that made you feel uncomfortable                       1.5%
      Treated you badly for refusing to have sex                                  0.5%
      Implied better assignments or better treatment if you were sexually
                                                                                  0.3%
      cooperative


Only 13.9 percent of USAFA females indicated they never experienced “Touched you in
a way that made you feel uncomfortable.” Table 36 reflects the percentages of USAFA
female respondents that never experienced the listed behaviors.




                                                29
          Table 36. Percentage of Female Cadets That Never Experienced
                                 Listed Behaviors
                                                                                  Never
                          Uninvited Unwanted Behavior
                                                                                Experienced
      Repeatedly told stories or jokes of a sexual nature that were offensive
                                                                                  34.5%
      to you
      Made unwelcome attempts to draw you into a discussion of sexual
      matters (for example, attempted to discuss or comment on your sex           54.2%
      life)
      Made offensive remarks about your appearance, body, or sexual
                                                                                  54.2%
      activities
      Made gestures or used body language of a sexual nature that
                                                                                  59.0%
      embarrassed or offended you
      Made unwanted attempts to establish a romantic sexual relationship
                                                                                  74.1%
      with you despite your efforts to discourage it
      Continued to ask you for dates, drinks, dinner, etc, even though you
                                                                                  77.9%
      said “No”
      Made you feel like you were being bribed with some sort of reward or
                                                                                  94.6%
      special treatment to engage in sexual behavior
      Made you feel threatened with some sort of retaliation for not being
      sexually cooperative (for example, by mentioning an upcoming review         96.8%
      or evaluation)
      Touched you in a way that made you feel uncomfortable                       13.9%
      Treated you badly for refusing to have sex                                  94.0%
      Implied better assignments or better treatment if you were sexually
                                                                                  96.6%
      cooperative


Table 37 reflects responses of USAFA female cadets that answered “yes” to question 19
regarding the frequency that they experienced unwanted/uninvited sexual talk or
behavior. Table 38 reflects the responses of USAFA female cadets that answered “no” to
question 19.




                                                30
      Table 37. Frequency of Unwanted/Uninvited Sexual Talk or
                 Behavior (Victim of Sexual Assault)
                                              Once
                                                      Several           Very
                                      Never    or               Often
                                                      Times             Often
                                              Twice
Repeatedly told stories or jokes of
a sexual nature that were             16.4%   45.5%   22.7%     8.8%    6.3%
offensive to you
Made unwelcome attempts to
draw you into a discussion of         28.2%   33.3%   28.2%     7.6%    2.5%
sexual matter
Made offensive remarks about
your appearance, body, or sexual      29.1%   35.4%   21.5%     11.3%   2,5%
activities
Made gestures or used body
language of a sexual nature that      37.6%   36.3%   19.4%     5.1%    1.3%
embarrassed or offended you
Made unwanted attempts to
establish a romantic sexual
                                      43.5%   29.4%   16.6%     8.9%    1.2%
relationship with you despite your
efforts to discourage it
Continued to ask you for dates,
drinks, dinner, etc, even though      50.0%   23.0%   16.6%     6.4%    3.8%
you said “No”
Made you feel like you were being
bribed with some sort of reward
                                      83.3%   7.6%     6.4%     2.5%    0.0%
or special treatment to engage in
sexual behavior
Made you feel threatened with
some sort of retaliation for not      86.0%   11.3%    1.2%     1.2%    0.0%
being sexually cooperative
Touched you in a way that made
                                      40.5%   49.3%    6.3%     3.8%    0.0%
you feel uncomfortable
Treated you badly for refusing to
                                      74.3%   21.7%    2.5%     0.0%    1.2%
have sex
Implied better assignments or
better treatment if you were          94.9%   5.0%     0.0%     0.0%    0.0%
sexually cooperative




                                         31
            Table 38. Frequency of Unwanted/Uninvited Sexual Talk or
                     Behavior (Non-Victim of Sexual Assault)
                                                      Once
                                                                Several               Very
                                            Never      or                   Often
                                                                Times                 Often
                                                      Twice
      Repeatedly told stories or jokes of
                                            37.1%     39.6%      14.3%      5.7%      2.9%
      a nature that were offensive to you
      Made unwelcome attempts to draw
      you into a discussion of sexual       58.7%     27.9%      9.0%       3.1%      1.0%
      matter
      Made offensive remarks about
      your appearance, body, or sexual      58.0%     25.9%      11.0%      2.9%      1.9%
      activities
      Made gestures or used body
      language of a sexual nature that      62.7%     25.4%      8.1%       2.6%      1.0%
      embarrassed or offended you
      Made unwanted attempts to
      establish a romantic sexual
                                            79.1%     15.5%      3.3%       1.4%      0.5%
      relationship with you despite your
      efforts to discourage it
      Continued to ask you for dates,
      drinks, dinner, etc, even though      82.7%     12.1%      3.5%       0.7%      0.8%
      you said “No”
      Made you feel like you were being
      bribed with some sort of reward or
                                            97.5%      1.9%      0.1%       0.1%      0.1%
      special treatment to engage in
      sexual behavior
      Made you feel threatened with
      some sort of retaliation for not      99.2%      0.1%      0.0%       0.1%      0.3%
      being sexually cooperative
      Touched you in a way that made
                                            10.4%     86.2%      2.1%       0.7%      0.5%
      you feel uncomfortable
      Treated you badly for refusing to
                                            97.8%      1.5%      0.1%       0.1%      0.1%
      have sex
      Implied better assignments or
      better treatment if you were          98.9%      0.7%      0.0%       0.1%      0.1%
      sexually cooperative


USAFA female cadets made the following written comments regarding unwanted
uninvited sexual talk or behavior:

               •   Comment one:
                   “And as for being bothered by guys approaching me, the workers in the
                   dorms have offended me and i believe sexually harrassed me more than
                   any cadet. their comments offend me and i am hit on by one of them
                   multiple times per month.”

               •   Comment two:
                   “ . . . males here tell offensive jokes and make many unwanted
                   comments of sexual nature, especially if you turn them down for
                   dates.”


                                               32
We asked cadets how many of the listed behaviors they marked as happening to them
they considered to have been sexual harassment. Table 39 reflects USAFA female cadets
responses.

              Table 39. USAFA Female Responses to Behaviors They
                       Considered to be Sexual Harassment
                                                                     Percentage
                  None were sexual harassment                          37.4%
                  Some were sexual harassment                          26.8%
                  Most were sexual harassment                           8.0%
                  All were sexual harassment                            7.5%
                  Does not apply (I marked “NEVER” in every item
                                                                          19.6%
                  in question #17)


Table 40 reflects USAFA female responses by those who answered “yes” or “no” to
question 19 (victim and non-victim of sexual assault).

              Table 40. USAFA Female Responses to Behaviors They
                       Considered to be Sexual Harassment
                  (Victim Versus Non-Victim of Sexual Assault)
                                                                              Non-
                                                              Victims
                                                                             victims
           None were sexual harassment                         22.8%         39.6%
           Some were sexual harassment                         40.5%         25.2%
           Most were sexual harassment                         22.8%          6.0%
           All were sexual harassment                          10.1%          7.2%
           Does not apply (I marked “NEVER” in every item
                                                                   3.8%       22.0%
           in question #17)
           Total                                               100%           100%


   C. Sexual Assault Incidents at the Academy
This section details the results of the survey concerning the scope of sexual assault
incidents at the academy. The respondents were asked to answer “yes” or “no” to the
following question: “[S]ince becoming a cadet, has someone done any of the following to
you without your consent and against your will?” The answer choices included:

              •     “Touched, stroked, or fondled your private parts;

              •     Physically attempted to have sexual intercourse with you, but was not
                    successful;

              •     Physically attempted to have oral or anal sex with you, but was not
                    successful;

              •     Had sexual intercourse with you;

              •     Had oral sex with you; and,



                                              33
               •     Had anal sex with you.”

A total of 79 female respondents answered “yes” to the question and indicated a total of
92 incidents. A total of 11 cadets were sexually assaulted twice, and of those, 2 cadets
were sexually assaulted at least 3 times. Responses indicated that at the time of the
incident, 42 respondents were freshmen, 29 were sophomores, 7 were juniors, 3 were
seniors, and 9 did not indicate class year status. A total of 81 incidents occurred between
1999 and 2004, and 11 incidents occurred on unknown dates. The respondents were
instructed to indicate all behaviors they experienced during each incident and to “check
all that apply.” Therefore, the number of behaviors indicated may exceed the total
incidents listed. A total of 13 respondents indicated experiencing more than 1 incident.
Of the 92 incidents recorded, 54 (57.4 percent) involved “touched, stroked or fondled
your private parts.” A total of 45 incidents (47.8 percent) occurred on the installation in
the dormitory. The offenders were predominately cadets, either from the same class or
below, or cadets that were senior to the respondent (76 of 88 offenders (86.4 percent)).
Table 41 reflects the number of USAFA female cadets that recorded one or more
incidents of sexual assault.

           Table 41. Scope of Recent Incidents Involving USAFA Female
                              Respondents as Victims.
                    Experienced behavior against will without consent       Number
                   Total Incidents                                            92
                   Touched, stroked, or fondled privates only                 28
                   Touched, stroked, or fondled privates in conjunction
                                                                              26
                   with other listed behavior(s)
                   Attempted sexual intercourse                               30
                   Attempted oral or anal sex                                 5
                   Had sexual intercourse                                     23
                   Had oral sex                                               6
                   Had anal sex                                               3

Respondents were asked to describe up to four incidents, focusing on those considered to
be the most severe incidents. Many of the respondents provided partial data when
describing incidents, and in some cases of additional incidents, provided no data at all.

Tables 42.a through 42.c reflect incidents data, by calendar year, semester, and the cadet
status/rank (BCT/Plebe summer/freshman/ sophomore/ junior/ senior). The summer
“semester,” assumes that graduation has occurred and the cadet rose to the next rank. All
cadets did not answer question 20A completely. Where that occurred, “Missing Data” is
listed in the table as an unknown response.

                   Table 42.a. Calendar Year When Incident Occurred
                   Incident     2001
                                                                  Missing
                                and      2002     2003   2004*               Total
                                                                   Data
                               Earlier
                   First         18       19       24       8       10        79
                   Second        3        2        3        2        1        11
                   Third         2        0        0        0       0         2
                        * 3-4 month period: January-March/April 2004




                                                 34
                     Table 42.b. Semester When Incidents Occurred
                                                                       Missing
                    Incident         Fall      Spring     Summer                  Total
                                                                        Data
                First                31         30             8         10            79
                Second                4         4              2         1             11
                Third                 1         1              0         0             2

                Table 42.c. Status of Cadet When Incidents Occurred
                                                                               Missi
                                                                   BCT/
            Incidents      Fresh       Soph      Junior   Senior                ng          Total
                                                                   PLB
                                                                               Data
           First               37         25         6      1          0        10           79
           Second               3         4          1      2          0        1            11
           Third                2         0          0      0          0        0            2

The Offenders
We asked cadets to describe the actions taken by the offender. The actions were not
defined for the respondents; they used their own discretion when responding. Table 43
describes these actions. The respondents were instructed to check all actions that apply.

                        Table 43. Actions of Offenders by Incident
                                                               1st            2nd              3rd
                               Act
                                                            Incident       Incident         Incident
         Touched, stroked, or fondled your private
                                                           46              7            1
         parts?
         Physically attempted to have sexual
         intercourse with you, but was not                 22              7            1
         successful?
         Physically attempted to have oral or anal
                                                           4               1            0
         sex with you, but was not successful?
         Had sexual intercourse with you?                  21              1            1
         Had oral sex with you?                            5               1            0
         Had anal sex with you?                            2               1            0


Location of the Incident
Respondents provided location information for 86 of the 92 sexual assault incidents. Of
the 92 sexual assaults, 56 occurred on the installation and 45 of those occurred in the
dormitory; the other 11 were committed on-base in places other than a dormitory. The
remaining 29 sexual assaults occurred off-base; most of which (26) were at events not
sponsored by the academy and 4 occurred at academy sponsored events. Table 44
reflects a breakdown by incident and location of occurrence.




                                                     35
                      Table 44. Location of Incident by Incident
                                                  1st        2nd             3rd
                         Location
                                               Incident   Incident        Incident
                On installation in
                                                   38        6               1
                dorm/barracks
                On installation, NOT in
                                                   10        1               0
                dorm/barracks
                Off installation at an
                                                   2         2               0
                Academy-sponsored event
                Off installation and NOT at
                                                   23        2               1
                an Academy-sponsored event


The respondents categorized the offenders for 88 of the 92 incidents including cadets
(both senior and non-senior to the respondents), civilians not affiliated with the
installation, and several unidentified persons. There were two categories each that had
four or fewer offenders indicated: “military person NOT assigned to your academy,” and
“unidentified person.” The respondents did not provide offender information for 4 of the
92 incidents. Fellow cadets were the principal offender group (76 of 88 offenders); 36
were cadets who were senior to the victim, while 40 were cadets who were in the same
class or below. Table 45 reflects offenders by category.

                           Table 45. Category of Offenders
                                      Category                   Total
                     Cadet who was senior to me                   36
                     Cadet who was in same class as me or
                                                                     40
                     below
                     Military faculty or staff member                0
                     Civilian faculty or staff member                0
                     Military person NOT assigned to your
                                                                     2
                     academy
                     Civilian person NOT assigned to your
                                                                     6
                     academy
                     Unidentified person                             4
                     Missing Data                                    4


Table 46 reflects the break down of offenders by category by incident.




                                              36
              Table 46. Sexual Assault Offenders by Category and Incident
                                                        1st            2nd         3rd
                        Category of offender
                                                     Incident       Incident    Incident
                    Cadet who was senior to me          29              5           2
                    Cadet who was in same class
                                                          36           4            0
                    as me or below
                    Military faculty or staff
                                                          0            0            0
                    member
                    Civilian faculty or staff
                                                          0            0            0
                    member
                    Military person NOT
                                                          1            1            0
                    assigned to your academy
                    Civilian person NOT
                                                          5            1            0
                    assigned to your academy
                    Unidentified person                   4            0            0


Of the 92 reported incidents, respondents provided information for 86 incidents when
asked if there were multiple offenders. A total of 10 respondents reported multiple
offenders assaulted them.43 Fellow cadets were the only offender group for multiple
offender incidents; eight involved cadets who were senior to the victim, one involved
cadets who were in the same class or below, and one included a combination of both
senior cadets and cadets in the same class or below. Table 47 reflects whether or not
multiple offenders were involved by incident.

                                    Table 47. Multiple Offenders
                                                  1st              2nd            3rd
                      Multiple offenders
                                               Incident         Incident       Incident
                     Yes                     8                 1           1
                     No                      64                10          1
                     I don’t know            1                 0           0


Reporting of Sexual Assault Incidents
Of the 92 sexual assault incidents recorded by 79 respondents, the highest number of
incidents (12), were reported to the officer/NCO chain of command. A total of nine
incidents were reported to the Academy Response Team, and eight each were reported to:
academy counseling or development center, criminal investigation organizations, and
academy chaplain/clergy. Other responses indicate they reported their assault to their
boyfriends, confronted the offender themselves or with friends, or used their Human
Resources Officer. Table 48 lists the total number of incidents reported to each authority
by incident.




43
     No cadet assaulted by multiple offenders was assaulted by multiple offenders more than one time.



                                                    37
                     Table 48. Authorities Sexual Assaults Reported To
                   Authorities to which sexual assaults were reported              Number
              Officer/NCO chain of command (AOC, MTL, TAX, Co
                                                                                      12
              Officer, SEL)
              Academy staff & faculty member not in chain of command                  7
              Academy hotline/helpline                                                6
              Academy Response Team (ART) [N/A for USMA and
                                                                                      9
              USNA]
              Person in cadet chain of command                                        6
              Peer resource (e.g., SAVI GUIDE, CASIE Rep)[N/A for
                                                                                      7
              USMA]
              Academy Counseling or Development Center                                8
              SAVI Advocate/Coordinator [N/A for USMA and USAFA]                      0
              Off-Installation Counseling Center                                      0
              Installation Medical Personnel                                          2
              Off-Installation Medical Personnel                                      2
              Criminal Investigative Organizations (i.e. AFOSI, CID,
                                                                                      8
              NCIS)
              Security Forces, Military Police, or USNA Police                        3
              Academy Inspector General’s Office [N/A for USNA]                       0
              Academy Chaplain/Clergy                                                 8
              Non-Installation Chaplain/Clergy                                        0
              Civilian Law Enforcement Agency                                         1
              Service or DoD Inspector General’s Office or Hotline                    0
              No one – I did not report this incident                                 59
              Other (please explain)44                                                8


Table 49 reflects the authorities sexual assaults were reported to, by incident.




44
     Respondents indicated they told their boyfriends and “guy” friends about the incident.



                                                    38
           Table 49. Sexual Assault Reporting to Authorities by Incident
                                                         1st        2nd        3rd
                     Authority/Agency
                                                      Incident   Incident   Incident
         Officer/NCO chain of command (AOC,
                                                        11          1          0
         MTL, TAX, Co Officer, SEL)
         Academy staff & faculty member not in
                                                         7          0          0
         chain of command
         Academy hotline/helpline                        6          0          0
         Academy Response Team (ART) [N/A for
                                                         9          0          0
         USMA and USNA]
         Person in cadet chain of command                6          0          0
         Peer resource (e.g., SAVI GUIDE, CASIE
                                                         7          0          0
         Rep)[N/A for USMA]
         Academy Counseling or Development
                                                         8          0          0
         Center
         SAVI Advocate/Coordinator [N/A for
                                                         0          0          0
         USMA and USAFA]
         Off-Installation Counseling Center              0          0          0
         Installation Medical Personnel                  2          0          0
         Off-Installation Medical Personnel              1          1          0
         Criminal Investigative Organizations (i.e.
                                                         8          0          0
         AFOSI, CID, NCIS)
         Security Forces, Military Police, or USNA
                                                         3          0          0
         Police
         Academy Inspector General’s Office [N/A
                                                         0          0          0
         for USNA]
         Academy Chaplain/Clergy                         8          0          0
         Non-Installation Chaplain/Clergy                0          0          0
         Civilian Law Enforcement Agency                 1          0          0
         Service or DoD Inspector General’s Office
                                                         0          0          0
         or Hotline
         No one – I did not report this incident        51          7          1
         Other (Please explain)                          6          1          1


Reprisal for Reporting Sexual Assaults
Cadets who answered “yes” to question 19, were asked whether anyone in a position of
authority retaliated against them for reporting an incident. Retaliation was defined as
“unwarranted punishment, demotion, or withholding a favorable duty position. A total of
five respondents indicated they experienced reprisal from another cadet, commissioned
officer in their chain of command or academy staff or faculty; three were upperclassmen
not in her chain of command; two were cadets in her chain of command; one was a
commissioned officer in her chain of command; and one was a member of the academy
staff and faculty. Table 50 reflects the respondents identified as being retaliated against
for reporting a sexual assault incident.




                                               39
                       Table 50. Reprisal for Reporting Sexual Assaults
                                         by Incident
                                                    1st                2nd             3rd
                                                 Incident            Incident       Incident
                    Yes                              4                  0              145
                    No                              17                  2               0
                    Don’t know or not
                                                     1                   1              0
                    sure


Table 51 reflects the number of times respondents experienced reprisals for reporting
sexual assault by incident, and the individual who retaliated against them. (Respondents
were allowed to select all that apply.)



                     Table 51. Reprisal by Academy Officials by Incident
                                                                 1st            2nd            3rd
                                                              Incident       Incident       Incident
              Cadet in my chain of command                       1               0              1
              Upperclassmen NOT in my chain of
                                                                 2              0              1
              command
              Commissioned Officer in my chain
                                                                 1              0              1
              of command
              Other Academy staff or faculty                     1              0              0
              Service officials outside your
                                                                 0              0              0
              Academy


A USAFA female respondent made the following written comment regarding reprisal for
reporting sexual assault:
                       “I received extra punishments because during the time I told OSI about
                       the incident I had mentioned …They turned on me and told my chain of
                       command that I … and I received a form 10 and tours for that. I was
                       punished for cooperating.”46

Respondents were asked whether they experienced “any OTHER repercussions for
reporting this incident.” The choices included: Ostracism, harassment, or ridicule from
other cadets both in and not in their chain of command, ostracism, harassment, or ridicule
from Academy staff and faculty members, or other significant repercussions. There were
13 reported experiences of repercussions from cadets NOT in the chain of command, and
5 instances from cadets within the chain of command. No respondents reported
repercussions from Academy staff and faculty members. A total of two of the reported
experiences fell in the category of “other significant repercussions” and they related to
the belief that the respondent would have been harassed if they reported the incident, and
another was concerned with pressure from OSI.47 Table 52 reflects the responses by
45
     This cadet did not indicate reprisal for reporting her first or second sexual assault, only the third sexual
     assault.
46
     This incident occurred before the Agenda for Change.
47
     The cadet responded “Pressure from OSI. Forced to report by upper leadership when the current
     policy had not been enacted.”


                                                         40
incident, of female cadets indicating they experienced other repercussions for reporting
an incident of sexual assault. Respondents were instructed to check all answers that
applied to each incident.

                 Table 52. Other Repercussions Experienced by Incident
                                                              1st           2nd        3rd
                      Type of Repercussions
                                                           Incident      Incident   Incident
             Ostracism, harassment, or ridicule
             from other cadets NOT in chain of                11            1             1
             command
             Ostracism, harassment, or ridicule
             from other cadets in chain of                     3            1             1
             command
             Ostracism, harassment, or ridicule
             from Academy staff or faculty                     0            0             0
             members
             Other significant repercussions (Please
                                                               1            0             1
             specify)
             No, I did not experience other
                                                              10            2             0
             repercussions


A USAFA female respondent made the following written comment regarding reprisal for
reporting sexual assault:
                      “My cadet chain of command used the fact that I had been sexually
                      assaulted against me during training sessions during four degree year.
                      They would say it out loud where my peers could hear and no one did
                      anything about it...not even the AOC. They would say things like “Oh,
                      Cadet X. . . “48

Reporting to MCIO/Law Enforcement
Respondents were asked, “Did a military criminal investigative organization (AFOSI,
CID or NCIS) or a civilian law enforcement agency conduct a criminal investigation?”
Respondents indicated 10 incidents were investigated, 14 had not been investigated and 2
respondents did not know. Table 53 reflects the criminal investigations conducted by
incident.

                        Table 53. Criminal Investigations Conducted
                                        by Incident
                                      1st Incident        2nd Incident     3rd Incident
                   Yes                     10                   0                0
                   No                      10                   3                1
                   I don’t know             2                   0                0


Why No Criminal Investigation Was Conducted
A total of 11 cadets indicated that a criminal investigation was not conducted because it
was never reported to law enforcement officials, while 2 cadets indicated they declined to

48
     Incident occurred before the Agenda for Change.



                                                     41
cooperate with the investigation. Table 54 reflects USAFA female cadet responses by
incident indicating why no criminal investigations were conducted.

                Table 54. Why No Criminal Investigation Was Conducted
                                                              1st        2nd           3rd
                                                           Incident   Incident      Incident
              The incident was not reported to law
                                                              8           3             0
              enforcement officials
              I declined to cooperate with an
                                                              2           0             0
              investigation
              I don’t know                                    0           0             1


A total of nine respondents reported dissatisfaction (by also checking either “Dissatisfied
or Very Dissatisfied”) with the MCIO. Of the nine respondents, five provided written
comments regarding their dissatisfaction with the MCIO.

                  •   Comment one:
                      “I did not want to press any legal charges, yet OSI wanted me to pursue
                      the matter. I had no choice of whether I wanted to report to OSI or not
                      under the new changes to the reporting system. I would like to be given
                      the option of whether I want to legal report or not.”49

                  •   Comment two:
                      “I was very dissatisfied with the way OSI handled the matter. I did not
                      want anyone to know about it, and they were in my squadron
                      interviewing people about it. I was dissatisfied with the way the
                      lawyers handled it because it felt like they were pushing me too hard to
                      press charges. I was dissatisfied with the counseling center because …I
                      do not feel comfortable talking to them about the incident.”50

                  •   Comment three:
                      “OSI was completely inconsiderate. I had little to no sleep, they
                      …continuously pressured me to answer questions after I told them I
                      was not prepared to do so, I just wanted to get some sleep. They also
                      kept “evidence”, which are my personal things for months after the
                      incident. …I was very upset. They were unprofessional and
                      inconsiderate. It was not explained to me that the “rape kit” would trace
                      the offender down and then they would…. They told me the rape kit
                      was to check to ensure there was no pregnancy, STDs and etc. I was
                      completely naive at that point, because all I was thinking about was
                      clearing my head and getting away from everyone who was pressuring
                      me to answer questions. I just needed to be alone for a while, to think,
                      to get my head together-- just some time with God. I was not granted




49
     Incident occurred before the Agenda for Change.
50
     Incident occurred after the Agenda for Change.



                                                      42
                       that. Those moments with OSI …made me wish I never said
                       anything.”51

                  •    Comment four:
                       “OSI treated me very badly. I was forced to come forward with a
                       written order…”52

                  •    Comment five:
                       “I received extra punishments because during the time I told OSI about
                       the incident I had mentioned… Instead of just being an investigative
                       source. They turned on me and told my chain of command… and I
                       received a form 10 and tours for that. I was punished for
                       cooperating.”53

Information Regarding the Disposition of Investigations
A total of eight cadets were informed of the final disposition of the investigation, two
were not, and three indicated their cases are not yet resolved due to an on-going
investigation or legal proceedings. Table 55 reflects the incident disposition information
provided to respondents by incident.

                   Table 55. Informed of the Final Disposition by Incident
                                                              1st           2nd         3rd
                                                           Incident      Incident     Incident
              Yes                                             8              0           0
              No, I was not informed                          1              0           1
              N/A – Offender was never identified             0              0           0
              N/A – Not yet resolved (i.e. On-going
                                                               3             0           0
              investigation or legal proceedings)


Reasons for Not Reporting Sexual Assault
Recognizing that individuals have many reasons for not reporting a sexual assault, we
asked respondents who experienced sexual assault behavior to choose the reasons most
important to them when they decided to report the matter to authorities. The top 3
choices among USAFA females for not reporting sexual assault were: 33 indicated they
handled it themselves; 35 indicated they thought they could deal with it themselves; and,
30 were ashamed or embarrassed. Table 56 reflects the respondents’ reasons by incident
for not reporting sexual assaults to military or academy authorities. (Respondents were
asked to check all that apply.)




51
     Cadet did not provide data on year, semester or cadet status for the incident.
52
     Incident occurred after the Agenda for Change.
53
     Incident occurred before the Agenda for Change.



                                                      43
                       Table 56. Reasons for Not Reporting by Incident
                                                               1st         2nd          3rd
                               Reasons
                                                            Incident    Incident     Incident
              Does not apply, I reported it                    2            0            0
              It was not serious enough to report              21           3            0
              I handled it myself                              31           2            0
              I thought I would be labeled a trouble
                                                                7           2            0
              maker
              I thought nothing would be done                   9           4            0
              Threatened with some form of                      54           55
                                                               3           1             1
              retaliation
              Not threatened with retaliation, but
                                                                6           3            0
              feared some form of retaliation
              Feared ostracism, harassment, or
                                                               12           5            1
              ridicule by peers
              Feared loss of friends                            7           4            1
              Feared I or others would be punished
              for infractions/violations (such as              12           2            1
              underage drinking)
              Feared public disclosure of the assault          12           3            0
              Feared my parents/family would find
                                                                8           2            2
              out
              Pressured by someone in position of
                                                               156         157           0
              authority
              Feared my boyfriend/girlfriend would
                                                                1           1            0
              find out
              Shame/embarrassment                              25           4            1
              Feared other repercussions                       8            2            0
              Feared people would not believe me               12           4            0
              Not aware of reporting procedures                5            0            0
              I thought I could deal with it myself            28           6            1
              Other (Explain)58                                5            1            1


Satisfaction With Individuals/Agencies by Incident
Respondents were asked to report their level of satisfaction with the following individuals
or agencies regarding their handling of their incident. Although 63 cadets did not use the
Victim Witness Assistance Program, 7 of the 8 who did were satisfied/very satisfied with

54
     Of the three cadets, two provided no textual comments regarding retaliation. The other cadet stated
     she was harassed by male cadets, ostracized by peers and upperclassmen, and reprimanded by [a cadet
     leader.]
55
     The cadet indicated she did not report her first and second incident because she was threatened with
     some form of retaliation. There were no references to a threat in any textual comment blocks of her
     survey. Therefore, the threat is unknown.
56
     This cadet did not provide any textual comments to describe being pressured by someone in a position
     of authority.
57
     The cadet reported “An upper class cadet had sex with me even though I continually said no. I didn’t
     fight him off because I was afraid of what he might do to me.”
58
     Respondents indicated the offender was a current friend/boyfriend and they either didn’t want to get
     him in trouble, thought it wouldn’t be taken seriously, or didn’t realize anything was wrong. A cadet
     related that the incident happened on break and she didn’t want to get the Academy involved.



                                                     44
the process. Tables 57.a. through 57.c. reflect by incident, how satisfied respondents
were.

      Table 57.a. Satisfaction With Individuals/Agencies Handling of Incident
                                                                              N/A or I
                                                                    Very
            st                Very                      Dis-                   did not
           1 Incident        Satisfied
                                         Satisfied
                                                      satisfied
                                                                    Dis-
                                                                                 use
                                                                                         Total
                                                                  satisfied
                                                                              Resource
      Investigative
      Agencies (OSI/CID/        4           1            2           6          59        72
      NCIS)
      Military lawyers
                                2           3            4           2          60        71
      handling your case
      Victim Witness
                                4           3            0           1          63        71
      Assistance
      SAVI Advocate/
      Coordinator or
      Academy Response          3           5            1           2          60        71
      Team (ART)
      [N/A for West Point]
      Academy
      Counseling or             7           4            1           3          57        72
      Development Center
      Peer Resource
      (CASIE Rep/SAVI
                                4           3            0           2          63        72
      GUIDE)[N/A for
      West Point]
      Chain of Command          3           4            2           5          56        70




                                                 45
Table 57.b. Satisfaction With Individuals/Agencies Handling of Incident
                                                                    N/A or I
                      Very                                Very
     nd                         Satisfie      Dis-                   did not
    2 Incident       Satisfie                             Dis-                 Total
                                   d        satisfied                  use
                        d                               satisfied
                                                                    Resource
Investigative
Agencies (OSI/CID/      4          0           0           1           9        14
NCIS)
Military lawyers
                        0          0           0           1           9        10
handling your case
Victim Witness
                        0          0           0           1           9        10
Assistance
SAVI Advocate/
Coordinator or
Academy Response        0          0           0           1           9        10
Team (ART) [N/A
for West Point]
Academy
Counseling or           0          0           0           1           9        10
Development Center
Peer Resource
(CASIE Rep/SAVI
                        0          0           0           1           9        10
GUIDE)[N/A for
West Point]
Chain of Command        0          0           1           1           8        10


Table57.c. Satisfaction With Individuals/Agencies Handling of Incident
   3rd Incident       Very      Satisfie      Dis-        Very      N/A or I   Total
                     Satisfie      d        satisfied     Dis-       did not
                        d                               satisfied      use
                                                                    Resource
Investigative
Agencies (OSI/CID/      0          0           0           0           1        1
NCIS)
Military lawyers
                        0          0           0           0           1        1
handling your case
Victim Witness
                                   0           0           0           1        1
Assistance
SAVI Advocate/
Coordinator or
Academy Response        0          0           0           0           2        2
Team (ART) [N/A
for West Point]
Academy
Counseling or           0          0           0           0           2        2
Development Center
Peer Resource
(CASIE Rep/SAVI
                        0          0           0           0           2        2
GUIDE)[N/A for
West Point]
Chain of Command        0          0           0           0           2        2




                                       46
USAFA female cadets made the following comments regarding individuals/agencies
handling the incident:

               •   Comment one:
                   “I did not want to press any legal charges, yet OSI wanted me to persue
                   the matter. I had no choice of whether I wanted to report to OSI or not
                   under the new changes to the reporting system. I would like to be given
                   the option of whether I want to legal report or not.”

               •   Comment two:
                   “I reported to CASIE six months after the event occurred. Due to the
                   policy at the time I did not have to report and chose not to report. When
                   the new administration came in during the spring of 2003 they
                   encouraged the prior victims to report. I eventually reported based upon
                   the advice and knowledge that was provided to me by the ART team. I
                   feel that this was the biggest mistake of my cadet career. I am worse off
                   now as a result of reporting and trusting the ART team.”

               •   Comment three:
                    “I was very dissatisfied with the way OSI handled the matter. I did not
                   want anyone to know about it, and they were in my squadron
                   interviewing people about it the day it was reported...I was dissatisfied
                   with the way the lawyers handled it because it felt like they were
                   pushing me too hard to press charges. I was dissatisfied with the
                   counseling center because the issue has still not been resolved for me
                   and I do not feel comfortable talking to them about the incident”

               •   Comment four:
                   “OSI was completely inconsiderate...they continuously pressured me to
                   answer questions after I told them I was not prepared to do so, I just
                   wanted to get some sleep . . .”

               •   Comment five:
                    “OSI treated me very badly. I was forced to come forward with a
                   written order and then when they said I did not have to come back in I
                   was again, given the choice to talk freely or take the order that was
                   sitting in front of me.”

   D. General Comments
USAFA female cadets’comments indicate that in general, they believe that academy
leaders are taking the right steps in addressing and correcting USAFA sexual harassment
and sexual assault issues. The female cadets believe the academy leadership has sent a
clear message that sexual assault will not be tolerated at the academy. They also believe
the academy leaders have done a good job of educating the cadet population on all
aspects of sexual harassment and sexual assault, and how to report it. As a result, most
female cadets agree the USAFA sexual harassment/assault climate at the academy has
steadily improved. Many think, that while there are some problems at the academy, the



                                                 47
situation has been overblown, and academy leadership overreacts whenever something
new happens.

Many female cadets still expressed some dissatisfaction with academy leadership
concerning the “Agenda for Change” and the “Officer Development System.” The
general consensus is, that while the new initiatives are good, there are some aspects of
them which are considered “overkill” or appear to avoid the problem instead of
addressing it.

Many criticized the new fourth class training system and believe it is not challenging
enough for new cadets. Some indicate there is a way to make the academy a better place
for women without, what they see, as sacrificing the military traditions at the academy.
One female cadet stated,
                   “Cadets need to learn to think under pressure, and by eradicating some
                   of the aspects of training that dealt with that, you removed that ability.
                   You also removed our sense of pride and accomplishment in
                   surmounting a very challenging four-degree year.”

They believe that the freshmen, under the new system, have no respect or sense of
military pride. Additionally, many indicated that the creation of the all female hallways
in the dormitory was unnecessary and considered it a step in the wrong direction. Many
also resent that they must leave their dorm room door open if a male is present and that a
male and female can’t occupy the same horizontal surface. They feel these measures
only serve to further alienate and isolate females from males, unnecessarily violate their
privacy, and hinder the team building process. Some commented these rules make male
cadets less inclined to study with them or include them on other projects. Additionally,
many commented that the sheer volume of noise and hallway traffic from not being able
to close doors makes studying a challenge. Some also felt the academy leadership was
more concerned with appeasing high-ranking officials and the media, than with truly
looking out for the best interests of the cadets.

Although, most female cadets believe the sexual harassment/assault climate is
improving, several felt there were other academy climate issues that also need to be
addressed. One female cadet’s comments captured some of the other climate issues
concerning females at the academy:
                   “I don’t think that the problem is JUST sexual assault/harassment.
                   There are a number of cultural problems that haven’t even been
                   touched upon: drinking culture, religious toleration racial issues. It
                   seems to me that some of the BIG lessons which led to this disaster
                   haven’t been learned. So the jokes in formation have stopped. Does
                   that mean that the cadets don’t think of them or talk about them behind
                   closed doors”. How about religious advertisement around the
                   Academy? A large number of cadets are not Christians, yet we feel
                   like we are bombarded by some subliminal messages about how we
                   should live our spiritual lives. The Air Force is a cross-section of
                   America, to include genders, faiths, socioeconomic backgrounds, races,
                   histories, political beliefs. It seems like the permanent party wants to
                   mold us into the white, Christian, male Republicans that we are not.
                   Why don’t we take a step back and look at the big picture before we
                   jump in and make a number of changes when our chains of command
                   don’t even know what the culture IS. And if Congress is complaining
                   about the culture in the Academies, they should come and visit us,



                                                 48
                   spend some time in the dorms, talk to cadets of ALL backgrounds (ac
                   pro, ICs, club sports, etc). I am sick of taking surveys when they don’t
                   even address the PROBLEM at hand: the real assessment of the
                   ENTIRE culture of the Academies.”

Additionally, there were several comments indicating that female cadets are given
preferential treatment with regard to assignment of cadet leadership/staff positions. Some
commented there was an appearance of an informal quota system. There were also a few
comments indicating that in some instances females received positions on group or wing
staffs based on sexual favors. They stated that while this does not happen often, it occurs
every semester.

Many female cadets made negative comments regarding surveys and briefings. The most
common complaints were that they have to take too many sexual harassment/assault
surveys and they get too many sexual harassment/assault briefings. They have been
inundated with so many, that these tools are losing their impact. Many female cadets
resented that often times, they are the ones targeted for surveys and briefings, while their
male counterparts are not. Many are beginning to view the surveys and briefings as
punishment. Female cadets were embittered that while 100% of the female cadets were
required to participate in this survey, only a representative sample of male cadets was
required to participate. Some have or are beginning to become cynical about the survey
process, and are frustrated that once again they were singled out and made to feel
different.

Several female cadets indicated they knew about or believed that fraudulent allegations of
sexual assault have been made at the academy. Several female cadets stated that some
female cadets use sexual assault reporting exclusively as a tool to get male cadets into
trouble, and that the allegations were completely fabricated. Others made allegations
because they (the victim) had second thoughts after a consensual sexual encounter. They
stated that because of this, victims of a legitimate assault are afraid to come forward
because they will be viewed in the same way.

Many female cadets stated they would not report a sexual assault incident due to the
immediate lack of privacy in the current system. Presently, they are
encouraged/mandated to use the chain of command, and they don’t trust the cadet
leadership to keep the information confidential.




                                                49
50
     IV. USAFA Male Survey Results
This section details the responses of USAFA male cadets concerning values, academy
climate, and personal experiences. We included certain written comments that we
believe are noteworthy to illustrate the respondents’ feelings and beliefs concerning the
survey topics. The information provided reflects 992 survey responses.

     A. Values
Air Force core values are: “Integrity first, Service before self, and Excellence in all we
do.”

We asked the survey participants to select from a list of 18 values,59 the values most
important to their professional life at their academy. Although we asked for the three in
order of importance, when we analyzed the data we believed it would be more
meaningful to express the results as the three values most frequently selected.
Respondents selected integrity, honor, excellence, and respect more than any other values
as the values most important to them. Table 58 reflects a breakdown by class year of the
values most frequently selected.

                          Table 58. Frequency of Values by Class Year
                    Class        1st Most          2nd Most            3rd Most
                    Year      Selected Value    Selected Value      Selected Value
                   2007          Integrity          Honor             Excellence
                                    161               88                   86
                   2006          Integrity          Honor               Respect
                                    132               86                   71
                   2005          Integrity        Excellence            Honor
                                    134               76                   73
                   2004          Integrity          Honor             Excellence
                                    160               80                   70


These figures were computed by adding the frequency that respondents selected each
value while they ranked the values in order of importance to them. This represents the
total number of times a value was selected by respondents either first, second, and third
most important to them.

We also asked the participants based on their experience, to indicate their level of
agreement with various statements regarding the honor code, academy rules and
regulations, honesty, oaths, moral standards, exemplary conduct and leadership standards
and ethical/spiritual/religious beliefs. Table 59 reflects the percentage of responses by
USAFA male cadets:




59
     The values included: Accountability, Achievement, Ambition, Courage, Commitment, Effectiveness,
     Efficiency, Excellence, Friendship, Honor, Integrity, Loyalty to Country, Money, Power, Respect,
     Selfless Service, Spiritual Faith, and Tolerance.



                                                  51
               Table 59. USAFA Male Responses to Values Statements
                                                                           Agree     Disagree
                                                                          Strongly   Strongly
                                                                           Agree     Disagree
      Cadets at my Academy adhere to the Honor Code/Concept,
                                                                           68.9%      20.9%
      even if they know they won’t get caught violating it
      Cadets adhere to significant Academy rules and regulations,
                                                                           53.2%      32.4%
      even if they know they won’t get caught violating them
      Cadets hold other cadets accountable to the Honor
                                                                           64.6%      19.0%
      Code/Concept
      Honesty in all things is expected and reinforced at my
                                                                           84.4%      7.2%
      Academy.
      I am morally obligated to abide by the oath I took to support
      and defend the Constitution of the United States, regardless of      98.4%      0.9%
      the consequences to me
      I have felt pressure from others at my Academy to compromise
                                                                           31.7%      54.5%
      moral standards because of loyalty to friends/peers
      I have felt pressure from others at my Academy to compromise
      moral standards in order to meet academic or training                21.2%      65.9%
      objectives
      Circumstances determine whether it is right or wrong for a
                                                                           23.0%      59.8%
      cadet/midshipman to compromise his or her moral standards
      I am committed to living by moral standards that exceed those
                                                                           93.0%      1.2%
      of society at large
      As a cadet, it is important for me to meet the same exemplary
      conduct and leadership standards required of a commissioned          89.8%      3.7%
      officer
      My commitment to living by exemplary conduct and
      leadership standards has been reinforced by attending the            77.1%      12.8%
      Academy
      I believe commitment to some form of
      ethical/spiritual/religious beliefs is important to an officer’s     80.6%      9.0%
      character
      I am strongly committed to some form of
                                                                           87.1%      4.2%
      ethical/spiritual/religious beliefs about what is right and wrong
      My experiences at the Academy have enhanced my
                                                                           58.3%      21.8%
      commitment to ethical/spiritual/religious beliefs


Adherence to the Honor Code/Concept
Table 60 reflects a breakdown by respondents’ class year of graduation, and illustrates
the statistical projection by class year of those that strongly agree/agree that cadets
“adhere to the honor code/concept, even if they know they won’t get caught violating it.”




                                                52
             Table 60. USAFA Males - Adhere to Honor Code/Concept
                                                                          Statistical
                                                                         Projection of
                             Total Cadets by      Survey Sample
             Class Year                                                Total Cadets that
                               Class Year         by Class Year
                                                                           Strongly
                                                                         Agree/Agree
           2004                    823                  246                   575
           2005                    769                  231                   583
           2006                    769                  244                   542
           2007                    957                  268                   586


USAFA male respondents made the following noteworthy comments that are germane to
the honor code/concept:

              •   Comment one:
                  “The honor code really cannot exist effectively without 100 percent
                  commitment from all cadets. In my time here the athletes have been
                  given extreme preferential treatment on everything, especially the
                  honor code. With this I think the honor code has decayed into
                  something more idealistic than practical, which is troubling since we
                  will all come out of here as 2nd Lt’s.”

              •   Comment two:
                  “Honor Code- is not upheld by majority of cadet wing... more honor
                  briefings will likely not fix this problem.”

              •   Comment three:
                  “There are not a lot of cadets who practice the toleration portion of the
                  honor code. Especially in the IC locker rooms it is almost impossible
                  to turn someone in for honor. Loyalty is more important to IC’s such
                  as my self, and the fact that many people get away with breaking the
                  honor code every day deters people like me from turning people in for
                  committing honor violations.”

We asked respondents to indicate their level of agreement with the statement,
“[c]adets/midshipmen adhere to significant academy rules and regulations, even if they
know they won’t get caught violating them.” Overall, 54.1 percent of male respondents
strongly agreed, or agreed with the statement. Table 61 reflects a break down by
respondent’s year of graduation, and illustrates the projected number of USAFA male
cadets that strongly agree/agree that cadets adhere to significant Academy
rules/regulations, even if they know they won’t get caught violating them.”




                                                53
             Table 61. USAFA Males - Adhere to Significant Academy
                              Rules/Regulations
                                                           Statistical Projection of
             Class    Total Cadets by   Survey Sample
                                                              Total Cadets that
             Year       Class Year      by Class Year
                                                            Strongly Agree/Agree
           2004             823               246                     438
           2005             769               231                     419
           2006             769               244                     394
           2007             957               268                     521


Maintaining Good Order and Discipline
We also asked Cadets for the extent of their agreement or disagreement with how various
behaviors, including honor code violations, gender favoritism, fraternization, dating,
consensual sex, alcohol use, illegal drug use, and pornography disrupts good order and
discipline at their academy. Overall, 83.7 percent of USAFA male respondents agreed
“violating the honor code/concept” disrupts good order and discipline. More than 90
percent of USAFA male respondents agreed “favoritism based on gender” disrupts good
order and discipline. Table 62 reflects results expressed by USAFA male cadets.

              Table 62. Adverse Affects on Good Order and Discipline
                                                                       Agree     Disagree
                                                                      Strongly   Strongly
                                                                       Agree     Disagree
      Violating the honor code/concept                                 83.7%      9.1%
      Not reporting honor code/concept violations                      61.5%      19.9%
      Favoritism based on gender                                       90.8%      3.9%
      Engaging in prohibited relationships/fraternization              65.0%      19.7%
      Cadets dating each other at the same academy                     12.4%      77.4%
      Consensual sex between cadets ON academy grounds                 32.2%      54.5%
      Consensual sex between cadets OFF academy grounds                10.7%      80.1%
      Excessive use of alcohol/drunkenness                             69.4%      16.2%
      Illegal drug use, or the abuse of prescription drugs             91.9%      3.9%
      Viewing pornography or other sexually graphic content (images
                                                                       29.4%       49.3%
      or movies)

Consensual Sex
As indicated in Table 62, overall, 32.2 percent of USAFA male respondents strongly
agreed or agreed that consensual sex between cadets, on Academy grounds disrupts good
order and discipline, while only 10.7 percent indicated the same opinion about consensual
sex between cadets off the installation. Tables 63 and 64 reflect by class year, the
projected number of USAFA male cadets that strongly agree or agree that consensual
sex between cadets, both on or off Academy grounds, disrupts good order and discipline.




                                             54
         Table 63. Consensual Sex Between Cadets ON Academy Grounds
                      Disrupts Good Order and Discipline
                                                                   Statistical
                                                               Projection of Total
                              Total Cadets     Survey Sample
              Class Year                                          Cadets that
                              by Class Year    by Class Year
                                                                    Strongly
                                                                  Agree/Agree
           2004                   823              246                 221
           2005                   769              231                 250
           2006                   769              244                 221
           2007                   957              268                 381


         Table 64. Consensual Sex Between Cadets OFF Academy Grounds
                       Disrupts Good Order and Discipline
                                                                   Statistical
                                                               Projection of Total
                              Total Cadets     Survey Sample
              Class Year                                          Cadets that
                              by Class Year    by Class Year
                                                                    Strongly
                                                                  Agree/Agree
           2004                   823              246                 77
           2005                   769              231                 100
           2006                   769              244                 63
           2007                   957              268                 118


   B. Academy Climate
Gender Preferential Treatment
Around 50 percent of USAFA male respondents indicated agreement that men and
women are treated fairly, overall, and that women receive more favorable treatment.
Table 65 reflects the overall responses of USAFA male respondents.

           Table 65. USAFA Male Gender Preferential Treatment Results
                                                                Agree     Disagree
                                                               Strongly   Strongly
                                                                Agree     Disagree
           Men receive more favorable treatment OVERALL         3.0%       81.5%
           Women receive more favorable treatment
                                                                50.5%      33.0%
           OVERALL
           Men and women are treated fairly OVERALL             49.5%      35.2%


Table 66 reflects a breakdown by class year of graduation and illustrates the statistical
projection of the respondent’s answers indicating strong agreement or agreement that
men are treated more favorably, women are treated more favorably, or men and women
are treated fairly overall.




                                              55
                  Table 66. USAFA Males - Gender Favored Treatment
                                 Overall at USAFA
                                                            Statistical Projection of Total
                                                                Cadets that Strongly
                                                                     Agree/Agree
                               Total         Survey                                  Both
                                                              Men        Women
            Class Year       Cadets by      Sample by                              Treated
                                                            Favored Favored
                             Class Year     Class Year                              Fairly
           2004                 823            246             23         515         314
           2005                 769            231             27         433         360
           2006                 769            244             9          413         353
           2007                 957            268             43         300         628


The results indicate that USAFA male cadets’ opinions that women are treated more
favorably than men overall increases during a cadet’s tenure. The projection indicates
that 515 senior males believe women are treated more favorably, while only 300
freshmen males believe the same. It also appears that the belief that both genders are
treated fairly overall appears to decline the longer the male cadet remains at USAFA.

USAFA male respondents made the following written comments regarding gender
preferential treatment:

              •     Comment one:
                    “I may be going against 20 years here, but women do not belong at the
                    Academy unless they can handle the same standards that men have, i.e.
                    physically”

              •     Comment two:
                    “when higher ups make sure that there are a certain number of females
                    in certain positions, I have a problem with that. because that is giving
                    them an unfair advantage over a guy who is more likely more qualified
                    but not a girl.”

              •     Comment three:
                    “If you want real equality, then change the standards to reflect that.
                    Women will always be treated as second class citizens here because of
                    their institutionalized status as inferior in performance and
                    expectation.”

              •     Comment four:
                    “While men and women, equally make the same caliber of officer, it is
                    in my opinion for training purposes that there should be separate
                    academies for males and females, for the sake of professionalism and
                    training. While I do not doubt both sexes’ ability to work together
                    without problem as commissioned officers, while training to become
                    officers, co-ed academies give rise to problems that retard the process. I
                    feel a better breed of officer of both genders will arise from separate
                    academies”



                                                  56
               •   Comment five:
                   “I think that many times, many of the faculty/cadets try to compensate
                   so much for females, in an attempt to always be politically correct and I
                   suppose, more fair. However, in the end, it just causes the male cadets
                   to view females as “get-overs” receiving preferential treatment (still
                   making it difficult to survive here)”

               •   Comment six:
                   “USAFA is filled with gender based discrimination. Everything from
                   the PFT and AFT, to leadership positions, and even acceptance it set up
                   to give females and advantage over males. This is wrong. The academy
                   has even gone so far to announce their requirements of having females
                   in leadership positions, well far and above the actual percentage even at
                   the academy.”

               •   Comment seven:
                   “I think the only problem that I have seen as a cadet that has influenced
                   me directly is the issue of favoritism. I think females have an unfair
                   advantage in being appointed to positions. My perception is that many
                   times females are appointed to positions of leadership in the wing
                   because they are females. A female who has similar ratings and
                   experience is more likely to be given more opportunity than I will.”

Separation of Genders in Dormitories
USAFA male respondents, when asked whether they agreed or disagreed that cadet
dormitory areas should be physically separated (i.e., different floors or buildings) by
gender, the majority (78.9 percent) indicated cadet dorms should not be physically
separated. USAFA male respondents made the following comments:

               •   Comment one:
                   “The idea that the gender and sexual harassment/assault problems can
                   be dealt with easier by separating the women from the men is a bad
                   idea. Male cadets will not be able to learn how to deal with working
                   with females if the females are kept apart from the males”.

               •   Comment two:
                   “I feel that separating men and women in the dorms is a childish way of
                   dealing with the alleged sexual assault problem at USAFA. This does
                   nothing productive at all. It just segregates us based on our biological
                   differences and detracts from the familial ties that we share in our
                   squadrons”

               •   Comment three:
                   “Clustering female cadets by the bathroom does nothing to protect
                   them, if anything the perpetrure will know exactly where the females
                   are located”




                                                 57
               •   Comment four:
                   “I would say stop segregating the females in the squadrons. It’s
                   breaking down unit cohesion among males and females.”

Understanding of Sexual Harassment, Assault and Related Services
USAFA male respondents were also asked if they understood various aspects of sexual
harassment and sexual assault, to include avoiding risky situations, how to report and
obtain care, counseling, legal services, and the responsibilities of law enforcement and
the chain of command in handling sexual assaults. Almost every USAFA male
respondent indicated understanding the difference between sexual harassment and sexual
assault, and how to avoid situations that increase the risk of sexual assault. Table 67
reflects the USAFA male responses to understanding of sexual harassment, assault, and
related services.

           Table 67. USAFA Male Responses to Understanding of Sexual
                     Harassment, Assault, and Related Services
                                                                       Yes     No
           The difference between sexual harassment and sexual
                                                                       97.2%   0.6%
           assault
           How to avoid situations that might increase the risk of
                                                                       98.5%   0.3%
           sexual assault
           How to report sexual assaults                               93.3%   1.8%
           How to obtain medical care following a sexual assault       90.0%   3.5%
           How to obtain counseling following a sexual assault         93.3%   3.2%
           The services that your Academy’s legal office can provide
                                                                       81.7%   7.9%
           to a victim in response to sexual assault
           General responsibilities of law enforcement and criminal
                                                                       86.2%   5.4%
           investigative agencies in response to sexual assaults
           The role of the chain of command in handling sexual
                                                                       80.6%   8.2%
           assaults
           Where to go if I need additional information on the areas
                                                                       89.8%   3.7%
           above.


Effectiveness of Academy Non Senior Leaders
We asked USAFA male cadets a series of questions regarding cadet leaders and
commissioned officers (Air Officers Commanding) at their Academy, and to indicate the
extent these leaders exhibited the leadership behavior described in the question. Table 68
reflects USAFA male responses.




                                              58
     Table 68. USAFA Male Responses Regarding the Effectiveness of Cadet/
                  Commissioned Officer Non Senior Leaders
                                                              Very    Moder-
                                                                                Not
                                                              Large    ate
                                                                               at all
                                                              Large   Small
      Demonstrate good examples of sound            Cadets
                                                              63.8%   33.7%    1.3%
      moral character                               Leaders
                                                    AOC       72.1%   23.8%    3.1%
      Hold others accountable for their conduct     Cadets
                                                              54.9%   42.0%    1.6%
                                                    Leaders
                                                    AOC       83.0%   14.4%    1.6%
      Promote and safeguard the welfare of          Cadets
                                                              59.6%   35.5%    3.1%
      subordinates                                  Leaders
                                                    AOC       72.0%   22.4%    4.0%
      Create a climate in which sexual              Cadets
                                                              72.8%   23.7%    1.6%
      HARASSMENT is not tolerated                   Leaders
                                                    AOC       86.7%   10.4%    0.9%
      Create a climate in which cadets are          Cadets
                                                              67.0%   27.5%    2.2%
      encouraged to report sexual                   Leaders
      HARASSMENT                                    AOC       82.9%   12.8%    1.2%
      Create a climate in which sexual              Cadets
                                                              88.8%    8.7%    0.7%
      ASSAULT is not tolerated                      Leaders
                                                    AOC       87.8%    8.0%    0.7%
      Create a climate in which cadets are          Cadets
                                                              79.9%   16.2%    1.0%
      encouraged to report a sexual ASSAULT         Leaders
                                                    AOC       85.3%   10.0%    1.1%
      Ensure those who have reported sexual         Cadets
                                                              69.0%   16.5%    1.5%
      harassment/assault are treated with           Leaders
      dignity and respect                           AOC       77.6%   10.7%    1.3%
      Provide an appropriate level of privacy to    Cadets
                                                              66.9%   15.2%    2.5%
      those who have experienced sexual             Leaders
      ASSAULT                                       AOC       74.4%   10.4%    1.7%
      Provide adequate information to cadets        AOC       79.5%   13.5%    1.1%
      about policies, procedures, and
      consequences of sexual ASSAULT


Effectiveness of Senior Leaders and Faculty
We asked USAFA male respondents a series of similar questions about academy senior
leaders (Superintendent, Commandant of Cadets, Vice Commandant, and Dean of
Faculty), and about academy faculty. Table 69 reflects USAFA male responses.




                                               59
             Table 69. USAFA Male Responses Regarding the Effect of
                       Academy Senior Leaders and Faculty
                                                              Very     Moder-
                                                                                Not at
                                                              Large     ate
                                                                                 all
                                                              Large    Small
      Demonstrate good examples of          Senior
                                                              84.2%    12.1%    2.3%
      sound moral character                 Leadership
                                            Academy
                                                              88.9%    10.0%    0.0%
                                            Faculty
      Hold cadets accountable for their     Senior
                                                              90.6%     7.0%    1.4%
      conduct                               Leadership
                                            Academy
                                                              84.2%    14.1%    0.0%
                                            Faculty
      Promote and safeguard the welfare     Senior
                                                              80.1%    14.2%    3.1%
      of subordinates                       Leadership
                                            Academy
                                                              81.8%    14.9%    0.4%
                                            Faculty
      Treat subordinate cadets fairly       Senior
                                                              68.1%    21.0%    7.5%
      regardless of gender                  Leadership
                                            Academy
                                                              77.6%    19.0%    1.8%
                                            Faculty
      Create a climate in which sexual      Senior
                                                              92.2%     5.1%    0.8%
      HARASSMENT is not tolerated           Leadership
                                            Academy
                                                              88.7%     8.1%    0.0%
                                            Faculty
      Create a climate in which sexual      Senior
                                                              93.9%     3.8%    0.7%
      ASSAULT is not tolerated              Leadership
                                            Academy
                                                              89.8%     5.9%    0.0%
                                            Faculty


Sexual Harassment Tolerance
Tables 70 and 71 illustrate the percentage of USAFA male respondents who answered
either, to a very large or large extent academy leaders, to include cadets, Air Officers
Commanding, senior leaders, and faculty, create a climate where “sexual harassment is
not tolerated.” Table 70 reflects USAFA male respondents who answered “yes” to
question 19 (victim of sexual assault).

                    Table 70. Extent that Sexual Harassment is Not
                         Tolerated (Victim of Sexual Assault)
                                                         Very Large/
                                                           Large
                        Cadet Leadership                   76.9%
                        AOC                                76.9%
                        Senior Leadership                  84.6%
                        Faculty                            76.9%


Table 71 reflects USAFA male respondents who answered “no” to question 19 (non-
victim of sexual assault.)




                                             60
                   Table 71. Extent That Sexual Harassment is Not
                      Tolerated (Non-Victim of Sexual Assault)
                                                          Very Large/
                                                          Large Extent
                        Cadet Leadership                     72.9%
                        AOC                                  87.0%
                        Senior Leadership                    92.5%
                        Faculty                              88.9%


USAFA male respondents made the following written comments regarding the Academy
leadership and tolerance of sexual harassment:

               •   Comment one:
                   “I think the senior leadership has done a great job dealing with the
                   current situation. I think there is a positive climate here that
                   encourages professionalism.”

               •   Comment two:
                   “Over the past year, the climate here has gotten much better.
                   Leadership has promoted being aware of exactly what constitutes
                   improper sexual behavior, and the cadets overall have adopted this
                   mindset. I am pleased with the progress we are making.”

               •   Comment three:
                   “The Academy Culture has not changed since I have been here. People
                   still tell offensive and tasteless jokes without hesitation. The Academy
                   was not breeding an environment that supported or encouraged sexual
                   harassment or assault, the Academy is home to 4000 young adults who
                   are living in a society where such behavior goes unnoticed and
                   uncorrected everyday.”

               •   Comment four:
                   “Many male Cadets feel that they are unfairly put upon by the
                   definition of sexual harassment and end up blaming female cadets for
                   administration policy. Many simply do not see what is wrong with
                   making sexist comments or jokes. They think they can be accused of
                   sexual harassment for saying anything a woman does not like, and do
                   not see the problems with their own behavior.”

Sexual Assault Tolerance
Tables 72 and 73 illustrate the percentage of USAFA male respondents who answered
either, to a very large or large extent that academy leaders, to include cadets, Air Officers
Commanding, senior leaders, and faculty create a climate where “sexual assault is not
tolerated.” Table 72 reflects respondents who answered “yes” to question 19 (victim of
sexual assault).




                                                61
                     Table 72. Extent That Sexual Assault is Not
                        Tolerated (Victim of Sexual Assault)
                                                     Very Large/
                                                       Large
                       Cadet Leadership                76.9%
                       AOC                             76.9%
                       Senior Leadership               84.6%
                       Faculty                         84.6%


Table 73 reflects respondents who answered “no” to question 19 (non-victim of sexual
assault).

                      Table 73. Extent that Sexual Assault is Not
                       Tolerated (Non-Victim of Sexual Assault)
                                                     Very Large/
                                                       Large
                       Cadet Leadership                89.2%
                       AOC                             88.1%
                       Senior Leadership               94.2%
                       Faculty                         89.0%


Willingness to Confront and Report Offenders
We asked cadets on the basis of the behavior they observed, to what extent other cadets at
their academy were willing to CONFRONT other cadets who engage in sexual
HARASSMENT, including inappropriate comments and actions; REPORT other cadets
who continue to engage in sexual HARASSMENT after having been previously
confronted; and, REPORT other cadets who commit sexual ASSAULT. Table 74 reflects
USAFA male cadet responses.

         Table 74. USAFA Male Responses Regarding Cadet Willingness to
                        Confront and Report Offenders
                                                      Very
                                                               Moderate     Not
                                                      Large
                                                                Small      at all
                                                      Large
           CONFRONT other cadets who engage in
           sexual HARASSMENT, including               51.0%        41.2%   2.4%
           inappropriate comments and actions
           REPORT other cadets who continue to
           engage in sexual HARASSMENT after          51.9%        37.1%   2.1%
           having been previously confronted
           REPORT other cadets who commit sexual
                                                      73.3%        16.2%   0.8%
           ASSAULT


Personal Loyalties, Barriers to Reporting, and Fraudulent Reporting
We asked cadets the extent they think cadets at their academy: (1) Allow personal
loyalties to affect reporting of sexual assault, (2) Do not report sexual assault out of
concern they or others will be punished for infractions, such as fraternization or underage



                                            62
drinking, and (3) Consider fraudulent reporting of sexual assault incidents to be a
problem at the Academy. Table 75 reflects USAFA male results.

          Table 75. USAFA Male Responses Regarding Personal Loyalties,
                  Barriers to Reporting and Fraudulent Reporting
                                                           Very
                                                                   Moderate       Not at
                                                           Large
                                                                    Small          all
                                                           Large
            Allow personal loyalties to affect reporting
                                                           17.7%       54.2%      15.9%
            of sexual ASSAULT
            Do NOT report sexual ASSAULT out of
            concern they or others will be punished for
                                                           20.7%       48.7%      16.5%
            infractions, such as fraternization or
            underage drinking
            Consider fraudulent reporting of sexual
            ASSAULT incidents to be a problem at the       45.9%       35.2%      10.5%
            Academy


We compared respondents who answered “yes” and “no” to question 19 concerning “Do
NOT report sexual ASSAULT out of concern they or others will be punished for
infractions, such as fraternization or underage drinking.” Respondents were asked to
select “very large extent, large extent, moderate extent, small extent, not at all or no basis
to judge.” For our study, we grouped very large and large extent together, moderate and
small extent together and “other responses” includes “not at all,” and “no basis to judge.”
Table 76 compares USAFA male cadets that answered “yes” and “no” to question 19

          Table 76. Extent That Victims and Non-Victims Do NOT Report
            Sexual Assault - Possible Punishment for Other Infractions
                                       Very Large/         Moderate/
                                                                          Other
                                         Large              Small
                 Victim                  30.8%              30.8%         38.5%
                 Non-Victim              20.6%              49.3%         30.4%


We asked respondents if they “[C]onsider fraudulent reporting of sexual ASSAULT
incidents to be a problem at the academy.” We compared responses of cadets that were a
victim of sexual assault with those that were not. Table 77 illustrates how responses from
victims and non-victims compare.

              Table 77. Extent That Victims and Non-Victims Consider
                       Fraudulent Reporting to be a Problem
                                       Very Large/         Moderate/
                                                                          Other
                                         Large              Small
                 Victim                  53.9%              30.8%         15.4%
                 Non-Victim              45.9%              35.3%         18.8%


USAFA male cadets made the following written comments regarding personal loyalties,
barriers to reporting and fraudulent reporting.



                                                 63
               •   Comment one:
                   “I have specifically heard female cadets say that they would accuse a
                   male cadet of assaulting them when he did nothing, only because they
                   are angry at that male. And then the fact that if they do falsely accuse a
                   male cadet of assault they get amnesty is crap.”

               •   Comment two:
                   “There have been many cases were there were false reportings. Also,
                   the system that is being established now makes it too easy for a female,
                   who consented to sexual activities the night before, to feel guilty and
                   then claim sexual assault, rape, etc. This system also makes every male
                   cadet look like a sexual predator and it also sets the environment where
                   females are favored (constantly) over males.”

               •   Comment three:
                   “It seems as though some of the information we are given leads to the
                   belief that some of the cases reported are based on claiming something
                   in order to get out of other violations that they committed The recent
                   changes in the system here do not seem to be resulting in positive
                   change but resulting in a sense of bitterness.”

Willingness to Report to Various Agencies
We asked cadets about their willingness to report a personal experience of sexual assault
to a variety of individuals/agencies. They were asked to select either “yes,” “no,”
“uncertain,” or “service not available.” Although respondents were only asked about
their willingness to report to various agencies, their responses allowed us to rank order
them in terms of the number of “yes” responses. USAFA male respondents were most
willing to report to Academy Chaplain/Clergy. Second highest was installation medical
personnel. Figure 2 depicts individual/agency ranking from USAFA male cadets.




                                                 64
         Figure 2. Individual/Agency Ranking Among USAFA Male Cadets

                                                                                                                         USAFA Male Cadets


      90%




                             84%

                                                  80%
      80%




                                                                       73%

                                                                                         71%

                                                                                                                   71%

                                                                                                                                71%

                                                                                                                                                70%

                                                                                                                                                                        69%
      70%




                                                                                                                                                                                                 67%

                                                                                                                                                                                                                  65%

                                                                                                                                                                                                                                  58%
      60%




                                                                                                                                                                                                                                                      54%

                                                                                                                                                                                                                                                                    48%

                                                                                                                                                                                                                                                                                   47%
      50%
      40%
      30%
      20%




                                                                                                                                                                                                                                                                                                 12%
      10%
       0%


                                                                                                                         MCIO




                                                                                                                                                                                                                                                            DoDIG
                                   Inst Medical




                                                                                                                                                                                                                                        Cadet Chain
                                                                                               Peer Rsc [not MA]




                                                                                                                                                                                                                                                                          Svc IG
                                                                                                                                                                              ART [USAFA only]




                                                                                                                                                                                                                                                                                         Other
                                                                                                                                                                                                                        Acad IG
                                                                                                                                      Faculty
                                                                             Off Chain
             Acad Chaplain




                                                        Acad Hotline




                                                                                                                                                      Acad Counseling




Sexual Harassment                                                                                                                                                                                      Security
We asked cadets about sexual talk and/or behaviors that were uninvited and unwanted,
and which they did not willingly participate. They were asked “SINCE JUNE OF 2003,
how frequently have you been in situations where persons assigned to your Academy
(i.e., cadets/midshipmen and/or other military or civilian personnel working at your
Academy),” (emphasis in original) followed by a series of behaviors listed in Table 78.
The respondents were asked to indicate the frequency they experienced these behaviors,
ranging from never, once or twice, several times, often and very often. The most
frequent behavior experienced often or very often by male USAFA respondents is
“Repeatedly told stories or jokes of a sexual nature that were offensive to you.” Table 78
reflects the responses of USAFA male respondents indicating the percentages they
experienced the listed behaviors often or very often.




                                                                                                                                                65
            Table 78. Percentage of Male Cadets Indicating Occurrence
                     of Listed behaviors Often or Very Often.
                                                                         Often/Very
                                                                           Often
           Repeatedly told stories or jokes of a sexual nature that
                                                                           5.0%
           were offensive to you
           Made unwelcome attempts to draw you into a discussion of
           sexual matters (for example, attempted to discuss or            2.3%
           comment on your sex life)
           Made offensive remarks about your appearance, body, or
                                                                           2.1%
           sexual activities
           Made gestures or used body language of a sexual nature
                                                                           1.2%
           that embarrassed or offended you
           Made unwanted attempts to establish a romantic sexual
                                                                           0.4%
           relationship with you despite your efforts to discourage it
           Continued to ask you for dates, drinks, dinner, etc, even
                                                                           0.4%
           though you said “No”
           Made you feel like you were being bribed with some sort of
                                                                           0.2%
           reward or special treatment to engage in sexual behavior
           Made you feel threatened with some sort of retaliation for
           not being sexually cooperative (for example, by mentioning      0.2%
           an upcoming review or evaluation)
           Touched you in a way that made you feel uncomfortable           0.4%
           Treated you badly for refusing to have sex                      0.3%
           Implied better assignments or better treatment if you were
                                                                           0.2%
           sexually cooperative


The behavior most experienced by USAFA male respondents is “Touched you in a way
that made you feel uncomfortable.” Only 4.7 percent of USAFA male respondents
indicated that since June 2003, they never experienced this behavior. Table 79 reflects
the percentages of USAFA male respondents that never experienced the listed behaviors.




                                               66
              Table 79. Percentage of USAFA Male Cadets that Never
                          Experienced Listed Behaviors
                                                                             Never
                         Uninvited Unwanted Behavior
                                                                           Experienced
        Repeatedly told stories or jokes of a sexual nature that were
                                                                             63.3%
        offensive to you
        Made unwelcome attempts to draw you into a discussion of
        sexual matters (for example, attempted to discuss or comment on      76.0%
        your sex life)
        Made offensive remarks about your appearance, body, or sexual
                                                                             80.6%
        activities
        Made gestures or used body language of a sexual nature that
                                                                             80.4%
        embarrassed or offended you
        Made unwanted attempts to establish a romantic sexual
                                                                             94.3%
        relationship with you despite your efforts to discourage it
        Continued to ask you for dates, drinks, dinner, etc, even though
                                                                             96.4%
        you said “No”
        Made you feel like you were being bribed with some sort of
                                                                             98.2%
        reward or special treatment to engage in sexual behavior
        Made you feel threatened with some sort of retaliation for not
        being sexually cooperative (for example, by mentioning an            98.5%
        upcoming review or evaluation)
        Touched you in a way that made you feel uncomfortable                4.7%
        Treated you badly for refusing to have sex                           98.5%
        Implied better assignments or better treatment if you were
                                                                             98.6%
        sexually cooperative


Table 80 reflects responses of USAFA male cadets that answered “yes” to question 19
regarding the frequency that they experienced unwanted/uninvited sexual talk or
behavior. Table 81 reflects the responses of USAFA male cadets that answered “no” to
question 19.




                                              67
 Table 80. Frequency of Unwanted/Uninvited Sexual Talk or
            Behavior (Victim of Sexual Assault)
                                            Once
                                                    Several           Very
                              Never          or               Often
                                                    Times             Often
                                            Twice
Repeatedly told stories or
jokes of a sexual nature      53.85%    15.38%      15.38%    0.00%   15.38%
that were offensive to you
Made unwelcome
attempts to draw you into
                              50.00%    25.00%      16.67%    0.00%   8.33%
a discussion of sexual
matter
Made offensive remarks
about your appearance,        61.54%    23.08%      0.00%     7.69%   7.69%
body, or sexual activities
Made gestures or used
body language of a sexual
                              61.54%    15.38%      7.69%     7.69%   7.69%
nature that embarrassed
or offended you
Made unwanted attempts
to establish a romantic
sexual relationship with      69.23%    15.38%      7.69%     0.00%   7.69%
you despite your efforts to
discourage it
Continued to ask you for
dates, drinks, dinner, etc,
                              76.92%    15.38%      0.00%     0.00%   7.69%
even though you said
“No”
Made you feel like you
were being bribed with
some sort of reward or        76.92%    15.38%      0.00%     0.00%   7.69%
special treatment to
engage in sexual behavior
Made you feel threatened
with some sort of
                              84.62%        7.69%   0.00%     0.00%   7.69%
retaliation for not being
sexually cooperative
Touched you in a way
that made you feel            15.38%    69.23%      0.00%     0.00%   15.38%
uncomfortable
Treated you badly for
                              84.62%        0.00%   7.69%     0.00%   7.69%
refusing to have sex
Implied better
assignments or better
                              84.62%        7.69%   0.00%     0.00%   7.69%
treatment if you were
sexually cooperative




                                       68
           Table 81. Frequency of Unwanted/Uninvited Sexual Talk or
                    Behavior (Non-Victim of Sexual Assault)
                                                     Once
                                                               Several              Very
                                          Never       or                   Often
                                                                Times               Often
                                                     Twice
          Repeatedly told stories or
          jokes of a sexual nature       63.76%      23.72%     7.60%     3.70%     1.23%
          that were offensive to you
          Made unwelcome attempts
          to draw you into a             76.88%      16.24%     4.62%     1.85%     0.41%
          discussion of sexual matter
          Made offensive remarks
          about your appearance,         81.40%      12.74%     3.91%     1.64%     0.31%
          body, or sexual activities
          Made gestures or used
          body language of a sexual
                                         81.61%      14.36%     3.00%     0.93%     0.10%
          nature that embarrassed
          or offended you
          Made unwanted attempts
          to establish a romantic
          sexual relationship with       95.46%      3.61%      0.62%     0.10%     0.21%
          you despite your efforts to
          discourage it
          Continued to ask you for
          dates, drinks, dinner, etc,    97.23%      2.26%      0.21%     0.00%     0.31%
          even though you said “No”
          Made you feel like you
          were being bribed with
          some sort of reward or         99.48%      0.31%      0.10%     0.00%     0.10%
          special treatment to
          engage in sexual behavior
          Made you feel threatened
          with some sort of
                                         99.59%      0.31%      0.00%     0.00%     0.10%
          retaliation for not being
          sexually cooperative
          Touched you in a way that
          made you feel                   4.62%      94.46%     0.72%     0.00%     0.21%
          uncomfortable
          Treated you badly for
                                         99.49%      0.31%      0.00%     0.00%     0.21%
          refusing to have sex
          Implied better assignments
          or better treatment if you     99.79%      0.10%      0.00%     0.00%     0.10%
          were sexually cooperative


USAFA male respondents made the following written comments regarding unwanted
uninvited sexual talk or behavior:

             •    Comment one:
                  “I marked “never” for everything in question 17. However, there is not
                  a day that goes by where I do not hear a joke that is sexually explicit in
                  nature”




                                                69
              •     Comment two:
                    “The Academy Culture has not changed since I have been here. People
                    still tell offensive and tasteless jokes without hesitation.”

              •     Comment three:
                    “The only things of a sexual nature I experience here at the Academy
                    are the sexual jokes and comments made by my classmates which I
                    must admit are quite frequent.”

              •     Comment four:
                    “In my class there is a lot of “good gaming” (butt pats) as a sort of joke
                    on the whole sexual harassment issue at hand. Other things, such as a
                    “C-C slide” (where a hand is slid like a credit card in the crack) also
                    occur. At first I found this extremely offensive, yet now I associate it
                    more with the way things are, and it really doesn’t seem so atrocious
                    anymore.”

We asked cadets how many of the listed behaviors they marked as happening to them
they considered sexual harassment. Table 82 reflects the responses of USAFA male
cadets.

                  Table 82. USAFA Male Responses to Behaviors They
                          Considered to be Sexual Harassment
                                                                            Percentage
                  None were sexual harassment                                 39.3%
                  Some were sexual harassment                                  8.3%
                  Most were sexual harassment                                  1.8%
                  All were sexual harassment                                   3.2%
                  Does not apply (I marked “NEVER” in every item
                                                                               46.7%
                  in question #17)


Table 83 reflects USAFA male responses broken down by those who answered “yes” to
question 19 and those who answered “no” (Victim versus Non-Victim of sexual assault).

         Table 83. USAFA Male Responses to Behaviors They Considered
      to be Sexual Harassment (Victim Versus Non-Victim of Sexual Assault)
                                                                                     Non-
                                                                       Victims
                                                                                    victims
           None were sexual harassment                                 46.2%        39.5%
           Some were sexual harassment                                 30.8%         8.0%
           Most were sexual harassment                                  0.0%         1.9%
           All were sexual harassment                                   0.0%         3.3%
           Does not apply (I marked “NEVER” in every item
                                                                       23.0%        47.3%
           in question #17)
           Total                                                        100%        100%




                                                  70
   C. Sexual Assault Incidents at the Academy
This section details the results of the survey concerning the scope of sexual assault
incidents at the academy. The respondents were asked to answer “yes” or “no” to the
following question: “[S]ince becoming a cadet, has someone done any of the following to
you without your consent and against your will?” The answer choices included:

               •     “Touched, stroked, or fondled your private parts;

               •     Physically attempted to have sexual intercourse with you, but was not
                     successful;

               •     Physically attempted to have oral or anal sex with you, but was not
                     successful;

               •     Had sexual intercourse with you;
               •     Had oral sex with you; and,

               •     Had anal sex with you.”

A total of 13 male respondents answered, “yes” to the question; however, only 12 cadets
provided incident data. Table 84 reflects USAFA male cadets that experienced incidents
involving the above-described behavior. The respondents were instructed to check all
behaviors that applied for each incident. Therefore, the number of behaviors indicated
may exceed the total incidents listed.

            Table 84. Scope of Recent Incidents Involving Male USAFA
                             Respondents as Victims
                    Experienced behavior against will without consent     Number
                   Total Incidents                                        12
                   Touched, stroked, or fondled privates only             10
                   Touched, stroked, or fondled privates in conjunction
                                                                          1
                   with other listed behavior(s)
                   Attempted sexual intercourse                           1
                   Attempted oral or anal sex                             0
                   Had sexual intercourse                                 1
                   Had oral sex                                           0
                   Had anal sex                                           0
                   Missing Data                                           1

Tables 85.a through 85.c list when these incidents occurred, by calendar year, semester,
and the cadet’s status/rank. If the cadet selected summer “semester”, it assumes that
graduation has occurred and the cadet rose to the next rank. All cadets did not answer
question 20A completely. Where that occurred, “Missing Data” is listed in the table as
an unknown response.




                                                 71
         Table 85.a. USAFA Males Calendar Year When Incident Occurred
                                2001
                                                                                Missing
                                and       2002       2003         2004*                         Total
                                                                                 Data
                               Earlier
               Incident          2         1            6                3          0             12
                          * 3-4 month period: January-March/April 2004

           Table 85.b. USAFA Males Semester When Incidents Occurred
                                                                                Missing
                                   Fall        Spring         Summer                            Total
                                                                                 Data
                Incident             4           6                   1            1               12

        Table 85.c. Status of USAFA Male Cadet When Incidents Occurred
                                                                             BCT/       Missing
                          Fresh    Soph        Junior       Senior                                     Total
                                                                             PLB         Data
           Incident        3         4           2            1               1           1             12

The Offenders
We asked USAFA male cadets to describe the actions taken by the offender. The actions
were not defined for the respondents; they used their own discretion when responding.
Table 86 describes these actions. The respondents were instructed to check all behaviors
that apply.

                            Table 86. USAFA Males - Actions of
                                   Offenders by Incident
                                                                                        Number of
                                          Act
                                                                                         Actions
                Touched, stroked, or fondled your private
                                                                                           11
                parts?
                Physically attempted to have sexual intercourse
                                                                                            1
                with you, but was not successful?
                Physically attempted to have oral or anal sex
                                                                                            0
                with you, but was not successful?
                Had sexual intercourse with you?                                            1
                Had oral sex with you?                                                      0
                Had anal sex with you?                                                      0
                Missing Data                                                                1


The respondents provided location information for all 12 sexual assault incidents. Of the
12 sexual assault incidents, 9 occurred on the installation, of which all 9 happened in the
dormitory. A single offense occurred “Off installation at an Academy-sponsored event,”
and two occurred “Off installation and NOT at an Academy-sponsored event.”

Fellow cadets were the main offender group; none were cadets who were senior to the
victim, 11 were cadets in the same class or below. Table 87 reflects the breakdown of
offenders by category.




                                                     72
                  Table 87. USAFA Males – Category of Offenders
                                       Category                    Total
                Cadet who was senior to me                          0
                Cadet who was in same class as me or below          11
                Military faculty or staff member                    0
                Civilian faculty or staff member                    0
                Military person NOT assigned to your academy        0
                Civilian person NOT assigned to your academy        1
                Unidentified person                                 0
                Missing Data                                        0
                Total                                               12


A total of 2 respondents indicated multiple offenders assaulted them, and 10 respondents
indicated they were not assaulted by multiple offenders. Cadets in the “same class or
below” as the victim, was the only offender group for the two multiple offender incidents.

Reporting of Sexual Assault Incidents
Of the 12 sexual assault incidents recorded by respondents, 10 incidents were not
reported to anyone, 1 respondent indicated reporting to a peer resource and 1 reported to
Academy chaplain/clergy. A total of 2 cadets indicated the incident was not serious
enough to report and 1 cadet respondent did not provide data.

Reprisal for Reporting Sexual Assaults
Cadets who answered, “yes” to question 19, were asked if anyone in a position of
authority retaliated against them for reporting an incident. Retaliation was defined as
“unwarranted punishment, demotion, or withholding a favorable duty position. None of
the USAFA male cadets indicated any reprisal or repercussions for reporting incidents of
sexual assault.

We then asked respondents if they experienced “any OTHER repercussions for reporting
this incident.” The choices included: Ostracism, harassment, or ridicule from other
cadets both in and not in their chain of command, ostracism, harassment, or ridicule from
academy staff or faculty members, and other significant repercussions. USAFA male
respondents did not indicate any other repercussions for reporting a sexual assault
incident.

Reporting to MCIO/Law Enforcement Agency
According to respondents, no criminal investigations were conducted in regards to any of
the sexual assault incidents. When asked why a criminal investigation wasn’t conducted,
10 respondents did not answer the question and the 2 indicated the incidents were not
reported to law enforcement officials. Even though no incidents were reported to law
enforcement, one USAFA male respondent indicated dissatisfaction with an MCIO. A
respondent provided a comment expressing dissatisfaction with [AF]OSI, yet that
respondent had not selected either “Dissatisfied” or “Very Dissatisfied.”

A USAFA male respondent commented, “AFOSI has a reputation for incriminating
victims with other offenses. Never used them, …”

Table 88 indicates USAFA male respondents’ reasons for not reporting sexual assault
incidents (Respondents were able to check all that apply.)



                                            73
                       Table 88. Reasons for not reporting by Incident
                                                                              Number of
                                         Reasons
                                                                              Incidents
              Does not apply, I reported it                                       0
              It was not serious enough to report                                 8
              I handled it myself                                                 6
              I thought I would be labeled a trouble maker                        1
              I thought nothing would be done                                     1
              Threatened with some form of retaliation                            0
              Not threatened with retaliation, but feared some form of
                                                                                  1
              retaliation
              Feared ostracism, harassment, or ridicule by peers                  1
              Feared loss of friends                                              1
              Feared I or others would be punished for
                                                                                  1
              infractions/violations (such as underage drinking)
              Feared public disclosure of the assault                             1
              Feared my parents/family would find out                             1
              Pressured by someone in position of authority                       0
              Feared my boyfriend/girlfriend would find out                       0
              Shame/embarrassment                                                 2
              Feared other repercussions                                          0
              Feared people would not believe me                                  2
              Not aware of reporting procedures                                   0
              I thought I could deal with it myself                               4
              Other (Explain)60                                                   2
              Missing Data                                                        1


Satisfaction with Individuals/Agencies by Incident
We asked respondents to report their level of satisfaction with the following individuals
or agencies in regard to their handling of their incident. Even though no respondents
indicated they reported incidents to anyone other than the chaplain/clergy and peer
resources, data was provided regarding respondent satisfaction with agencies that were
not identified as being involved in the reporting process. Table 89 reflects how satisfied
USAFA male respondents were.




60
     Both cadets handled it themselves and did not feel the need to report.



                                                     74
       Table 89. Satisfaction With Individuals/Agencies Handling of Incident
                                                                         N/A or I   Missing
                                                               Very
                          Very                     Dis-                   did not    Data
        Agency           Satisfied
                                     Satisfied
                                                 satisfied
                                                               Dis-
                                                                            use
                                                                                              Total
                                                             satisfied
                                                                         Resource
  Investigative
  Agencies (OSI/CID/        0           0           0           1          10         1        12
  NCIS)
  Military lawyers
                            0           0           0           1          10         1        12
  handling your case
  Victim Witness
                            0           0           0           1          10         1        12
  Assistance
  SAVI Advocate/
  Coordinator or
  Academy Response          0           0           0           1          10         1        12
  Team (ART)
  [N/A for West Point]
  Academy
  Counseling or             1           0           0           1           9         1        12
  Development Center
  Peer Resource
  (CASIE Rep/SAVI
                            1           0           0           1           9         1        12
  GUIDE)[N/A for
  West Point]
  Chain of Command          0           1           0           1           9         1        12


   D. General Comments
Many male cadets responded that female cadets at the academy are given “extra rights”
versus “equal rights.” They do not think it is fair that females receive a disproportionate
number of the cadet leadership positions. The USAFA males’ comments indicate that
females are given preferential treatment and are not held to the same standards as the
male cadets, especially in regard to physical fitness standards. Male cadets indicated that
a large part of the reason that males feel resentment towards females is because they are
given special treatment. Females are powerful; one accusation, truthful or not, can ruin a
male cadet’s career.

Male cadets believe that more emphasis is placed upon prosecuting male cadets accused
of sexual assault, rather than finding the truth behind the accusation. Many think there
are many cases of fraudulent reporting of sexual assault and that the accused suffer
irreparably, even when accusations are unfounded or proven false. They responded that
the senior leadership is at the mercy of Congress and the media, and they are afraid to
treat fairly any male accused of sexual assault. Male cadets think that when it is a case of
“he said, she said” and no other evidence exists, female cadets are given the benefit of the
doubt and the male cadet suffers.

A recurring theme throughout the comments was that female cadets often lie or
exaggerate the circumstances of an incident in order to protect themselves from getting
into trouble or to save face for inappropriate actions they may have taken. Male cadets
also stated that female cadets have more freedom than do male cadets. They are able to
speak freely without fear that their comments will be taken out of context and they will
be accused of sexual harassment. Many believe that females can “get away with more”
or use their gender to their advantage. One USAFA male cadet stated, “SOME females


                                                  75
here think that because of their gender they can claim they have ‘personal problems’ and
get out of anything.”

The Honor Code was discussed repeatedly throughout the cadets’ comments. Most
thought having an Honor Code is good, and the Honor Code is a very good guideline to
structure their behavior, but they were concerned about the tolerance clause. They
believe reporting their fellow cadets for minor infractions will label them as “a snitch and
pariah,” while by not reporting would mean breaking the code themselves. They think
they are in a no win situation. One cadet stated,
                   “I think if you see someone breaking the code, why not talk to them
                   and see if you can change their behavior on a low level, rather than
                   bringing them up in front of an honor board. Toleration destroys the
                   concept of team that was created in basic training as you become more
                   susceptible to ignore your teammates rather than help them overcome
                   obstacles.”

Several USAFA male respondents indicated that the Officer Development System was an
improvement, training is more effective, and things are getting better at the Academy.
They like the idea of being able to provide corrective action at the lowest level in cadet
disciplinary situations. Many expressed frustration when cadets rendered corrective
actions, only to be overruled by the AOC and “made to” reissue more stringent
disciplinary actions. Additionally, several stated that the Academy leadership sometimes
reverts back to the “old system” instead of ODS when things do not work perfectly using
the new system.

Male cadets thought that the topic of sexual assault/harassment has been beaten into the
ground. They received the message loud and clear that sexual assault will not be
tolerated. They believe a “few bad apples” are making it extremely difficult for the male
cadet populace. They are not all “rapists,” yet many think the media portrays them as
such. They believe the Air Force senior leadership and Academy senior leadership is
over reacting and making decisions based on what would be popular with the media and
Congress. They are reluctant to interact with female cadets for fear of being accused of
sexual harassment. Many resent the barrage of briefings and surveys they are given and
complained the academy has reached overkill.

Comments regarding changing the fourth class system were numerous. Many cadets
indicated that fourth-class training was an important part of the academy tradition. The
old training instilled esprit de corps and fostered teamwork. It taught cadets how to deal
with tough, stressful situations and provided them with valuable leadership tools. They
were extremely upset that the old system was eliminated. They commented that the
“Class of 2007” is immature and lacks respect. They indicated that the removal of the
forth class system has not helped change the environment for the better, but has removed
a great deal of the esprit de corps and created a lack of overall respect in the current
fourth class (Apr 2007). It was noted by several cadets that many notable Air Force
officers, such as Lance Sijan, cited their fourth-class training rigors as the basis for their
ability to survive in extremely stressful situations.

Many male cadets commented about the requirement to leave dorm rooms open at a 90-
degree angle when a member of the opposite sex is present in the room and the restriction
not to sit on the same horizontal surface. They did not see this as a deterrent to sexual
assault, because those who follow the rules weren’t the ones committing sexual assault.
They view both of these rules as being “treated like children.” One cadet commented
“treat us like monkeys and we’ll act like them.” They think the open door policy violates


                                               76
their basic privacy. Their dorm room is their home, not just their “place of business.”
They believe that these rules are extreme and prove to be detrimental to the academy life
instead of improving it. Many think that they should be able to close their doors when
they have a guest, be able to sit on the same horizontal surface, and be treated as
responsible adults.

They described distrust of the AOCs. Numerous cadets thought that group and squadron
AOCs treat the cadets as stepping-stones to make the next rank, and by doing so, the
morale of cadets is extremely low. Cadets stated that AOCs have lied to them and they
fail to uphold the same standards that they enforce upon cadets. One cadet stated “during
ODS lessons, we were taught skills that are violated by the AOCs and MTLs placed in
charge of us.” The “skill” references were to not punish a group based on the actions of a
few. Respondents indicated, AOCs need to be held to higher standards of confidentiality
and if confidentially is broken, they should be held accountable. Cadets think that there
is little trust between the cadet and their AOC. They believe that the AOC should be
more willing to put themselves on the line for them.

Several male cadets indicated that the selection standards for the academy were too lax.
They think there is a substantial gap between the screening of cadets when it comes to
recruiting the best athletes possible. They believe it is wrong to have recruited athletes
who are accepted to the academy, without having to go through interviews and the
normal acceptance process. In the male cadets’ opinion, the intercollegiate athletes
should be held to the same fundamental academic standards as all other entrants.
Appointees should be accepted because they have the potential to become good officers,
not just because they are good athletes.

Many cadets expressed their satisfaction with the Academy’s dealing with the recent
“sexual assault scandal” and they think the leadership is doing a good job. They believed
the new leadership is doing an excellent job enforcing standards and improving
professionalism. Leadership has raised awareness to a new level. One cadet said “sexual
assault/harassment briefings have been beat into cadets’ heads so much that it is irritating,
but I think it is working.”

There were several comments that women do not belong at USAFA. With the
elimination of females, the problem of sexual assault/harassment would be eliminated.
One cadet stated, “the only way to remove the gender disparity is to remove women from
the USAFA period.” There were also several comments from cadets indicating they were
sick of taking surveys and providing comments when “no one is going to read them
anyway.” They stated surveys such as this “are a bother.”




                                             77
78
     V.       USMA Female Survey Results
This section details the responses of USMA female cadets concerning values, academy
climate, and personal experiences. We included certain written comments that we
believe are noteworthy to illustrate the respondent’s feelings and beliefs concerning the
topics studied in the survey. When respondents were asked to indicate their level of
agreement in numerous survey questions, their choices were: “strongly agree; agree; no
opinion; disagree; and strongly disagree.” The information provided reflects the
responses of 601 survey respondents.

     A. Values
Army values are: “Loyalty, Duty, Respect, Selfless Service, Honor, Integrity, and
Personal Courage.”

We asked the survey participants to select from a list of 18 values,61 the values most
important to their professional life at their academy. Although we asked for the three in
order of importance, when we analyzed the data we believed it would be more
meaningful to express the results in terms of the three values based on the frequency
selected. Respondents selected Integrity, Respect, Honor, and Selfless Service more than
any of the other values as the values most important to them. Table 90 reflects a
breakdown by class year of the three values most frequently selected.

                         Table 90. Frequency of Values by Class Year
                                 1st Most                            3rd Most Selected
                      Class                         2nd Most
                                 Selected                                 Value
                      Year                       Selected Value
                                  Value
                     2007        Integrity          Honor                 Respect
                                76 (12.6%)        67 (11.1%)             59 (9.8%)
                     2006        Integrity          Respect                Honor
                                64 (10.6%)         55 (9.1%)             47 (7.8%)
                     2005        Integrity       Honor/Respect        Selfless Service
                                71 (11.8%)         48 (7.9%)             42 (6.9%)
                     2004        Integrity          Honor                 Respect
                                84 (13.9%)        61 (10.1%)             56 (9.3%)


These figures were computed by adding the frequency each value was selected by
respondents while they ranked the values in order of importance to them. So in essence
this represents the total number of times a value was selected by respondents while they
ranked them in order of importance as first, second and third most important to them.

We also asked the participants, based on their experience, to indicate their level of
agreement62 with various statements regarding the honor code, academy rules and

61
     The values included: Accountability, Achievement, Ambition, Courage, Commitment, Effectiveness,
     Efficiency, Excellence, Friendship, Honor, Integrity, Loyalty to Country, Money, Power, Respect,
     Selfless Service, Spiritual Faith, and Tolerance.
62
     The results reflected the combined results of those indicating “agree/strongly agree” and
     “disagree/strongly disagree.”



                                                     79
regulations, honesty, adherence to oaths, moral standards, exemplary conduct and
leadership standards, and ethical/spiritual/religious beliefs. Table 91 reflects the
percentage of responses by USMA female cadets:

              Table 91. USMA Female Responses to Values Statements
                                                                      Agree     Disagree
                                                                     Strongly   Strongly
                                                                      Agree     Disagree
           Cadets at my Academy adhere to the Honor
           Code/Concept, even if they know they won’t get             74.4%      17.6%
           caught violating it
           Cadets adhere to significant Academy rules and
           regulations, even if they know they won’t get caught       40.9%      48.1%
           violating them it them
           Cadets hold other cadets accountable to the Honor
                                                                      76.9%      8.9%
           Code/Concept
           Honesty in all things is expected and reinforced at
                                                                      89.7%      4.2%
           my Academy.
           I am morally obligated to abide by the oath I took to
           support and defend the Constitution of the United          96.7%      1.2%
           States, regardless of the consequences to me
           I have felt pressure from others at my Academy to
           compromise moral standards because of loyalty to           30.0%      55.2%
           friends/peers
           I have felt pressure from others at my Academy to
           compromise moral standards in order to meet                16.3%      74.5%
           academic or training objectives
           Circumstances determine whether it is right or
           wrong for a cadet to compromise his or her moral           23.8%      60.4%
           standards
           I am committed to living by moral standards that
                                                                      93.8%      1.3%
           exceed those of society at large
           As a cadet, it is important for me to meet the same
           exemplary conduct and leadership standards                 95.0%      1.5%
           required of a commissioned officer
           My commitment to living by exemplary conduct and
           leadership standards has been reinforced by                82.5%      8.2%
           attending the Academy
           I believe commitment to some form of
           ethical/spiritual/religious beliefs is important to an     87.5%      5.7%
           officer’s character
           I am strongly committed to some form of
           ethical/spiritual/religious beliefs about what is right    94.0%      2.0%
           and wrong
           My experiences at the Academy have enhanced my
                                                                      67.7%      16.0%
           commitment to ethical/spiritual/religious beliefs


Adherence to the Honor Code/Concept
As indicated in Table 91, overall 74.4 percent of the respondents strongly agreed or
agreed that cadets adhere to the honor code/concept, even if they know they won’t get
caught violating it. Table 92 reflects a breakdown by respondents’ class year of
graduation, and illustrates the percentage of those that strongly agree/agree that cadets
adhere to the honor code/concept, even if they know they won’t get caught violating it.


                                                 80
                      Table 92. Adhere to Honor Code/Concept
                              Class Year              Strongly Agree/Agree
                       2004                                  80.6%
                       2005                                  74.1%
                       2006                                  67.8%
                       2007                                  75.6%


A USMA female respondent made the following comment germane to the honor
code/concept:
                  “The Honor Code/Rules and regulations system at West Point is an
                  excellent system, unfortunately it is not perfect. It is not as effective as
                  it could be because of the attitude of cadets. Cadets profess to abide by
                  the code, but they do not uphold the standard even in large areas (i.e.-
                  sex in the barracks).”

We asked respondents to indicate their level of agreement with the statement, “Cadets
adhere to significant academy rules and regulations, even if they know they won’t get
caught violating them.” Overall, 40.9 percent of female respondents strongly agreed, or
agreed with the statement. Table 93 reflects a breakdown by respondents’ year of
graduation, and illustrates the percentage of those that strongly agree/agree that cadets
adhere to significant academy rules/regulations, even if they know they won’t get caught
violating them.

                       Table 93. Adhere to Significant Academy
                                  Rules/Regulations
                              Class Year              Strongly Agree/Agree
                       2004                                  52.0%
                       2005                                  39.8%
                       2006                                  34.2%
                       2007                                  36.8%

Maintaining Good Order and Discipline
We asked cadets the extent of their agreement or disagreement with various aspects of
behaviors, including honor code violations, gender favoritism, fraternization, dating,
consensual sex, alcohol use, illegal drug use, and pornography would disrupt good order
and discipline at their academy. Overall, 91.1 percent of USMA female respondents
agreed “violating the honor code/concept” disrupts good order and discipline. Over 93
percent of USMA female respondents agreed “favoritism based on gender” disrupts good
order and discipline. Table 94 reflects the results expressed by female cadets.




                                                 81
              Table 94. Adverse Affects on Good Order and Discipline
                                                          Agree           Disagree
                                                         Strongly         Strongly
                                                          Agree           Disagree
           Violating the honor code/concept               91.2%             5.8%
           Not reporting honor code/concept
                                                          68.6%            15.8%
           violations
           Favoritism based on gender                     93.7%            3.8%
           Engaging in prohibited
                                                          66.4%            18.5%
           relationships/fraternization
           Cadets dating each other at the same
                                                          4.0%             90.5%
           academy
           Consensual sex between cadets ON
                                                          42.9%            39.6%
           academy grounds
           Consensual sex between cadets OFF
                                                          8.7%             82.5%
           academy grounds
           Excessive use of alcohol/drunkenness           83.2%            8.3%
           Illegal drug use, or the abuse of
                                                          93.3%            4.0%
           prescription drugs
           Viewing pornography or other sexually
                                                          54.1%            25.1%
           graphic content (images or movies)

Consensual Sex
As indicated in Table 94, overall, 42.9 percent of USMA female respondents strongly
agreed or agreed that consensual sex between cadets, on academy grounds disrupts good
order and discipline, while only 8.7 percent indicated the same opinion about consensual
sex between cadets off the installation. Tables 95 and 96 reflect by class year, the
percentage of respondents that strongly agree or agree that consensual sex between
cadets, either on or off Academy grounds, disrupts good order and discipline.

         Table 95. Consensual Sex Between Cadets ON Academy Grounds
                      Disrupts Good Order and Discipline
                              Class Year           Strongly Agree/Agree
                       2004                               51.3%
                       2005                               34.2%
                       2006                               30.8%
                       2007                               53.1%


         Table 96. Consensual Sex Between Cadets OFF Academy Grounds
                       Disrupts Good Order and Discipline
                              Class Year           Strongly Agree/Agree
                       2004                                6.0%
                       2005                                9.7%
                       2006                               10.9%
                       2007                                8.1%


While 39.6 percent of respondents indicated disagreement or strong disagreement that
consensual sex between cadets on academy grounds disrupts good order and discipline,



                                             82
82.5 percent of respondents indicated disagreement or strong disagreement that
consensual sex off the installation disrupts good order and discipline.

   B. Academy Climate
Gender Preferential Treatment
Around 50 percent of USMA females indicated agreement that men and women are
treated fairly overall. However, 42.6 percent of USMA female cadets strongly agreed or
agreed that “[M]en receive more favorable treatment OVERALL.” Table 97 reflects the
overall responses of USMA female respondents.

          Table 97. USMA Female Gender Preferential Treatment Results
                                                                     Agree      Disagree
                                                                    Strongly    Strongly
                                                                     Agree      Disagree
           Men receive more favorable treatment OVERALL              42.6%       38.3%
           Women receive more favorable treatment
                                                                      6.2%       74.4%
           OVERALL
           Men and women are treated fairly OVERALL                   50.4%      31.8%


Table 98 reflects by class of graduation, the percentages of respondents indicating strong
agreement or agreement that men are treated more favorably, women are treated more
favorably, or men and women are treated fairly overall.

  Table 98. USMA Female Gender Preferential Treatment Results by Class Year
                                                                         Both Treated
             Class Year        Men Favored        Women Favored
                                                                            Fairly
           2004                    36.6%                6.0%                59.3%
           2005                    43.3%                6.2%                48.9%
           2006                    47.9%                3.4%                42.4%
           2007                    41.8%                8.7%                51.2%


USMA Female respondents made the following written comments regarding gender
preferential treatment:

               •   Comment one:
                   “Company tactical officers at this Academy have established
                   environments particularly targeting female regulation infractions and
                   punishing them significantly more severely than their male
                   counterparts, creating an environment of mistrust with all female
                   subordinates, which discourage approaching officers about anything,
                   including sexual assault or harassment, for fear of being punished for
                   an irrelevant side issue. This attitude is then perpetuated through the
                   cadet company chain of command and is perceived as threatening and
                   discriminatory by females in and outside of the company.”




                                                83
              •   Comment two:
                  “West Point breeds an attitude that focuses on the seeming inferiority
                  of females to males. Although there is some respect classes taught to
                  the cadets, they are almost never taken seriously, so many of the values
                  taught are not ingrained in the cadets…. Also, because female cadets
                  are such a small minority, every flaw is magnified and every success
                  downplayed. A female cadet at West Point can do no right: if she tries
                  to maintain the standards, she is referred to as a “bitch”, and if she tries
                  to be liked, she is too soft and feminine.”

              •   Comment three:
                  “The environment where a woman is automatically discounted
                  SIMPLY because she is a woman and did something AS a woman, not
                  first as a cadet or soldier is damaging and really discourages me from
                  pursuing a career in the army past my minimum commitment…”

              •   Comment four:
                  “I think that there are a lot of people here who treat women differently
                  because they feel that the standards are lower (physically) and also
                  because there has to be a certain quota of women in leadership
                  positions (battalion, reg and brigade staff). In some situations women
                  are alienated from activities.”

Separation of Genders in Barracks
When asked whether the respondents agreed or disagreed that cadet barracks areas should
be physically separated (i.e., different floors or buildings) by gender, the overwhelming
majority (96.3 percent) indicated cadet dorms should not be physically separated. USMA
female cadets made the following comments:

              •   Comment one:
                  “In regards to the question about segregating the barracks: do not do
                  that, ever! No matter what, women will always be the outsiders of the
                  men’s cliques. Separating us by floors or buildings will only make us
                  more of outsiders and widen the gap between the genders. Living with
                  the guys in the barracks makes it easier to work, study, and learn
                  together. I cannot imagine living separately. Segregating the sexes is
                  the absolute worst idea I can think of to solve the problem”

              •   Comment two:
                  “Separate barracks is a bad idea and will only separate the females even
                  more from our male counterparts. Everyone cracks some crude jokes
                  but if you tell them it offends you they will stop making them, or at
                  least not when you are around.”

              •   Comment three:
                  “I think separating males and females in the barracks would be
                  disastrous to company unity. Separating the genders would not solve
                  the problem, but would cause additional problems. Namely, I think it
                  would lead to females being general unaccepted.”


                                                 84
               •   Comment four:
                   “I very strongly object to having gender-based dorms. Females try
                   very hard to fit in at WP & taking us out of the company area begs for
                   further seclusion. At Buckner, simply living at the other side of the bay
                   meant that we missed meetings, never heard about some formations,
                   and were very isolated. Taking us out would take away from progress
                   we have made.”

               •   Comment five:
                   “Male and Female living areas should not be separated. People need to
                   learn how to interact with the opposite gender and they learn it by
                   interacting throughout the day in the barracks and in classes.
                   Separating Male and Female living areas will hurt social development”

Understanding of Sexual Harassment, Assault and Related Services
We also asked cadets if they understood various aspects of sexual harassment and sexual
assault, to include avoiding risky situations, how to report and obtain care, counseling,
legal services, and the responsibilities of law enforcement and the chain of command in
handling sexual assaults. Almost every USMA female cadet understands the difference
between sexual harassment and sexual assault, and how to avoid situations that increase
the risk of sexual assault. Table 99 reflects USMA females’ understanding of sexual
harassment, assault and related services.

           Table 99. USMA Female Responses to Understanding of Sexual
                     Harassment, Assault, and Related Services
                                                                         Yes         No
           The difference between sexual harassment and sexual
                                                                        97.5%       0.2%
           assault
           How to avoid situations that might increase the risk
                                                                        99.5%       0.0%
           of sexual assault
           How to report sexual assaults                                88.9%       2.7%
           How to obtain medical care following a sexual assault        88.9%       2.7%
           How to obtain counseling following a sexual assault          86.7%       3.7%
           The services that your Academy’s legal office can
                                                                        69.6%      11.3%
           provide to a victim in response to sexual assault
           General responsibilities of law enforcement and
           criminal investigative agencies in response to sexual        71.9%      10.0%
           assaults
           The role of the chain of command in handling sexual
                                                                        75.5%       8.3%
           assaults
           Where to go if I need additional information on the
                                                                        84.2%       3.2%
           areas above.


Effectiveness of Academy Non Senior Leaders
We asked cadets a series of questions regarding cadet leaders and commissioned officers
(Tactical Officers) at their academy, and indicate the extent those leaders did the things
asked in the questions. Table 100 reflects the results of USMA female responses.




                                                 85
   Table 100. USMA Female Responses Regarding the Effectiveness of Academy
                        Cadet/Non Senior Leaders
                                                   Very
                                                           Moderate   Not at
                                                   Large
                                                            Small      all
                                                   Large
          Demonstrate good              Cadets     50.2%    49.1%     0.7%
          examples of sound moral       TAC
                                                   68.2%    30.1%     1.5%
          character
          Hold others accountable       Cadets     51.6%    47.8%     0.5%
          for their conduct             TAC        83.0%    16.1%     0.5%
          Promote and safeguard the     Cadets     55.1%    42.6%     1.0%
          welfare of subordinates       TAC        72.2%    25.6%     0.8%
          Create a climate in which     Cadets     47.9%    46.9%     3.7%
          sexual HARASSMENT is          TAC
                                                   72.5%    23.8%     0.8%
          not tolerated
          Create a climate in which     Cadets     42.6%    44.6%     10.0%
          cadets are encouraged to      TAC
          report sexual                            69.7%    24.0%     3.0%
          HARASSMENT
          Create a climate in which     Cadets     71.2%    24.1%     2.2%
          sexual ASSAULT is not         TAC
                                                   79.5%    15.8%     0.8%
          tolerated
          Create a climate in which     Cadets     52.6%    36.4%     7.0%
          cadets are encouraged to      TAC
                                                   72.5%    20.0%     2.2%
          report a sexual ASSAULT
          Ensure those who have         Cadets     31.3%    38.5%     9.0%
          reported sexual               TAC
          harassment/assault are
                                                   55.6%    23.6%     2.2%
          treated with dignity and
          respect
          Provide an appropriate        Cadets     31.8%    35.1%     8.7%
          level of privacy to those     TAC
          who have experienced                     74.1%    18.2%     1.8%
          sexual ASSAULT
          Provide adequate              TAC        61.4%    28.6%     3.0%
          information to cadets about
          policies, procedures, and
          consequences of sexual
          ASSAULT


Effectiveness of Senior Leaders and Faculty
We also asked cadets a series of similar questions about academy senior leaders
(Superintendent, Commandant of Cadets, Vice Commandant, and Dean of Faculty), and
about academy faculty. Table 101 reflects female cadet responses.




                                              86
        Table 101. USMA Female Responses Regarding the Effectiveness of
                     Academy Senior Leaders and Faculty
                                                     Very
                                                             Moderate     Not at
                                                     Large
                                                              Small        all
                                                     Large
           Demonstrate good           Senior
                                                     89.7%         6.2%   0.2%
           examples of sound          Leadership
           moral character            Academy
                                                     86.7%     12.1%      0.2%
                                      Faculty
           Hold cadets                Senior
                                                     93.8%         4.7%   0.5%
           accountable for their      Leadership
           conduct                    Academy
                                                     86.2%     12.3%      0.2%
                                      Faculty
           Promote and safeguard      Senior
                                                     80.7%     16.0%      0.5%
           the welfare of             Leadership
           subordinates               Academy
                                                     80.9%     16.0%      0.3%
                                      Faculty
           Treat subordinate          Senior
                                                     70.9%     24.5%      1.0%
           cadets fairly regardless   Leadership
           of gender                  Academy
                                                     72.4%     26.0%      0.8%
                                      Faculty
           Create a climate in        Senior
                                                     82.7%     13.3%      1.8%
           which sexual               Leadership
           HARASSMENT is not          Academy
                                                     75.4%     16.8%      1.0%
           tolerated                  Faculty
           Create a climate in        Senior
                                                     84.9%     10.3%      1.3%
           which sexual               Leadership
           ASSAULT is not             Academy
                                                     80.2%     10.0%      0.5%
           tolerated                  Faculty


Tables 102 and 103 illustrate the percentage of respondents who answered to a very large
or large extent, academy leaders, to include cadets, commissioned officers, senior leaders,
and faculty, create a climate where “sexual harassment is not tolerated.” Table 102
reflects respondents who answered “yes” to question 19 (victim of sexual assault).

                  Table 102. Extent That Sexual Harassment is Not
                        Tolerated (Victim of Sexual Assault)
                                                     Very Large/
                                                       Large
                        Cadet Leadership               29.0%
                        TAC                            58.0%
                        Senior Leadership              68.0%
                        Faculty                        62.0%


Table 103 reflects respondents who answered “no” to question 19 (non-victim of sexual
assault).




                                              87
                 Table 103. Extent That Sexual Harassment is Not
                    Tolerated (Non-Victim of Sexual Assault)
                                                          Very Large/
                                                          Large Extent
                      Cadet Leadership                       51.7%
                      TAC                                    75.4%
                      Senior Leadership                      85.6%
                      Faculty                                78.0%


USMA female respondents made the following written comments regarding Academy
leadership:

             •   Comment one:
                 “I do believe there is a general problem with the way men at the
                 Academy treat women. I would say, more than sexual assault, there is
                 a sexual harassment problem. Whether they think its innocent or not,
                 many men here make lewd jokes, derogatory comments, and treat some
                 females in a demeaning way. It seems as though many women accept
                 this at face value and have become desensitized since it happens so
                 often. They don’t realize how disrespectful it really is.”

             •   Comment two:
                 “USMA has done a good job recently in that they have provided more
                 discussions and classes dedicated to sexual harassment and sexual
                 assault.”

             •   Comment three:
                 “In the four years that I have been here, I have seen a lot of really good
                 changes. There are a lot more classes about sexual harassment and
                 sexual assault, as well as just basic classes on fraternization.”

             •   Comment four:
                 “I think that from the time that I was a freshman at the academy till the
                 time that I am now a senior, the amount of sexual harassment has
                 decreased and more officers and cadets are stressing the importance of
                 not allowing it within the units. Most targets of harassment are the
                 underclassmen who do not know any better and feel like it is some
                 attention that they normally can not get from the upperclassmen. More
                 information and awareness needs to be given to the underclass on the
                 importance of avoiding and reporting inappropriate behavior.”

             •   Comment five:
                 “every school has its problems, but the academy has worked very hard
                 to establish the fact that it is not welcome/accepted here. we attend
                 classes all the time on sexual misconduct and are frequently informed
                 on what is available if something does occur. females are encouraged
                 to report anything that happens to them that shouldn’t. I feel that the




                                               88
                   academy has done an excellent job in curbing any problems that may
                   arise.”

               •   Comment six:
                   “I feel that although sexual assault isn’t a problem at USMA-sexual
                   harassment is. Dirty jokes and stories have no place here-and many
                   male cadets don’t really understand that. Some male cadets don’t
                   realize how much trouble they could would be in if they were to say
                   some of the things they say here as a platoon leader of CO.”

Sexual Assault Tolerance
Tables 104 and 105 illustrate the percentage of respondents who answered to a very large
or large extent, academy leaders to include, cadets, commissioned officers, senior leaders,
and faculty, create a climate where “sexual assault is not tolerated.” Tables 104 and 105
compare respondents who answered “yes” and “no” to question 19 (victims of sexual
assault).

                     Table 104. Extent That Sexual Assault is Not
                         Tolerated (Victim of Sexual Assault)
                                                         Very Large/
                                                           Large
                       Cadet Leadership                    72.1%
                       TAC                                 82.2%
                       Senior Leadership                   88.6%
                       Faculty                             89.8%


Table 105 reflects respondents who answered “no” to question 19 (non-victims of sexual
assault).

                     Table 105. Extent that Sexual Assault is Not
                      Tolerated (Non-Victim of Sexual Assault)
                                                         Very Large/
                                                           Large
                       Cadet Leadership                    82.6%
                       TAC                                 87.0%
                       Senior Leadership                   92.2%
                       Faculty                             85.2%


USMA female respondents made the following written comments regarding academy
leadership:

               •   Comment one:
                   “I think the Academy has moved in a positive direction to ensure the
                   environment/culture does not tolerate SA/SH and that cadets know
                   where to report if something ever does happen. I think the main
                   problem between men and women at the Academies is sexism and
                   comments.”




                                               89
              •   Comment two:
                  “As a female at West Point, I feel very strongly that I have several male
                  friends and male members in my chain-of-command or faculty that
                  would absolutely not tolerate sexual assault and would support me if I
                  ever came to them with concerns of sexual harassment. Although we
                  often hear jokes that may be off color and things of that nature, to me it
                  is harmless behavior that is inevitable in a school of 85% males. I think
                  there is a climate here that takes sexual harassment and assault very
                  seriously, and I would not hesitate to report misconduct because I know
                  it would be dealt with swiftly and seriously. This opinion is not just to
                  give a good name to the Academy, it is truly how I have felt in my time
                  here.”

              •   Comment three:
                  “I believe that cadets at west point either have or have not experienced
                  sexual assault. If they have not, chances are they will, but until then
                  they say there is no problem with it and everything is running fine…
                  When an event happened my sophomore year it changed everything I
                  thought about the academy and the people here…In a mostly male
                  environment it is like being in a big locker room…This usually starts as
                  harassment, then turns into assault or unwanted advancements. Most of
                  the time one or both of the parties. . . “

              •   Comment four:
                  “I think that the culture being established by the faculty and staff at the
                  Academy has firmly indicated that sexual assault and harassment are
                  unacceptable in this environment. There has been a rapid shift in the
                  past three years that I have been here to indicate the particular emphasis
                  placed on this topic.”

              •   Comment five:
                  “I think USMA does it’s best to handle any sexual harassment or
                  assault cases. sometimes they go over board by even kicking people
                  out for consensual acts. they are doing their best to ensure that the
                  women and men here are safe.”

Willingness to Confront and Report Offenders
We asked cadets, based on the behavior they observed, the extent other cadets at their
academy would be willing to CONFRONT other cadets who engage in sexual
HARASSMENT, including inappropriate comments and actions; REPORT other cadets
who continue to engage in sexual HARASSMENT after having been previously
confronted; and, to REPORT other cadets who commit sexual ASSAULT. Table 106
reflects the responses of USMA female cadets.




                                                 90
       Table 106. USMA Female Responses Regarding Cadet Willingness to
                       Confront and Report Offenders
                                                        Very
                                                                  Moderate
                                                        Large                   Not at all
                                                                   Small
                                                        Large
         CONFRONT other cadets who engage
         in sexual HARASSMENT, including                21.3%      63.9%          8.8%
         inappropriate comments and actions
         REPORT other cadets who continue to
         engage in sexual HARASSMENT after              20.3%      60.4%          8.8%
         having been previously confronted
         REPORT other cadets who commit
                                                        36.6%      43.9%          4.8%
         sexual ASSAULT


Personal Loyalties, Barriers to Reporting, and Fraudulent Reporting
We asked cadets the extent they think cadets at their academy: (1) Allow personal
loyalties to affect reporting of sexual assault, (2) Do not report sexual assault out of
concern they or others will be punished for infractions, such as fraternization or underage
drinking, and (3) Consider fraudulent reporting of sexual assault incidents to be a
problem at the academy. Table 107 reflects USMA female results.

        Table 107. USMA Female Responses Regarding Personal Loyalties,
                 Barriers to Reporting, and Fraudulent Reporting
                                                       Very
                                                                Moderate
                                                       Large                 Not at all
                                                                 Small
                                                       Large
           Allow personal loyalties to affect
                                                       35.4%     46.8%         3.0%
           reporting of sexual ASSAULT
           Do NOT report sexual ASSAULT
           out of concern they or others will
           be punished for infractions, such as        52.4%     32.6%         2.7%
           fraternization or underage
           drinking
           Consider fraudulent reporting of
           sexual ASSAULT incidents to be a            17.0%     47.9%        16.8%
           problem at the Academy


We compared the responses of USMA female respondents who answered “yes” and “no”
to question 19 regarding “Do NOT report sexual ASSAULT out of concern that they or
others will be punished for infractions, such as fraternization or underage drinking.”
Respondents were asked to select “very large extent, large extent, moderate extent, small
extent, not at all or no basis to judge.” For our study, we grouped very large and large
extent together, moderate and small extent together and “other responses” includes “not
at all,” and “no basis to judge.” Table 108 compares those who answered “yes” and “no”
to question 19.




                                                  91
         Table 108. Extent That Victims and Non-Victims Do NOT Report
           Sexual Assault – Possible Punishment for Other Infractions
                                   Very Large/         Moderate/
                                                                             Other
                                     Large              Small
                  Victim             70.0%              23.0%                 7.0%
                  Non-Victim         48.9%              34.5%                16.7%


We asked USMA female respondents if they “Consider fraudulent reporting of sexual
ASSAULT incidents to be a problem at the academy.” We compared the responses of
cadets that were a victim of sexual assault with those that were not. Table 109 compares
responses from victims and non-victims.

         Table 109. Extent That Victims and Non-Victims of Sexual Assault
                  Consider Fraudulent Reporting to be a Problem
                                        Very Large/          Moderate/
                                                                               Other
                                          Large               Small
                  Victim                  21.0%               48.0%            31.0%
                  Non-Victim              16.1%               47.9%            35.9%


USMA female cadets made the following written comments regarding personal loyalties,
barriers to reporting, and fraudulent reporting:

              •     Comment one:
                    “I think the USMA reporting process is quite rigid. Though our
                    Academy has a very good reputation for not tolerating sexual
                    assault/harassment, I feel that many of the actions do go on (between
                    cadets), but women cadets are reluctant to report anything because of
                    the stigma associated with reporting (embarrassment, hassle). If USMA
                    made more confidential reporting sources, other than the 2 in place,
                    then women would feel more confident in reporting actions after they
                    could talk about it with a confidential source first. There is no doubt
                    that anyone charged with harassment or assault charge would get
                    punished at West Point; however, this “little” toleration process also
                    makes it scary for those reporting. Often, the victim is also made to feel
                    like the perpetrator due to the rigid reporting and punishment structure
                    at West Point.”

              •     Comment two:
                    ““In my four years I have constantly been sexually harassed and 2
                    different men tried to rape me. None of these incidents were reported
                    mostly because I was afraid of what people would think, nothing would
                    happen, and I would still have to work with these people later. In hind
                    sight I realize that it was selfish and those men are in the Army now.
                    They might not have been successful with me, but will be with
                    someone else.”




                                                  92
                    •               Comment three:
                                    “I feel that the biggest concern for most women is annonominity when
                                    reporting cases. Many feel that peers and superiors would make fun of
                                    them and isolate them because they don’t like their claim of sexual
                                    harassment. In addition, many times people assume that since a claim
                                    was made, it is the female who is over reacting unless it is a blatant
                                    case”

                    •               Comment four:
                                    “I am extremely disappointed in the manner the service academy has
                                    handled these types of occurrences. Females seem scared to report
                                    incidents and rightfully so. Many feel that if they report them they will
                                    be considered the type of female to be a nark or making it up, or worse,
                                    be punished by being told that she consented.”

Willingness to Report to Various Agencies
We asked cadets about their willingness to report a personal experience of sexual assault
to a variety of individuals/agencies. They were asked to select either “yes,” “no,”
“uncertain,” or “service not available.” Although respondents were only asked about
their willingness to report to various agencies, their responses allowed us to rank order
their responses in terms of the number of “yes” answers. USMA female respondents
were most willing to report to Academy Chaplain/Clergy. Second, was installation
medical personnel. Figure 3 depicts each individual/agency ranking among USMA
female cadets.

        Figure 3. Individual/Agency Ranking Among USMA Female Cadets

                                                                                                        USMA Female Cadets


       80%
                              76%

                                                   75%

                                                                   75%




       70%
                                                                                57%




       60%
                                                                                                        56%

                                                                                                                          53%

                                                                                                                                               51%




       50%
                                                                                                                                                                47%

                                                                                                                                                                                    40%

                                                                                                                                                                                                    39%




       40%
                                                                                                                                                                                                                  31%

                                                                                                                                                                                                                                 30%




       30%
                                                                                                                                                                                                                                               17%




       20%
                                                                                                                                                                                                                                                                         13%




       10%

        0%
                                                                         MCIO




                                                                                                                                                                                                          DoDIG
                                    Inst Medical




                                                                                                                                                                      Cadet Chain




                                                                                                                                                                                                                                                     Peer Rsc [not MA]
                                                                                                                                                                                                                        Svc IG

                                                                                                                                                                                                                                       Other
                                                                                                                                                                                          Acad IG
                                                         Faculty




                                                                                                              Off Chain
              Acad Chaplain




                                                                                      Acad Counseling




                                                                                                                                Acad Hotline

                                                                                                                                                     Security




                                                                                                                                93
With regard to their willingness to report sexual assaults to various agencies, USMA
female cadets made the following written comments:

              •   Comment one:
                  “If a cadet uses his/her chain of command to report an incident the
                  problem of loyalties among the CoC often prevent the case from going
                  further and do nothing to stop the offender from harassing/assaulting
                  other victims.”

              •   Comment two:
                  “I do not think the Cadet CoC is trained well enough in dealing with
                  reports of sexual harassment. I know of several instances (and been
                  involved in one) where a female cadet awakens to find a strange male
                  cadet in her room. Although the male cadet may not touch her, it is still
                  frightening and disturbing to awaken to a stranger in the room. When
                  these incidents are reported to higher (PL, CO, 1SG) often the
                  offending cadet is simply given a warning and told not to do it any
                  more. Usually, the cadet is deemed “drunk” so he “didn’t know what he
                  was doing.”

              •   Comment three:
                  “TACs and Instructors at West Point rarely uphold the privacy of
                  individuals. They talk to others about the personal situations of
                  individuals to other TACs, instructors, and cadets. Generally this
                  information will become public knowledge and causes a great deal of
                  embarrassment to all parties involved. In lieu of this, many people will
                  not report situations.”

              •   Comment four:
                  “I just want to add that while I feel that I would be able to report a
                  sexual assault incident to all of these different individuals/agencies, I
                  wouldn’t necessarily choose them as the first one to talk to. I would go
                  right to my Officer/Cadet Chain of Command, Chaplain, Academy
                  Counseling      or    Development      Center,     or    an     Academy
                  hotline/helpline...and above all...I would go to a medical installation.
                  These agencies/individuals are more personal to me and I would go to
                  them immediately, whereas some of the other options are a little more
                  unknown.”

              •   Comment five:
                  “I think it is very unlikely that a cadet will report something to their in
                  company COC - because if it is done, then there is a liklihood that the
                  cadet COC - the cadet company commander or the cadet company
                  executive officer or someone of that nature - would not be absolutely
                  confidential with regard to the situation. If it was, for example one
                  cadet harassing or assaulting another cadet within the same company or
                  unit - the likelihood would drop, in my opinion, to almost zero that the
                  company COC or Tactical officer would hear about it first or directly
                  from the victim - because there is an inherent problem of lack of
                  confidentiality within the CADET RANK STRUCTURE. Cadets



                                                 94
                  NEED TO BE TAUGHT to keep confidential what is private or
                  sensitive information - and not to tell one good friend or another, than
                  tell that person not to say anything.”

              •   Comment six:
                  “I would tell my closest most trusted friend and ask them to help me or
                  take me to the hospital. I would do anything to avoid COC involvement
                  or anything that allows my peers to know because there is so much
                  negative pressure on my classmates that encourages them to disbelieve
                  a female cadet long before they think about helping her.”

              •   Comment seven:
                  “Despite this survey nothing will change about the academies because
                  the leadership does not encourage it or facilitate a climate that allows
                  us to report incidents like these. I have other friends that were raped
                  and they refuse to report their incidents also. One girl left after being
                  ostracized. Others state that they would not say anything if it
                  happened.”

Sexual Harassment
We asked cadets about sexual talk and/or behaviors that were uninvited and unwanted,
and which they did not willingly participate. They were asked “SINCE JUNE OF 2003,
how frequently have you been in situations where persons assigned to your academy (i.e.,
cadets and/or other military or civilian personnel working at your Academy),” (emphasis
in original) followed by a series of behaviors listed in Table 110. Respondents were
asked to indicate the frequency they experienced these behaviors ranging from never,
once or twice, several times, often and very often. The most frequent behavior
experienced often or very often by female USMA cadets is “Repeatedly told stories or
jokes of a sexual nature that were offensive to you,” at 21 percent. Around 15 percent of
USMA female respondents indicated they experienced, often or very often,
“ . . . offensive remarks about your appearance, body, or sexual activities.” Table 110
reflects the respondents that experienced the listed behaviors often or very often.




                                                95
                  Table 110. Percentage of Female Cadets Indicating
                  Occurrence of Listed Behaviors Often or Very Often
                                                                                      Often/
                                                                                    Very Often
       Repeatedly told stories or jokes of a sexual nature that were offensive to
                                                                                      21.0%
       you
       Made unwelcome attempts to draw you into a discussion of sexual
                                                                                      14.5%
       matters (for example, attempted to discuss or comment on your sex life)
       Made offensive remarks about your appearance, body, or sexual
                                                                                      15.3%
       activities
       Made gestures or used body language of a sexual nature that
                                                                                      11.0%
       embarrassed or offended you
       Made unwanted attempts to establish a romantic sexual relationship
                                                                                      8.8%
       with you despite your efforts to discourage it
       Continued to ask you for dates, drinks, dinner, etc, even though you
                                                                                      6.7%
       said “No”
       Made you feel like you were being bribed with some sort of reward or
                                                                                      1.3%
       special treatment to engage in sexual behavior
       Made you feel threatened with some sort of retaliation for not being
       sexually cooperative (for example, by mentioning an upcoming review            1.2%
       or evaluation)
       Touched you in a way that made you feel uncomfortable                          2.2%
       Treated you badly for refusing to have sex                                     1.7%
       Implied better assignments or better treatment if you were sexually
                                                                                      0.5%
       cooperative


Only 18% of USMA female respondents indicated “never” experiencing “[R]epeatedly
told stories or jokes of a sexual nature that were offensive to you.” Table 111 reflects the
percentage of USMA female respondents that never experienced the listed behaviors.




                                                 96
                 Table 111. Percentage of Female Cadets That Never
                            Experienced Listed Behaviors
                                                                                  Never
                          Uninvited Unwanted Behavior
                                                                                Experienced
      Repeatedly told stories or jokes of a sexual nature that were offensive
                                                                                  18.0%
      to you
      Made unwelcome attempts to draw you into a discussion of sexual
      matters (for example, attempted to discuss or comment on your sex           31.3%
      life)
      Made offensive remarks about your appearance, body, or sexual
                                                                                  34.8%
      activities
      Made gestures or used body language of a sexual nature that
                                                                                  38.3%
      embarrassed or offended you
      Made unwanted attempts to establish a romantic sexual relationship
                                                                                  53.2%
      with you despite your efforts to discourage it
      Continued to ask you for dates, drinks, dinner, etc, even though you
                                                                                  60.2%
      said “No”
      Made you feel like you were being bribed with some sort of reward or
                                                                                  87.7%
      special treatment to engage in sexual behavior
      Made you feel threatened with some sort of retaliation for not being
      sexually cooperative (for example, by mentioning an upcoming review         95.2%
      or evaluation)
      Touched you in a way that made you feel uncomfortable                       27.5%
      Treated you badly for refusing to have sex                                  90.7%
      Implied better assignments or better treatment if you were sexually
                                                                                  95.5%
      cooperative


Table 112 reflects responses of USMA female cadets who answered “yes” to question 19
regarding the frequency that they experienced unwanted/uninvited sexual talk or
behavior. Table 113 reflects the responses of USMA female cadets that answered “no” to
question 19.




                                                97
Table 112. Frequency of Unwanted/Uninvited Sexual Talk or
            Behavior (Victim of Sexual Assault)
                                        Once
                                                Several           Very
                                Never    or               Often
                                                Times             Often
                                        Twice
Repeatedly told stories or
jokes of a sexual nature that   10.0%   25.0%   33.0%     16.0%   16.0%
were offensive to you
Made unwelcome attempts to
draw you into a discussion of   16.0%   28.0%   27.0%     19.0%   10.0%
sexual matter
Made offensive remarks
about your appearance,          13.0%   26.0%   27.0%     20.0%   14.0%
body, or sexual activities
Made gestures or used body
language of a sexual nature
                                25.5%   27.5%   25.5%     15.3%   6.1%
that embarrassed or offended
you
Made unwanted attempts to
establish a romantic sexual
                                23.0%   30.0%   24.0%     12.0%   11.0%
relationship with you despite
your efforts to discourage it
Continued to ask you for
dates, drinks, dinner, etc,     37.3%   32.3%   15.1%     7.0%    8.0%
even though you said “No”
Made you feel like you were
being bribed with some sort
of reward or special            76.0%   14.0%    6.0%     2.0%    2.0%
treatment to engage in sexual
behavior
Made you feel threatened
with some sort of retaliation
                                86.8%   4.0%     5.0%     2.0%    2.0%
for not being sexually
cooperative
Touched you in a way that
                                47.0%   32.0%   15.0%     4.0%    2.0%
made you feel uncomfortable
Treated you badly for
                                67.0%   20.0%    6.0%     6.0%    1.0%
refusing to have sex
Implied better assignments
or better treatment if you      90.0%   7.0%     1.0%     1.0%    1.0%
were sexually cooperative




                                   98
           Table 113. Frequency of Unwanted/Uninvited Sexual Talk or
                     Behavior (Non-Victim of Sexual Assault)
                                                      Once
                                                               Several              Very
                                             Never     or                 Often
                                                               Times                Often
                                                      Twice
          Repeatedly told stories or
          jokes of a nature that were        19.5%    37.1%     24.5%     11.7%     6.9%
          offensive to you
          Made unwelcome attempts to
          draw you into a discussion of      34.4%    34.8%     19.2%      7.8%     3.8%
          sexual matter
          Made offensive remarks about
          your appearance, body, or          39.2%    33.6%     15.6%      8.0%     3.6%
          sexual activities
          Made gestures or used body
          language of a sexual nature
                                             41.0%    33.4%     16.6%      5.6%     3.4%
          that embarrassed or offended
          you
          Made unwanted attempts to
          establish a romantic sexual
                                             59.6%    25.3%      9.0%      4.4%     1.6%
          relationship with you despite
          your efforts to discourage it
          Continued to ask you for
          dates, drinks, dinner, etc, even   65.0%    21.0%      9.0%      3.2%     1.8%
          though you said “No”
          Made you feel like you were
          being bribed with some sort of
                                             90.9%     7.0%      1.2%      0.2%     0.6%
          reward or special treatment to
          engage in sexual behavior
          Made you feel threatened with
          some sort of retaliation for not   97.3%     1.8%      0.2%      0.2%     0.4%
          being sexually cooperative
          Touched you in a way that
                                             23.5%    71.2%      3.7%      0.6%     0.8%
          made you feel uncomfortable
          Treated you badly for
                                             95.6%     3.0%      0.8%      0.2%     0.4%
          refusing to have sex
          Implied better assignments or
          better treatment if you were       97.7%     1.8%      0.2%      0.0%     0.2%
          sexually cooperative


A USMA female cadet made the following written comment regarding unwanted
uninvited sexual talk or behavior:
                  “I am sure that some women here have had negative experiences with
                  sexual harassment. While the climate can be harsh at times, that seems
                  to be the nature of the beast when you get that many guys together. . . “

We asked cadets, of the listed behaviors they marked as happening to them, how many
did they consider sexual harassment? Table 114 reflects the responses of USMA female
cadets.




                                                99
              Table 114. USMA Female Responses to Behaviors They
                       Considered to be Sexual Harassment
                                                             Percentage
                  None were sexual harassment                  34.6%
                  Some were sexual harassment                  39.8%
                  Most were sexual harassment                   7.7%
                  All were sexual harassment                    8.3%
                  Does not apply (I marked “NEVER” in
                                                               9.5%
                  every item in question #17)


Table 115 reflects USMA female cadet responses by those who answered “yes” and those
who answered “no” to question 19 (victim and non-victim of sexual assault).

             Table 115. USMA Female Responses to Behaviors They
Considered to be Sexual Harassment (Victim Versus Non-Victim of Sexual Assault)
                                                   Victims         Non-victims
           None were sexual harassment             14.0%             38.8%
           Some were sexual harassment             50.0%             37.8%
           Most were sexual harassment             15.0%              6.2%
           All were sexual harassment              20.0%              6.0%
           Does not apply (I marked
           “NEVER” in every item in                 1.0%              11.2%
           question #17)
           Total                                    100%              100%


   C. Sexual Assault Incidents at the Academy
This section details the findings of the survey concerning the scope of sexual assault
incidents at the academy. The respondents were asked to answer “yes” or “no” to the
following question: “[S]ince becoming a cadet, has someone done any of the following
to you without your consent and against your will?” The answer choices included:

              •     “Touched, stroked, or fondled your private parts”;

              •     “Physically attempted to have sexual intercourse with you, but was not
                    successful”;

              •     “Physically attempted to have oral or anal sex with you, but was not
                    successful”;

              •     “Had sexual intercourse with you”;

              •     “Had oral sex with you”; and,

              •     “Had anal sex with you.”

A total of 100 USMA female respondents answered “yes” to the question and indicated a
total of 111 incidents. A total of 11 cadets were sexually assaulted twice. Responses
indicated that at the time of the incident, 49 respondents were freshmen, 31 were
sophomores, 11 were juniors, 6 were seniors, 3 were in Cadet Basic Training, and 11 did


                                             100
not indicate class year status. 100 incidents occurred between 1999 and 2004, and 11
incidents occurred on unknown dates. The respondents were instructed to check all
behaviors that applied for each incident. Therefore, the number of behaviors indicated
may exceed the total incidents listed. A total of 11 respondents indicated experiencing
more than 1 incident. A total of 60 of the 111 incidents (54.0 percent) involved,
touching, stroking or fondling of private parts. A total of 75 incidents (67.5 percent)
occurred on the installation, in the dormitory. The offenders were predominately cadets,
either from the same class or below, or cadets senior to the respondent (103 of 105
identified offenders (98.0 percent)). Table 116 reflects USMA female cadets that
experienced 1 or more incidents involving the above-described behavior.

           Table 116. Scope of Recent Incidents Involving Female USMA
                             Respondents as Victims.
                Experienced behavior against will without consent     Number
                Total Incidents                                         111
                Touched, stroked, or fondled privates only              32
                Touched, stroked, or fondled privates in
                                                                           28
                conjunction with other listed behavior(s)
                Attempted sexual intercourse                               45
                Attempted oral or anal sex                                 9
                Had sexual intercourse                                     20
                Had oral sex                                               6
                Had anal sex                                               2
                Missing Data                                               7

Of the 601 respondents, 100 indicated they were the victims of at least 1 sexual assault
since becoming a USMA cadet (these cadets reported a total of at least 111 sexual assault
incidents). Respondents were asked to describe up to four incidents, focusing on those
considered to be the most severe. Many of the cadets provided partial data when
describing incidents, and in some cases of multiple incidents, provided no data at all.

Tables 117.a through 117.c list when these incidents occurred, by calendar year,
semester, and the cadet status/rank (BCT/Plebe summer/freshman/ sophomore/ junior/
senior). If the cadet selected summer “semester,” it assumes that graduation has occurred
and the cadet rose to the next rank. All cadets did not answer question 20A (victims
status/rank) completely. Where that occurred, “Missing Data” is listed in the table as an
unknown response.

                Table 117.a. Calendar Year When Incident Occurred
                          2001
                                                                    Missing
            Incident      and      2002      2003      2004*                    Total
                                                                     Data
                         Earlier
           First           30        17       32         11           10        100
           Second          3         2        3          2            1         11
                       * 3-4 month period: January-March/April 2004




                                             101
                    Table 117.b. Semester When Incidents Occurred
                                                                       Missing
                    Incident       Fall     Spring       Summer                     Total
                                                                        Data
                First               42        39              9          10           100
                Second               3        7               0          1            11

               Table 117.c. Status of Cadet When Incidents Occurred
                                                                  BCT/       Missing
           Incidents     Fresh     Soph     Junior   Senior                                 Total
                                                                  PLB         Data
           First          46        28       10          3         3           10           100
           Second         3         3        1           3         0           1            11

The Offenders
We asked cadets to describe the actions taken by the offender. The actions were not
defined for the respondents; they used their own discretion when responding. Table 118
describes these actions. The respondents were instructed to check all actions that apply.

                       Table 118. Actions of Offenders by Incident
                                                                            1st           2nd
                                      Act
                                                                         Incident      Incident
           Touched, stroked, or fondled your private parts?              55            5
           Physically attempted to have sexual intercourse with
                                                                         39            6
           you, but was not successful?
           Physically attempted to have oral or anal sex with
                                                                         8             1
           you, but was not successful?
           Had sexual intercourse with you?                              20            0
           Had oral sex with you?                                        6             0
           Had anal sex with you?                                        2             0


Location of the Incident
Respondents provided location information for 102 of the 111 sexual assault incidents. A
total of 85 of the 111 sexual assaults occurred on the installation, and 75 of those
occurred in the barracks; the other 10 were committed on base, in places other than a
barracks. The remaining 17 of the sexual assaults occurred off base; most of which (12)
were at events not sponsored by the academy, and 5 occurred at academy-sponsored
events. Table 119 reflects a break down by incident and location of occurrence.

                       Table 119. Location of Incident by Incident
                                                                                  2nd
                                 Location                    1st Incident
                                                                               Incident
                On installation in barracks                       69               6
                On installation, NOT in barracks                  10               0
                Off installation at an Academy-
                                                                   4              1
                sponsored event
                Off installation and NOT at an
                                                                   9              3
                Academy-sponsored event




                                                   102
The respondents categorized the offenders for 105 of the 111 incidents including cadets
(whether senior or non-senior to the respondents), civilians not affiliated with the
installation, and unidentified. Respondents did not provide offender information for 9 of
the 111 incidents. Fellow cadets were the principal offender group (103 of all identified
offenders); 45 were cadets who were senior to the victim, while 58 were cadets who were
in the same class or below. Table 120 reflects the break down of offenders by category.

                           Table 120. Category of Offenders
                                       Category                            Total
                Cadet who was senior to me                                  45
                Cadet who was in same class as me or below                  58
                Military faculty or staff member                            0
                Civilian faculty or staff member                            0
                Military person NOT assigned to your academy                1
                Civilian person NOT assigned to your academy                0
                Unidentified person                                         1
                Missing Data                                                6


Table 121 reflects the breakdown of offenders by category by incident.

           Table 121. Sexual Assault Offenders by Category and Incident
                                                                          2nd
                       Category of offender          1st Incident
                                                                       Incident
                Cadet who was senior to me                 41              4
                Cadet who was in same class as me
                                                           52               6
                or below
                Military faculty or staff member           0                0
                Civilian faculty or staff member           0                0
                Military person NOT assigned to
                                                           1                0
                your academy
                Civilian person NOT assigned to
                                                           0                0
                your academy
                Unidentified person                        1                0


Of the 111 reported incidents, respondents provided information for 99 incidents when
asked if there were multiple offenders. Respondents of five incidents reported multiple
offenders assaulted them. Table 122 reflects whether multiple offenders were involved
by incident. Fellow cadets were the only offender group in multiple offender incidents;
two incidents involved multiple cadets who were senior to the victim, while three
involved multiple cadets who were in the same class or below.

                             Table 122. Multiple Offenders
                                                   1st             2nd
                         Multiple offenders
                                                Incident        Incident
                       Yes                          5               0
                       No                          83              10
                       I don’t know                 1               0




                                              103
Reporting of Sexual Assault Incidents
Of the 111 sexual assault incidents recorded by 100 respondents, the highest number of
incidents (15) was reported to the officer/NCO chain of command. A total of seven
incidents were reported to a person in the cadet chain of command and a criminal
investigative organization, and six were reported to the academy counseling or
development center. Table 123 lists the total number of incidents reported to each
authority by incident. (Respondents were asked to check all that apply.)

                     Table 123. Authorities Sexual Assaults Reported To
                     Authorities to which sexual assaults were reported                  Number
           Officer/NCO chain of command (AOC, MTL, TAX, Co Officer,
                                                                                            15
           SEL)
           Academy staff & faculty member not in chain of command                           4
           Academy hotline/helpline                                                         0
           Academy Response Team (ART) [N/A for USMA and USNA]                              0
           Person in cadet chain of command                                                 7
           Peer resource (e.g., SAVI GUIDE, CASIE Rep)[N/A for USMA]                        1
           Academy Counseling or Development Center                                         6
           SAVI Advocate/Coordinator [N/A for USMA and USAFA]                               0
           Off-Installation Counseling Center                                               1
           Installation Medical Personnel                                                   3
           Off-Installation Medical Personnel                                               1
           Criminal Investigative Organizations (i.e. AFOSI, CID, NCIS)                     7
           Security Forces, Military Police, or USNA Police                                  1
           Academy Inspector General’s Office [N/A for USNA]                                1
           Academy Chaplain/Clergy                                                          5
           Non-Installation Chaplain/Clergy                                                 0
           Civilian Law Enforcement Agency                                                  0
           Service or DoD Inspector General’s Office or Hotline                             0
           No one – I did not report this incident                                          73
           Other (Please explain)63                                                         12


Table 124 breaks down, by incident, which authorities received sexual assaults reports.




63
     “Other” responses from the respondents indicate they reported their assault to their boyfriends or
     friends, confronted the offender themselves, told a sponsor or told an Equal Opportunity Officer.




                                                    104
           Table 124. Sexual Assault Reporting to Authorities by Incident
                                                                     1st        2nd
                            Authority/Agency
                                                                  Incident   Incident
         Officer/NCO chain of command (AOC, MTL, TAX, Co
                                                                    15          0
         Officer, SEL)
         Academy staff & faculty member not in chain of
                                                                     4          0
         command
         Academy hotline/helpline                                    0          0
         Academy Response Team (ART) [N/A for USMA and
                                                                     0          0
         USNA]
         Person in cadet chain of command                            6          1
         Peer resource (SAVI GUIDE, CASIE Rep)[N/A for
                                                                     1          0
         USMA]
         Academy Counseling or Development Center                    6          0
         SAVI Advocate/Coordinator [N/A for USMA and USAFA]          0          0
         Off-Installation Counseling Center                          1          0
         Installation Medical Personnel                              3          0
         Off-Installation Medical Personnel                          1          0
         Criminal Investigative Organizations (i.e. AFOSI, CID,
                                                                     7          0
         NCIS)
         Security Forces, Military Police, or USNA Police           1           0
         Academy Inspector General’s Office [N/A for USNA]          1           0
         Academy Chaplain/Clergy                                    5           0
         Non-Installation Chaplain/Clergy                           0           0
         Civilian Law Enforcement Agency                            0           0
         Service or DoD Inspector General’s Office or Hotline       0           0
         No one – I did not report this incident                    64          9
         Other (Please explain)                                     12          0


Reprisal for Reporting Sexual Assaults
Female cadets, who answered, “yes” to question 19, were asked if anyone in a position of
authority retaliated against them for reporting an incident. Retaliation was defined as
“unwarranted punishment, demotion, or withholding a favorable duty position.” A total
of four respondents indicated that they experienced reprisal from another cadet,
commissioned officer in their chain of command or academy staff or faculty.

Table 125 reflects USMA female respondents identified as being retaliated against for
reporting a sexual assault incident.

                       Table 125. Reprisal for Reporting Sexual
                                 Assaults by Incident
                                               1st Incident   2nd Incident
                Yes                                   4            0
                No                                   15            1
                Don’t know or not sure                5            0


Table 126 reflects the number of times USMA female respondents experienced reprisals
for reporting a sexual assault, by incident, and the individual who retaliated against them.
(Respondents were allowed to select all that apply.)



                                            105
                             Table126. Reprisal by Academy Officials
                                          by Incident
                                                                    1st           2nd
                                                                 Incident      Incident
                      Cadet in my chain of command                  2              0
                      Upperclassmen NOT in my chain of
                                                                     3             0
                      command
                      Commissioned Officer in my chain of
                                                                     3             0
                      command
                      Other Academy staff or faculty                 3             0
                      Service officials outside your
                                                                     1             0
                      Academy


USMA female respondents made the following written comments about reprisal for
reporting sexual assault:
                  •     Comment one:
                        “I was forbidden from going to … while the male continued to attend
                        because people did not have angry feelings toward him like they did at
                        me.”

                  •     Comment two:
                        “The worst part of my experience was after the incident had occurred. I
                        was immediately punished for…”

Respondents were asked if they experienced “any OTHER repercussions for reporting
this incident.” The choices included: Ostracism, harassment, or ridicule from other
cadets both in and not in their chain of command, ostracism, harassment, or ridicule from
academy staff or faculty members, and other significant repercussions. There were eight
reported experiences of repercussions from cadets NOT in the chain of command, and
three instances from cadets within the chain of command. A total of two respondents
reported repercussions from academy staff or faculty members. A total of five
respondents’ experiences fell in the category of “other significant repercussions.”64 Table
127 reflects the responses by incident of USMA female cadets indicating they
experienced other repercussions for reporting an incident of sexual assault. Respondents
were instructed to check all answers that applied to each incident.




64
     Respondents indicated “rumors of false reporting”, “rape doesn’t happen at West Point, and . . .
     punished for being a victim.”, and “forbidden from going to . . . while the male continued to attend.”



                                                    106
                     Table127. Other Repercussions Experienced
                                    by Incident
                                                              1st           2nd
                         Type of Repercussions
                                                           Incident      Incident
                Ostracism, harassment, or ridicule from
                                                              8             0
                other cadets NOT in chain of command
                Ostracism, harassment, or ridicule from
                                                              3             0
                other cadets in chain of command
                Ostracism, harassment, or ridicule from
                                                              2             0
                Academy staff or faculty members
                Other significant repercussions (Please
                                                              5             0
                specify)
                No, I did not experience other
                                                             15             0
                repercussions

Reporting to MCIO/Law Enforcement
Respondents were asked “Did a military criminal investigative organization (AFOSI,
CID or NCIS) or a civilian law enforcement agency conduct a criminal investigation?”
USMA female respondents indicated 8 incidents had been investigated, 14 had not been
investigated and 3 respondents did not know. Table 128 reflects the criminal
investigations conducted by incident.

              Table128. Criminal Investigations Conducted by Incident
                                            1st Incident    2nd Incident
                     Yes                           8              0
                     No                           13              1
                     I don’t know                  3              0

Why No Criminal Investigation Was Conducted
A total of 12 USMA female cadets indicated a criminal investigation was not conducted
because it was never reported to law enforcement officials, while 1 cadet indicated they
declined to cooperate with the investigation. Table 129 reflects USMA female cadet
responses by incident, indicating why no criminal investigations were conducted.

             Table129. Why No Criminal Investigation Was Conducted
                                                                 1st            2nd
                                                              Incident       Incident
           The incident was not reported to law
                                                                  11            1
           enforcement officials
           I declined to cooperate with an investigation          1             0
           I don’t know                                           1             0


Information Regarding the Disposition of Investigations
A total of seven USMA female cadets were informed of the final disposition of the
investigation, four were not, and one indicated their case was not yet resolved due to an
on-going investigation or legal proceedings. Table 130 reflects the incident disposition
information provided to respondents by incident.




                                               107
               Table130. Informed of the Final Disposition by Incident
                                                                               1st         2nd
                                                                            Incident    Incident
         Yes                                                                   7            0
         No, I was not informed                                                4            0
         N/A – Offender was never identified                                   0            0
         N/A – Not yet resolved (i.e. On-going investigation or legal
                                                                                1           0
         proceedings)


USMA female cadets made the following comments regarding information regarding the
final disposition of investigations:

               •    Comment one:
                    “I was not informed about much of the investigation. I was not
                    prepared, did not have any legal advice available to me. I was
                    intimidated and was treated coldly. I was punished for the other
                    offenses first while the [accused] …. I was not forced to go to
                    counseling. I was not prepared ahead of time or even noticed for
                    spontaneous questioning. I was not informed afterwards about the
                    punishment of [the accused]…. In effect, I ended up getting in more
                    trouble than the [accused who] … stayed at the academy.”

               •    Comment two:
                    “I felt that CID was too harsh with me, and I was questioned and
                    treated as if I had done something wrong. In addition, they would
                    repeatedly make me wait…[with the accused present]…The military
                    lawyers did not try to help me.… I was not educated about what would
                    happen or how I would be questioned. I also was never told the
                    outcome….”

               •    Comment three:
                    “Throughout the entire process I was kept out of the loop and did not
                    really know what to do. I was also going through a very rough time
                    emotionally and did a lot of things that I am not proud of, but I felt that
                    my TAC especially could have talked to me more and explained in
                    better detail what was going on and why. CID was just a horrific
                    experience that I went through and even today, I would not tell anyone
                    to utilize that particular service.… I was ridiculed and accused of
                    turning in the [accused] … for no reason.”

Reasons for not reporting sexual assault
Recognizing that individuals have many reasons for not reporting a sexual assault, we
asked the respondents that experienced sexual assault behavior to choose the reasons that
were most important to them when they decided not to report the matter to authorities.
The top 3 choices among USMA females for not reporting sexual assault were: 47
indicated shame or embarrassment, 46 indicated they handled it themselves; and 44
feared ostracism, harassment, or ridicule by peers. Table 131 reflects the respondents’
reasons by incident, for not reporting sexual assaults to military or academy authorities.
(Respondents were able to check all that apply.)



                                                  108
                      Table 131. Reasons for Not Reporting by Incident
                                                                                   1st           2nd
                                    Reasons
                                                                                Incident      Incident
      Does not apply, I reported it                                                7              0
      It was not serious enough to report                                          28             3
      I handled it myself                                                          43             3
      I thought I would be labeled a trouble maker                                 28             1
      I thought nothing would be done                                              16             1
      Threatened with some form of retaliation                                     5              0
      Not threatened with retaliation, but feared some form of
                                                                                   18             2
      retaliation
      Feared ostracism, harassment, or ridicule by peers                           40             4
      Feared loss of friends                                                       20             2
      Feared I or others would be punished for infractions/violations
                                                                                   18             1
      (such as underage drinking)
      Feared public disclosure of the assault                                      31             3
      Feared my parents/family would find out                                      17             1
      Pressured by someone in position of authority                                 2             0
      Feared my boyfriend/girlfriend would find out                                 5             1
      Shame/embarrassment                                                          41             6
      Feared other repercussions                                                   23             2
      Feared people would not believe me                                           23             2
      Not aware of reporting procedures                                             4             0
      I thought I could deal with it myself                                        30             5
      Other (Please explain)65                                                     10             0

Satisfaction with Individuals/Agencies by Incident
Respondents were asked to report their level of satisfaction with the following individuals
or agencies in regard to their handling of their incident. Tables 132.a through 132.b
reflect respondents’ satisfaction by incident.




65
     Some of the “Other” reasons for not reporting are the respondents didn’t want to get into trouble or that
     there was alcohol involved. Two cadets indicated they were either partially to blame or it was their
     own fault. Another respondent indicated someone else reported it.



                                                    109
 Table132.a. Satisfaction With Individuals/Agencies Handling of Incident
                                                                          N/A or I
      st                  Very                      Dis-      Very Dis-    did not
     1 Incident          Satisfied
                                     Satisfied
                                                  satisfied   satisfied      use
                                                                                     Total
                                                                          Resource
Investigative Agencies
                            2           1            3           4           79       89
(OSI/CID/ NCIS)
Military lawyers
                            2           1            1           3           82       89
handling your case
Victim Witness
                            1           2            2           0           82       87
Assistance
SAVI Advocate/
Coordinator or
Academy Response            0           1            0           0           86       87
Team (ART)
[N/A for West Point]
Academy Counseling
or Development              4           6            0           1           78       86
Center
Peer Resource
(CASIE Rep/SAVI
                            2           0            0           0           83       85
GUIDE)[N/A for
West Point]
Chain of Command            5           3            2           5           74       89

 Table 132.b. Satisfaction With Individuals/Agencies Handling of Incident
                                                                          N/A or I
                                                                Very      did not
                          Very                      Dis-
     2nd Incident                    Satisfied                  Dis-        use      Total
                         Satisfied                satisfied
                                                              satisfied   Resourc
                                                                             e
Investigative Agencies
                            0           0            0           0           9        9
(OSI/CID/ NCIS)
Military lawyers
                            0           0            0           0           9        9
handling your case
Victim Witness
                            0           0            0           0           9        9
Assistance
SAVI Advocate/
Coordinator or
Academy Response            0           0            0           0           9        9
Team (ART) [N/A for
West Point]
Academy Counseling
or Development              0           0            0           0           9        9
Center
Peer Resource
(CASIE Rep/SAVI
                            0           0            0           0           9        9
GUIDE)[N/A for
West Point]
Chain of Command            0           0            0           0           9        9




                                            110
One female cadet made the following comment regarding the individuals/agencies
handling of the incident:
                   “I was never informed of my rights. Every concern was made to make
                   sure the alleged offender was taken care of. I was going through
                   clinical depression and seeing him around the company area made it
                   worse. I requested … and I was told “no” … I felt complete
                   uninformed and punished….”

   D. General Comments
By far, the most common issue addressed by female cadets was a perceived “male locker
room” subculture existing at West Point. They believe it is a male dominated culture,
and male cadets behave as if in a locker room. Many female cadets stated their male
counterparts continually subject them to degrading treatment. Degrading treatment was
described as derogatory or disparaging comments or jokes about female cadets,
occasionally extending to sexual harassment and sexual assault. Many females said this
mentality is perpetuated by upper-class male cadets to under-class male cadets. Female
cadets stated it happens most often when male cadets are in groups, and peer pressure
plays a large role. Female cadets believe that the negative behavior is by and large
unreported and uncorrected, because female cadets fear being ostracized, alienated or
negatively labeled by their peers for reporting such infractions. Many females stated they
have accepted the verbal abuse as part of life at West Point. One female cadet described
the issue as follows:
                   “I believe that one of the greatest problems facing USMA as well as the
                   other service academies is the amount of disrespect between male and
                   female cadets. At West Point, female cadets are described as “trou” (a
                   derogatory term which refers to the gray trousers that all cadets wear as
                   part of their uniform.) … It is this form of more discreet, but daily
                   harassment that causes many of the respect and sexual harassment
                   problems currently plaguing the Academies.”

Female cadets had a unanimous view that male and female cadets should not be separated
in the dorms. They thought it would only serve to further isolate them from the males
and would only exacerbate current gender based problems. One female cadet
commented: “I think separating males and females in the barracks would be disastrous to
company unity. Separating the genders would not solve the problem, but would cause
additional problems. Namely, I think it would lead to females being generally
unaccepted.”

Several female cadets made comments pertaining to upper-class male cadets
inappropriately using their rank and position to sexually harass, sexually assault, and, in
some instances elicit sex or sexual favors from under-class females. Some females
expressed they were ill-prepared or not properly briefed upon their arrival to West Point
about how to deal with these situations, which left them particularly vulnerable. Several
females said male upper-classmen engaging in this type of behavior were not reported,
because the under-class females were afraid to report the males because the males
outranked them. In some cases, female cadets said they were naïve and did not realize
that the upper-class male had done anything wrong. One female cadet summed it up by
stating:
                   “Plebe females are often pressured to have sexual relations or
                   relationships with older upperclassmen, which are in their company or


                                                111
                  on their team. Most of the time, these older males are social outcasts
                  with no hope of finding a decent mate. Plebe females fear
                  repercussions, hazing, and most of all attention. More often than not,
                  they play along and just try to be liked instead of recognizing the
                  advances. Plebes want to feel special to someone and upper class males
                  have an advantage in being able to grant them this attention. This will
                  always be prevalent in schools were there are both genders and a class
                  system.”

Females in general thought the academy leadership was doing a good job addressing the
sexual harassment/assault issues. However, females are skeptical about male cadets ever
treating them respectfully. This concern was expressed by one female cadet who stated:
                  “I think that the culture being established by the faculty and staff at the
                  Academy has firmly indicated that sexual assault and harassment are
                  unacceptable in this environment. There has been a rapid shift in the
                  past three years that I have been here to indicate the particular emphasis
                  placed on this topic. There are plenty of resources available here as
                  well to support the gender issue. At times I wonder if the regular Army
                  is as sensitive to the issue as we have become. I believe that despite all
                  of the measures enacted by the Academy, they will be ineffective until
                  the Corps decides what acceptable behavior is and what is not, and I
                  think that this needs to come from primarily within the male ranks as
                  they will be the ones to initiate and force their classmates to adhere to
                  these standards of behavior.”

There were several comments addressing the reporting process for sexual harassment and
sexual assault. Several female cadets expressed concern that in some instances, when
sexual harassment or assault was reported, it might be swept under the rug, covered up or
they never receive feedback about the outcome of the investigation or actions taken.
Some female cadets expressed that the cadet chain of command should not be included in
the reporting process. They do not trust the cadet leadership’s ability to keep reports
confidential, because of peer loyalty among males. Anonymity was paramount in the
reporting process.

They also stated the cadet chain of command, and in some instances, the officer chain of
command, was not properly trained to deal with reports of sexual harassment or sexual
assault. Some female cadets said in some cases when an investigation was conducted,
they didn’t think it was conducted properly or thoroughly. It appeared to them, that the
investigating officer was not properly trained to do the investigation.

Some female cadets indicated a principle reason why female cadets become victims of
sexual harassment and sexual assault is because they put themselves in situations that
make them vulnerable (i.e. excessive drinking with male cadets, staying in a hotel room
alone with a male cadet, dressing provocatively, flirtatious behavior). They said many
females become victims of sexual harassment and sexual assault by possessing the wrong
values and morals, resulting in behavior that invites problems. They added that other
female cadets are too sensitive and overreact to jokes and comments from male cadets.




                                                112
     VI. USMA Male Survey Results
This section details the responses of USMA male cadets concerning values, academy
climate, and personal experiences. We included certain written comments that we
believe are noteworthy to illustrate the respondent’s feelings and beliefs concerning the
survey topics. The information provided reflects the responses of 1,069 survey
respondents.

     A. Values
Army values are: “Loyalty, Duty, Respect, Selfless Service, Honor, Integrity, and
Personal Courage.”

We asked the survey participants to select from a list of 18 values,66 the values most
important to their professional life at their academy. Although we asked for the three in
order of importance, when we analyzed the data, we believed it would be more
meaningful to express the results in terms of the three values most frequency selected.
Respondents selected integrity, respect, honor, friendship and selfless service more than
any of the other values as the three values most important to their professional life at the
academy. Table 133 reflects the breakdown by class year and frequency selected.

                       Table 133. Frequency of Values by Class Year
                    Class       1st Most            2nd Most           3rd Most
                    Year     Selected Value      Selected Value     Selected Value
                   2007          Honor              Integrity           Respect
                                   165                 140                 66
                   2006          Honor              Integrity         Friendship
                                   119                 117                 79
                   2005         Integrity            Honor              Respect
                                   126                 110                 77
                   2004          Honor              Integrity       Selfless Service
                                   147                 134                 59


These figures were computed by adding the frequency respondents selected each value
while they ranked the values most important to them. This represents the total number of
times a value was selected by respondents while they ranked them in order of importance
as first, second and third most important to them.

We asked the participants, based on their experience, to indicate their level of agreement
with various statements regarding the honor code, academy rules and regulations,
honesty, moral standards, exemplary conduct and leadership standards, and
ethical/spiritual/religious beliefs. Table 134 reflects the percentage of USMA male
respondents and their levels of agreement or disagreement with the values statements.




66
     The values included: Accountability, Achievement, Ambition, Courage, Commitment, Effectiveness,
     Efficiency, Excellence, Friendship, Honor, Integrity, Loyalty to Country, Money, Power, Respect,
     Selfless Service, Spiritual Faith, and Tolerance.



                                                 113
               Table 134. USMA Male Responses to Values Statements
                                                                 Agree     Disagree
                                                                Strongly   Strongly
                                                                 Agree     Disagree
      Cadets at my academy adhere to the honor
      code/concept, even if they know they won’t get caught      85.3%      8.1%
      violating it
      Cadets adhere to significant academy rules and
      regulations, even if they know they won’t get caught       54.1%      29.4%
      violating them
      Cadets hold other cadets accountable to the honor
                                                                 79.1%      8.0%
      code/concept
      Honesty in all things is expected and reinforced at my
                                                                 92.5%      1.6%
      academy.
      I am morally obligated to abide by the oath I took to
      support and defend the Constitution of the United          96.1%      0.7%
      States, regardless of the consequences to me
      I have felt pressure from others at my academy to
      compromise moral standards because of loyalty to           25.0%      61.3%
      friends/peers
      I have felt pressure from others at my academy to
      compromise moral standards in order to meet                14.7%      74.1%
      academic or training objectives
      Circumstances determine whether it is right or wrong
      for a cadet/midshipman to compromise his or her            20.5%      60.2%
      moral standards
      I am committed to living by moral standards that
                                                                 93.0%      1.4%
      exceed those of society at large
      As a cadet, it is important for me to meet the same
      exemplary conduct and leadership standards required        91.7%      2.5%
      of a commissioned officer
      My commitment to living by exemplary conduct and
      leadership standards has been reinforced by attending      82.3%      7.2%
      the academy
      I believe commitment to some form of
      ethical/spiritual/religious beliefs is important to an     81.7%      7.2%
      officer’s character
      I am strongly committed to some form of
      ethical/spiritual/religious beliefs about what is right    86.7%      5.4%
      and wrong
      My experiences at the Academy have enhanced my
                                                                 61.4%      17.3%
      commitment to ethical/spiritual/religious beliefs


Adherence to the Honor Code
Table 135 reflects the breakdown by respondents’ year of graduation, and illustrates the
statistical projection of those that strongly agree/agree cadets adhere to the honor
code/concept, even if they know they won’t get caught violating it.




                                               114
             Table 135. USMA Males - Adhere to Honor Code/Concept
                                                                         Statistical
                                                                        Projection of
                             Total Cadets by     Survey Sample
             Class Year                                               Total Cadets that
                               Class Year        by Class Year
                                                                          Strongly
                                                                        Agree/Agree
           2004                    809                  262                  704
           2005                    813                  263                  680
           2006                    841                  263                  688
           2007                   1,023                 279                  906


USMA male respondents made the following comments about the honor code:

              •   Comment one:
                  “The cadets at the United States Military Academy are dedicated to
                  doing the right thing, even when nobody is looking and reporting those
                  who fail to do so. The only non-reported situation that might arise
                  would involve a fear of a regulations violation and hours imposed upon
                  friends or themselves.”

              •   Comment two:
                  “The honor code is a greater issue here than sexual assault. Women get
                  way too much preferential treatment and others are hesitant to punish
                  them for fear they will react out of control. Girls get to talk back and
                  flirt with upperclassmen all the time and get away scott free with it.”

              •   Comment three:
                  “not enough enforcement of honor code, many still fail to document
                  help from others. Females get better treatment in several areas through
                  quotas and different standards. Many assaulters get away w/ their
                  crime b/c victim feels that reporting will do no good.”

We asked respondents to indicate their level of agreement with the statement, “Cadets
adhere to significant academy rules and regulations, even if they know they won’t get
caught violating them.” Overall, 54.1 percent of male respondents strongly agreed, or
agreed with the statement. Table 136 reflects a break down by respondents’ year of
graduation, and illustrates the statistical projection of USMA male cadets that strongly
agree/agree that cadets adhere to significant Academy rules/regulations, even if they
know they won’t get caught violating them.




                                               115
             Table 136. USMA Males - Adhere to Significant Academy
                             Rules/Regulations
                                                                      Statistical
                                                                  Projection of Total
                              Total Cadets     Survey Sample
              Class Year                                             Cadets that
                              by Class Year    by Class Year
                                                                       Strongly
                                                                     Agree/Agree
           2004                    809              262                   476
           2005                    813              263                   439
           2006                    841              263                   371
           2007                   1,023             279                   605


Maintaining Good Order and Discipline
We asked cadets the extent of their agreement or disagreement with how various
behaviors, including honor code violations, gender favoritism, fraternization, dating,
consensual sex, alcohol use, illegal drug use, and pornography disrupts good order and
discipline at their academy. Overall, 90.2 percent of USMA male respondents agreed
“violating the honor code/concept” disrupts good order and discipline. Overall 89.5
percent of USMA male respondents agreed “favoritism based on gender” disrupts good
order and discipline. Table 137 reflects results expressed by male cadets.

             Table 137. Adverse Affects on Good Order and Discipline
                                                       Agree             Disagree
                                                      Strongly           Strongly
                                                       Agree             Disagree
           Violating the Honor Code/Concept            90.2%              5.7%
           Not reporting Honor Code/Concept
                                                          70.3%           13.9%
           violations
           Favoritism based on gender                     89.5%            4.1%
           Engaging in prohibited relationships/
                                                          68.4%           16.6%
           fraternization
           Cadets/midshipmen dating each other at
                                                          15.2%           67.5%
           the same Academy
           Consensual sex between
           cadets/midshipmen ON academy                   41.6%           40.7%
           grounds
           Consensual sex between
           cadets/midshipmen OFF academy                  11.9%           76.4%
           grounds
           Excessive use of alcohol/drunkenness           68.1%           16.8%
           Illegal drug use, or the abuse of
                                                          90.8%            4.5%
           prescription drugs
           Viewing pornography or other sexually
                                                          21.8%           58.7%
           graphic content (images or movies)

Consensual Sex
As indicated in Table137, overall, 41.6 percent of USMA male respondents strongly
agreed or agreed that consensual sex between cadets, on Academy grounds disrupts good
order and discipline, while only 11.9 percent indicated the same opinion about consensual
sex between cadets off the installation. Tables 138 and 139 reflect a breakdown by class,



                                              116
the projected number of respondents that strongly agree or agree that consensual sex
between cadets, either on or off academy grounds, disrupts good order and discipline.

         Table 138. Consensual Sex Between Cadets ON Academy Grounds
                       Disrupts Good Order and Discipline
                                                                      Statistical
                                                                  Projection of Total
                              Total Cadets     Survey Sample
              Class Year                                             Cadets that
                              by Class Year    by Class Year
                                                                       Strongly
                                                                     Agree/Agree
           2004                    809              262                   333
           2005                    813              263                   331
           2006                    841              263                   278
           2007                   1,023             279                   524


Table 139. Consensual Sex Between Cadets OFF Academy Grounds Disrupts Good
                             Order and Discipline
                                                                      Statistical
                                                                  Projection of Total
                              Total Cadets     Survey Sample
              Class Year                                             Cadets that
                              by Class Year    by Class Year
                                                                       Strongly
                                                                     Agree/Agree
           2004                    809              262                   99
           2005                    813              263                   87
           2006                    841              263                   90
           2007                   1,023             279                   143


   B. Academy Climate
Gender Preferential Treatment
About 54 percent of USMA male respondents indicated women receive more favorable
treatment overall. Table 140 reflects the USMA male responses.

          Table 140. USMA Male Gender Preferential Treatment Results
                                                       Agree             Disagree
                                                      Strongly           Strongly
                                                       Agree             Disagree
           Men receive more favorable treatment
                                                          8.2%            75.9%
           OVERALL
           Women receive more favorable
                                                          54.3%           31.0%
           treatment OVERALL
           Men and women are treated fairly
                                                          43.0%           38.4%
           OVERALL


Table 141 reflects a breakdown by year of graduation and illustrates the statistical
projection of male respondents answers indicating strong agreement or agreement that
men are treated more favorably, women are treated more favorably, or men and women
are treated fairly overall.


                                              117
         Table 141. USMA Male Gender Preferential Treatment Results
                              by Class Year
                                                        Statistical Projection of Total
                                                            Cadets that Strongly
                                                                 Agree/Agree
                           Total          Survey                                 Both
                                                          Men        Women
           Class Year    Cadets by       Sample by                             Treated
                                                        Favored Favored
                         Class Year      Class Year                             Fairly
          2004              809             262            65         472         324
          2005              813             263            65         479         315
          2006              841             263            67         454         368
          2007             1,023            279            92         473         502


USMA male respondents made the following written comments regarding gender
preferential treatment:

             •   Comment one:
                 “Girls can get away with whatever they want since the upper chain
                 protects them.”

             •   Comment two:
                 “I feel that in many instances the females are promoted to a higher
                 position than males in order to meet quotas and create a sense of
                 diversity when they are not always the best person for the job.”


             •   Comment three:

                 “When I say that there is unfair treatment based on gender, I mean it in
                 both ways. Women are given special treatment on physical things by
                 giving them lower standards and easier tests. Men notice this and do
                 not like it, especially when we are working hard to pass at a higher
                 standard than their highest standard. Women, however, or maybe as a
                 response, are treated poorly at times. There is no justification of
                 disrespecting another person, but many females do not give much
                 reason for men to respect them. They often take advantage of the
                 system and the fact that they can get by. Men find this frustrating”


             •   Comment four:
                 “It seems clear to me that women receive preferential treatment at West
                 Point. It also seems clear to me that attractive women at West Point
                 use sex as a tool to control men”


             •   Comment five:
                 “I think that the Academy creates at bias by have mandatory placement
                 of females into leadership positions.”


                                              118
Separation of Genders in Barracks
When asked whether they agreed or disagreed that cadet barracks areas should be
physically separated (i.e., different floors or buildings) by gender, the majority of USMA
male respondents, (78.9 percent) indicated cadet dorms should not be physically
separated. USMA male respondents made the following comments:

               •   Comment one:
                   “When you put young men and women together in close confines,
                   secluded to a military base, people are going to have sex. It is a reality
                   of human nature. Just because the media is creating a circus does not
                   mean that we should overreact. The one thing that I do think would
                   contribute positively to the current situation would be to have all of the
                   female cadets and male cadets living separately.”

               •   Comment two:
                   “Male and Female living areas should not be separated. People need to
                   learn how to interact with the opposite gender and they learn it by
                   interacting throughout the day in the barracks and in classes.
                   Separating Male and Female living areas will hurt social development.”

Understanding of Sexual Harassment, Assault and Related Services
We asked USMA male cadets if they understood various aspects of sexual harassment
and sexual assault, to include avoiding risky situations, how to report and obtain care,
counseling, legal services, and the responsibilities of law enforcement and the chain of
command in handling sexual assaults. Almost every USMA male respondent understood
the difference between sexual harassment and sexual assault, and how to avoid situations
that increase the risk of sexual assault. Table 142 reflects the USMA males who
understood sexual harassment, sexual assault and related services.

           Table 142. USMA Male Responses to Understanding of Sexual
                    Harassment, Assault, and Related Services
                                                                           Yes             No
      The difference between sexual harassment and sexual
                                                                          96.9%           0.5%
      assault
      How to avoid situations that might increase the risk of
                                                                          97.6%           0.7%
      sexual assault
      How to report sexual assaults                                       93.5%           2.0%
      How to obtain medical care following a sexual assault               89.8%           4.7%
      How to obtain counseling following a sexual assault                 88.8%           4.0%
      The services that your Academy’s legal office can provide
                                                                          79.6%           7.8%
      to a victim in response to sexual assault
      General responsibilities of law enforcement and criminal
                                                                          80.5%           6.9%
      investigative agencies in response to sexual assaults
      The role of the chain of command in handling sexual
                                                                          86.6%           5.8%
      assaults
      Where to go if I need additional information on the areas
                                                                          89.1%           3.5%
      above.




                                                 119
Effectiveness of Academy Non-Senior Leaders
We asked USMA male cadets a series of questions regarding cadet leaders and
commissioned officers (Tactical Officers) at their academy, and indicate the extent these
leaders exhibit certain leadership behaviors. Table 143 reflects the USMA male
responses.

     Table 143. USMA Male Responses Regarding the Effectiveness of Cadet/
                  Commissioned Officer Non-Senior Leaders
                                                      Very    Moder-
                                                                        Not at
                                                      Large    ate
                                                                         all
                                                      Large   Small
           Demonstrate good               Cadets
                                                      64.5%    34.4%     0.3%
           examples of sound moral        Leaders
           character                      TAC         74.7%    22.3%     1.8%
           Hold others accountable for    Cadets
                                                      64.2%    34.0%     0.7%
           their conduct                  Leaders
                                          TAC         85.4%    12.3%     0.7%
           Promote and safeguard the      Cadets
                                                      65.0%    30.9%     2.6%
           welfare of subordinates        Leaders
                                          TAC         74.6%    21.4%     2.2%
           Create a climate in which      Cadets
                                                      74.5%    21.5%     1.1%
           sexual HARASSMENT is           Leaders
           not tolerated                  TAC         85.6%    10.3%     0.7%
           Create a climate in which      Cadets
                                                      67.7%    27.3%     1.3%
           cadets are encouraged to       Leaders
           report sexual                  TAC
                                                      82.4%    12.5%     0.4%
           HARASSMENT
           Create a climate in which      Cadets
                                                      87.1%    9.7%      0.7%
           sexual ASSAULT is not          Leaders
           tolerated                      TAC         87.6%    8.2%      0.3%
           Create a climate in which      Cadets
                                                      80.1%    14.9%     0.8%
           cadets are encouraged to       Leaders
           report a sexual ASSAULT        TAC         83.7%    11.3%     0.4%
           Ensure those who have          Cadets
                                                      62.9%    15.9%     0.5%
           reported sexual                Leaders
           HARASSMENT/ASSAULT             TAC
           are treated with dignity and               70.9%    10.3%     0.2%
           respect
           Provide an appropriate         Cadets
                                                      60.5%    13.7%     1.8%
           level of privacy to those      Leaders
           who have experienced           TAC
                                                      69.3%    8.9%      0.8%
           sexual ASSAULT
           Provide adequate               TAC         75.1%    15.2%     0.7%
           information to cadets about
           policies, procedures, and
           consequences of sexual
           ASSAULT


Effectiveness of Senior Leaders and Faculty
We asked USMA male cadets a series of similar questions about academy senior leaders
(Superintendent, Commandant of Cadets, Vice Commandant, and Dean of Faculty), and
academy faculty. Table 144 reflects the USMA male responses.


                                                120
          Table 144. USMA Male Responses Regarding the Effectiveness of
                       Academy Senior Leaders and Faculty
                                                      Very
                                                               Moderate    Not at
                                                      Large
                                                                Small       all
                                                      Large
           Demonstrate good           Senior
                                                      91.4%         5.5%   0.3%
           examples of sound          Leadership
           moral character            Academy
                                                      91.2%         6.6%   0.1%
                                      Faculty
           Hold cadets                Senior
                                                      94.3%         3.0%   0.2%
           accountable for their      Leadership
           conduct                    Academy
                                                      90.0%         8.1%   0.2%
                                      Faculty
           Promote and safeguard      Senior
                                                      84.3%      11.9%     0.9%
           the welfare of             Leadership
           subordinates               Academy
                                                      84.6%      11.1%     0.1%
                                      Faculty
           Treat subordinate          Senior
                                                      73.9%      18.2%     3.3%
           cadets fairly regardless   Leadership
           of gender                  Academy
                                                      77.0%      19.5%     1.0%
                                      Faculty
           Create a climate in        Senior
                                                      92.0%         4.5%   0.1%
           which sexual               Leadership
           HARASSMENT is not          Academy
                                                      86.6%         7.4%   0.1%
           tolerated                  Faculty
           Create a climate in        Senior
                                                      92.1%         3.6%   0.0%
           which sexual               Leadership
           ASSAULT is not             Academy
                                                      87.8%         5.1%   0.1%
           tolerated                  Faculty


Sexual Harassment Tolerance
Tables 145 and 146 illustrate the percentage of USMA male respondents who answered
either very large or large extent that academy leaders, to include cadets, Tactical Officers,
senior leaders, and faculty, create a climate where “sexual harassment is not tolerated.
Table 145 reflects respondents who answered “yes” to question 19 (victim of sexual
assault).

                   Table 145. Extent That Sexual Harassment is Not
                                 Tolerated (Victim)
                                                      Very Large/
                                                        Large
                        Cadet Leadership                62.5%
                        TAC                             81.3%
                        Senior Leadership               87.5%
                        Faculty                         75.0%


Table 146 reflects respondents who answered “no” to question 19 (non-victim of sexual
assault).




                                             121
                 Table 146. Extent That Sexual Harassment is Not
                             Tolerated (Non-Victim)
                                                          Very Large/
                                                          Large Extent
                      Cadet Leadership                       74.6%
                      TAC                                    85.7%
                      Senior Leadership                      92.0%
                      Faculty                                86.8%


USMA male respondents made the following written comments regarding the Academy
leadership and tolerance of sexual harassment:

             •   Comment one:
                 “The USMA COC has done a very good job of nipping sexual assault
                 and harassment in the bud. There is a very good climate of
                 discouragement to the topic discussed here.”

             •   Comment two:
                 “I do not see sexual assault or harassment as a problem at West Point.
                 The staff and faculty, as well as the cadet chain of command has
                 handled every instance I know about in a professional manner”

             •   Comment three:
                 “I think that overall, the climate is one that discourages sexual
                 harassment or sexual assault. However, due to the disproportionate
                 ratio of male and female cadets, there is an atmosphere among cadets
                 that seems to encourage the objectifying of women. Though this is
                 discouraged by most of the CoC and academy leadership, there is still
                 the attitude that and thinking process that drives many cadets to think
                 that we’re just a bunch of guys locked up without any outlet for social
                 interaction with the opposite sex. I think this drives people to the
                 extremes and leads people to pornography, illicit relationships, and
                 even to sexual harassment/assault.”

             •   Comment four:

                 “On a larger scale I think that things are commonly said that might offend people in
                 everyday conversations (jokes, comments about women, gender). But I do not think
                 that people will continue to harass someone if they let them know that what they are
                 saying is offensive to them. Most of the time it is just things that people say without
                 thinking first.”

             •   Comment five:
                  “I think the Academy is one of the least tolerant places I have ever
                 been regarding sexual assault/harassment. It is very considerate and
                 helping towards victims, and never, in my experience, has tolerated
                 even the idea that some violation might have occurred. Offenders, even
                 minor ones, are dealt with swiftly and harshly.”



                                               122
               •   Comment six:
                   “I think that there should be a standard set for making vulgar and
                   sexually derogatory comments toward the opposite gender...this is a
                   serious problem here.”

Sexual Assault Tolerance
Tables 147 and 148 illustrate the percentage of USMA male respondents who answered
either very large or large extent academy leaders, to include cadets, Tactical Officers,
senior leaders, and faculty, create a climate where “sexual assault is not tolerated.” Table
147 reflects USMA male respondents who answered “yes” to question 19 (victim of
sexual assault).

                     Table 147. Extent That Sexual Assault is Not
                         Tolerated (victim of Sexual Assault)
                                                        Very Large/
                                                          Large
                       Cadet Leadership                   81.2%
                       TAC                                81.2%
                       Senior Leadership                  93.7%
                       Faculty                            81.2%


Table 148 reflects USMA male respondents who answered “no” to question 19 (non-
victim of sexual assault).

                     Table 148. Extent That Sexual Assault is Not
                      Tolerated (Non-Victim of Sexual Assault)
                                                        Very Large/
                                                          Large
                       Cadet Leadership                   87.1%
                       TAC                                87.6%
                       Senior Leadership                  92.1%
                       Faculty                            87.9%


Willingness to Confront and Report Offenders
We asked cadets, on the basis of the behavior they observed, the extent other cadets at
their academy would be willing to CONFRONT other cadets who engage in sexual
HARASSMENT, including inappropriate comments and actions; REPORT other cadets
who continue to engage in sexual HARASSMENT after having been previously
confronted; and, to REPORT other cadets who commit sexual ASSAULT. Table 149
reflects the USMA male responses.




                                              123
         Table 149. USMA Male Responses Regarding Cadet Willingness to
                        Confront and Report Offenders
                                                     Very
                                                               Moderate   Not at
                                                     Large
                                                                Small      all
                                                     Large
           CONFRONT other cadets who engage
           in sexual HARASSMENT, including           45.8%       43.0%     1.9%
           inappropriate comments and actions
           REPORT other cadets who continue to
           engage in sexual HARASSMENT after         50.3%       35.6%     1.2%
           having been previously confronted
           REPORT other cadets who commit
                                                     67.7%       17.6%     0.8%
           sexual ASSAULT


Personal Loyalties, Barriers to Reporting and Fraudulent Reporting
We asked cadets the extent they think cadets at their academy: (1) Allow personal
loyalties to affect reporting of sexual assault, (2) Do not report sexual assault out of
concern they or others will be punished for infractions, such as fraternization or underage
drinking, and (3) Consider fraudulent reporting of sexual assault incidents to be a
problem at the academy. Table 150 reflects USMA male results.

          Table 150. USMA Male Responses Regarding Personal Loyalties,
                  Barriers to Reporting and Fraudulent Reporting
                                                  Very Large   Moderate   Not at
                                                    Large       Small      all
           Allow personal loyalties to affect
                                                    16.7%       51.6%     11.4%
           reporting of sexual ASSAULT
           Do NOT report sexual ASSAULT out
           of concern they or others will be
                                                    21.9%       45.1%     13.2%
           punished for infractions, such as
           fraternization or underage drinking
           Consider fraudulent reporting of
           sexual ASSAULT incidents to be a         17.3%       42.5%     17.4%
           problem at the Academy


We compared respondents who answered “yes” and “no” to question 19 (victim and non-
victims of sexual assault) regarding “Do NOT report sexual ASSAULT out of concern
they or others will be punished for infractions, such as fraternization or underage
drinking.” Respondents were asked to select “very large extent, large extent, moderate
extent, small extent, not at all or no basis to judge.” For our study, we grouped very large
and large extent together, moderate and small extent together and “other responses”
includes “not at all,” and “no basis to judge.” Table 151 compares USMA male cadets
who answered “yes” and “no” to question 19




                                            124
         Table 151. Extent that Victims and Non-Victims Do NOT Report
           Sexual Assault - Possible Punishment for Other Infractions
                                   Very Large/         Moderate/
                                                                           Other
                                     Large              Small
                  Victim             37.5%              43.7%              18.8%
                  Non-Victim         21.6%              45.1%              33.2%


Respondents were asked if they “Consider fraudulent reporting of sexual ASSAULT
incidents to be a problem at the Academy.” We compared the responses of cadets that
were a victim of sexual assault with those that were not. Table 152 compares responses
from victims and non-victims.

             Table 152. Extent That Victims and Non-Victims Consider
                       Fraudulent Reporting to be a Problem
                                   Very Large/         Moderate/
                                                                           Other
                                     Large              Small
                  Victim             18.2%              37.5%              43.7%
                  Non-Victim         17.2%              42.5%              40.1%


USMA male cadets made the following written comments regarding Personal Loyalties,
Barriers to Reporting and Fraudulent Reporting”

              •     Comment one:
                    “I think that all the sexual assault cases come from when cadet girls go
                    out partying with other guy cadets, get drunk, have sex, then realize in
                    the morning that it might hurt their career so then they report it as a
                    violation. Its really stupid of them and it gets good cadets kicked out”

              •     Comment two:
                    “I have seen girls on 4 different occasions try to claim rape or sexual
                    harassment to get out of trouble. So I am weary of SH claims”

              •     Comment three:
                    “I feel that often times due to the seriousness that such events are
                    treated with some female cadets use sexual assault claims in order to
                    get themselves out of trouble. This has specifically happened to me.
                    Where false accusations have been made against me”

              •     Comment four:
                    “I feel that men are guilty until proven innocent with sexual
                    harassment. Even if a male is proven innocent his record is still
                    permanently tarnished. The CoC and the way the system works
                    facilitates such an environment”




                                                 125
                    •               Comment five:
                                    “The largest problem here is that if and when a sexual problem is
                                    reported is that a male will not be treated fairly. If a female lies about
                                    getting assaulted after the two were caught having sex, then the male
                                    taking part in the action often times is subject to strict scrutiny and is
                                    often found wrong when a woman accuses them of rape. The males are
                                    hardly ever believed in their statements.”

Willingness to Report to Various Agencies
We asked cadets about their willingness to report a personal experience of sexual assault
to a variety of individuals/agencies. They were asked to select either “yes,” “no,”
“uncertain,” or “service not available.” Although respondents were only asked about
their willingness to report to various agencies their responses allowed us to rank order
them in terms of the number of “yes” responses. USMA male respondents were most
willing to report to Academy Chaplain/Clergy. Second, was a faculty member, coaches
or academy staff not in chain of command and installation medical personnel. Figure 4
depicts individual/agency ranking from USMA male cadets.

         Figure 4. Individual/Agency Ranking Among USMA Male Cadets

                                                                                                   USMA Male Cadets


       90%
                              85%

                                              80%

                                                                   80%

                                                                                     78%




       80%
                                                                                                  76%

                                                                                                                          69%

                                                                                                                                               69%


                                                                                                                                                                68%




       70%
                                                                                                                                                                                    63%

                                                                                                                                                                                                    62%


       60%
                                                                                                                                                                                                                  55%

       50%                                                                                                                                                                                                                       55%
       40%
                                                                                                                                                                                                                                                           30%
       30%
       20%                                                                                                                                                                                                                                                               10%
       10%
        0%
                                                                                           MCIO




                                                                                                                                                                                                          DoDIG
                                                    Inst Medical




                                                                                                                                                                      Cadet Chain




                                                                                                                                                                                                                                       Peer Rsc [not MA]
                                                                                                                                                                                                                        Svc IG




                                                                                                                                                                                                                                                                 Other
                                                                                                                                                                                          Acad IG
                                    Faculty




                                                                         Off Chain
              Acad Chaplain




                                                                                                        Acad Counseling

                                                                                                                                Acad Hotline

                                                                                                                                                     Security




Sexual Harassment
We asked cadets about sexual talk and/or behaviors that were uninvited and unwanted,
and in which they did not willingly participate. They were asked “SINCE JUNE OF
2003, how frequently have you been in situations where persons assigned to your
Academy (i.e., cadets and/or other military or civilian personnel working at your
Academy),” (emphasis in original) followed by a series of behaviors listed in Table 153.
Respondents were asked to indicate the frequency that they experienced these behaviors
ranging from never, once or twice, several times, often and very often. The most
frequent behavior experienced often or very often by male USMA cadets is “Repeatedly


                                                                                                                            126
told stories or jokes of a sexual nature that were offensive to you,” with USMA at five
percent. Around two percent of USMA male respondents indicated they experienced “ . .
. offensive remarks about your appearance, body, or sexual activities,” often or very
often.” Table 153 reflects the responses of USMA males indicating the percentages of
respondents that experienced the listed behaviors often or very often.

            Table 153. Percentage of Male Cadets Indicating Occurrence
                      of Listed Behaviors Often or Very Often.
                          Uninvited Unwanted Behavior                           Often/Very
                                                                                  Often
      Repeatedly told stories or jokes of a sexual nature that were offensive
                                                                                  5.0%
      to you
      Made unwelcome attempts to draw you into a discussion of sexual
      matters (for example, attempted to discuss or comment on your sex           3.0%
      life)
      Made offensive remarks about your appearance, body, or sexual
                                                                                  2.2%
      activities
      Made gestures or used body language of a sexual nature that
                                                                                  1.5%
      embarrassed or offended you
      Made unwanted attempts to establish a romantic sexual relationship
                                                                                  0.7%
      with you despite your efforts to discourage it
      Continued to ask you for dates, drinks, dinner, etc, even though you
                                                                                  0.2%
      said “No”
      Made you feel like you were being bribed with some sort of reward or
                                                                                  0.1%
      special treatment to engage in sexual behavior
      Made you feel threatened with some sort of retaliation for not being
      sexually cooperative (for example, by mentioning an upcoming review         0.2%
      or evaluation)
      Touched you in a way that made you feel uncomfortable                       0.5%
      Treated you badly for refusing to have sex                                  0.3%
      Implied better assignments or better treatment if you were sexually
                                                                                  0.2%
      cooperative


The behavior that the respondents experience most is “[T]ouched you in a way that made
you feel uncomfortable.” Overall, around four percent of USMA male respondents
indicated they never experienced this behavior since June 2003. Table 154 reflects the
percentages of USMA male respondents that never experienced the listed behaviors.




                                               127
       Table 154. Percentage of USMA Male Cadets That Never Experienced
                                 Listed Behaviors
                                                                                  Never
                          Uninvited Unwanted Behavior
                                                                                Experienced
      Repeatedly told stories or jokes of a sexual nature that were offensive
                                                                                  60.9%
      to you
      Made unwelcome attempts to draw you into a discussion of sexual
      matters (for example, attempted to discuss or comment on your sex           67.6%
      life)
      Made offensive remarks about your appearance, body, or sexual
                                                                                  74.7%
      activities
      Made gestures or used body language of a sexual nature that
                                                                                  80.0%
      embarrassed or offended you
      Made unwanted attempts to establish a romantic sexual relationship
                                                                                  93.0%
      with you despite your efforts to discourage it
      Continued to ask you for dates, drinks, dinner, etc, even though you
                                                                                  96.4%
      said “No”
      Made you feel like you were being bribed with some sort of reward or
                                                                                  97.8%
      special treatment to engage in sexual behavior
      Made you feel threatened with some sort of retaliation for not being
      sexually cooperative (for example, by mentioning an upcoming review         97.8%
      or evaluation)
      Touched you in a way that made you feel uncomfortable                       4.3%
      Treated you badly for refusing to have sex                                  98.0%
      Implied better assignments or better treatment if you were sexually
                                                                                  97.3%
      cooperative


Table 155 reflects percentages of USMA male respondents who answered “yes” to
question 19 regarding the frequency they experienced unwanted/uninvited sexual talk or
behavior. Table 156 reflects USMA male cadets who answered “no” to question 19
(non-victim of sexual assault).




                                               128
      Table 155. Frequency of Unwanted/Uninvited Sexual Talk or
                  Behavior (Victim of Sexual Assault)
                                             Once
                                                     Several           Very
                                   Never      or               Often
                                                      Times            Often
                                             Twice
Repeatedly told stories or jokes
of a sexual nature that were       25.0%     31.2%   31.2%     6.2%    6.2%
offensive to you
Made unwelcome attempts to
draw you into a discussion of      37.5%     43.7%    6.2%     6.2%    6.2%
sexual matter
Made offensive remarks about
your appearance, body, or          43.7%     21.3%    6.2%     18.7%   0.0%
sexual activities
Made gestures or used body
language of a sexual nature
                                   37.5%     31.2%   18.7%     6.2%    6.2%
that embarrassed or offended
you
Made unwanted attempts to
establish a romantic sexual
                                   62.5%     12.5%    6.2%     12.5%   6.2%
relationship with you despite
your efforts to discourage it
Continued to ask you for dates,
drinks, dinner, etc, even          81.2%     0.0%    12.5%     0.0%    6.2%
though you said “No”
Made you feel like you were
being bribed with some sort of
                                   68.7%     25.0%    6.2%     0.0%    0.0%
reward or special treatment to
engage in sexual behavior
Made you feel threatened with
some sort of retaliation for not   75.0%     18.7%    6.2%     0.0%    0.0%
being sexually cooperative
Touched you in a way that
                                   31.2%     43.7%   12.5%     6.2%    6.2%
made you feel uncomfortable
Treated you badly for refusing
                                   81.2%     12.5%    0.0%     6.2%    0.0%
to have sex
Implied better assignments or
better treatment if you were       100%      0.0%     0.0%     0.0%    0.0%
sexually cooperative




                                       129
      Table 156. Frequency of Unwanted/Uninvited Sexual Talk or
                Behavior (Non-Victim of Sexual Assault)
                                      1st        2nd                   1st        2nd
           Reasons                                        Reasons
                                   Incident   Incident              Incident   Incident
Repeatedly told stories or
jokes of a sexual nature that       61.5%         23.8%    9.7%      3.1%       1.7%
were offensive to you
Made unwelcome attempts to
draw you into a discussion of       68.6%         20.9%    7.5%      1.6%       1.2%
sexual matter
Made offensive remarks about
your appearance, body, or           75.4%         17.9%    4.7%      1.0%       0.8%
sexual activities
Made gestures or used body
language of a sexual nature
                                    81.1%         13.8%    3.6%      0.7%       0.5%
that embarrassed or offended
you
Made unwanted attempts to
establish a romantic sexual
                                    93.7%         5.2%     0.6%      0.2%       0.1%
relationship with you despite
your efforts to discourage it
Continued to ask you for
dates, drinks, dinner, etc, even    97.0%         2.2%     0.5%      0.0%       0.1%
though you said “No”
Made you feel like you were
being bribed with some sort of
                                    98.4%         1.3%     0.1%      0.0%       0.1%
reward or special treatment to
engage in sexual behavior
Made you feel threatened with
some sort of retaliation for not    98.7%         0.9%     0.1%      0.0%       0.1%
being sexually cooperative
Touched you in a way that
                                    3.9%          95.3%    0.4%      0.0%       0.2%
made you feel uncomfortable
Treated you badly for refusing
                                    98.7%         0.8%     0.1%      0.0%       0.1%
to have sex
Implied better assignments or
better treatment if you were        98.9%         0.6%     0.1%      0.0%       0.1%
sexually cooperative




                                            130
USMA male cadets made the following written comments regarding unwanted uninvited
sexual talk or behavior:

             •     Comment one:
                   “Cadets freely talk about porn, masturbation, sex, strip clubs, hookers,
                   and various other things which I consider to be personal issues that I
                   would rather not hear about. I believe the afore mentioned behavior
                   creates an environment where sexual assault/harassment is tolerated as
                   opposed to being abhorred. Such behavior makes impropriate sexual
                   activities more commonplace.”

             •     Comment two:
                   “I occasionally will hear people telling derogatory jokes sometimes
                   among close friends. Although I do not agree with people telling these
                   jokes, I know all the people that I have heard tell them say them in a
                   completely joking manner and away from anyone that might be
                   offended by them.”

             •     Comment three:
                   “I believe that there is an issue of remarks being made that are
                   offensive to others and the officer chain of command not doing
                   anything about such comments. Respect cases tend to get pushed under
                   the rug at the company level, and they should be taken more seriously”

We asked cadets how many behaviors they marked were considered sexual harassment.
Table 157 reflects the responses of USMA male cadets.

                 Table 157. USMA Male Responses to Behaviors They
                         Considered to be Sexual Harassment
                                                                         Percentage
                 None were sexual harassment                               45.8%
                 Some were sexual harassment                                6.1%
                 Most were sexual harassment                                1.5%
                 All were sexual harassment                                 1.6%
                 Does not apply (I marked “NEVER” in every item
                                                                           43.8%
                 in question #17)


Table 158 reflects USMA male responses broken down by those who answered “yes” to
question 19 and those who answered “no” (victim and non-victim of sexual assault).
Nine respondents did not provide answers to the question.




                                                131
       Table 158. USMA Male Responses to Behaviors They Considered to be
         Sexual Harassment (Victim Versus Non-Victim of Sexual Assault)
                                                                        Non-
                                                            Victims
                                                                       victims
           None were sexual harassment                       46.7%     46.2%
           Some were sexual harassment                       26.7%      6.0%
           Most were sexual harassment                       6.7%       1.5%
           All were sexual harassment                        6.6%       1.6%
           Does not apply (I marked “NEVER” in every item
                                                             13.3%      44.7%
           in question #17)
           Total                                             100%       100%


   C. Sexual Assault Incidents at the Academy
This section details the survey findings concerning the scope of sexual assault incidents
at the Academy. The respondents were asked to answer “yes” or “no” to the following
question: “[S]ince becoming a cadet, has someone done any of the following to you
without your consent and against your will?” The answer choices included:

               •   “Touched, stroked, or fondled your private parts;

               •   Physically attempted to have sexual intercourse with you, but was not
                   successful;

               •   Physically attempted to have oral or anal sex with you, but was not
                   successful;

               •   Had sexual intercourse with you;

               •   Had oral sex with you; and,

               •   Had anal sex with you.”

A total of 16 male respondents answered “yes” to the question. Table 159 reflects
USMA male cadets that experienced incidents involving the above-described behavior.
The respondents were instructed to check all behaviors that applied for each incident.
Therefore, the number of behaviors indicated may exceed the total incidents listed.




                                             132
            Table 159. Scope of Recent Incidents Involving Male USMA
                             Respondents as Victims.
                Experienced behavior against will without consent             Number
                Total Incidents                                                 16
                Touched, stroked, or fondled privates only                      11
                Touched, stroked, or fondled privates in
                                                                                   1
                conjunction with other listed behavior(s)
                Attempted sexual intercourse                                       0
                Attempted oral or anal sex                                         1
                Had sexual intercourse                                             3
                Had oral sex                                                       2
                Had anal sex                                                       0

Tables 160.a through 160.c list when these incidents occurred, by calendar year,
semester, and the cadet status/rank (BCT/Plebe, summer/freshman/ sophomore/ junior/
senior). If the cadet selected summer “semester”, it assumes that graduation has occurred
and the cadet rose to the next rank. All cadets did not answer question 20A completely.
Where that occurred, “Missing Data” is listed in the table as an unknown response.

        Table 160a. USMA Males Calendar Year When Incident Occurred
                           2001 and                                         Missing
                                        2002        2003         2004*                      Total
                            Earlier                                          Data
           Incident           1          2           8             3          2              16
                      * 3-4 month period: January-March/April 2004

           Table160b. USMA Males Semester When Incidents Occurred
                                                                         Missing
                                 Fall    Spring          Summer                    Total
                                                                          Data
                Incident          7            6             1             2           16

        Table 160c. Status of USMA Male Cadet When Incidents Occurred
                                                                  BCT/       Missing
                      Fresh     Soph     Junior      Senior                                   Total
                                                                  PLB         Data
         Incident          7      3          2           2         0           2               16

The Offenders
We asked USMA male cadets to select the actions of the offender from a list of various
sexual assault behaviors. The actions were not further defined for the respondents. Table
161 describes these actions. The respondents were instructed to check all actions that
apply.




                                                   133
             Table 161. USMA Males - Actions of Offenders by Incident
                                                                       Number of
                                      Act
                                                                        Actions
           Touched, stroked, or fondled your private parts?               12
           Physically attempted to have sexual intercourse with you,
                                                                           0
           but was not successful?
           Physically attempted to have oral or anal sex with you,
                                                                           1
           but was not successful?
           Had sexual intercourse with you?                                3
           Had oral sex with you?                                          2
           Had anal sex with you?                                          0


Location of the Incident
Respondents provided location information for 15 of the 16 sexual assault incidents. A
total of 14 of the 16 sexual assaults occurred on the installation. A total of 11 of those
occurred in the barracks. There was one offense that occurred “Off installation and NOT
at an Academy-sponsored event.”

Fellow cadets were the principal offender group (of all identified offenders); 3 were
cadets who were senior to the victim, while 10 were cadets who were in the same class or
below. Table 162 reflects the breakdown of offenders by category.

                  Table 162. USMA Males - Category of Offenders
                                       Category                        Total
                Cadet who was senior to me                              3
                Cadet who was in same class as me or below              10
                Military faculty or staff member                        0
                Civilian faculty or staff member                        0
                Military person NOT assigned to your academy            1
                Civilian person NOT assigned to your academy            0
                Unidentified person                                     1
                Missing Data                                            1
                Total                                                   16


A total of 2 respondents indicated being sexually assaulted by multiple offenders, 12
respondents indicated solitary offenders assaulted them, and 1 did not know whether the
incident involved multiple offenders. Cadets senior to the victim were the only offender-
group for the two multiple offender incidents.

Reporting of Sexual Assault Incidents
A total of 15 USMA male respondents provided data concerning the authorities to which
they reported the sexual assault incidents. A total of 12 cadets indicated the incidents
were not reported to anyone, while in one incident, the respondent indicated they reported
to: “officer/NCO chain of command,” “academy staff and faculty member not in chain of
command,” and “person in cadet chain of command.” The two remaining incidents had
no responses.

Reprisal for Reporting Sexual Assaults
Cadets who indicated “yes” to question 19, were asked whether anyone in a position of
authority retaliated against them for reporting an incident. Retaliation was defined as


                                              134
“unwarranted punishment, demotion, or withholding a favorable duty position. One
USMA male respondent indicated reprisal or repercussions for reporting an incident of
sexual assault.

Respondents were then asked whether they experienced “any OTHER repercussions for
reporting this incident.” The choices included: Ostracism, harassment, or ridicule from
other cadets both in and not in their chain of command, ostracism, harassment, or ridicule
from Academy staff or faculty members, and other significant repercussions. One
incident recorded both ostracism, harassment, or ridicule from other cadets NOT in chain
of command, and one respondent indicated ostracism, harassment, or ridicule from other
cadets in his chain of command.

Reporting to MCIO/Law Enforcement Agency
Respondents were asked if a military criminal investigative organization or a civilian law
enforcement agency conducted a criminal investigation. When asked why a criminal
investigation was not conducted, 12 respondents indicated they did not report the incident
to anyone, and 1 respondent indicated the assault was not reported to law enforcement
officials.

No USMA male respondents were informed of the final disposition of their incidents,
because military criminal investigative organizations or civilian law enforcement
authorities did not receive a report.

When asked why they did not report the incident to military or academy authorities, the
respondents indicated the incident was not serious enough to report (five incidents) and
they could handle it themselves (five incidents). One cadet indicated he could deal with
it himself, while others feared they would be labeled a trouble maker, thought nothing
would be done, feared loss of friends, feared public disclosure, feared other repercussions
or shame/embarrassment. Table 163 reflects the USMA male respondents’ reasons for
not reporting sexual assaults to military or academy authorities. (Respondents were
asked to check all that apply.)




                                           135
                              Table 163. Reasons for Not Reporting
                                          by Incident
                                                                                           Number
                                           Reasons                                            of
                                                                                          Incidents
        Does not apply, I reported it                                                         0
        It was not serious enough to report                                                   5
        I handled it myself                                                                   5
        I thought I would be labeled a trouble maker                                          1
        I thought nothing would be done                                                       1
        Threatened with some form of retaliation                                              0
        Not threatened with retaliation, but feared some form of retaliation                  0
        Feared ostracism, harassment, or ridicule by peers                                    0
        Feared loss of friends                                                                1
        Feared I or others would be punished for infractions/violations (such as
                                                                                              1
        underage drinking)
        Feared public disclosure of the assault                                               1
        Feared my parents/family would find out                                               0
        Pressured by someone in position of authority                                         0
        Feared my boyfriend/girlfriend would find out                                         0
        Shame/embarrassment                                                                   1
        Feared other repercussions                                                            1
        Feared people would not believe me                                                    0
        Not aware of reporting procedures                                                     0
        I thought I could deal with it myself                                                 1
        Other (Please explain)67                                                              2


Satisfaction with Individuals/Agencies by Incident
Respondents were asked to report their level of satisfaction with the following individuals
who or agencies that handled their incident. Even though no respondents indicated they
reported incidents to anyone, other than the chaplain/clergy and peer resources, data was
provided regarding a respondents’ satisfaction with the chain of command, though it was
not identified as being involved in the reporting process. Table 164 reflects how satisfied
USMA male respondents were.




67
     A respondent stated that a female offered oral sex and he didn’t want to seem ‘weird” or “different” for
     refusing and the other respondent stated “not a big deal, just some guys who thought it cool to smack
     people’s [genitals.]”



                                                     136
      Table 164. Satisfaction With Individuals/Agencies Handling of Incident
                                                                               N/A or I
                                                                     Very
                               Very                      Dis-                   did not
             Agency           Satisfied
                                          Satisfied
                                                       satisfied
                                                                     Dis-
                                                                                  use
                                                                                          Total
                                                                   satisfied
                                                                               Resource
       Investigative
       Agencies (OSI/CID/        0           0            0           0          12        12
       NCIS)
       Military lawyers
                                 0           0            0           0          11        11
       handling your case
       Victim Witness
                                 0           0            0           0          12        12
       Assistance
       SAVI Advocate/
       Coordinator or
       Academy Response          0           0            0           0          12        12
       Team (ART)
       [N/A for West Point]
       Academy
       Counseling or             0           0            0           0          12        12
       Development Center
       Peer Resource
       (CASIE Rep/SAVI
                                 0           0            0           0          11        11
       GUIDE)[N/A for
       West Point]
       Chain of Command          0           0            1           0          11        12


   D. General Comments
A large number of male cadets believe there were no sexual harassment/assault issues at
the Military Academy. They felt the senior leadership was doing an excellent job
“addressing the problem.” They realize they don’t have a “perfect campus,” but have
faith in the system and it will deal with any incidents of sexual misconduct quickly and
with justice. Many think the sexual harassment and assault education is not only
sufficient; it’s overdone.

Liberty passes are limited, and awarded infrequently or arbitrarily, causing cadets to
harbor feelings of being unnecessarily confined and sequestered. This was referred to as
“Cabin Fever” mentality. The idea of “getting out into the civilian community” more
often was seen as a remedy for lessening institutional stress which, in their opinion,
would lower the incidents of sexual harassment/assault. It was said that the isolation
results in a lack of social skills, and more freedom would result in a socially well-rounded
cadet, or in the opinion of one cadet, such as the midshipmen at the Naval Academy.

Male cadets thought sexual contact was unavoidable, a normal occurrence for young
adults and was perceived as inevitable in a coed environment, even one as restrictive as
USMA. They indicated that the leadership should not put young men and women in a
close living space and expect abstinence from sexual activity. One commented, “[B]oys
like girls and girls like guys, they will attempt to have relationships.” It was proposed to
allow cadets to learn how to deal with relationships in a responsible manner, while
maintaining a professional atmosphere, and not to make stricter rules or harsher
punishments. Lessening the severity of punishment for both types of violations, sexual
contact and fraternization, would help reduce the number of false and/or after the fact
sexual harassment/assault reports. The consensus was to allow dating and sexual contact


                                                 137
outside the confines of the USMA as long as it does not prejudice or weaken the
discipline and order within the Corps of Cadets.

Cadets believed female cadets received preferential treatment. They seem convinced
there is an informal quota system, perpetuated by the chain of command and condoned by
senior leadership, unfairly ensuring female representation in leadership positions, while
causing reverse discrimination against highly qualified white males. Women get treated
differently mainly because of the intense pressure to treat both genders equally. It was
reported that females receive lesser punishment for infractions such as alcohol boards
when there is some sexual contact involved. Furthermore, females should be held to the
same standards as the males, especially physically. Women are given special treatment
on physical things by giving them lower standards and easier tests. Males perceived
double standards in everything but academics. Several males claimed the culture of the
Academy is not tolerant of females. One cadet stated;
                   “Females often develop eating disorders and other similar problems due
                   to the pressure put on them by continuous male judgment. If I had a
                   sister or daughter seeking admission, I would feel it as my family duty
                   to stop them.”

Numerous comments were made regarding derogatory joke telling, along with making
vulgar and sexually derogatory comments toward the opposite gender. Under-classmen
are encouraged to tell dirty jokes at meal time. It was noted, however, that there was a lot
of inappropriate jokes told, and even some of the language that is used is inappropriate,
but is not intended as sexual harassment.

Many males commented women do not belong in the Academy. Females are not seen as
incapable, but are viewed as less physically capable than men. Many observed that if
females were not at the Academy, there wouldn’t be any sexual harassment/assault
issues.




                                               138
     VII. USNA Female Survey Results
This section details the responses of USNA female midshipmen concerning values,
academy climate, and personal experiences. We included certain written comments that
we believe are noteworthy to illustrate the respondents’ feelings and beliefs concerning
the topics studied in the survey. When respondents were asked to indicate their level of
agreement in numerous survey questions, their choices were: “strongly agree; agree; no
opinion; disagree; and strongly disagree.” The information provided reflects the
responses of 652 survey respondents.

     A. Values
Navy core values are: “Honor, Courage and Commitment.”

We asked the survey participants to select from a list of 18 values,68 the 3 values most
important to their professional life at their academy. Although we asked for the three in
order of importance, when we analyzed the data we believed it would be more
meaningful to express the results in terms of the three values most frequently selected.
Respondents selected Integrity, Honor, and Commitment more than any other value.
Table 165 reflects a breakdown by class year of the values most frequently selected.

                        Table 165. Frequency of Values by Class Year
               Class      1st Most Selected       2nd Most Selected        3rd Most Selected
               Year              Value                 Value                     Value
              2007              Honor                Commitment                 Integrity
                                  100                    82                        69
              2006             Integrity/
                                                       Respect                Commitment
                                Honor
                                                         55                      49
                                   73
              2005             Integrity                Honor                 Commitment
                                   72                    67                      52
              2004             Integrity                Honor                 Commitment
                                   81                    59                      46


These figures were computed by adding the frequency that respondents selected each
value, while they ranked the values in order of importance to them. This represents the
total number of times a value was selected by respondents while they ranked them in
order of importance as first, second, and third most important to them.

We also asked the participants based on their experience, to indicate their level of
agreement69 with various statements regarding the honor code/concept, academy rules
and regulations, honesty, moral standards, exemplary conduct and leadership standards,
and ethical/spiritual/religious beliefs. Table 166. reflects the percentage of USNA female
midshipman responses.

68
     The values included: Accountability, Achievement, Ambition, Courage, Commitment, Effectiveness,
     Efficiency, Excellence, Friendship, Honor, Integrity, Loyalty to Country, Money, Power, Respect,
     Selfless Service, Spiritual Faith, and Tolerance.
69
     For reporting purposes, the results reflected the combined results of those indicating “agree/strongly
     agree” and “disagree/strongly disagree.”


                                                     139
               Table 166. USNA Female Responses to Values Statements
                                                                            Agree     Disagree
                                                                           Strongly   Strongly
                                                                            Agree     Disagree
       Midshipmen at my academy adhere to the honor code/concept,
                                                                            55.1%      35.1%
       even if they know they won’t get caught violating it
       Midshipmen adhere to significant Academy rules and
       regulations, even if they know they won’t get caught violating       36.7%      54.2%
       them
       Midshipmen hold other midshipmen accountable to the honor
                                                                            50.4%      30.6%
       code/concept
       Honesty in all things is expected and reinforced at my
                                                                            80.0%      7.5%
       academy.
       I am morally obligated to abide by the oath I took to support
       and defend the Constitution of the United States, regardless of      96.3%      0.8%
       the consequences to me
       I have felt pressure from others at my academy to compromise
                                                                            43.2%      45.0%
       moral standards because of loyalty to friends/peers
       I have felt pressure from others at my academy to compromise
       moral standards in order to meet academic or training                26.0%      63.0%
       objectives
       Circumstances determine whether it is right or wrong for a
                                                                            26.7%      58.7%
       midshipman to compromise his or her moral standards
       I am committed to living by moral standards that exceed those
                                                                            90.8%      1.8%
       of society at large
       As a midshipman, it is important for me to meet the same
       exemplary conduct and leadership standards required of a             94.9%      2.5%
       commissioned officer
       My commitment to living by exemplary conduct and
       leadership standards has been reinforced by attending the            75.1%      13.8%
       Academy
       I believe commitment to some form of
       ethical/spiritual/religious beliefs is important to an officer’s     85.6%      6.1%
       character
       I am strongly committed to some form of
                                                                            89.6%     5.1%%
       ethical/spiritual/religious beliefs about what is right and wrong
       My experiences at the Academy have enhanced my
                                                                            63.9%      19.0%
       commitment to ethical/spiritual/religious beliefs


Adherence to the Honor Code/Concept
As indicated in Table 166, overall 55.1 percent of the USNA female respondents strongly
agreed or agreed that midshipmen adhere to the honor code/concept, even if they know
they won’t get caught violating it. Table 167 reflects a breakdown by female respondents
class year of graduation, and illustrates the percentage of those that strongly agree/agree
that midshipmen adhere to the honor code/concept, even if they know they won’t get
caught violating them.




                                                 140
                     Table 167. Adhere to Honor Code/Concept
                              Class Year            Strongly Agree/Agree
                       2004                                68.0%
                       2005                                56.1%
                       2006                                46.3%
                       2007                                51.5%


USNA female respondents made the following comments on the honor code/concept:

              •   Comment one:
                  “. . . There is a problem with the Honor Concept... only a few choose to
                  report violations. Cheating is a big problem at our school and until we
                  hold each other accountable, it will not stop.”

              •   Comment two:
                  “. . . the honor concept is also necessary and good overall, but conflicts
                  with midshipmen loyalties to roommates sometimes. also, some rules,
                  like wearing civvies get broken and those aren’t considered a big deal
                  or dishonorable.”

              •   Comment three:
                  “The honor staff has some serious issues. I know I was lied to by the . .
                  . I do not trust them and I do not trust any decision they make. I fully
                  believe they rig investigations to help their friends and hurt people they
                  don’t like. The honor concept is a good one, but the current system is
                  horrible. The senior members of the honor staff have way too much
                  power with out officer oversight for a midshipmen to hold.”

              •   Comment four:
                  “The regulations and honor code at the academy are not followed to the
                  extent that they should be. Many midshipmen still lie, cheat and steal.
                  But few people will turn in friends or shipmates for this behavior. We
                  are strongly encouraged to follow shipmate loyalty during plebe
                  summer which contradicts the idea of turning in each other. I do not
                  believe it is right for someone to turn another person in, if the person
                  has also committed the same conduct offenses or worse ones.”

We asked USNA female respondents to indicate their level of agreement with the
statement, “Midshipmen adhere to significant academy rules and regulations, even if they
know they won’t get caught violating them.” Overall, 36.7 percent of female respondents
strongly agreed, or agreed with the statement. Table 168 reflects a break down by
respondent’s year of graduation, and illustrates the percentage of those that strongly
agree/agree that midshipmen adhere to significant academy rules/regulations, even if they
know they won’t get caught violating it.




                                                141
                      Table 168. Adhere to Significant Academy
                                 Rules/Regulations
                              Class Year           Strongly Agree/Agree
                       2004                               42.0%
                       2005                               27.7%
                       2006                               34.1%
                       2007                               41.6%

Maintaining Good Order and Discipline
We asked USNA female midshipmen for the extent of their agreement or disagreement
with how various behaviors, including honor code violations, gender favoritism,
fraternization, dating, consensual sex, alcohol use, illegal drug use, and pornography
disrupts good order and discipline at their respective academy. Overall, 86.7 percent of
USNA female respondents agreed “violating the honor code/concept” disrupts good order
and discipline. Over 92.8 percent of USNA female respondents agreed “favoritism based
on gender” disrupts good order and discipline. Table 169 reflects the results expressed
by female midshipmen.

             Table 169. Adverse Affects on Good Order and Discipline
                                                          Agree           Disagree
                                                         Strongly         Strongly
                                                          Agree           Disagree
           Violating the Honor Code/Concept               86.7%             8.0%
           Not reporting Honor Code/Concept
                                                          63.3%            20.7%
           violations
           Favoritism based on gender                     92.8%            4.8%
           Engaging in prohibited
                                                          56.4%            24.2%
           relationships/fraternization
           Midshipmen dating each other at the
                                                          5.7%             87.9%
           same academy
           Consensual sex between midshipmen
                                                          55.5%            27.9%
           ON academy grounds
           Consensual sex between midshipmen
                                                          9.7%             82.4%
           OFF academy grounds
           Excessive use of alcohol/drunkenness           75.3%            12.4%
           Illegal drug use, or the abuse of
                                                          92.6%            4.4%
           prescription drugs
           Viewing pornography or other sexually
                                                          56.4%            23.8%
           graphic content (images or movies)

Consensual Sex
As indicated in Table 169, overall, 55.5 percent of USNA female respondents strongly
agreed or agreed that consensual sex between midshipmen, on Academy grounds disrupts
good order and discipline, while only 9.7 percent indicated the same opinion about
consensual sex between midshipmen off the installation. Tables 170 and 171 reflect a
breakdown by class year the percentages that respondents strongly agree or agree that
consensual sex between midshipmen both on or off Academy grounds disrupts good
order and discipline.




                                            142
      Table 170. Consensual Sex Between Midshipmen ON Academy Grounds
                      Disrupts Good Order and Discipline
                              Class Year          Strongly Agree/Agree
                       2004                              53.3%
                       2005                              55.4%
                       2006                              49.4%
                       2007                              62.6%


     Table 171. Consensual Sex Between Midshipmen OFF Academy Grounds
                      Disrupts Good Order and Discipline
                              Class Year          Strongly Agree/Agree
                       2004                               6.0%
                       2005                               7.4%
                       2006                              13.4%
                       2007                              11.0%


One respondent commented:
                  “We do have problems with fraternization between the upper classes
                  and the 4th class, and with consensual sex in the dormitory (almost
                  always involving alcohol) . . .”

While 27.9 percent of USNA female respondents indicated disagreement or strong
disagreement that consensual sex between midshipmen on academy grounds disrupts
good order and discipline, 82.4 percent of USNA female respondents indicated
disagreement or strong disagreement that consensual sex off the installation disrupts to
good order and discipline.

   B. Academy Climate
Gender Preferential Treatment
About 44 percent of USNA female respondents indicated agreement that men and women
are treated fairly overall. A total of 46.5 percent of USNA female midshipmen strongly
agreed or agreed that “[M]en receive more favorable treatment OVERALL.” Table 172
reflects the overall responses of USNA female respondents.

          Table 172. USNA Female Gender Preferential Treatment Results
                                                        Agree            Disagree
                                                       Strongly          Strongly
                                                        Agree            Disagree
           Men receive more favorable treatment
                                                         46.5%            36.2%
           OVERALL
           Women receive more favorable
                                                         8.4%             75.9%
           treatment OVERALL
           Men and women are treated fairly
                                                         44.0%            41.9%
           OVERALL




                                             143
Table 173 reflects a breakdown by class year of graduation and illustrates the percentage
of USNA female respondents’ answers indicating strong agreement or agreement that
men are treated more favorably, women are treated more favorably, or men and women
are treated fairly overall.

         Table 173. USNA Female Gender Preferential Treatment Results
                               by Class Year
                                                                           Both Treated
             Class Year         Men Favored        Women Favored
                                                                              Fairly
           2004                     28.6%                13.3%                52.6%
           2005                     53.3%                10.1%                38.5%
           2006                     50.0%                7.3%                 45.1%
           2007                     52.1%                4.2%                 40.5%


USNA female respondents made the following written comments regarding gender
preferential treatment:

               •   Comment one:
                   “The one problem from higher leaders is that in the brigade we feel or
                   hear rumors that there is a quota for how many women should have
                   striper positions (high MIDN leadership). I think that gender should
                   not be an issue at all when selecting stripers.”

               •   Comment two:
                   “ I believe without a doubt that it is the fault of the administration
                   because females are treated differently and usually always given less
                   punishment for the same trespasses that males commit. I have seen it
                   all four years that I have been at the Academy. . .”

               •   Comment three:
                   “As it appears to me, the senior leadership at the Academy feels the
                   need to “flaunt” the female midshipmen at the Academy and place
                   them in higher commanding positions in order to make it look good to
                   the public. A female is more likely to be a battalion commander than a
                   regimental XO, two positions of the same rank, because it looks better
                   from the outside world that a woman was in charge and in such a
                   prominent position. This causes problems for other females in the
                   brigade who wish to have some sort of leadership positions because
                   there are already too many females in higher ranking positions. Many
                   of the male midshipmen notice this and make comments to the affect
                   that “the females are taking over the brigade” when they are in a
                   position to affect the opinion of many subordinate midshipmen. It
                   seems almost as if the Academy is trying too hard to make it seem like
                   women are equal, and ignore that there is a large disparity between the
                   ratio of female and male billet holders and the ratio of females to males
                   at the Academy at large.”




                                                144
               •   Comment four:
                   “As a female midshipman the only place I feel i have been treated
                   differently than my male counterparts is in academic classrooms. I have
                   had [some] female civilian intstructors. . . who treat males and females
                   completely different. I honestly feel that not only my grades, but the
                   generally opinion of my instructor was biased against me and the other
                   females in the class, because they did not like females in general, or
                   females being in the military.”

Separation of Genders in Bancroft Hall
When asked whether the USNA female respondents agreed or disagreed that Bancroft
Hall areas should be physically separated (i.e., different floors or buildings) by gender,
the overwhelming majority (95.7 percent) indicated midshipmen barracks should not be
physically separated. USNA female midshipmen made the following comments:

               •   Comment one
                   “The academy continues to try to separate males and females. Placing
                   us in a separate dorm or in separate companies will just make us less
                   acceptable to the men.”

               •   Comment two
                   “Putting all females into one dorm would NOT be a good idea; in fact it
                   would disrupt the brigade and break it up rather than make it a team.
                   Females already have a hard time, and breaking us up would further
                   drive the point in some people’s mind that we can’t do it here. Only
                   smaller unit leaders actually have a sense of what is really going on
                   within the brigade. The higher up leaders think they do, but really
                   don’t.”

               •   Comment three
                   “The nature of the environment here, ie close co-ed quarters with men
                   and women who have to work together every day, is inherently a
                   problematic environment. There are many cases of mids dating mids,
                   even in prohibited relationships, and overall I believe it is detrimental
                   to the achievement of the goals of the academy. I believe separate
                   living quarters and possibly even training would be beneficial.”

Understanding of Sexual Harassment, Assault and Related Services
We asked USNA female midshipmen if they understood aspects of sexual harassment
and sexual assault, to include avoiding risky situations, how to report and obtain care,
counseling, legal services, and the responsibilities of law enforcement and the chain of
command in handling sexual assaults. Almost every USNA female midshipman
indicated understanding the difference between sexual harassment and sexual assault, and
how to avoid situations that increase the risk of sexual assault. Table 174 reflects the
USNA female responses to understanding of sexual harassment, assault, and related
services.




                                                145
          Table 174. USNA Female Responses to Understanding of Sexual
                    Harassment, Assault, and Related Services
                                                      Yes           No
           The difference between sexual
                                                      96.3%        0.6%
           harassment and sexual assault
           How to avoid situations that might
                                                      98.3%        0.3%
           increase the risk of sexual assault
           How to report sexual assaults              87.1%        4.3%
           How to obtain medical care following
                                                      79.8%        8.3%
           a sexual assault
           How to obtain counseling following a
                                                      85.6%        5.2%
           sexual assault
           The services that your Academy’s
           legal office can provide to a victim in    55.8%        22.9%
           response to sexual assault
           General responsibilities of law
           enforcement and criminal
                                                      56.0%        21.5%
           investigative agencies in response to
           sexual assaults
           The role of the chain of command in
                                                      52.3%        24.5%
           handling sexual assaults
           Where to go if I need additional
                                                      83.9%        6.0%
           information on the areas above.


Effectiveness of Academy Non Senior Leaders
We asked midshipmen a series of questions concerning midshipmen leaders and
commissioned officers (Company Officers) at their academy, and to indicate the extent
these leaders exhibit certain leadership behaviors. Table 175 reflects the USNA female
responses.




                                                146
   Table 175. USNA Female Responses Regarding the Effectiveness of Academy
                      Midshipmen/Non-Senior Leaders
                                                  Very    Moder-
                                                  Large    ate     Not at all
                                                  Large   Small
      Demonstrate good examples      Midshipmen   47.5%   50.2%      1.5%
      of sound moral character       Co Officer   63.0%   33.6%      1.7%
      Hold others accountable for    Midshipmen   41.9%   55.4%      1.5%
      their conduct                  Co Officer   79.9%   18.6%      0.2%
      Promote and safeguard the      Midshipmen   53.7%   42.5%      2.3%
      welfare of subordinates        Co Officer   65.5%   31.4%      1.8%
      Create a climate in which      Midshipmen   38.8%   50.8%      6.9%
      sexual HARASSMENT is not       Co Officer
                                                  67.2%    25.2%     2.6%
      tolerated
      Create a climate in which      Midshipmen   29.8%    51.1%    13.3%
      midshipmen are encouraged      Co Officer
      to report sexual                            56.7%    31.0%     4.1%
      HARASSMENT
      Create a climate in which      Midshipmen   63.2%    29.8%     2.9%
      sexual ASSAULT is not          Co Officer
                                                  73.2%    19.0%     1.5%
      tolerated
      Create a climate in which      Midshipmen   46.0%    39.1%     8.7%
      midshipmen are encouraged      Co Officer
                                                  64.1%    23.6%     3.4%
      to report a sexual ASSAULT
      Ensure those who have          Midshipmen   25.5%    40.8%    13.7%
      reported sexual                Co Officer
      HARASSMENT/ASSAULT
                                                  49.8%    23.2%     3.5%
      treated with dignity and
      respect
      Provide an appropriate level   Midshipmen   25.9%    36.0%    11.7%
      of privacy to those who have   Co Officer
      experienced sexual                          46.2%    23.6%     3.4%
      ASSAULT
      Provide adequate               Co Officer   51.7%    34.8%     3.5%
      information to midshipmen
      about policies, procedures,
      and consequences of sexual
      ASSAULT


Effectiveness of Senior Leaders and Faculty
We asked midshipmen a series of similar questions about academy senior leaders
(Superintendent, Commandant of Midshipmen, Vice Commandant, and Dean of Faculty,)
and academy faculty. Table 176 reflects female midshipmen responses.




                                            147
        Table 176. USNA Female Responses Regarding the Effectiveness of
                     Academy Senior Leaders and Faculty
                                                     Very         Moderate   Not at
                                                     Large         Small      all
                                                     Large
      Demonstrate good            Senior
                                                     94.2%          4.6%     0.2%
      examples of sound moral     Leadership
      character                   Academy Faculty    63.5%         31.6%     0.2%
      Hold midshipmen             Senior
                                                     95.2%          4.3%     0.0%
      accountable for their       Leadership
      conduct                     Academy Faculty    63.2%         33.3%     0.5%
      Promote and safeguard the   Senior
                                                     91.1%          7.8%     0.0%
      welfare of subordinates     Leadership
                                  Academy Faculty    55.5%         36.2%     1.2%
      Treat subordinate           Senior
                                                     78.8%         16.7%     0.9%
      midshipmen fairly           Leadership
      regardless of gender        Academy Faculty    58.3%         39.1%     0.3%
      Create a climate in which   Senior
                                                     81.4%         14.4%     0.2%
      sexual HARASSMENT is        Leadership
      not tolerated               Academy Faculty    51.4%         26.5%     1.8%
      Create a climate in which   Senior
                                                     87.0%          8.4%     0.3%
      sexual ASSAULT is not       Leadership
      tolerated                   Academy Faculty    58.1%         18.4%     1.5%


Tables 177 and 178 illustrate the percentage of USNA female respondents who answered
very large/large extent academy leaders, to include midshipmen, commissioned officers,
senior leaders, and faculty create a climate where “sexual harassment is not tolerated.”
Table 177 reflects respondents who answered “yes” to question 19 (victim of sexual
assault).

                  Table 177. Extent That Sexual Harassment is Not
                        Tolerated (Victim of Sexual Assault)
                                                    Very Large/
                                                      Large
                       Midshipmen Leadership          22.9%
                       Co Officer                     50.6%
                       Senior Leadership              81.9%
                       Faculty                        49.9%


Table 178 reflects USNA female respondents who answered “no” to question 19 (non-
victim of sexual assault).




                                          148
                 Table 178. Extent That Sexual Harassment is Not
                    Tolerated (Non-Victim of Sexual Assault)
                                                        Very Large/
                                                        Large Extent
                      Midshipmen Leadership                41.2%
                      Co Officer                           69.7%
                      Senior Leadership                    81.3%
                      Faculty                              51.8%


USNA female respondents made the following written comments regarding academy
leadership:

             •   Comment one:
                 “I think the academies are being looked at in a negative light for no
                 reason. My time here as a woman has been very successful and I
                 maintain many healthy relationships with my male counterparts. The
                 naval academy has done a good job at deterring sexual harassment, and
                 show that it is not tolerated.”

             •   Comment two:
                 “The re-emphasis every year on how to report and defining sexual
                 harassment is important. It helps curb behavior early on and gives
                 everyone a chance to ask questions they may have about their actions.
                 Discuss/examples of acceptable behavior and not acceptable are
                 important to pass on. The SAVI program is a good way for peer-to-
                 peer discussions and talks.”

             •   Comment three:
                 “Sexual harassment continues to be a rampant problem, but it is not
                 being reported because females do not want to deal with retribution
                 from their male classmates. The females do not want to be ostracized
                 for turning in their classmates due to the harassment that follows their
                 action.”

             •   Comment four:
                 “I think sexual harassment is constant for females. The atmosphere at
                 USNA among the midshipmen is that females are less competent than
                 males. I don’t feel like this is promoted by the administration but
                 instead by male midshipmen. They continually make “jokes” on how
                 “WUBA’s” (women midshipmen) are overweight, promiscuous,
                 worthless, and receive special treatment.”

             •   Comment five:
                 “I believe that here at the Academy, rape and sexual violence are seen
                 and taught as something not to do, but I feel that the harassment that
                 goes on is a large problem. I think that women here are talked down
                 upon, and often talked about. There needs to be a larger teaching about
                 no sexual harassment.”


                                              149
              •   Comment six:
                  “I believe that women too often take minor/insignificant comments out
                  of context, and that bigger sexual harassment problems are unable to be
                  taken care or even seen because of the chain of command dealing with
                  the petty problems.”

Sexual Assault Tolerance
Tables 179 and 180 illustrate the percentage of USNA female respondents who answered
very large/large extent that academy leaders to include, midshipmen, commissioned
officers, senior leaders, and faculty create a climate where “sexual assault is not
tolerated.” Table 179 reflects respondents who answered “yes” to question 19 (victim of
sexual assault).

                    Table 179. Extent That Sexual Assault is Not
                        Tolerated (Victim of Sexual Assault)
                                                            Very Large/
                                                              Large
                       Midshipmen Leadership                  53.0%
                       Co Officer                             60.2%
                       Senior Leadership                      86.7%
                       Faculty                                55.4%


Table 180 reflects USNA female respondents who answered “no” to question 19 (non-
victim of sexual assault).

                    Table 180. Extent That Sexual Assault is Not
                     Tolerated (Non-Victim of Sexual Assault)
                                                            Very Large/
                                                              Large
                       Midshipmen Leadership                  64.8%
                       Co Officer                             75.2%
                       Senior Leadership                      86.9%
                       Faculty                                58.6%


USNA female respondents made the following written comments regarding Academy
leadership:

              •   Comment one:
                  “I think that most Company Officers surpass expectations asked about
                  in the survey. It just so happens that mine does not, but he is part of a
                  small number who don’t. Midshipmen make many gestures and say
                  sexual things, but I have never felt unsafe as if they would act upon it. I
                  always tell them that what they said disrespected me, and they
                  apologize and move on about their day.”




                                                150
               •   Comment two:
                   “The Naval Academy has been a very safe place where I can
                   concentrate on my educational, physical, and career goals without
                   feeling uncomfortable or threatened. I consider my school to be safer
                   than civilian schools that my friends attend. The SAVI program in
                   particular is very effective at promoting awareness, tolerance and
                   consideration as well as providing services for any person confronted
                   with sexual assault/harassment.”

               •   Comment three:
                   “The administration is hard on these issues here. I have full confidence
                   that our leaders (the dant, the supe, and company officers, etc) will do
                   whatever it takes to get these incidents reported, taken care of, and
                   discouraged in the future

Willingness to Confront and Report Offenders
We asked midshipmen of the behavior they observed, to what extent other midshipmen at
their Academy would be willing to CONFRONT other midshipmen who engage in sexual
HARASSMENT, including inappropriate comments and actions; REPORT other
midshipmen who continue to engage in sexual HARASSMENT after having been
previously confronted; and, to REPORT other midshipmen who commit sexual
ASSAULT. Table 181 reflects USNA female midshipmen responses.

            Table 181. USNA Female Responses Regarding Midshipman
                   Willingness to Confront and Report Offenders
                                                                 Very
                                                                           Moderate      Not at
                                                                 Large
                                                                            Small         all
                                                                 Large
       CONFRONT other midshipmen who engage in
       sexual HARASSMENT, including inappropriate                16.7%       62.7%       13.2%
       comments and actions
       REPORT other midshipmen who continue to engage
       in sexual HARASSMENT after having been                    14.6%       56.1%       15.3%
       previously confronted
       REPORT other midshipmen who commit sexual
                                                                 28.4%       45.4%       8.3%
       ASSAULT


Personal Loyalties, Barriers to Reporting, and Fraudulent Reporting
We asked midshipmen the extent they think midshipmen at their academy: (1) Allow
personal loyalties to affect reporting of sexual assault, (2) Do not report sexual assault out
of concern they or others will be punished for infractions, such as fraternization or
underage drinking, and (3) Consider fraudulent reporting of sexual assault incidents to be
a problem at the academy. Table 182 reflects USNA female results.




                                                151
         Table 182. USNA Female Responses Regarding Personal Loyalties,
                 Barriers to Reporting, and Fraudulent Reporting
                                                                    Very
                                                                             Moderate   Not at
                                                                    Large
                                                                              Small      all
                                                                    Large
       Allow personal loyalties to affect reporting of sexual
                                                                    39.7%     41.7%      4.0%
       ASSAULT
       Do NOT report sexual ASSAULT out of concern they
       or others will be punished for infractions, such as          49.5%     34.7%      2.9%
       fraternization or underage drinking
       Consider fraudulent reporting of sexual ASSAULT
                                                                    36.8%     40.6%      9.0%
       incidents to be a problem at the Academy


We compared the USNA female respondents who answered “yes” and “no” to question
19 (whether the respondent was a victim of sexual assault) regarding “Do NOT report
sexual ASSAULT out of concern they or others will be punished for infractions, such as
fraternization or underage drinking.” We asked respondents to select “very large extent,
large extent, moderate extent, small extent, not at all or no basis to judge.” For purposes
of our study, we grouped very large and large extent together, moderate and small extent
together and “other responses” includes “not at all,” and “no basis to judge.” Table 183
illustrates how those that answered “yes” and “no” to question 19 compare.

          Table 183. Extent That Victims and Non-Victims Do NOT Report
             Sexual Assault - Possible Punishment for Other Infractions
                                    Very Large/         Moderate/
                                                                            Other
                                      Large              Small
                    Victim            71.1%              24.1%               4.8%
                    Non-Victim        46.3%              36.3%              17.4%


USNA female respondents were asked if they “[C]onsider fraudulent reporting of sexual
ASSAULT incidents to be a problem at the academy.” We compared the responses of
midshipmen who were a victim of sexual assault with those that were not. Table 184
illustrates how responses from victims versus non-victims compare.

         Table 184. Extent That Victims and Non-Victims of Sexual Assault
                       Consider Fraudulent Reporting to be a Problem
                                        Very Large/         Moderate/
                                                                              Other
                                          Large              Small
                    Victim                48.2%              36.1%           15.6%
                    Non-Victim            35.2%              41.3%           23.4%


USNA female midshipmen made the following written comments regarding Personal
Loyalties, Barriers to Reporting, and Fraudulent Reporting:

                •     Comment one:
                      “The undercurrent that women do not belong at the academy, and the
                      fact that there are so few of us to begin with, has an impact on how



                                                  152
                    much respect we get. For reporting an offense a woman gets labeled
                    and shunned for the rest of her career here, so sometimes it’s better to
                    just suck it up.”

              •     Comment two:
                    “In my four years at the Academy, the overwhelming majority of cases
                    that come forward concerning sexual assault are fraudulent. They are
                    cases where there was a consensual relationship in the beginning and
                    later a female becomes angry with a male and uses it against him. Of
                    the cases I’ve had personal knowledge about, the females had truly
                    been assaulted and refused to come forward because they were scared
                    and ashamed.”

              •     Comment three:
                    “I think SAVI is a good program. I also think that the false reports of
                    sexual harassment by girls at the have hurt the legitimate report as well
                    as the image of girls at school.”

Willingness to Report to Various Agencies
We asked midshipmen whether they would be willing to report a personal experience of
sexual assault to various individuals/agencies. USNA female respondents were most
willing to report to a peer resource. The second highest for USNA females was SAVI
advocate or faculty member, coaches, or academy staff not in chain of command. Table
185 reflects USNA female midshipmen responses.

                  Table 185. Willingness to Report to Various Agencies
                                                               Yes           No        Uncertain
      Officer/NCO Chain of command member (i.e.,
                                                              46.8%        28.7%         24.1%
      AOC, MTL, TAC, Co Officer, SEL)
      Faculty member, coaches, or academy staff not
                                                              62.1%        25.0%         12.9%
      in chain of command
      Academy hotline/help line                               42.0%        39.4%         15.3%
      Person in midshipman chain of command                   46.3%        35.7%         17.5%
      Peer resource (e.g., SAVI GUIDE, CASIE Rep)
                                                              70.9%        19.5%          9.5%
      [N/A for West Point]
      Academy Counseling or Development Center                47.4%        35.7%         16.9%
      Installation Medical Personnel                          58.7%        24.2%         16.6%
      Criminal investigative organizations (i.e.,
                                                              47.5%        28.8%         23.3%
      AFOSI, CID, NCIS)
      Security Forces, Military Police or USNA Police         32.5%        47.7%         19.3%
      Academy Inspector General’s Office [N/A for
                                                               6.7%        13.3%          4.1%
      Naval Academy]
      Academy Chaplain/Clergy                                 61.5%        23.3%         15.2%
      Academy Response Team (ART) [N/A for West
                                                               5.7%        11.7%          4.3%
      Point and Naval Academy]
      SAVI Advocate/Coordinator [N/A for West
                                                              62.9%        20.6%         15.6%
      Point and USAFA]
      Service Inspector General’s office or hotline           16.1%        52.0%         27.1%
      DoD Inspector General’s office or DoD IG
                                                              17.3%        54.0%         27.0%
      Hotline
      Other (Please explain)                                  15.3%        27.9%         11.7%



                                                 153
We asked midshipmen about their willingness to report a personal experience of sexual
assault to a variety of individuals/agencies. They were asked to select either “yes, no,
uncertain, or service not available.” Although respondents were only asked about their
willingness to report to various agencies, their responses allowed us to rank order their
responses in terms of the number of “yes” answers. Figure 5 depicts individual/agency
ranking among USNA female midshipmen.

     Figure 5. Individual/Agency Ranking Among USNA Female Midshipmen

                                                                                                                       USNA Female Midshipmen


         80%
                                   71%




         70%
                                                            63%

                                                                            62%

                                                                                                  62%

         60%                                                                                                           59%

                                                                                                                                    48%

                                                                                                                                                            47%
         50%




                                                                                                                                                                              47%

                                                                                                                                                                                                  46%

                                                                                                                                                                                                                       42%
         40%




                                                                                                                                                                                                                                        33%
         30%




                                                                                                                                                                                                                                                      17%
         20%




                                                                                                                                                                                                                                                                     16%

                                                                                                                                                                                                                                                                                   15%
         10%




                                                                                                                                                                                                                                                                                                   7%
          0%
                                                                                                                             MCIO




                                                                                                                                                                                                                                              DoDIG
                                                                                                        Inst Medical




                                                                                                                                                                                    Cadet Chain
               Peer Rsc [not MA]




                                                                                                                                                                                                                                                            Svc IG

                                                                                                                                                                                                                                                                           Other

                                                                                                                                                                                                                                                                                         Acad IG
                                                                  Faculty




                                                                                                                                                                  Off Chain
                                                                                  Acad Chaplain




                                                                                                                                          Acad Counseling




                                                                                                                                                                                                        Acad Hotline
                                         SAVI [USNA only]




                                                                                                                                                                                                                             Security




With regard to their willingness to report sexual assaults to various agencies, USNA
female midshipmen made the following written comments:

               •                    Comment one:
                                    “One thing that I have noticed here is that the upper class often during
                                    plebe summer would talk about not making lewd jokes or talking about
                                    people and yet during the ac year I see those same people doing so. The
                                    hypocrisy of it all bothers me more than anything else. I don’t think I’d
                                    be very willing to report a sexual assault to some of the midshipmen in
                                    the chain of command just because nothing is ever really private here.
                                    Something happens to someone in another battalion and within an hour
                                    it’s all through the brigade. The SAVI guides are one thing, but going
                                    up through squad leader or someone in my own chain of command is
                                    not.”

               •                    Comment two:
                                    “I would avoid reporting an incident to people who know me or the
                                    person who committed the infraction. I would more likely report an
                                    incident to a non-midshipman because I know that rumors.are likely to
                                    start if I talk to any average midshipman even if I trust them as a
                                    friend.”


                                                                                                                                                  154
               •   Comment three:
                   “Simply, friends. We are taught “shipmate loyalty” from day one, and I
                   would feel most comfortable telling my roommate or a very close male
                   or female friend.”

               •   Comment four:
                   “Women at the Academy do not report sexual assault and harassment
                   for three main reasons. First, we live and deal with it on a day to day
                   basis; it almost becomes normal. So when we do stand up and say
                   something everyone looks at you like you’ve grown three heads. That’s
                   the second reason. No one comes forward because they fear the
                   repercussions and abandonment from their peers, both male and female.
                   The final reason is because it is almost ingrained in the systems here.
                   The mids that attend school now have always had females with them;
                   this isn’t 1976. However they still act like female mids are … and
                   second rate.”

Sexual Harassment
We asked midshipmen about sexual talk and/or behaviors that were uninvited and
unwanted, and in which they did not participate willingly. They were asked “SINCE
JUNE OF 2003, how frequently have you been in situations where persons assigned to
your Academy (i.e., midshipmen and/or other military or civilian personnel working at
your Academy),” (emphasis in original) followed by a series of behaviors listed in Table
185. Respondents were asked to indicate the frequency that they experienced these
behaviors ranging from never, once or twice, several times, often and very often. The
most frequent behavior experienced often or very often by female USNA midshipmen is
“Repeatedly told stories or jokes of a sexual nature that were offensive to you,” with
USNA at 22.7 percent. Around 15 percent of USNA female respondents indicated they
experienced “ . . . offensive remarks about your appearance, body, or sexual activities,”
often or very often. Table 186 reflects the responses of USNA females indicating the
percentages of respondents that experienced the listed behaviors often or very often.




                                               155
              Table 186. Percentage of Female Midshipmen Indicating
               Occurrence of Listed Behaviors Often or Very Often.
                                                                         Often/ Very
                                                                            Often
      Repeatedly told stories or jokes of a sexual nature that were
                                                                           22.7%
      offensive to you
      Made unwelcome attempts to draw you into a discussion of sexual
      matters (for example, attempted to discuss or comment on your        11.0%
      sex life)
      Made offensive remarks about your appearance, body, or sexual
                                                                           14.6%
      activities
      Made gestures or used body language of a sexual nature that
                                                                            9.8%
      embarrassed or offended you
      Made unwanted attempts to establish a romantic sexual
                                                                            4.8%
      relationship with you despite your efforts to discourage it
      Continued to ask you for dates, drinks, dinner, etc, even though
                                                                            3.5%
      you said “No”
      Made you feel like you were being bribed with some sort of
                                                                            1.2%
      reward or special treatment to engage in sexual behavior
      Made you feel threatened with some sort of retaliation for not
      being sexually cooperative (for example, by mentioning an             0.8%
      upcoming review or evaluation)
      Touched you in a way that made you feel uncomfortable                 2.1%
      Treated you badly for refusing to have sex                            0.9%
      Implied better assignments or better treatment if you were
                                                                            0.2%
      sexually cooperative


The behavior most female midshipmen experience is “Repeatedly told stories or jokes of
a sexual nature that were offensive to you.” Only 22.7 percent of USNA females
indicated they never experienced this behavior. Table 187 reflects the percentages of
USNA female respondents who never experienced the listed behaviors.




                                             156
             Table 187. Percentage of Female Midshipmen That Never
                          Experienced Listed Behaviors
                         Uninvited Unwanted Behavior                           Never
                                                                             Experienced
      Repeatedly told stories or jokes of a sexual nature that were
                                                                             21.9%
      offensive to you
      Made unwelcome attempts to draw you into a discussion of sexual
      matters (for example, attempted to discuss or comment on your sex      38.0%
      life)
      Made offensive remarks about your appearance, body, or sexual
                                                                             36.7%
      activities
      Made gestures or used body language of a sexual nature that
                                                                             40.8%
      embarrassed or offended you
      Made unwanted attempts to establish a romantic sexual relationship
                                                                             62.6%
      with you despite your efforts to discourage it
      Continued to ask you for dates, drinks, dinner, etc, even though you
                                                                             70.6%
      said “No”
      Made you feel like you were being bribed with some sort of reward
                                                                             91.9%
      or special treatment to engage in sexual behavior
      Made you feel threatened with some sort of retaliation for not being
      sexually cooperative (for example, by mentioning an upcoming           96.5%
      review or evaluation)
      Touched you in a way that made you feel uncomfortable                  22.4%
      Treated you badly for refusing to have sex                             92.3%
      Implied better assignments or better treatment if you were sexually
                                                                             97.1%
      cooperative


Table 188 reflects USNA female midshipmen who answered “yes” to question 19
regarding the frequency that they experienced unwanted/uninvited sexual talk or
behavior. Table 189 reflects the responses of USNA female midshipmen that answered
“no” to question 19.




                                              157
     Table 188. Frequency of Unwanted/Uninvited Sexual Talk or
                 Behavior (Victim of Sexual Assault)
                                                 Once
                                                         Several           Very
                                         Never    or               Often
                                                         Times             Often
                                                 Twice
Repeatedly told stories or jokes of a
sexual nature that were offensive to     16.8%   20.4%   27.7%     19.2%   15.6%
you
Made unwelcome attempts to draw
                                         19.5%   24.3%   24.3%     19.5%   12.2%
you into a discussion of sexual matter
Made offensive remarks about your
                                         15.6%   28.9%   24.1%     20.4%   10.8%
appearance, body, or sexual activities
Made gestures or used body language
of a sexual nature that embarrassed      17.0%   32.9%   24.3%     14.6%   10.9%
or offended you
Made unwanted attempts to establish
a romantic sexual relationship with
                                         27.7%   33.7%   22.8%     8.4%    7.2%
you despite your efforts to discourage
it
Continued to ask you for dates,
drinks, dinner, etc, even though you     34.1%   34.1%   17.0%     9.7%    4.8%
said “No”
Made you feel like you were being
bribed with some sort of reward or
                                         73.4%   13.2%    6.0%     3.6%    3.6%
special treatment to engage in sexual
behavior
Made you feel threatened with some
sort of retaliation for not being        86.5%   6.1%     3.6%     1.2%    2.4%
sexually cooperative
Touched you in a way that made you
                                         44.5%   31.3%   13.2%     4.8%    6.0%
feel uncomfortable
Treated you badly for refusing to have
                                         69.8%   24.1%    1.2%     1.2%    3.6%
sex
Implied better assignments or better
treatment if you were sexually           93.9%   3.6%     1.2%     0.0%    1.2%
cooperative




                                         158
      Table 189. Frequency of Unwanted/Uninvited Sexual Talk or Behavior
                        (Non-Victim of Sexual Assault)
                                                        Once
                                                                 Several              Very
                                               Never     or                  Often
                                                                 Times                Often
                                                        Twice
      Repeatedly told stories or jokes of a
      sexual nature that were offensive to     22.7%    37.2%     18.9%     13.6%     7.4%
      you
      Made unwelcome attempts to draw
                                               41.0%    35.0%     15.7%      4.7%     3.3%
      you into a discussion of sexual matter
      Made offensive remarks about your
                                               39.6%    32.7%     15.4%      7.5%     4.5%
      appearance, body, or sexual activities
      Made gestures or used body language
      of a sexual nature that embarrassed or   44.5%    34.4%     13.4%      4.5%     3.0%
      offended you
      Made unwanted attempts to establish
      a romantic sexual relationship with
                                               67.9%    23.6%      5.2%      2.4%     0.7%
      you despite your efforts to discourage
      it
      Continued to ask you for dates,
      drinks, dinner, etc, even though you     76.1%    16.4%      5.4%      1.4%     0.5%
      said “No”
      Made you feel like you were being
      bribed with some sort of reward or
                                               94.5%    3.8%       1.2%      0.3%     0.0%
      special treatment to engage in sexual
      behavior
      Made you feel threatened with some
      sort of retaliation for not being        98.2%    1.0%       0.3%      0.3%     0.0%
      sexually cooperative
      Touched you in a way that made you
                                               19.0%    76.5%      3.5%      0.8%     0. 0%
      feel uncomfortable
      Treated you badly for refusing to have
                                               95.9%    3.1%       0.5%      0.1%     0.1%
      sex
      Implied better assignments or better
      treatment if you were sexually           97.8%    1.9%       0.1%      0.0%     0.0%
      cooperative


USNA female midshipmen made the following written comments regarding unwanted
uninvited sexual talk or behavior:

              •    Comment one:
                   “Concerning the question about whether or not I have received
                   offensive remarks about my body or appearance, I want to enforce that
                   I said ‘yes’, however these remarks were not made by Midshipmen, but
                   rather the people who do janitorial work in Bancroft hall. This seems
                   to be the general consensus around the yard. Please note that I have
                   never had another Midshipmen make offensive remarks about me.”

              •    Comment two:
                   “Personally I somewhat enjoy the attention of male friends, such as
                   what some may view to be sexist comments, sexist jokes, and general


                                               159
                    mild sexual harassment. I like being one of the guys. It’s females like
                    me who may possibly encouraging such inappropriate or sexist
                    behavior or a similar mentality to a small extent. . . males here tell
                    offensive jokes and make many unwanted comments of sexual nature,
                    especially if you turn them down for dates.”

              •     Comment three:
                    “I believe girls are sexually harassed but do not realize it because it has
                    been around us for so long that we just live and deal with it. Terms like
                    “WUBA” and “dark siding” have been going around for years now and
                    at this point I don’t think we will ever get rid of them...It happens all
                    the time, even officers use the terms...this is just an example of what is
                    done day in and day out, where harassment just becomes a part of
                    life...”

We asked female midshipmen, of the behaviors they marked as happening to them, they
considered sexual harassment. Table 190 reflects USNA female midshipmen responses.

               Table 190. USNA Female Responses to Behaviors They
                        Considered to be Sexual Harassment
                                                                      Percentage
                  None were sexual harassment                           33.7%
                  Some were sexual harassment                           40.2%
                  Most were sexual harassment                            9.7%
                  All were sexual harassment                             6.7%
                  Does not apply (I marked “NEVER” in
                                                                         9.4%
                  every item in question #17)


Table 191 reflects USNA female responses by those who answered “yes” to question 19
to those who answered “no” (victim versus non-victim of sexual assault).

               Table 191. USNA Female Responses to Behaviors They
                        Considered to be Sexual Harassment
                   (Victim Versus Non-Victim of Sexual Assault)
                                                        Victims              Non-victims
           None were sexual harassment                  12.0%                  36.9%
           Some were sexual harassment                  45.8%                  39.6%
           Most were sexual harassment                  24.1%                   7.6%
           All were sexual harassment                   13.3%                   5.8%
           Does not apply (I marked
           “NEVER” in every item in                       4.8%                   10.1%
           question #17)
           Total                                          100%                   100%


   C. Sexual Assault Incidents at the Academy
This section details the findings of the survey concerning the scope of sexual assault
incidents at the Academy. The respondents were asked to answer “yes” or “no” to the
following question: “[S]ince becoming a midshipman, has someone done any of the


                                                  160
following to you without your consent and against your will?” The answer choices
included:

               •   “Touched, stroked, or fondled your private parts”;

               •   “Physically attempted to have sexual intercourse with you, but was not
                   successful”;

               •   “Physically attempted to have oral or anal sex with you, but was not
                   successful”;

               •   “Had sexual intercourse with you”;

               •   “Had oral sex with you”; and,

               •   “Had anal sex with you.”

A total of 83 USNA female respondents answered “yes” to the question, for a total of 99
incidents. The survey revealed that 12 female midshipmen were sexually assaulted twice,
3 of the 12 were sexually assaulted at least 3 times, and 1 of the 12 was sexually
assaulted at least 4 times. Answer responses indicated that at the time of the incident, 38
respondents were freshmen, 32 were sophomores, 15 were juniors, 8 were seniors, 2 were
in BCT, and 4 did not indicate class year status. A total of 97 incidents occurred between
1999 and 2004, and 2 incidents occurred on unknown dates. The respondents were
instructed to check all behaviors that applied for each incident. Therefore, the number of
behaviors indicated may exceed the total incidents listed. A total of 12 respondents
experienced more than 1 incident. Additionally, 62 of the 99 incidents (62.6 percent)
involved touching, stroking or fondling of private parts. A total of 47 incidents (47.4
percent) occurred on the installation in the barracks. The offenders were predominately
midshipmen, either from the same class or below, or midshipmen senior to the
respondent (86 of 99 offenders (86.9 percent)). Table 192 reflects USNA female
midshipmen who experienced 1 or more incidents involving the described behavior.

               Table 192. Scope of Recent Incidents Involving Female
                          USNA Respondents as Victims.
                  Experienced behavior against will without consent         Number
           Total Incidents                                                    99
           Touched, stroked, or fondled private parts only                    34
           Touched, stroked, or fondled private parts in conjunction with
                                                                              28
           other behavior(s)
           Attempted sexual intercourse                                       26
           Attempted oral or anal sex                                         12
           Had sexual intercourse                                             24
           Had oral sex                                                       11
           Had anal sex                                                        2

Of the 652 respondents, 83 indicated they were the victims of at least 1 sexual assault
since becoming a midshipman (these midshipmen reported a total of at least 99 sexual
assault incidents). Respondents were asked to describe up to four incidents, focusing on
those considered to be the most severe incidents. Many of the midshipmen provided
partial data when describing incidents, and in some cases of multiple incidents, provided
no data at all.



                                              161
Tables 193.a. through 193.c list when these incidents occurred by calendar year,
semester, and the midshipman status/rank (BCT or Plebe summer/freshman/sophomore/
junior/senior). If the midshipman selected summer “semester,” it assumes that
graduation has occurred and the midshipman has risen to the next rank. All midshipmen
did not answer question 20A completely. Where that occurred, “Missing Data” is listed
in the table as an unknown response.

                  Table 193.a. Calendar Year When Incident Occurred
       Incident      2001 and Earlier     2002     2003       2004*      Missing Data         Total
      First                 19             16       38          9              1               83
      Second                4              1        4           2              1               12
      Third                 1              1        1           0              0               3
      Fourth                0              1        0           0              0               1
                       * 3-4 month period: January-March/April 2004

                    Table 193.b. Semester When Incidents Occurred
                                                                      Missing
                    Incident       Fall   Spring        Summer                  Total
                                                                       Data
                  First            41       27               13         2        83
                  Second            4       3                3          2        12
                  Third             2       2                0          0        3
                  Fourth           0        1                0          0        1

            Table 193.c. Status of Midshipman When Incidents Occurred
                                                                  BCT/     Missing
           Incidents       Fresh   Soph   Junior       Senior                           Total
                                                                  PLB       Data
           First            32      27      13           7         2         2           83
           Second           3       5       1            1         0         2           12
           Third            2       0       1            0         0         0           3
           Fourth           1       0       0            0         0         0           1

The Offenders
We asked USNA female midshipmen to select from a list, the actions taken by the
offender. The actions were not further defined for the respondents. Table 194 describes
the offenders’ actions by incident. (The respondents were instructed to check all actions
that apply.)




                                                 162
                       Table 194. Actions of Offenders by Incident
                                                 1st           2nd        3rd           4th
                       Act
                                              Incident      Incident   Incident       Incident
       Touched, stroked, or fondled your
                                                   54          6           2              0
       private parts?
       Physically attempted to have sexual
       intercourse with you, but was not           22          2           1              1
       successful?
       Physically attempted to have oral or
       anal sex with you, but was not              9           3           0              0
       successful?
       Had sexual intercourse with you?            21          3           0              0
       Had oral sex with you?                      10          1           0              0
       Had anal sex with you?                      1           1           0              0


Location of the Incident
USNA female respondents provided location information for 97 of the 99 sexual assault
incidents. Of the 99 sexual assaults, 53 occurred on the installation, and 47 of those
occurred in the barracks. The other 6 were committed on base in places other than a
barracks. The remaining 44 of the sexual assaults occurred off-base, most of which (35
incidents) were at events not sponsored by the academy, and 9 incidents occurred at
academy sponsored events. Table 195 reflects a breakdown by incident and location of
occurrence.

                       Table 195. Location of Incident by Incident
                     Location                1st           2nd        3rd         4th
                                          Incident      Incident   Incident    Incident
            On installation in
                                              36           8           2          1
            dorm/barracks
            On installation, NOT in
                                              6            0           0          0
            dorm/barracks
            Off installation at an
                                              7            2           0          0
            Academy-sponsored event
            Off installation and NOT at
            an Academy-sponsored              32           2           1          0
            event


The respondents categorized the offenders for 97 of the 99 incidents including
midshipmen (both senior and non-senior to the respondents), military faculty or staff
member, military not assigned to the academy, civilians not affiliated with the
installation, and an unidentified person. There were two categories each that had four or
fewer offenders indicated, i.e., military faculty or staff member, and unidentified person.
The respondents did not provide offender information for 2 of the 99 incidents. Fellow
midshipmen were the principal offender group (86 incidents); 35 were midshipmen who
were senior to the victim, while 52 were midshipmen who were in the same class or
below. One incident involved both types of midshipmen. Table 196 reflects the
breakdown of offenders by category.




                                               163
                           Table 196. Category of Offenders
                                         Category                                  Total
                Midshipman who was senior to me                                     35
                Midshipman who was in same class as me or below                     52
                Military faculty or staff member                                    1
                Civilian faculty or staff member                                    0
                Military person NOT assigned to your academy                        4
                Civilian person NOT assigned to your academy                        4
                Unidentified person                                                 1
                Missing Data                                                        5


Table 197 reflects the breakdown of offenders by category and incident.

           Table 197. Sexual Assault Offenders by Category and Incident
            Category of offender                 1st          2nd            3rd               4th
                                              Incident     Incident       Incident          Incident
      Midshipman who was senior to
                                                26             6               2               1
      me
      Midshipman who was in same
                                                47             4               1               0
      class as me or below
      Military faculty or staff member           1             0               0               0
      Civilian faculty or staff member           0             0               0               0
      Military person NOT assigned to
                                                 3             1               0               0
      your academy
      Civilian person NOT assigned to
                                                 3             1               0               0
      your academy
      Unidentified person                       1              0               0               0
      Missing Data                              2              0               0               0
      Totals                                    83             12              3               1


Of the 99 reported incidents, USNA female respondents provided information for 96
incidents when asked if there were multiple offenders. A total of seven respondents
reported multiple offenders assaulted them. Fellow midshipmen were the only offender
group for multiple offender incidents; four incidents involved midshipmen who were in
the same class or below, while one incident included a combination of senior midshipmen
and midshipmen in the same class or below the victim. Respondents did not provide any
offender data for two of the multiple offender incidents. Table 198 reflects whether
multiple offenders were involved by incident.

                             Table 198. Multiple Offenders
               Multiple               1st
                                                2nd Incident    3rd Incident       4th Incident
               offenders           Incident
           Yes                         7              0               0                 0
           No                         70              12              3                 1
           I don’t know                3              0               0                 0


Reporting of Sexual Assault Incidents
Of the 99 sexual assault incidents recorded by 83 USNA female respondents, the highest
number (13 incidents) was reported to the SAVI Advocate/Coordinator. A total of 12


                                                164
incidents were reported to the Officer/NCO chain of command, and 5 each were reported
to: “a person in the midshipman’s chain of command,” “peer resource,” and “Academy
Chaplain/Clergy.” Other responses from the respondents indicate they reported the
assault to their friends, peers or roommates. Table 199 lists the total number of incidents
reported to each authority by incident.

                 Table 199. Authorities Sexual Assaults Reported To
                   Authorities to which sexual assaults were reported     Number
         Officer/NCO chain of command (AOC, MTL, TAC, Co Officer,
                                                                            12
         SEL)
         Academy staff & faculty member not in chain of command              5
         Academy hotline/helpline                                            0
         Academy Response Team (ART) [N/A for USMA and USNA                  1
         Person in midshipman chain of command                               5
         Peer resource (e.g., SAVI GUIDE, CASIE Rep)[N/A for USMA]          5
         Academy Counseling or Development Center                            6
         SAVI Advocate/Coordinator [N/A for USMA and USAFA]                 13
         Off-Installation Counseling Center                                  1
         Installation Medical Personnel                                      2
         Off-Installation Medical Personnel                                  1
         Criminal Investigative Organizations (i.e. AFOSI, CID, NCIS)        9
         Security Forces, Military Police, or USNA Police                    0
         Academy Inspector General’s Office [N/A for USNA]                   0
         Academy Chaplain/Clergy                                             5
         Non-Installation Chaplain/Clergy                                    0
         Civilian Law Enforcement Agency                                     0
         Service or DoD Inspector General’s Office or Hotline                0
         No one – I did not report this incident                            72
         Other (Please explain)                                              5




                                            165
Table 200 reflects the authorities sexual assaults were reported to, broken down by
incident.

              Table 200. Sexual Assault Reporting to Authorities by Incident
                                                        1st          2nd          3rd         4th
                   Authority/Agency
                                                     Incident     Incident     Incident    Incident
        Officer/NCO chain of command
                                                        10            2            0           0
        (AOC, MTL, TAX, Co Officer, SEL)
        Academy staff & faculty member not
                                                         5            0            0           0
        in chain of command
        Academy hotline/helpline                         0            0            0           0
        Academy Response Team (ART) [N/A
                                                         1            0            0           0
        for West Point and Naval Academy]
        Person in midshipman chain of
                                                         5            0            0           0
        command
        Peer resource (e.g., SAVI GUIDE,
                                                         5            0            0           0
        CASIE Rep)[N/A for West Point]
        Academy Counseling or Development
                                                         5            1            0           0
        Center
        SAVI Advocate/Coordinator [N/A for
                                                        13            0            0           0
        West Point and USAFA]
        Off-Installation Counseling Center               1            0            0           0
        Installation Medical Personnel                   2            0            0           0
        Off-Installation Medical Personnel               1            0            0           0
        Criminal Investigative Organizations
                                                         9            0            0           0
        (i.e. AFOSI, CID, NCIS)
        Security Forces, Military Police, or
                                                         0            0            0           0
        USNA Police
        Academy Inspector General’s Office
                                                         0            0            0           0
        [N/A for Naval Academy]
        Academy Chaplain/Clergy                          5            0            0           0
        Non-Installation Chaplain/Clergy                 0            0            0           0
        Civilian Law Enforcement Agency                  0            0            0           0
        Service or DoD Inspector General’s
                                                         0            0            0           0
        Office or Hotline
        No one – I did not report this incident         59            9            3           1
        Other (Please explain)70                        4             1            0           0


Reprisal for Reporting Sexual Assaults
Midshipmen who answered “yes” to question 19 (victims of sexual assault) were asked
whether anyone in a position of authority retaliated against them for reporting an
incident. Retaliation was defined as “unwarranted punishment, demotion, or withholding
a favorable duty position.” A total of two USNA female respondents indicated they
experienced reprisal from other academy staff or faculty.




70
     “Other” responses from the respondents indicate they reported the assault to their friends, peers and
     roommates.




                                                    166
Table 201 reflects those respondents identified as being retaliated against for reporting a
sexual assault incident.

                  Table 201. Reprisal for Reporting Sexual Assaults
                                    by Incident
                                1st Incident    2nd Incident   3rd Incident    4th Incident
       Yes                            2              0               0               0
       No                            14              3               0               0
       Don’t know or not sure         4              0               0               0


Table 202 reflects the number of times USNA female respondents experienced reprisal
for reporting a sexual assault, by incident, and the individual who retaliated against them.
(Respondents were asked to select all that apply.)

                Table 202. Reprisal by Academy Officials by Incident
                                             1st          2nd          3rd          4th
                                          Incident     Incident     Incident     Incident
       Midshipman in my chain of
                                               0           0           0             0
       command
       Upperclassmen NOT in my chain
                                               0           0           0             0
       of command
       Commissioned Officer in my
                                               0           0           0             0
       chain of command
       Other Academy staff or faculty          2           0           0             0
       Service officials outside your
                                               0           0           0             0
       Academy


Respondents were asked whether they experienced “any OTHER repercussions for
reporting this incident.” The choices included: Ostracism, harassment, or ridicule from
other midshipmen both in and not in their chain of command, ostracism, harassment, or
ridicule from academy staff and faculty members, and other significant repercussions.
There were 10 reported experiences of repercussions from midshipmen NOT in the chain
of command, and 5 instances from midshipmen within the chain of command. One
respondent reported repercussions from academy staff or faculty members. One
respondent’s experience fell in the category of other significant repercussions. She
indicated “her privacy was betrayed and she was punished for reporting.” Table 203
reflects the responses by incident of USNA female midshipmen indicating they
experienced other repercussions for reporting an incident of sexual assault. (Respondents
were instructed to check all answers that applied to each incident.)




                                               167
               Table 203. Other Repercussions Experienced by Incident
                                                     1st          2nd          3rd         4th
               Type of Repercussions
                                                  Incident     Incident     Incident    Incident
       Ostracism, harassment, or ridicule
       from other midshipmen NOT in chain              9             1         0               0
       of command
       Ostracism, harassment, or ridicule
       from other midshipmen in chain of               5             0         0               0
       command
       Ostracism, harassment, or ridicule
       from Academy staff or faculty                   1             0         0               0
       members
       Other significant repercussions (Please
                                                       1             0         0               0
       specify)
       No, I did not experience other
                                                       9             2         0               0
       repercussions


Reporting to MCIO/Law Enforcement
Respondents were asked, “Did a military criminal investigative organization (AFOSI,
CID, or NCIS) or a civilian law enforcement agency conduct a criminal investigation?”
The USNA female respondents indicated that a military criminal investigative
organization or civilian law enforcement authority conducted investigations in a total of
11 sexual assault incidents. Table 204 reflects the criminal investigations conducted by
incident.

                     Table 204. Criminal Investigations Conducted
                                     by Incident
                                   1st           2nd            3rd           4th
                                Incident      Incident       Incident      Incident
                 Yes               10             1              0             0
                 No                 9             2              0             0
                 I don’t
                                    1             0              0             0
                 know


Of the 11 USNA female respondents who indicated they reported the incident to a
military criminal investigative organization or civilian law enforcement agency, 5
respondents reported dissatisfaction (by checking either “Dissatisfied or Very
Dissatisfied) with the military criminal investigative organization, and 3 of the 5
respondents provided the following written comments describing their dissatisfaction:

                •   Comment one:
                    “NCIS made me feel like the victim all over again when they were
                    trying to gain information for the investigation. I would avoid anything
                    to do with them-including not reporting an incident to avoid having to
                    talk to them again.”




                                                 168
               •   Comment two:
                   “I was not satisfied because of how many people doubted my story and
                   how poorly I was treated throughout the entire process. The … Officer .
                   . . like I was over exaggerating . . . even went so far as to try to find any
                   … violations I had ever done while at the Academy. So basically, if
                   you turn someone in for sexual harassment at the Academy, you better
                   be prepared to have your entire time here scrutinized for ANY
                   infractions because they will try to question your credibility and things
                   like that.”

               •   Comment three:
                   “NCIS … contacted people as part of the investigation [without letting
                   me know first] . . . Furthermore, I was disappointed with my statement
                   and many of my friends who where called to make a statement had the
                   same feeling.”

Why No Criminal Investigation Was Conducted
A total of four female midshipmen indicated a criminal investigation was not conducted
because it was never reported to law enforcement officials, while four female
midshipmen indicated they declined to cooperate with the investigation, and two didn’t
know. Table 205 reflects USNA female midshipmen responses, by incident, indicating
why no criminal investigations were conducted.

             Table 205. Why No Criminal Investigation Was Conducted
                                               1st           2nd          3rd           4th
                                            Incident      Incident     Incident      Incident
           The incident was not
           reported to law                      4             0             0            0
           enforcement officials
           I declined to cooperate
                                                3             1             0            0
           with an investigation
           I don’t know                         1             1             0            0


Information Regarding the Disposition of Investigations
A total of nine female midshipmen were informed of the final disposition of the
investigation, and four indicated their cases were not yet resolved due to an on-going
investigation or legal proceedings. Table 206 reflects incident disposition information
provided by respondents.

              Table 206. Informed of the Final Disposition by Incident
                                                    1st           2nd          3rd              4th
                                                 Incident      Incident      Incident        Incident
      Yes                                           8              1            0                0
      No, I was not informed                        0              0            0                0
      N/A – Offender was never identified           1              0            0                0
      N/A – Not yet resolved (i.e. On-
      going investigation or legal                   3             1             0              0
      proceedings)




                                                    169
Reasons for not reporting sexual assault
Recognizing individuals have many reasons for not reporting a sexual assault, we asked
the respondents who experienced sexual assault behavior, to choose the reasons most
important to them, when they decided not to report the matter to authorities. The choices
USNA females picked most for not reporting sexual assault were: 39 indicated they
handled it themselves; 38 were ashamed or embarrassed; and 36 indicated they thought
they could deal with it themselves. Table 207 reflects the respondents’ reasons, by
incident, for not reporting sexual assaults to military or academy authorities.
(Respondents were asked to check all that apply.)

                     Table 207. Reasons for Not Reporting by Incident
                                                       1st         2nd         3rd          4th
                        Reasons
                                                    Incident    Incident    Incident     Incident
        Does not apply, I reported it                  12           1           0            0
        It was not serious enough to report            27           3           2            0
        I handled it myself                            37           0           2            0
        I thought I would be labeled a trouble
                                                         16         0           0           0
        maker
        I thought nothing would be done                  7          0           0           0
        Threatened with some form of
                                                         1          0           0           0
        retaliation
        Not threatened with retaliation, but
                                                         8          0           0           0
        feared some form of retaliation
        Feared ostracism, harassment, or
                                                         26         3           0           0
        ridicule by peers
        Feared loss of friends                           12         2           0           0
        Feared I or others would be punished
        for infractions/violations (such as              15         1           0           0
        underage drinking)
        Feared public disclosure of the assault          20         3           0           0
        Feared my parents/family would find
                                                         14         2           0           0
        out
        Pressured by someone in position of
                                                         1          0           0           0
        authority
        Feared my boyfriend/girlfriend would
                                                         3          1           0           0
        find out
        Shame/embarrassment                              34         4           0           0
        Feared other repercussions                       7          1           0           0
        Feared people would not believe me               18         3           0           0
        Not aware of reporting procedures                3          2           1           0
        I thought I could deal with it myself            29         5           1           1
        Other (Please explain)71                          9         2           1           0


Satisfaction with Individuals/Agencies by Incident
Respondents were asked to report their level of satisfaction with the following
individuals’ or agencies’ handling of the incident. Tables 208.a. through 208.d. reflect by
incident, how satisfied respondents were.

71
     Other responses include: “no one thought it was a big deal”, “handled the situation at the lowest
     level”, “just wanted the incident to “go away”, “unaware that an incident off academy grounds was
     reportable” and “was too drunk to say no.”



                                                   170
   Table 208.a. Satisfaction With Individuals/Agencies Handling of Incident
                                                                           N/A or I
                          Very                      Dis-      Very Dis-
     1st Incident        Satisfied
                                     Satisfied
                                                  satisfied   satisfied
                                                                          did not use   Total
                                                                           Resource
Investigative Agencies
                            2           6            2           3            62         75
(OSI/CID/ NCIS)
Military lawyers
                            3           2            1           2            66         74
handling your case
Victim Witness
                            1           2            0           0            71         74
Assistance
SAVI Advocate/
Coordinator or
Academy Response            7           7            0           1            59         74
Team (ART)
[N/A for West Point]
Academy Counseling
                            4           6            2           0            63         75
or Development Center
Peer Resource (CASIE
Rep/SAVI
                            3           4            0           1            66         74
GUIDE)[N/A for West
Point]
Chain of Command            3           5            5           2            59         74

   Table 208.b. Satisfaction With Individuals/Agencies Handling of Incident
                                                                          N/A or I
                                                                Very
      nd                  Very                      Dis-                   did not
     2 Incident                      Satisfied                  Dis-                    Total
                         Satisfied                satisfied                  use
                                                              satisfied
                                                                          Resource
Investigative Agencies
                            0           0            0           0           11          11
(OSI/CID/ NCIS)
Military lawyers
                            0           0            0           0           11          11
handling your case
Victim Witness
                            0           0            0           0           10          10
Assistance
SAVI Advocate/
Coordinator or
Academy Response            0           0            0           0           11          11
Team (ART) [N/A for
West Point]
Academy Counseling
                            0           0            0           1           10          11
or Development Center
Peer Resource (CASIE
Rep/SAVI
                            0           0            0           0           11          11
GUIDE)[N/A for West
Point]
Chain of Command            0           0            0           1           10          11




                                            171
     Table 208.c. Satisfaction With Individuals/Agencies Handling of Incident
                                                                                  N/A or I
                            Very                           Dis-      Very Dis-     did not
      3rd Incident                      Satisfied                                             Total
                           Satisfied                     satisfied   satisfied       use
                                                                                  Resource
  Investigative Agencies
                              0            0                0            0              3         3
  (OSI/CID/ NCIS)
  Military lawyers
                              0            0                0            0              3         3
  handling your case
  Victim Witness
                                           0                0            0              3         3
  Assistance
  SAVI Advocate/
  Coordinator or
  Academy Response            0            0                0            0              3         3
  Team (ART) [N/A for
  West Point]
  Academy Counseling
  or Development              0            0                0            0              3         3
  Center
  Peer Resource
  (CASIE Rep/SAVI
                              0            0                0            0              3         3
  GUIDE)[N/A for
  West Point]
  Chain of Command            0            0                0            0              3         3

     Table 208.d. Satisfaction With Individuals/Agencies Handling of Incident
                                                                                 N/A or I
                                                                       Very
                             Very                          Dis-                   did not
       4th Incident                      Satisfied                     Dis-                  Total
                            Satisfied                    satisfied                  use
                                                                     satisfied
                                                                                 Resource
  Investigative Agencies
                                  0            0             0          0           1         1
  (OSI/CID/ NCIS)
  Military lawyers
                                  0            0             0          0           1         1
  handling your case
  Victim Witness
                                  0            0             0          0           1         1
  Assistance
  SAVI Advocate/
  Coordinator or
  Academy Response                0            0             0          0           1         1
  Team (ART) [N/A for
  West Point]
  Academy Counseling
                                  0            0             0          0           1         1
  or Development Center
  Peer Resource (CASIE
  Rep/SAVI
                                  0            0             0          0           1         1
  GUIDE)[N/A for West
  Point]
  Chain of Command                0            0             0          0           1         1


USNA female midshipmen made the following comments regarding individuals/agencies
handling of the incident:



                                                   172
               •   Comment one:
                   “Chain of Command: The chain of command, both peer and officer
                   were very very detached. On one every asked me how I was doing or
                   demonstrated any type of concern. People went to the other extreme
                   and pretended everything was normal with me. I had my company
                   officer make some horrible suggestions . . . I really feel that my peer
                   chain of command and my company officer did not take me seriously.
                   My SEL was supportive at first, however, was very removed after the
                   initial report. This was some one that I originally felt I could trust. I felt
                   at a lost when I had no one professional that I had a developed
                   relationship to turn to.”

               •   Comment two:
                   “The counseling center had to . . . to ensure my privacy and couldn’t
                   tell me that the things I would say could not be read or used by those
                   higher in my chain of command. Based on fear of punishment and other
                   actions I did not continue talking to the counseling center I was not
                   satisfied because of how many people doubted my story and how
                   poorly i was treated throughout the entire process.”

               •   Comment three:
                   “The counseling center was not very helpful and my chain of command
                   was ostracizing”

               •   Comment four:
                   “I reported it to my chain of command and they determined that all that
                   needed to be done was counseling. I was extremely upset and was ok
                   with this decision at the time because I didn’t want anyone to know. So,
                   he was warned . . . There have been times since then that the offender
                   has approached me and made me feel uncomfortable, but if I turn him
                   now, my chain of command would get in trouble for sweeping it under
                   the rug.”

               •   Comment five:
                   “The chain of command didn’t do enough to prevent the harassment
                   that ensued following the report.”

   D. General Comments
The most important concern for female midshipmen was perceived negative treatment
received from male midshipmen. An overwhelming number of female midshipmen
expressed that disrespect for female midshipmen was learned, bred, or commonplace at
the Naval Academy. The female respondents said many of the male midshipmen treat
them as an inferior, and harass and demean them on a daily basis. Several believe
most male midshipmen don’t think women belong at the Naval Academy. Many felt
treated sub-humanly by their male counterparts, and this was acceptable behavior at the
academy. Their comments indicate they believe male midshipmen are taught this
behavior at the academy by upperclassmen, and some staff as well. Female midshipmen
disclosed that most of the females submit to the treatment, realizing there is nothing they


                                                  173
can do about it. They expressed extreme disappointment that this continues to remain
unaddressed by the academy leadership. As a result, many have poor self-images and
low self-esteem.

               •   Comment one:
                   “There is a signifcant problem at USNA concerning anti-women
                   sentiments. Sexual Harassment has become a daily practice in which
                   women are told to accept the cruel and unacceptable way that men treat
                   them because they are ‘boys.’ Women are not regarded as equals in any
                   sense of the word. Most female midshipmen feel isolated and alone.
                   Men here develop a superior attitude and take pleasure in the daily
                   harassment of females. I strongly believe that most of the men who
                   come to USNA do not bring their ‘women-hating’ views with them. It
                   is something that is bred and learned here on Academy grounds.”

               •   Comment two:
                   “The Naval Academy possesses an atmosphere that is predominantly
                   physically safe for women. However, it is one of the most emotionally
                   devastating places I can imagine. Most of the women came here
                   expecting mental and physical challenges. We thought we’d have to
                   put up with overdoses of testosterone. What we did not expect was to
                   be looked down upon for being women- to be suddenly less that human
                   in their eyes. I am yet to understand why this is so true. Before I came
                   here, . . . told me that when I got here, I’d either be a bitch, slut, or a
                   dyke. He told me to choose ahead of time. I really didn’t take him
                   seriously until I got here... actually it took me about a year”

Female midshipmen are also very disturbed by male midshipmen’s frequent use of the
derogatory term “WUBA” which reportedly stands for “Women with Unusually Big
Asses” or “Women Used By All.” This term has been used to describe female
midshipmen for many years at the academy, and female midshipmen believe it is so
ingrained into academy culture, they will never be rid of it. They stated that officers at
the academy even use the term. They also stated, the problem was exacerbated by their
ill-fitting uniforms making them appear heavier than they are.
                   “. . . The fact that the word “WUBA” is a common noun that even
                   females use with each other identifies the obvious, that there is
                   something in the air that is not quite right.”

Several complaints indicated that civilian women are bussed in for formal dances.
Comments indicate this is humiliating to female midshipmen, and it serves to further
alienate them from the male midshipmen. One female commented:
                    “I will openly admit that I took part in sexual relations in the hall. Had
                   I not been at the naval academy and I had been at another school where
                   women were accepted socially, I would not have done such things.
                   However, at the academy, I always feel like the only way anyone cares
                   about me is if they are receiving sexual favors from me. The really sad
                   part is that I realize that it is happening and that I am being used, but I
                   continue to do it, because it is the only thing that makes me feel like
                   anyone cares about me. I have a lot of friends at this school, but girls
                   here are looked down upon so badly by the boys as far as social dating,




                                                 174
                   etc, that doing these acts gives me some small hope that someone might
                   care for me in that way. . . “

Several female midshipmen cited adherence to the honor concept as a significant problem
at the academy. They commented that many midshipmen do not follow the honor
concept or academy rules and regulations; fellow midshipmen fail to hold each other
accountable for their actions; and standards at the academy are too lax, and cheating is a
big problem. One female midshipman commented:
                   “I believe that there is a big problem here at the Naval Academy of not
                   holding each other accountable; be it for uniform standards, following
                   regulations, honor, and/or conduct. I have seen first-hand how people
                   refuse to hold someone accountable on these levels either because they
                   think it’s not important, or that person will change, or they’re too afraid
                   to take any action because that would mean being involved in the
                   sometimes drawn-out process of resolution. I sincerely wish that we all
                   could be more responsible for holding ourselves, and those around us,
                   accountable for the guidelines what we have chosen to adhere to.”

Female midshipmen said there is inequality between genders. There are several female
midshipmen who believe women are over represented in leadership positions (“striper
positions”) at the academy. There is a rumor that the administration has a quota system
for ensuring female midshipmen are assigned to a certain number of top leadership
positions. Male midshipmen are punished more often, and more harshly than female
midshipmen. There is a disparity between the way genders are punished. Female
midshipmen offered the opinion that the administration is reluctant to punish females
because of what outsiders will think, if they find out. Female midshipmen want equality
and fairness in these areas, as well as how they are treated in general. One midshipman
stated:
                   “The women at the Naval Academy are not openly accepted by the
                   male Midshipmen. On an individual and one on one basis, women are
                   treated fairly by their male counterparts but in group environments
                   women’s names are bashed and thrown around...I think that the reason
                   why behavior like this is tolerated and continues is because upperclass
                   male midshipmen encourage this behavior...It seems that most males do
                   not enter the academy with these behaviors and instead develop them
                   here as a midshipmen.”

Females at the academy do not report sexual harassment and assault, because they live
and deal with it daily; it almost becomes normal. Additionally, they fear being ostracized
and abandoned by their peers, both male and female. Female midshipmen indicated they
would not report a sexual incident to their chain of command. The immediate lack of
privacy in the current system, coupled with the caliber of the midshipman they would
report the incident to, inhibits reporting. Additionally, several female midshipmen
complained of harassment in the form of lewd comments, and inappropriate looks
by cleaning staff, janitorial workers, and gate guards.

It was disclosed that false accusation evolve from consensual sex when alcohol is
involved. As a result, females make false allegations of sexual assault to preclude
disciplinary actions for other infractions. This behavior results in the perception that the
victim is often untruthful.




                                                 175
Female midshipmen also made comments about homosexual activity/problems, and felt
the Naval Academy has no mechanism to deal with the issue. There were several
complaints about an incident involving two female midshipmen who were filmed kissing
in uniform at a downtown bar, and were not appropriately punished. If it were two guys,
they would have been immediately disenrolled.

There were several comments about “Joke Friday.” Female midshipmen stated that
plebes are required to tell a joke at their squad tables on Fridays. Traditionally, jokes are
expected to be offensive and plebes are pressured into telling dirty or sexist jokes.
Several females are offended by these jokes, but powerless to do anything about it,
because they are outnumbered, and is considered part of the academy’s tradition.
Respondents commented:

               •   Comment one:
                   “I strongly feel that male midshipmen are taught that it’s ok to make
                   rude or gross remarks to the female mids because if a female says
                   anything, she is a bitch and possibly a liar out to get them, and if she
                   doesn’t, then she must not mind”

               •   Comment two:
                    “. . . Joke Friday use to be a common occurance. Traditionally, jokes
                   were rather offensive. I remember feeling pressured to tell dirty jokes
                   as a plebe. I stopped after the first semester because I was lucky enough
                   to have a peer in my squad on his own will who was able to tell clean
                   jokes despite the pressure. Now, . . . I have experienced EXTREME
                   dislike from . . . who think that they should be allowed to encourage
                   plebes to tell dirty jokes at “their squad table.” I will not allow dirty
                   jokes while I sit at the table. This has taken a lot of personal will and
                   strength. I think it is silly that something as small as not telling dirty
                   jokes has been turned into such a large deal. . .”

               •   Comment three:
                   “Male midshipmen at USNA feel an underlying separation from
                   women, whether they realize it or not. The jokes told at lunch only
                   receive a good laugh from upperclass if they are sexually or racially
                   demeaning. These jokes only encourage the poor atmosphere between
                   men and women at USNA. It becomes so commonplace that the
                   women get used to it and might not even realize the poor climate after a
                   while

Many female midshipmen have negative comments regarding surveys and briefings. The
most common complaints are that they take too many sexual harassment/assault surveys
and they get too many sexual harassment/assault briefings. Female respondents were
bitter that 100% of the female respondents took this survey, while only a sample of male
respondents took it. Some thought we needed to conduct the survey at the preparatory
school because many of the sexual harassment and sexual assault problems started there.
Female midshipmen felt briefings and training on sexual problems and situations were
directed at the females, not the males, and training on sexual problems and situations was
not for all midshipmen.




                                                 176
     VIII. USNA Male Survey Results
This section details the responses of USNA male midshipmen concerning values,
academy climate, and personal experiences. We included certain written comments that
we believe are noteworthy to illustrate the respondent’s feelings and beliefs concerning
the survey topics. The information provided reflects the responses of 1,046 survey
respondents.

     A. Values
Navy core values are: “Honor, Courage, and Commitment.”

We asked the survey participants to select from a list of 18 values,72 the 3 values most
important to their professional life at their academy. Although we asked for the top 3 in
order of importance, when we analyzed the data we believed it would be more
meaningful to express the results in terms of the top 3 values based on the frequency
selected. Respondents selected honor, integrity and commitment more than any of the
other values as the three values most important to them. Table 209 reflects the
breakdown by class year of values in order of frequency selected.

                       Table 209. Frequency of Values by Class Year
                    Class       1st Most            2nd Most           3rd Most
                    Year     Selected Value      Selected Value     Selected Value
                   2007          Honor              Integrity        Commitment
                                   168                 95                  87
                   2006          Honor              Integrity        Commitment
                                   148                 96                  74
                   2005          Honor              Integrity        Commitment
                                   128                 94                  77
                   2004          Honor              Integrity        Commitment
                                   119                 99                  82


These figures were computed by adding the frequency respondents selected each value,
while they ranked the values in order of importance to them. So in essence this
represents the total number of times a value was selected by respondents while they
ranked them in order of importance as first, second, and third most important to them.

We also asked the participants, based on their experience, to indicate their level of
agreement with various statements regarding the honor code, academy rules and
regulations, honesty, moral standards, exemplary conduct and leadership standards, and
ethical/spiritual/religious beliefs. Table 210 reflects the percentages of USNA male
midshipmen responses




72
     The values included: Accountability, Achievement, Ambition, Courage, Commitment, Effectiveness,
     Efficiency, Excellence, Friendship, Honor, Integrity, Loyalty to Country, Money, Power, Respect,
     Selfless Service, Spiritual Faith, and Tolerance.



                                                 177
               Table 210. USNA Male Responses to Values Statements
                                                                           Agree     Disagree
                                                                          Strongly   Strongly
                                                                           Agree     Disagree
      Midshipmen at my academy adhere to the honor code/concept,
                                                                           70.7%      20.9%
      even if they know they won’t get caught violating it
      Midshipmen adhere to significant academy rules and
      regulations, even if they know they won’t get caught violating       52.0%      36.9%
      them
      Midshipmen hold other midshipmen accountable to the honor
                                                                           62.0%      20.7%
      code/concept
      Honesty in all things is expected and reinforced at my
                                                                           84.5%      7.4%
      academy.
      I am morally obligated to abide by the oath I took to support
      and defend the Constitution of the United States, regardless of      96.4%      1.1%
      the consequences to me
      I have felt pressure from others at my academy to compromise
                                                                           38.9%      49.6%
      moral standards because of loyalty to friends/peers
      I have felt pressure from others at my academy to compromise
      moral standards in order to meet academic or training                24.6%      66.3%
      objectives
      Circumstances determine whether it is right or wrong for a
                                                                           24.9%      57.7%
      midshipman to compromise his or her moral standards
      I am committed to living by moral standards that exceed those
                                                                           91.4%      3.0%
      of society at large
      As a midshipman, it is important for me to meet the same
      exemplary conduct and leadership standards required of a             90.1%      4.6%
      commissioned officer
      My commitment to living by exemplary conduct and
      leadership standards has been reinforced by attending the            79.3%      11.3%
      academy
      I believe commitment to some form of
      ethical/spiritual/religious beliefs is important to an officer’s     79.3%      10.9%
      character
      I am strongly committed to some form of
                                                                           86.5%      7.0%
      ethical/spiritual/religious beliefs about what is right and wrong
      My experiences at the academy have enhanced my
                                                                           56.5%      22.1%
      commitment to ethical/spiritual/religious beliefs


Adherence to the Honor Code/Concept
Table 211 reflects a breakdown by respondents’ class year of graduation, and illustrates
the statistical projection of those who strongly agree/agree that midshipmen adhere to
the honor code/concept, even if they know they won’t get caught violating them.




                                                178
            Table 211. USNA Males - Adhere to Honor Code/Concept
                       Total               Survey          Statistical Projection of Total
          Class
                   Midshipmen by          Sample by            Cadets that Strongly
          Year
                    Class Year            Class Year                Agree/Agree
          2004          853                  256                         653
          2005          857                  259                         662
          2006          925                  265                         600
          2007          969                  266                         627


USNA male respondents made the following comments germane to the honor
code/concept:

             •    Comment one:
                  “Plebes here don’t follow any of the rules. My whole class disgusts me
                  with their lack of integrity.”

             •    Comment two:
                  “I believe that despite the high standards that are meant to be upheld at
                  the Academy, many midshipmen do not have a well balanced idea of
                  what is right and wrong nor the proper motivation for doing that which
                  is right. I believe that most midshipmen only do what is right when it
                  pleases them or when the have little fear of being caught.

             •    Comment three:
                  “I believe that in all aspects of academy life, the intense competition
                  encountered everyday begins to have an affect on many things,
                  including leadership ability, honor, and character development. In
                  many situations, while a certain action may be considered against the
                  honor concept, a cadet or midshipman might feel pressured to perform
                  at a higher level, and so compromise their integrity. Also, a cadet or
                  midshipman’s performance is measured in comparison with his or her
                  classmates, creating an incentive to “beat the competition,” or merely
                  improve in respect to class rank, instead of attempting to develop
                  absolutely.”

             •    Comment four:
                  “I have noticed a sentiment among midshipmen where loyalty to each
                  other or, quite simply, general apathy, have caused mids not to report
                  violations of the Honor Concept. Many think it is acceptable to cheat
                  on what they see as small assignments such as homework. However,
                  while this may be the case regarding “smaller” assignments, I do not
                  think that it is so for more formal exams, projects, etc.” “Essentially, it
                  is my opinion that many in the Brigade feel as though it is acceptable to
                  violate the Honor Concept if doing so would not incur major
                  infractions. This is unacceptable.”




                                                179
               •    Comment five:
                    “The Naval Academy creates a climate in which most midshipmen will
                    adhere to the Honor Concept/Conduct system hold violators
                    responsible for major infractions (violations of the honor concept,
                    sexual assault). When faced with enforcing lesser infractions, peer
                    loyalty rules.”

               •    Comment six:
                    “Honor and conduct issues seem to becoming more widespread. The
                    big rules are not being broken, however, there is an increase in the
                    number of regulations midshipman see as “stupid” rules. Additionally,
                    less and less people are actually willing to hold others accountable for
                    their actions. Furthermore, even if one were to confront a peer or
                    subordinate, they are typically ridiculed for their actions. The popular
                    term for a person who talks to another person about upholding
                    regulations is “Joe.” The term is derogatory. When I came to the
                    Academy I did not expect there would be so much “looking the other
                    way.” Especially, after hearing stories from alumni about how mids
                    were consummately punished for even the smallest rule breaking.”

We asked USNA male respondents to indicate their level of agreement with the
statement, “[M]idshipmen adhere to significant academy rules and regulations, even if
they know they won’t get caught violating them.” Overall, 52 percent of male
respondents strongly agreed, or agreed with the statement. Table 212 reflects a break
down by respondent’s year of graduation, and illustrates the statistical projection of
USNA male midshipmen who strongly agree/agree that midshipmen adhere to significant
academy rules/regulations, even if they know they won’t get caught violating them.


              Table 212. USNA Males - Adhere to Significant Academy
                               Rules/Regulations
                         Total            Survey          Statistical Projection of Total
            Class
                     Midshipmen          Sample by            Cadets that Strongly
            Year
                     by Class Year       Class Year                Agree/Agree
           2004           853               256                         417
           2005           857               259                         486
           2006           925               265                         426
           2007           969               266                         546


Maintaining Good Order and Discipline
We asked midshipmen about the extent of their agreement or disagreement with how
various behaviors, including honor code violations, gender favoritism, fraternization,
dating, consensual sex, alcohol use, illegal drug use, and pornography disrupts good order
and discipline at their respective Academy. Overall, 86.9 percent of USNA male
respondents agreed “violating the honor code/concept” disrupts good order and
discipline. More than 90 percent of USNA male respondents agreed “favoritism based on
gender” disrupts good order and discipline. Table 213 reflects the male midshipmen’s
results.




                                                 180
             Table 213. Adverse Affects on Good Order and Discipline
                                                                       Agree/    Disagree/
                                                                      Strongly   Strongly
                                                                       Agree     Disagree
      Violating the honor code/concept                                 86.9%       7.3%
      Not reporting honor code/concept violations                      62.9%      20.1%
      Favoritism based on gender                                       91.2%       4.7%
      Engaging in prohibited relationships/fraternization              68.9%      17.7%
      Midshipmen dating each other at the same academy                 24.9%      60.7%
      Consensual sex between midshipmen ON academy grounds             61.5%      26.1%
      Consensual sex between midshipmen OFF academy grounds            21.8%      66.6%
      Excessive use of alcohol/drunkenness                             68.3%      19.4%
      Illegal drug use, or the abuse of prescription drugs             91.7%       3.8%
      Viewing pornography or other sexually graphic content
                                                                       23.2%       58.0%
      (images or movies)

Consensual Sex
As indicated in Table 213, overall, 61.5 percent of USNA male respondents strongly
agreed or agreed that consensual sex between midshipmen, on academy grounds is
disruptive to good order and discipline, while only 21.8 percent indicated the same
opinion about consensual sex between midshipmen off the installation. Tables 214 and
215 reflect a break down by class, and by projected number of respondents who
strongly agree or agree that consensual sex between midshipmen, both on or off academy
grounds disrupts good order and discipline.

     Table 214. Consensual Sex Between Midshipmen ON Academy Grounds
                     Disrupts Good Order and Discipline
                                          Survey          Statistical Projection of
           Class   Total Midshipmen
                                         Sample by       Total Cadets that Strongly
           Year      by Class Year
                                         Class Year             Agree/Agree
           2004           853               256                      530
           2005           857               259                      516
           2006           925               265                      576
           2007           969               266                      594


Table 215. Consensual Sex Between Midshipmen OFF Academy Grounds Disrupts
                          Good Order and Discipline
                       Total           Survey         Statistical Projection of Total
           Class
                   Midshipmen         Sample by           Cadets that Strongly
           Year
                   by Class Year      Class Year               Agree/Agree
           2004         853              256                        197
           2005         857              259                        195
           2006         925              265                        209
           2007         969              266                        182


USNA male respondents made the following written comments regarding consensual sex
between midshipmen:




                                            181
              •   Comment one:
                  “Sex in the hall is a problem, as I have walked into rooms a couple
                  times and have seen people in sexual positions.”

              •   Comment two:
                  “If there is sexual activity in the hall, it is consensual. It is almost
                  impossible for it not to be considering the close proximity of the rooms
                  and someone almost constantly being in your room.”

              •   Comment three:
                  “Midshipman dating is a serious problem because it inherently leads to
                  sexual misconduct in Bancroft Hall, which I personally know happens
                  quite frequently. This is a major breakdown of good order and
                  discipline as a direct result of the Academy’s failure to limit
                  midshipmen from dating. Another serious issue is the fact that
                  midshipmen of different ranks are allowed to date which obviously
                  causes more significant problems. Midshipman should not date each
                  other period.”

   B. Academy Climate
Gender Preferential Treatment
About 33 percent of USNA males agreed men and women are treated fairly overall.
Table 216 reflects the USNA male responses.

           Table 216. USNA Male Gender Preferential Treatment Results
                                                                     Agree      Disagree
                                                                    Strongly    Strongly
                                                                     Agree      Disagree
           Men receive more favorable treatment OVERALL              10.2%       77.3%
           Women receive more favorable treatment
                                                                     61.4%       28.1%
           OVERALL
           Men and women are treated fairly OVERALL                  32.7%       51.0%


Table 217 reflects a breakdown by year of graduation, and illustrates the statistical
projection of USNA male respondents’ answers indicating strong agreement or
agreement that men are treated more favorably, women are treated more favorably, or
men and women are treated favorably overall.




                                               182
          Table 217. USNA Male Gender Preferential Treatment Results
                               by Class Year
                                                          Statistical Projection of Total
                                                           Midshipmen that Strongly
                                                                   Agree/Agree
                            Total
                                           Survey                                  Both
                         Midshipmen                        Men        Women
           Class Year                     Sample by                               Treated
                          by Class                        Favored     Favored
                                          Class Year                               Fairly
                            Year
          2004               853              256           43           593         267
          2005               857              259           60           602         215
          2006               925              265           91           562         339
          2007               969              266           182          441         364


USNA male respondents made the following written comments regarding gender
preferential treatment:

             •   Comment one:
                 “We are a uniformed service where men and women are treated fairly
                 ha...women make up 58% of Midn leaders, man have civilian dress
                 codes forcing them to wear collars, WHY DONT THE WOMEN, Men
                 have to shave every day. . . MALES ARE HELD TO HAIR
                 STANDARS be it dying, length, sideburns, why aren’t the female
                 standards enforced.... Women were introduced to the brigade and that is
                 a great thing, but don’t allow the standards to fall because they are here.
                 PLEASE DO SOMETHING ABOUT THIS. I and MANY MALES
                 feel the same.... ENFORCE FEMALE STANDARDS”.....

             •   Comment two:
                 “I do see a problem with order and discipline based on gender favor at
                 the Academy. Just look at the percentage of women at the Academy,
                 and then look at the percentage of midshipmen leadership positions that
                 are given to women. It is very disproportionate and shows a bias and
                 favor towards women.”

             •   Comment three:
                 “There is also favoritism towards women at the naval academy.
                 Women are getting praised for work they never do. The only thing
                 women have done for the naval academy is bringing it down in every
                 category. Women consistently get better performance grades when they
                 do not deserve them. When they commit crimes, they are either ignored
                 or slapped on the wrist. The best solution for this is to remove women
                 from the academies and military.”

             •   Comment four:
                 “The Academy is biased AGAINST MALES, and favors females every
                 single time they can, especially when a situation arises where a female
                 is head to head with a male.”




                                               183
               •   Comment five:
                   “Although creating an environment of equality amongst the men and
                   women at my academy helps reduce prejudice, some men cannot
                   tolerate a female leader. Rude comments and gestures are frequently
                   made behind the backs of female peers. Occasionally, the remarks or
                   gestures are made out of anger or some other incident, but the tolerance
                   for mistakes among the female midshipmen is much less than the
                   males. A female committing the same mistake as a male generally
                   receives harsher criticism for her mistake.”

Separation of Genders in Bancroft Hall
USNA males, when asked whether they agreed or disagreed that Bancroft Hall areas
should be physically separated (i.e., different floors or buildings) by gender, the majority
(76.9 percent) indicated midshipman barracks should not be physically separated. USNA
male midshipmen made the following comments:

               •   Comment one:
                   “The reason I think that the Hall could be segregated by gender is that
                   we try to emulate the fleet. In the fleet, Officer country is segregated by
                   gender as room allows. I understand the problems we would have
                   trying to implement this condition here, but it’s worth considering. If
                   you can’t keep the male and female mids apart, separate the living
                   spaces.”

               •   Comment two:
                   “Separating out females is not the answer. That will set up two totally
                   different academies for the sexes. With all of the special treatment that
                   is a concern now. If we go to separate living quarters then we have to
                   go too segregated planes, ships, barracks, and subs in the fleet.”

Understanding of Sexual Harassment, Assault and Related Services
We asked USNA male midshipmen if they understood aspects of sexual harassment and
sexual assault, to include avoiding risky situations, how to report and obtain care,
counseling, legal services, and the responsibilities of law enforcement, and the chain of
command handling sexual assaults. Almost every USNA male midshipman understood
the difference between sexual harassment and sexual assault, and how to avoid situations
that increase the risk of sexual assault. Table 218 reflects the understanding USNA
males have concerning sexual harassment, assault, and related services.




                                                 184
           Table 218. USNA Male Responses to Understanding of Sexual
                    Harassment, Assault, and Related Services
                                                                     Yes      No
           The difference between sexual harassment and sexual
                                                                     96.2%   0.5%
           assault
           How to avoid situations that might increase the risk of
                                                                     97.6%   0.8%
           sexual assault
           How to report sexual assaults                             90.2%   4.0%
           How to obtain medical care following a sexual assault     82.6%   8.6%
           How to obtain counseling following a sexual assault       88.3%   6.0%
           The services that your Academy’s legal office can
                                                                     64.5%   19.5%
           provide to a victim in response to sexual assault
           General responsibilities of law enforcement and
           criminal investigative agencies in response to sexual     69.7%   15.9%
           assaults
           The role of the chain of command in handling sexual
                                                                     63.8%   19.6%
           assaults
           Where to go if I need additional information on the
                                                                     87.1%   5.9%
           areas above.


Effectiveness of Academy Non-Senior Leaders
We asked USNA male midshipmen a series of questions regarding midshipman leaders
and Company Officers at their academy, and indicate the extent these leaders exhibited
various leadership behaviors. Table 219 reflects USNA male responses.




                                               185
  Table 219. USNA Male Responses Regarding the Effectiveness of Midshipman/
                 Commissioned Officer Non-Senior Leaders
                                                               Very
                                                                       Moderate    Not
                                                               Large
                                                                        Small     at all
                                                               Large
      Demonstrate good examples of sound         Midshipmen
                                                               52.9%   43.7%      1.7%
      moral character                            Leaders
                                                 Co Officers   70.2%   26.5%      1.3%
      Hold others accountable for their          Midshipmen
                                                               52.9%   44.5%      1.1%
      conduct                                    Leaders
                                                 Co Officers   84.4%   13.4%      0.6%
      Promote and safeguard the welfare of       Midshipmen
                                                               56.8%   38.0%      3.2%
      subordinates                               Leaders
                                                 Co Officers   69.1%   26.7%      2.4%
      Create a climate in which sexual           Midshipmen
                                                               61.5%   31.6%      2.3%
      HARASSMENT is not tolerated                Leaders
                                                 Co Officers   79.1%   14.1%      1.1%
      Create a climate in which midshipmen       Midshipmen
                                                               52.3%   36.6%      3.5%
      are encouraged to report sexual            Leaders
      HARASSMENT                                 Co Officers   73.2%   18.0%      1.3%
      Create a climate in which sexual           Midshipmen
                                                               78.3%   15.6%      1.0%
      ASSAULT is not tolerated                   Leaders
                                                 Co Officers   82.6%   10.4%      0.8%
      Create a climate in which midshipmen       Midshipmen
                                                               66.6%   22.2%      2.6%
      are encouraged to report a sexual          Leaders
      ASSAULT                                    Co Officers   75.7%   14.2%      1.0%
      Ensure those who have reported sexual      Midshipmen
                                                               48.5%   23.8%      3.1%
      HARASSMENT/ASSAULT are treated             Leaders
      with dignity and respect                   Co Officers   65.3%   11.7%      1.0%
      Provide an appropriate level of privacy    Midshipmen
                                                               47.0%   20.2%      2.8%
      to those who have experienced sexual       Leaders
      ASSAULT                                    Co Officers   61.0%   11.8%      0.8%
      Provide adequate information to            Co Officers   64.3%   23.7%      1.6%
      midshipmen about policies,
      procedures, and consequences of sexual
      ASSAULT


Effectiveness of Senior Leaders and Faculty
We asked USNA male midshipmen a series of similar questions about academy senior
leaders (Superintendent, Commandant of Midshipmen, Vice Commandant, and Dean of
Faculty), and the academy faculty. Table 220 reflects USNA male responses.




                                                186
             Table 220. USNA Male Responses Regarding the Effect of
                       Academy Senior Leaders and Faculty
                                                            Very     Moderate   Not at
                                                            Large     Small      all
                                                            Large
      Demonstrate good examples of        Senior
                                                            95.3%     2.9%      0.1%
      sound moral character               Leadership
                                          Academy
                                                            69.3%     24.1%     0.6%
                                          Faculty
      Hold midshipmen accountable for     Senior
                                                            95.8%     2.5%      0.1%
      their conduct                       Leadership
                                          Academy
                                                            64.9%     28.6%     1.2%
                                          Faculty
      Promote and safeguard the welfare   Senior
                                                            91.6%     5.7%      0.3%
      of subordinates                     Leadership
                                          Academy
                                                            55.8%     31.6%     1.9%
                                          Faculty
      Treat subordinate midshipmen        Senior
                                                            70.6%     20.0%     4.1%
      fairly regardless of gender         Leadership
                                          Academy
                                                            62.0%     31.0%     1.8%
                                          Faculty
      Create a climate in which sexual    Senior
                                                            91.4%     4.9%      0.2%
      HARASSMENT is not tolerated         Leadership
                                          Academy
                                                            62.8%     16.1%     1.4%
                                          Faculty
      Create a climate in which sexual    Senior
                                                            93.2%     3.3%      0.1%
      ASSAULT is not tolerated            Leadership
                                          Academy
                                                            65.4%     13.0%     1.6%
                                          Faculty


Sexual Harassment Tolerance
Tables 221 and 222 illustrate the percentages of USNA male respondents who answered
that to a very large or large extent, academy leaders, including midshipmen, Company
Officers, senior leaders, and faculty, create a climate where “sexual harassment is not
tolerated.” Table 221 reflects USNA male respondents who answered “yes” to question
19 (victim of sexual assault).

                  Table 221. Extent That Sexual Harassment is Not
                        Tolerated (Victim of Sexual Assault)
                                                       Very Large/
                                                         Large
                       Midshipman Leadership             30.7%
                       Co Officers                       69.2%
                       Senior Leadership                 84.6%
                       Faculty                           38.4%




                                           187
Table 222 reflects USNA male respondents who answered “no” to question 19 (non-
victim of sexual assault).

                  Table 222. Extent That Sexual Harassment is Not
                     Tolerated (Non-Victim of Sexual Assault)
                                                         Very Large/
                                                         Large Extent
                       Midshipman Leadership                62.2%
                       Co Officers                          79.4%
                       Senior Leadership                    91.6%
                       Faculty                              63.6%


USNA male respondents made the following written comments regarding the academy
leadership’s tolerance of sexual harassment:

              •   Comment one:
                  “The atmosphere at the academy concerning sexual harassment and
                  assault is a very good one.… With respect to the officer leadership, no
                  sexually explicit comments are tolerated.”

              •   Comment two:
                  “Facility makes itself known that sexual harassment or assault will not
                  be tolerated and are known for quick prosecution of midshipmen who
                  are guilty”

              •   Comment three:
                  “The Naval Academy’s leadership, midshipmen, SEL, and officers, do
                  everything to an excessive degree to ensure awareness of what is sexual
                  harassment and what is not tolerated. Most importantly they teach us
                  the morals that an officer should have to make a conscious decision
                  about right and wrong, and to clearly know the difference.”

Sexual Assault Tolerance
Tables 223 and 224 illustrate the percentage of USNA male respondents who answered
either very large or large extent that academy leaders, including midshipmen, Company
Officers, senior leaders, and faculty create a climate where “sexual assault is not
tolerated.” Table 223 reflects response levels of respondents who answered “yes” to
question 19 (victim of sexual assault).

                    Table 223. Extent That Sexual Assault is Not
                        Tolerated (Victim of Sexual Assault)
                                                         Very Large/
                                                           Large
                       Midshipman Leadership               53.8%
                       Co Officers                         65.3%
                       Senior Leadership                   84.6%
                       Faculty                             46.1%




                                              188
Table 224 reflects USNA male respondents who answered “no” to question 19 (non-
victim of sexual assault).

                     Table 224. Extent that Sexual assault is not
                       tolerated (non-victim of sexual assault)
                                                           Very Large/
                                                             Large
                       Midshipman Leadership                 79.0%
                       Co Officers                           83.0%
                       Senior Leadership                     93.6%
                       Faculty                               66.0%


USNA male respondents made the following written comments regarding the extent that
Sexual assault is not tolerated:

              •   Comment one:
                  “Sexual assault is definitely something that should not be tolerated, but
                  sexual harassment seems to have such loose terms and is interpreted in
                  so many ways by different people, that it has only become a weapon of
                  choice.”

              •   Comment two:
                  “The Officers and the SEL at the Naval Academy take sexual assault
                  very seriously and the current SAVI program is effective.”

Willingness to Confront and Report Offenders
We asked midshipmen, based upon the behavior observed, to what extent other
midshipmen at their academy would be willing to CONFRONT other midshipmen who
engage in sexual HARASSMENT, including inappropriate comments and actions;
REPORT other midshipmen who continue to engage in sexual HARASSMENT after
having been previously confronted; and, to REPORT other midshipmen who commit
sexual ASSAULT. Table 225 reflects USNA male midshipmen responses.

            Table 225. USNA Male Responses Regarding Midshipman
                  Willingness to Confront and Report Offenders
                                                                 Very
                                                                           Moderate/     Not at
                                                                Large/
                                                                            Small         all
                                                                Large
      CONFRONT other midshipmen who engage in
      sexual HARASSMENT, including inappropriate                34.5%        49.9%        3.5%
      comments and actions
      REPORT other midshipmen who continue to engage
      in sexual HARASSMENT after having been                    37.8%        43.1%        2.6%
      previously confronted
      REPORT other midshipmen who commit sexual
                                                                58.0%        21.4%        1.1%
      ASSAULT




                                               189
Personal Loyalties, Barriers to Reporting, and Fraudulent Reporting
We asked midshipmen the extent they think midshipmen at their academy: (1) Allow
personal loyalties to affect reporting of sexual assault, (2) Do not report sexual assault out
of concern they or others will be punished for infractions, such as fraternization or
underage drinking, and (3) Consider fraudulent reporting of sexual assault incidents to be
a problem at the academy. Table 226 reflects USNA male results.

          Table 226. USNA Male Responses Regarding Personal Loyalties,
                 Barriers to Reporting, and Fraudulent Reporting
                                                                Very
                                                                        Moderate   Not at
                                                                Large
                                                                         Small      all
                                                                Large
       Allow personal loyalties to affect reporting of sexual
                                                                22.3%    48.7%     9.2%
       ASSAULT
       Do NOT report sexual ASSAULT out of concern
       they or others will be punished for infractions, such    28.6%    41.9%     11.2%
       as fraternization or underage drinking
       Consider fraudulent reporting of sexual ASSAULT
                                                                43.2%    32.9%     10.0%
       incidents to be a problem at the academy


We compared the USNA male respondents who answered “yes” and “no” to question 19,
“Do NOT report sexual ASSAULT out of concern they or others will be punished for
infractions, such as fraternization or underage drinking.” Respondents were asked to
select “very large extent, large extent, moderate extent, small extent, not at all or no basis
to judge.” For our study, we grouped very large and large extent together, moderate and
small extent together and “other responses” include “not at all,” and “no basis to judge.”
Table 227 compares USNA male midshipmen who answered “yes” and “no” to question
19.

    Table 227. Extent That Victims and Non-Victims of Sexual Assault Do NOT
        Report Sexual Assault - Possible Punishment for Other Infractions
                                        Very Large/         Moderate/
                                                                         Other
                                          Large              Small
                 Victim                   42.3%              42.3%       15.3%
                 Non-Victim               28.3%              41.9%       29.7%


USNA male respondents were asked if they “[C]onsider fraudulent reporting of sexual
ASSAULT incidents to be a problem at the academy.” We compared the responses of
midshipmen who were a victim of sexual assault with those who were not. Table 228
compares victim and non-victim responses.

    Table 228. Extent That Victims and Non-Victims of Sexual Assault Consider
                      Fraudulent Reporting to be a Problem
                                        Very Large/         Moderate/
                                                                         Other
                                          Large              Small
                 Victim                   53.8%              30.7%       15.3%
                 Non-Victim               43.0%              32.9%       23.9%




                                                 190
USNA male midshipmen made the following written comments regarding “Personal
Loyalties, Barriers to Reporting and Fraudulent Reporting”

               •   Comment one:
                   “In my experience, the perception of fraudulent reports or exaggeration
                   of sexual assault and misconduct has greatly increased the skepticism
                   exhibited within my unit towards further reporting of sexual assault and
                   sexual misconduct.”

               •   Comment two:
                   “From what I have seen, fraudulent reporting of sexual
                   assault/harassment is just as common as the offenses themselves. There
                   deftly seems to be a double standard that genders are held to, although
                   not every case benefits one gender specifically.”

               •   Comment three:
                   “The environment is such that people are so afraid of being reported for
                   fraudulent sexual harassment, that it has become a matter that is
                   disruptive to good order and discipline.”

               •   Comment four:
                   “Most male midshipmen including myself believe that women cause
                   most of the sexual assault problems. There is a strong belief that most
                   of the accusations are fraudulent, but the administration feels that they
                   must take the woman’s side. These fraudulent accusations result from
                   women putting themselves into bad situations then regretting the
                   decisions they made the next morning.”

               •   Comment five:
                   “There are too many instances where women make fraudulent claims in
                   order to cover themselves from getting in conduct trouble or to make
                   they look like the victim where in reality they were as much at fault as
                   anyone associated with it.”

Willingness to Report to Various Agencies
We asked midshipmen about their willingness to report a personal experience of sexual
assault to a variety of individuals/agencies. They were asked to select either “yes,” “no,”
“uncertain,” or “service not available.” Although respondents were only asked about
their willingness to report to various agencies, their responses allowed us to rank order
them in terms of the number of “yes” responses. USNA male respondents were most
willing to report to Academy Chaplain/Clergy. Second highest for USNA males was a
peer resource. Figure 6 depicts individual/agency ranking among USNA male
midshipmen.




                                                191
      Figure 6. Individual/Agency Ranking Among USNA Male Midshipmen

                                                                                                                         USNA Male Midshipmen


       90%

                              81%
       80%


                                                        76%

                                                                             72%

                                                                                                      72%

                                                                                                                        71%
       70%




                                                                                                                                     67%

                                                                                                                                                             60%

                                                                                                                                                                             58%
       60%




                                                                                                                                                                                                  55%

                                                                                                                                                                                                                      54%

                                                                                                                                                                                                                                       48%
       50%




                                                                                                                                                                                                                                                     37%
       40%




                                                                                                                                                                                                                                                                    37%
       30%
       20%




                                                                                                                                                                                                                                                                                    15%

                                                                                                                                                                                                                                                                                                  9%
       10%
        0%
                                                                                                                              MCIO




                                                                                                                                                                                                                                             DoDIG
                                                              Inst Medical




                                                                                                                                                                                                        Cadet Chain
                                    Peer Rsc [not MA]




                                                                                                                                                                                                                                                           Svc IG




                                                                                                                                                                                                                                                                                          Other
                                                                                                                                                                                                                                                                          Acad IG
                                                                                                                                                                   Faculty
                                                                                                            Off Chain
              Acad Chaplain




                                                                                   SAVI [USNA only]




                                                                                                                                           Acad Counseling




                                                                                                                                                                                   Acad Hotline




                                                                                                                                                                                                                            Security

Sexual Harassment
We asked midshipmen about sexual talk and/or behaviors that were uninvited and
unwanted, and in which they did not willingly participate. They were asked “SINCE
JUNE OF 2003, how frequently have you been in situations where persons assigned to
your academy (i.e., midshipmen and/or other military or civilian personnel working at
your academy),” (emphasis in original) experienced the series of behaviors listed in Table
228. Respondents indicated the frequency they experienced those behaviors, ranging
from never, once or twice, several times, often and very often. The behavior most
frequently experienced often or very often by male USNA midshipmen is “Repeatedly
told stories or jokes of a sexual nature that were offensive to you,” at five percent.
Around three percent of USNA male respondents indicated “unwelcome attempts were
made to draw them into a discussion of sexual matters,” often or very often. Table 229
reflects the responses of USNA males indicating the percentages of respondents that
experienced the listed behaviors often or very often.




                                                                                                                                                    192
        Table 229. Percentage of Male Midshipmen Indicating Occurrence
                    of Listed Behaviors Often or Very Often.
                                                                                   Often/Very
                           Uninvited Unwanted Behavior
                                                                                     Often
      Repeatedly told stories or jokes of a sexual nature that were offensive to
                                                                                     5.1%
      you
      Made unwelcome attempts to draw you into a discussion of sexual
                                                                                     3.2%
      matters (for example, attempted to discuss or comment on your sex life)
      Made offensive remarks about your appearance, body, or sexual
                                                                                     2.9%
      activities
      Made gestures or used body language of a sexual nature that
                                                                                     1.1%
      embarrassed or offended you
      Made unwanted attempts to establish a romantic sexual relationship
                                                                                     0.2%
      with you despite your efforts to discourage it
      Continued to ask you for dates, drinks, dinner, etc, even though you
                                                                                     0.2%
      said “No”
      Made you feel like you were being bribed with some sort of reward or
                                                                                     0.1%
      special treatment to engage in sexual behavior
      Made you feel threatened with some sort of retaliation for not being
      sexually cooperative (for example, by mentioning an upcoming review            0.0%
      or evaluation)
      Touched you in a way that made you feel uncomfortable                          0.2%
      Treated you badly for refusing to have sex                                     0.2%
      Implied better assignments or better treatment if you were sexually
                                                                                     0.2%
      cooperative


The behavior that most male midshipmen experience is “Touched you in a way that made
you feel uncomfortable.” Only 4.3 percent of USNA males indicated they never
experienced this behavior. Table 230 reflects the percentages of USNA male respondents
that never experienced the listed behaviors.




                                                193
           Table 230. Percentage of USNA Male Midshipmen That Never
                          Experienced Listed Behaviors
                                                                                  Never
                          Uninvited Unwanted Behavior
                                                                                Experienced
      Repeatedly told stories or jokes of a sexual nature that were offensive
                                                                                  67.3%
      to you
      Made unwelcome attempts to draw you into a discussion of sexual
      matters (for example, attempted to discuss or comment on your sex           68.4%
      life)
      Made offensive remarks about your appearance, body, or sexual
                                                                                  77.8%
      activities
      Made gestures or used body language of a sexual nature that
                                                                                  84.4%
      embarrassed or offended you
      Made unwanted attempts to establish a romantic sexual relationship
                                                                                  92.5%
      with you despite your efforts to discourage it
      Continued to ask you for dates, drinks, dinner, etc, even though you
                                                                                  96.4%
      said “No”
      Made you feel like you were being bribed with some sort of reward or
                                                                                  98.1%
      special treatment to engage in sexual behavior
      Made you feel threatened with some sort of retaliation for not being
      sexually cooperative (for example, by mentioning an upcoming review         97.9%
      or evaluation)
      Touched you in a way that made you feel uncomfortable                       4.3%
      Treated you badly for refusing to have sex                                  98.2%
      Implied better assignments or better treatment if you were sexually
                                                                                  98.6%
      cooperative


Table 231 reflects responses of USNA male midshipmen that answered “yes” to question
19 regarding the frequency they experienced unwanted/uninvited sexual talk or behavior.
Table 232 reflects the responses of USNA male midshipmen that answered “no” to
question 19.




                                               194
Table 231. Frequency of Unwanted/Uninvited Sexual Talk or
            Behavior (Victim of Sexual Assault)
                                        Once
                                                Several           Very
                              Never      or               Often
                                                Times             Often
                                        Twice
Repeatedly told stories or
jokes of a sexual nature      26.9%     30.7%    7.6%     19.2%   15.3%
that were offensive to you
Made unwelcome attempts
to draw you into a            42.3%     19.2%   15.3%     19.2%   3.8%
discussion of sexual matter
Made offensive remarks
about your appearance,        50.0%     11.5%   19.2%     15.3%   3.8%
body, or sexual activities
Made gestures or used
body language of a sexual
                              61.5%     19.2%    7.6%     7.6%    3.8%
nature that embarrassed or
offended you
Made unwanted attempts
to establish a romantic
sexual relationship with      57.6%     26.9%   11.5%     0.0%    3.8%
you despite your efforts to
discourage it
Continued to ask you for
dates, drinks, dinner, etc,   73.0%     19.2%    3.8%     3.8%    0.0%
even though you said “No”
Made you feel like you
were being bribed with
some sort of reward or        88.4%     7.6%     0.0%     3.8%    0.0%
special treatment to engage
in sexual behavior
Made you feel threatened
with some sort of
                              92.0%     8.0%     0.0%     0.0%    0.0%
retaliation for not being
sexually cooperative
Touched you in a way that
made you feel                 11.5%     76.9%   11.5%     0.0%    0.0%
uncomfortable
Treated you badly for
                              96.1%     3.8%     0.0%     0.0%    0.0%
refusing to have sex
Implied better assignments
or better treatment if you    100%      0.0%     0.0%     0.0%    0.0%
were sexually cooperative




                                  195
           Table 232. Frequency of Unwanted/Uninvited Sexual Talk or
                     Behavior (Non-Victim of Sexual Assault)
                                                  Once
                                                          Several           Very
                                        Never      or               Often
                                                          Times             Often
                                                  Twice
          Repeatedly told stories or
          jokes of a sexual nature      68.5%   20.0%      7.0%     3.1%    1.1%
          that were offensive to you
          Made unwelcome attempts
          to draw you into a            69.4%   21.2%      6.6%     1.9%    0.6%
          discussion of sexual matter
          Made offensive remarks
          about your appearance,        79.%    13.8%      4.6%     1.7%    0.6%
          body, or sexual activities
          Made gestures or used
          body language of a sexual
                                        85.5%   11.0%      2.4%     0.6%    0.2%
          nature that embarrassed
          or offended you
          Made unwanted attempts
          to establish a romantic
          sexual relationship with      94.0%     4.7%     1.0%     0.1%    0.0%
          you despite your efforts to
          discourage it
          Continued to ask you for
          dates, drinks, dinner, etc,   97.3%     2.2%     0.3%     0.1%    0.0%
          even though you said “No”
          Made you feel like you
          were being bribed with
          some sort of reward or        99.1%     0.7%     0.1%     0.0%    0.0%
          special treatment to
          engage in sexual behavior
          Made you feel threatened
          with some sort of
                                        99.2%     0.5%     0.3%     0.0%    0.0%
          retaliation for not being
          sexually cooperative
          Touched you in a way that
          made you feel                 4.1%    94.9%      0.6%     0.0%    0.2%
          uncomfortable
          Treated you badly for
                                        98.7%     0.7%     0.3%     0.0%    0.2%
          refusing to have sex
          Implied better
          assignments or better
                                        99.4%     0.4%     0.0%     0.0%    0.0%
          treatment if you were
          sexually cooperative


We asked male midshipmen how many of the listed behaviors they marked as happening
to them they considered to be sexual harassment. Table 233 reflects the USNA male
midshipmen responses.




                                            196
                  Table 233. USNA Male Responses to Behaviors They
                          Considered to be Sexual Harassment
                                                                     Percentage
                  None were sexual harassment                          38.4%
                  Some were sexual harassment                           8.0%
                  Most were sexual harassment                           1.2%
                  All were sexual harassment                            2.4%
                  Does not apply (I marked “NEVER” in every item
                                                                          49.3%
                  in question #17)


Table 234 reflects USNA male respondents by those who answered “yes” to question 19
and those who answered “no” (victim and non-victim of sexual assault).

         Table 234. USNA Male Responses to Behaviors They Considered
      to be Sexual Harassment (Victim Versus Non-Victim of Sexual Assault)
                                                                               Non-
                                                               Victims
                                                                              victims
           None were sexual harassment                             30.8%      38.8%
           Some were sexual harassment                             38.5%       7.3%
           Most were sexual harassment                              3.8%       1.2%
           All were sexual harassment                               7.7%       2.3%
           Does not apply (I marked “NEVER” in every item
                                                                   19.2%      50.4%
           in question #17)
           Total                                                   100%       100%


   C. Sexual Assault Incidents at the Academy
This section details survey findings concerning the scope of sexual assault incidents at
the academy. The respondents answered “yes” or “no” to the following question: “Since
becoming a midshipman, has someone done any of the following to you without your
consent and against your will?” The answer choices included:

              •     “Touched, stroked, or fondled your private parts”;

              •     “Physically attempted to have sexual intercourse with you, but was not
                    successful”;

              •     “Physically attempted to have oral or anal sex with you, but was not
                    successful”;

              •     “Had sexual intercourse with you”;

              •     “Had oral sex with you”; and,

              •     “Had anal sex with you.”

Of the 1,017 USNA male respondents, 27 indicated they were victims of at least one
sexual assault since becoming a Naval Academy midshipman. USNA male respondents
were asked to describe up to four incidents, focusing on those considered to be the most
severe incidents. There was one case of a second incident and the respondent only


                                             197
provided data on when it occurred. No further data on the incident was provided. Table
235 depicts the scope of recent incidents involving USNA male midshipmen as victims
of sexual assault.

            Table 235. Scope of Recent Incidents Involving USNA Male
                    Respondents as Victims of Sexual Assault.
                   Experienced behavior against will without consent                   Number
                  Total Incidents                                                        27
                  Touched, stroked, or fondled privates only                             11
                  Touched, stroked, or fondled privates in conjunction
                                                                                           6
                  with other listed behavior(s)
                  Attempted sexual intercourse                                             4
                  Attempted oral or anal sex                                               3
                  Had sexual intercourse                                                   7
                  Had oral sex                                                             5
                  Had anal sex                                                             0

Tables 236.a through 236.c list when these incidents occurred, by calendar year,
semester, and the midshipmen status/rank (BCT/Plebe, summer/freshman/sophomore/
junior/senior). If the midshipman selected summer “semester,” it assumes that
graduation has occurred and the midshipman rose to the next rank. All midshipmen did
not answer question 20A completely. Where that occurred, “Missing Data” is listed in
the table as an unknown response.

        Table 236.a. USNA Males Calendar Year When Incident Occurred
                                 2001
                                                                              Missing
                  Incident       and           2002      2003        2004*               Total
                                                                               Data
                                Earlier
                  1st             3             7         9            5         2         26
                  2nd             0             0         0            1         0         1
                        * 3-4 month period: January-March/April 2004

           Table 236.b. USNA Males Semester When Incidents Occurred
                                                                             Missing
                  Incident      Fall         Spring       Summer                        Total
                                                                              Data
                   st
                  1                10          9                 4             3           26
                  2nd              0           1                 0             0            1

        Table 236.c. Status of USNA Male Cadet When Incidents Occurred
                                                                       BCT/      Missing
            Incident         Fresh      Soph    Junior        Senior                            Total
                                                                       PLB        Data
            1st               10         6          5           1       1          3             26
            2nd               0          0          1           0       0          0             1

The Offenders
We asked USNA male midshipmen to describe the actions taken by the offender. The
actions were not defined for the respondents; they used their own discretion when
responding. Table 237 describes these actions. The respondents were instructed to check
all actions that apply.



                                                        198
             Table 237. USNA Males - Actions of Offenders by Incident
                                                                       Number of
                                     Act
                                                                        Actions
           Touched, stroked, or fondled your private parts?               17
           Physically attempted to have sexual intercourse with you,
                                                                           4
           but was not successful?
           Physically attempted to have oral or anal sex with you,
                                                                           3
           but was not successful?
           Had sexual intercourse with you?                                7
           Had oral sex with you?                                          5
           Had anal sex with you?                                          0


Location of the Incident
USNA male respondents provided location information for 22 of the sexual assault
incidents. A total of 15 of the 22 sexual assaults occurred on the installation. A total of
12 of those occurred in the dormitory. One offense occurred “Off installation at an
academy-sponsored event,” and six occurred “Off installation and NOT at an academy-
sponsored event.”

Fellow midshipmen were the principal offender group (of all identified offenders); 17
were midshipmen who were in the same class or below, while 3 were midshipmen senior
to the respondent. Table 238 reflects the breakdown of offenders by category.

                   Table 238. USNA Males - Category of Offenders
                                        Category                        Total
                Midshipman who was senior to me                           3
                Midshipman who was in same class as me or below          17
                Military faculty or staff member                          0
                Civilian faculty or staff member                          0
                Military person NOT assigned to your academy              0
                Civilian person NOT assigned to your academy              4
                Unidentified person                                       0
                Missing Data                                              5
                Total                                                    27


Of the 27 reported incidents, respondents provided information for 22 incidents when
asked if there were multiple offenders. One respondent indicated multiple offenders
assaulted him. Non-academy civilians were the only offenders for this multiple offender
incident.

Reporting of Sexual Assault Incidents
Of the 27 sexual assault incidents recorded by respondents, 22 provided sexual assault
reporting information. Respondents stated 20 incidents were not reported to anyone.
Five incidents has no answers to the reporting question. Of the remaining two incidents,
the respondents indicated they reported to officer/NCO chain of command, SAVI
advocate/coordinator, criminal investigative organization, academy chaplain/clergy, or a
civilian law enforcement agency.




                                              199
Reprisal for Reporting Sexual Assaults
USNA male midshipmen who answered “yes” to question 19, were asked whether
anyone in a position of authority retaliated against them for reporting an incident.
Retaliation was defined as “unwarranted punishment, demotion, or withholding a
favorable duty position.” None of the USNA male midshipmen indicated any reprisal or
repercussions for reporting incidents of sexual assault.

Respondents were asked whether they experienced “any OTHER repercussions for
reporting this incident.” The choices included: Ostracism, harassment, or ridicule from
other midshipmen both in and not in their chain of command, ostracism, harassment, or
ridicule from academy staff or faculty members, and other significant repercussions.
USNA male respondents did not indicate any other repercussions for reporting a sexual
assault incident.

Reporting to MCIO/Law Enforcement Agency
USNA male respondents were asked if a military criminal investigative organization or a
civilian law enforcement agency conducted a criminal investigation. Respondents
indicated no incidents were investigated, and one respondent did not know. When asked
why a criminal investigation was not conducted, only one respondent provided data, and
indicated the incident was not reported to law enforcement officials.

No USNA male midshipmen were informed of the final disposition of their incidents
because no military criminal investigative organization or civilian law enforcement
authorities conducted investigations. When asked the most important reasons they did
not report the incident to military or academy authorities, the majority of the respondents
indicated the incident was not serious enough to report (nine incidents) and they could
handle it themselves (eight incidents). Some respondents feared people would not
believe them (four incidents), while others believed that they could deal with it
themselves, or felt shame or embarrassment (three incidents each category). Other
reasons cited include, concern for punishment for infractions/violations, public disclosure
of assault, and thought nothing would be done, among other choices. Table 239 reflects
the USNA male respondents’ reasons for not reporting sexual assaults to military or
academy authorities. (Respondents were asked to check all that apply.)




                                           200
                       Table 239. Reasons for Not Reporting by Incident
                                                                                         Number of
                                         Reasons
                                                                                         Incidents
        Does not apply, I reported it                                                        0
        It was not serious enough to report                                                  9
        I handled it myself                                                                  8
        I thought I would be labeled a trouble maker                                         1
        I thought nothing would be done                                                      2
        Threatened with some form of retaliation                                             1
        Not threatened with retaliation, but feared some form of
                                                                                              1
        retaliation
        Feared ostracism, harassment, or ridicule by peers                                    2
        Feared loss of friends                                                                1
        Feared I or others would be punished for infractions/violations
                                                                                              3
        (such as underage drinking)
        Feared public disclosure of the assault                                               1
        Feared my parents/family would find out                                               0
        Pressured by someone in position of authority                                         0
        Feared my boyfriend/girlfriend would find out                                         1
        Shame/embarrassment                                                                   3
        Feared other repercussions                                                            1
        Feared people would not believe me                                                    4
        Not aware of reporting procedures                                                     0
        I thought I could deal with it myself                                                 3
        Other (Please explain)73                                                              3


Satisfaction with Individuals/Agencies by Incident
USNA male respondents were asked how satisfied they were with the handling of the
incident. For the most part, midshipmen did not use any of the resources listed. Two
indicated they interacted with SAVI advocate/coordinator, one talked to the academy
counseling or development center, and two midshipmen commented on their chain of
command. Not all respondents who were assaulted provided data. Table 240 reflects the
USNA male midshipman satisfaction level.




73
     The three respondents stated: “the midshipmen was not very aggressive and I thought she was just
     trying to be nice. I didn’t want her to get into trouble. but I am still upset it happened”, “I allowed the
     situation to progress to an unacceptable level; it was my fault.” And “It was a one time incident. I told
     him not to do that and he never did again.”



                                                      201
      Table 240. Satisfaction With Individuals/Agencies Handling of Incident
                                                                          N/A or I
                         Very                       Dis-      Very Dis-    did not
         Agency                     Satisfied                                        Total
                        Satisfied                 satisfied   satisfied      use
                                                                          Resource
    Investigative
    Agencies               0           0             0           0          21        21
    (OSI/CID/ NCIS)
    Military lawyers
    handling your          0           0             0           0          21        21
    case
    Victim Witness
                           0           0             0           0          21        21
    Assistance
    SAVI Advocate/
    Coordinator or
    Academy
                           1           1             0           0          18        20
    Response Team
    (ART)
    [N/A for USMA]
    Academy
    Counseling or
                           1           0             0           0          20        21
    Development
    Center
    Peer Resource
    (CASIE Rep/SAVI
                           0           0             0           0          21        21
    GUIDE)[N/A for
    USMA]
    Chain of
                           1           0             1           0          18        20
    Command


   D. General Comments
A general theme throughout the majority of male midshipmen’s comments was the
perception of double standards for male and female midshipmen. Male midshipmen
believe that female midshipmen receive preferential treatment for company rankings,
assignment of “striper” positions and service selection. Many made references
concerning the percentage of female midshipmen (supposed by midshipmen as between
14-16 percent) in the midshipmen population and the rate of coveted positions female
midshipmen hold (stated by midshipmen as between 45-50 percent). This perceived
inequity is troubling to male midshipmen. Male midshipmen commented about the
different physical fitness, appearance, and adherence to conduct standards between males
and females. They believe females rely on their gender to avoid punishment for conduct
infractions.

The respondent’s comments express a strong belief that if a male midshipman is accused
of sexual harassment or sexual assault, he is guilty until proven innocent. Female stories
are accepted as truth immediately. Also, if proven innocent by an investigation or
inquiry, the male midshipman’s reputation is ruined and the female gets off without
repercussion. Numerous references were made about male midshipmen who were
accused of sexual assault and subsequently left the academy, either due to their grade
point average dropping below acceptable standards during the investigation, or from the
findings of the investigation. The males referenced were “innocent.” They were



                                            202
removed from the academy, while the female accuser remained and was not punished for
the “false” allegation or any midshipman infractions.

Many male midshipmen believe women report being “raped” after consensual sex did not
go as planned. If a female had too much to drink, had sex with a male, was regretful the
next morning, or, if the female wanted to “get back” at the male for something he
did/didn’t do, the female “cries rape.” They see “changing their minds” as a catalyst for
fraudulent reporting. Male midshipmen believe female midshipmen should go to the
Honor Board for lying under these circumstances.

Numerous male midshipmen referenced the prevalence of pornography. One
midshipman opined that “95% of all midshipmen use their computers to access
pornography, and at least 25% have a serious pornography addiction or dependency.” It
was noted that it is against the academy’s rules to view pornography on government
computers, yet it is a common occurrence, even joked about during social functions.
Sexual and offensive jokes are told routinely during lunch on Friday “joke day.”

Male midshipmen raised concern about the treatment of women. They noted the
seemingly accepted use of the term “WUBA” (Women Used By All or Women with
Unusually Big Asses). One midshipman stated:
                  “Women are treated miserably at USNA. It is a secret problem. A
                  select minority of men flagrantly and openly abuses women as a whole.
                  This is not reported because individuals fear retaliation (ranging from
                  social to physical) by midshipman at large. The term “WUBA” is used
                  freely in the same way that an African-American might be called a
                  “nigger” in another sector of the population.”

It was noted that women are viewed as lesser by their male counterparts and viewed in a
degrading manner. Some respondents expressed that females should not be allowed at
the academy at all, and it would be a better training environment if females were
excluded from the academy.

Respondents said sexual assault and harassment issues come from situations involving
alcohol. Attempting to remove the “let loose” atmosphere created outside the academy
gates would help resolve the alcohol problem in general. Many midshipmen equate
morale to weekend liberty and drinking.

Midshipmen commented on the lack of personal accountability as a problem at the
academy. There is an attitude of “shipmate loyalty” over “ship loyalty.” The “big rules”
are not being broken, yet there is an increasing number of regulations midshipmen view
as “stupid.” Midshipmen said they do not want to turn each other in for infractions,
because they don’t want to be a “bad guy.” They believe this has degraded the honor
code/concept.




                                              203
Appendix A. Side-by-Side Tables
     Table A.1. Female Cadet/Midshipman Responses to Values Statements
                                   USAFA                USMA                  USNA
                              Agree/  Disagree/    Agree/  Disagree/    Agree/   Disagree/
                             Strongly Strongly    Strongly Strongly    Strongly Strongly
                              Agree   Disagree     Agree   Disagree     Agree    Disagree
 Cadets/midshipmen at
 my Academy adhere to
 the Honor
                               62.5%     28.8%      74.7%     17.6%      55.1%      35.1%
 Code/Concept, even if
 they know they won’t
 get caught violating it
 Cadets/midshipmen
 adhere to significant
 Academy rules and
                               48.9%     40.0%      40.9%     48.1%      36.7%      54.2%
 regulations, even if they
 know they won’t get
 caught violating them
 Cadets/midshipmen hold
 other cadets/
 midshipmen accountable        64.6%     19.9%      76.9%      8.9%      50.4%      30.6%
 to the Honor
 Code/Concept
 Honesty in all things is
 expected and reinforced       84.1%      5.2%      89.7%      4.2%      80.0%       7.5%
 at my Academy.
 I am morally obligated
 to abide by the oath I
 took to support and
 defend the Constitution       94.8%      1.2%      96.7%      1.2%      96.3%       0.8%
 of the United States,
 regardless of the
 consequences to me
 I have felt pressure from
 others at my Academy to
 compromise moral              36.9%     49.3%      30.0%     55.2%      43.2%      45.0%
 standards because of
 loyalty to friends/peers
 I have felt pressure from
 others at my Academy to
 compromise moral
                               23.7%     64.5%      16.3%     74.5%      26.0%      63.0%
 standards in order to
 meet academic or
 training objectives




                                            A-1
   Table A.1 Continued           USAFA              USMA              USNA
Circumstances
determine whether it is
right or wrong for a
                              23.6%      59.3%   23.8%     60.4%   26.7%     58.7%
cadet/midshipman to
compromise his or her
moral standards
I am committed to living
by moral standards that
                              94.3%      0.6%    93.8%     1.3%    90.8%     1.8%
exceed those of society at
large
As a cadet/midshipman,
it is important for me to
meet the same
exemplary conduct and         94.0%      1.8%    95.0%     1.5%    94.9%     2.5%
leadership standards
required of a
commissioned officer
My commitment to
living by exemplary
conduct and leadership
                              80.9%      8.4%    82.5%     8.2%    75.1%     13.8%
standards has been
reinforced by attending
the Academy
I believe commitment to
some form of
ethical/spiritual/religious   85.1%      6.1%    87.5%     5.7%    85.6%     6.1%
beliefs is important to an
officer’s character
I am strongly committed
to some form of
ethical/spiritual/religious   87.6%      4.4%    94.0%     2.0%    89.6%     5.1%
beliefs about what is
right and wrong
My experiences at the
Academy have enhanced
my commitment to              68.3%      17.5%   67.7%     16.0%   63.3%     19.0%
ethical/spiritual/religious
beliefs




                                           A-2
       Table A.2. Male cadet/midshipmen responses to values statements
                                  USAFA                USMA                USNA
                              Agree   Disagree    Agree   Disagree    Agree   Disagree
                             Strongly Strongly   Strongly Strongly   Strongly Strongly
                              Agree   Disagree    Agree   Disagree    Agree   Disagree
Cadets/midshipmen at
my Academy adhere to
the Honor
                              68.9%    20.9%      85.3%     8.1%      70.7%    20.9%
Code/Concept, even if
they know they won’t
get caught violating it
Cadets/midshipmen
adhere to significant
Academy rules and
                              53.2%    32.4%      54.1%    29.4%      52.0%    36.9%
regulations, even if they
know they won’t get
caught violating them
Cadets/midshipmen hold
other
cadets/midshipmen             64.6%    19.0%      79.1%     8.0%      62.0%    20.7%
accountable to the
Honor Code/Concept
Honesty in all things is
expected and reinforced       84.4%     7.2%      92.5%     1.6%      84.5%     7.4%
at my Academy.
I am morally obligated
to abide by the oath I
took to support and
defend the Constitution       98.4%     0.9%      96.1%     0.7%      96.4%     1.1%
of the United States,
regardless of the
consequences to me
I have felt pressure from
others at my Academy to
compromise moral              31.7%    54.5%      25.0%    61.3%      38.9%    49.6%
standards because of
loyalty to friends/peers
I have felt pressure from
others at my Academy to
compromise moral
                              21.2%    65.9%      14.7%    74.1%      24.6%    66.3%
standards in order to
meet academic or
training objectives
Circumstances
determine whether it is
right or wrong for a
                              23.0%    59.8%      20.5%    60.2%      24.9%    57.7%
cadet/midshipman to
compromise his or her
moral standards
I am committed to living
by moral standards that
                              93.0%     1.2%      93.0%     1.4%      91.4%     3.0%
exceed those of society at
large




                                           A-3
Table A.2 continued              USAFA             USMA            USNA
As a cadet/midshipman,
it is important for me to
meet the same
exemplary conduct and         89.8%   3.7%     91.7%   2.5%    90.1%      4.6%
leadership standards
required of a
commissioned officer
My commitment to
living by exemplary
conduct and leadership
                              77.1%   12.8%    82.3%   7.2%    79.3%   11.3%
standards has been
reinforced by attending
the Academy
I believe commitment to
some form of
ethical/spiritual/religious   80.6%   9.0%     81.7%   7.2%    79.3%   10.9%
beliefs is important to an
officer’s character
I am strongly committed
to some form of
ethical/spiritual/religious   87.1%   4.2%     86.7%   5.4%    86.5%      7.0%
beliefs about what is
right and wrong
My experiences at the
Academy have enhanced
my commitment to              58.3%   21.8%    61.4%   17.3%   56.5%   22.1%
ethical/spiritual/religious
beliefs




                                         A-4
  Table A.3. Female Results Regarding Behaviors that Disrupt Good Order
                              and Discipline
                                    USAFA                USMA                USNA
                                Agree   Disagree    Agree   Disagree    Agree   Disagree
                               Strongly Strongly   Strongly Strongly   Strongly Strongly
                                Agree   Disagree    Agree   Disagree    Agree   Disagree
Violating the Honor
                                86.5%     7.0%      91.2%     5.8%      86.7%     8.0%
Code/Concept
Not reporting Honor
                                62.8%    18.7%      68.6%    15.8%      63.3%    20.7%
Code/Concept violations
Favoritism based on
                                92.8%     4.0%      93.7%     3.8%      92.8%     4.8%
gender
Engaging in prohibited
                                67.1%    17.3%      66.4%    18.5%      56.4%    24.2%
relationships/fraternization
Cadets/midshipmen dating
each other at the same          5.8%     89.1%      4.0%     90.5%      5.7%     87.9%
Academy
Consensual sex between
cadets/midshipmen ON            32.3%    48.1%      42.9%    39.6%      55.5%    27.9%
academy grounds
Consensual sex between
cadets/midshipmen OFF           9.2%     80.7%      8.7%     82.5%      9.7%     82.4%
academy grounds
Excessive use of
                                76.6%    12.6%      83.2%     8.3%      75.3%    12.4%
alcohol/drunkenness
Illegal drug use, or the
                                93.3%     3.5%      93.3%     4.0%      92.6%     4.4%
abuse of prescription drugs
Viewing pornography or
other sexually graphic          63.1%    18.1%      54.1%    25.1%      56.4%    23.8%
content (images or movies)




                                           A-5
    Table A.4. Male Results Regarding Behaviors that Disrupt Good Order
                               and Discipline
                                    USAFA                USMA                USNA
                                Agree   Disagree    Agree   Disagree    Agree   Disagree
                               Strongly Strongly   Strongly Strongly   Strongly Strongly
                                Agree   Disagree    Agree   Disagree    Agree   Disagree
Violating the Honor
                                83.7%     9.1%      90.2%     5.7%      86.9%     7.3%
Code/Concept
Not reporting Honor
                                61.5%    19.9%      70.3%    13.9%      62.9%    20.1%
Code/Concept violations
Favoritism based on
                                90.8%     3.9%      89.5%     4.1%      91.2%     4.7%
gender
Engaging in prohibited
                                65.0%    19.7%      68.4%    16.6%      68.9%    17.7%
relationships/fraternization
Cadets/midshipmen dating
each other at the same          12.4%    77.4%      15.2%    67.5%      24.9%    60.7%
Academy
Consensual sex between
cadets/midshipmen ON            32.2%    54.5%      41.6%    40.7%      61.5%    26.1%
academy grounds
Consensual sex between
cadets/midshipmen OFF           10.7%    80.1%      11.9%    76.4%      21.8%    66.6%
academy grounds
Excessive use of
                                69.4%    16.2%      68.1%    16.8%      68.3%    19.4%
alcohol/drunkenness
Illegal drug use, or the
                                91.9%     3.9%      90.8%     4.5%      91.7%     3.8%
abuse of prescription drugs
Viewing pornography or
other sexually graphic          29.4%    49.3%      21.8%    58.7%      23.2%    58.0%
content (images or movies)




                                           A-6
   Table A.5. Female Responses to Understanding of Sexual Harassment,
                      Assault and Related Services
                                              USAFA           USMA            USNA
                                             Yes  No        Yes   No        Yes   No
The difference between sexual
                                             97.9%   0.2%   97.5%   0.2%    96.3%   0.6%
harassment and sexual assault
How to avoid situations that might
                                             98.5%   0.2%   99.5%   0.0%    98.3%   0.3%
increase the risk of sexual assault
How to report sexual assaults                92.8%   2.0%   88.9%   2.7%    87.1%   4.3%
How to obtain medical care following a
                                             92.2%   1.1%   88.9%   2.7%    79.8%   8.3%
sexual assault
How to obtain counseling following a
                                             94.9%   1.4%   86.7%   3.7%    85.6%   5.2%
sexual assault
The services that your Academy’s legal
office can provide to a victim in            79.6%   7.8%   69.6%   11.3%   55.8%   22.9%
response to sexual assault
General responsibilities of law
enforcement and criminal investigative       86.5%   4.4%   71.9%   10.0%   56.0%   21.5%
agencies in response to sexual assaults
The role of the chain of command in
                                             79.9%   7.4%   75.5%   8.3%    52.3%   24.5%
handling sexual assaults
Where to go if I need additional
                                             89.1%   3.2%   84.2%   3.2%    83.9%   6.0%
information on the areas above.


    Table A.6. Male Responses to Understanding of Sexual Harassment,
                      Assault and Related Services
                                               USAFA          USMA            USNA
                                              Yes  No        Yes  No        Yes   No
The difference between sexual
                                             97.2%   0.6%   96.9%   0.5%    96.2%   0.5%
harassment and sexual assault
How to avoid situations that might
                                             98.5%   0.3%   97.6%   0.7%    97.6%   0.8%
increase the risk of sexual assault
How to report sexual assaults                93.3%   1.8%   93.5%   2.0%    90.2%   4.0%
How to obtain medical care following a
                                             90.0%   3.5%   89.8%   4.7%    82.6%   8.6%
sexual assault
How to obtain counseling following a
                                             93.3%   3.2%   88.8%   4.0%    88.3%   6.0%
sexual assault
The services that your Academy’s legal
office can provide to a victim in response   81.7%   7.9%   79.6%   7.8%    64.5%   19.5%
to sexual assault
General responsibilities of law
enforcement and criminal investigative       86.2%   5.4%   80.5%   6.9%    69.7%   15.9%
agencies in response to sexual assaults
The role of the chain of command in
                                             80.6%   8.2%   86.6%   5.8%    63.8%   19.6%
handling sexual assaults
Where to go if I need additional
                                             89.8%   3.7%   89.1%   3.5%    87.1%   5.9%
information on the areas above.




                                             A-7
         Table A.7. Female Responses Regarding the Effect of Academy Cadet/Military
                                         Leaders
                       Leaders           USAFA                     USMA                        USNA
                                      Level of Extent           Level of Extent            Level of Extent
                                   Very Moder- Not          Very Moder-                Very Moder-
                                                                               Not                        Not
                                   Large     ate      at    Large     ate              Large     ate
                                                                              at all                     at all
                                   Large Small        all   Large Small                Large Small
Demonstrate good      Cadets/
                                   63.1%   35.4%    0.3%    50.2%    49.1%     0.7%    47.5%    50.2%     1.5%
examples of sound     midshipmen
moral character       TAC/AOC/
                      Company      72.4%   24.7%    1.7%    68.2%    30.1%     1.5%    63.0%    33.6%     1.7%
                      Officer
Hold others           Cadets/
                                   51.1%   46.1%    1.1%    51.6%    47.8%     0.5%    41.9%    55.4%     1.5%
accountable for       midshipmen
their conduct         TAC/AOC/
                      Company      79.6%   17.3%    1.1%    83.0%    16.1%     0.5%    79.9%    18.6%     0.2%
                      Officer
Promote and           Cadets/
                                   64.6%   32.2%    1.4%    55.1%    42.6%     1.0%    53.7%    42.5%     2.3%
safeguard the         midshipmen
welfare of            TAC/AOC/
subordinates          Company      73.2%   23.4%    1.7%    72.2%    25.6%     0.8%    65.5%    31.4%     1.8%
                      Officer
Create a climate in   Cadets/
                                   61.1%   35.8%    1.8%    47.9%    46.9%     3.7%    38.8%    50.8%     6.9%
which sexual          midshipmen
HARASSMENT is         TAC/AOC/
not tolerated         Company      79.5%   16.2%    1.4%    72.5%    23.8%     0.8%    67.2%    25.2%     2.6%
                      Officer
Create a climate in   Cadets/
                                   54.2%   38.7%    4.7%    42.6%    44.6%    10.0%    29.8%    51.1%    13.3%
which                 midshipmen
cadets/midshipmen     TAC/AOC/
are encouraged to     Company
                      Officer      77.3%   16.8%    2.0%    69.7%    24.0%     3.0%    56.7%    31.0%     4.1%
report sexual
HARASSMENT
Create a climate in   Cadets/
                                   81.0%   16.5%    0.8%    71.2%    24.1%     2.2%    63.2%    29.8%     2.9%
which sexual          midshipmen
ASSAULT is not        TAC/AOC/
tolerated             Company      86.1%   10.7%    1.2%    79.5%    15.8%     0.8%    73.2%    19.0%     1.5%
                      Officer
Create a climate in   Cadets/
                                   72.4%   21.6%    3.1%    52.6%    36.4%     7.0%    46.0%    39.1%     8.7%
which                 midshipmen
cadets/midshipmen     TAC/AOC/
are encouraged to     Company
                      Officer      81.2%   12.7%    2.1%    72.5%    20.0%     2.2%    64.1%    23.6%     3.4%
report a sexual
ASSAULT




                                                    A-8
    Table A.7                      Very    Moder-   Not    Very    Moder-    Not     Very    Moder-    Not
    continued                      Large    ate     at     Large    ate     at all   Large    ate     at all
                                   Large   Small    all    Large   Small             Large   Small
Ensure those who      Cadets/
                                   50.4%   32.6%    4.9%   31.3%   38.5%    9.0%     25.5%   40.8%    13.7%
have reported         midshipmen
sexual                TAC/AOC/
harassment/assault    Company
                      Officer      68.3%   17.2%    2.0%   55.6%   23.6%    2.2%     49.8%   23.2%    3.5%
are treated with
dignity and respect
Provide an            Cadets/
                                   47.2%   30.8%    4.3%   31.8%   35.1%    8.7%     25.9%   36.0%    11.7%
appropriate level     midshipmen
of privacy to those   TAC/AOC/
who have              Company
                      Officer      63.4%   17.8%    2.8%   74.1%   18.2%    1.8%     46.2%   23.6%    3.4%
experienced sexual
ASSAULT
Provide adequate      TAC/AOC/
information to        Company      74.1%   18.2%    1.8%   61.4%   28.6%    3.0%     51.7%   34.8%    3.5%
cadets/midshipmen     Officer
about policies,
procedures, and
consequences of
sexual ASSAULT




                                                    A-9
        Table A.8. Male Responses Regarding the Effect of Academy Cadet/Non senior
                                        Leaders
                       Leaders           USAFA                    USMA                      USNA
                                      Level of Extent          Level of Extent          Level of Extent
                                   Very Moder- Not          Very Moder- Not          Very Moder- Not
                                   Large     ate      at    Large     ate      at    Large     ate      at
                                   Large Small        all   Large Small        all   Large Small        all
Demonstrate good      Cadets/
                                   63.8%   33.7%    1.3%    64.5%   34.4%    0.3%    52.9%   43.7%    1.7%
examples of sound     midshipmen
moral character       TAC/AOC/
                      Company      72.1%   23.8%    3.1%    74.7%   22.3%    1.8%    70.2%   26.5%    1.3%
                      Officer
Hold others           Cadets/
                                   54.9%   42.0%    1.6%    64.2%   34.0%    0.7%    52.9%   44.5%    1.1%
accountable for       midshipmen
their conduct         TAC/AOC/
                      Company      83.0%   14.4%    1.6%    85.4%   12.3%    0.7%    84.4%   13.4%    0.6%
                      Officer
Promote and           Cadets/
                                   59.6%   35.5%    3.1%    65.0%   30.9%    2.6%    56.8%   38.0%    3.2%
safeguard the         midshipmen
welfare of            TAC/AOC/
subordinates          Company      72.0%   22.4%    4.0%    74.6%   21.4%    2.2%    69.1%   26.7%    2.4%
                      Officer
Create a climate in   Cadets/
                                   72.8%   23.7%    1.6%    74.5%   21.5%    1.1%    61.5%   31.6%    2.3%
which sexual          midshipmen
HARASSMENT is         TAC/AOC/
not tolerated         Company      86.7%   10.4%    0.9%    85.6%   10.3%    0.7%    79.1%   14.1%    1.1%
                      Officer
Create a climate in   Cadets/
                                   67.0%   27.5%    2.2%    67.7%   27.3%    1.3%    52.3%   36.6%    3.5%
which                 midshipmen
cadets/midshipmen     TAC/AOC/
are encouraged to     Company
                      Officer      82.9%   12.8%    1.2%    82.4%   12.5%    0.4%    73.2%   18.0%    1.3%
report sexual
HARASSMENT
Create a climate in   Cadets/
                                   88.8%    8.7%    0.7%    87.1%    9.7%    0.7%    78.3%   15.6%    1.0%
which sexual          midshipmen
ASSAULT is not        TAC/AOC/
tolerated             Company      87.8%    8.0%    0.7%    87.6%    8.2%    0.3%    82.6%   10.4%    0.8%
                      Officer
Create a climate in   Cadets/
                                   79.9%   16.2%    1.0%    80.1%   14.9%    0.8%    66.6%   22.2%    2.6%
which                 midshipmen
cadets/midshipmen     TAC/AOC/
are encouraged to     Company
                      Officer      85.3%   10.0%    1.1%    83.7%   11.3%    0.4%    75.7%   14.2%    1.0%
report a sexual
ASSAULT




                                                   A-10
    Table A.8                      Very    Moder-    Not    Very    Moder-   Not    Very    Moder-   Not
    continued                      Large    ate      at     Large    ate     at     Large    ate     at
                                   Large   Small     all    Large   Small    all    Large   Small    all
Ensure those who      Cadets/
                                   69.0%   16.5%     1.5%   62.9%   15.9%    0.5%   48.5%   23.8%    3.1%
have reported         midshipmen
sexual                TAC/AOC/
harassment/assault    Company
                      Officer      77.6%   10.7%     1.3%   70.9%   10.3%    0.2%   65.3%   11.7%    1.0%
are treated with
dignity and respect
Provide an            Cadets/
                                   66.9%   15.2%     2.5%   60.5%   13.7%    1.8%   47.0%   20.2%    2.8%
appropriate level     midshipmen
of privacy to those   TAC/AOC/
who have              Company
                      Officer      74.4%   10.4%     1.7%   69.3%    8.9%    0.8%   61.0%   11.8%    0.8%
experienced sexual
ASSAULT
Provide adequate      TAC/AOC/
information to        Company      79.5%   13.5%     1.1%   75.1%   15.2%    0.7%   64.3%   23.7%    1.6%
cadets/midshipmen     Officer
about policies,
procedures, and
consequences of
sexual ASSAULT




                                                    A-11
     Table A.9. Female Responses Regarding the Effect of Academy Senior Leaders and
                                        Faculty
                        Leaders           USAFA                    USMA                      USNA
                                       Level of Extent          Level of Extent          Level of Extent
                                    Very Moder- Not          Very Moder- Not          Very Moder- Not
                                    Large     ate      at    Large     ate      at    Large     ate      at
                                    Large Small        all   Large Small        all   Large Small        all
Demonstrate good       Senior
                                    89.1%    9.3%    0.5%    89.7%    6.2%    0.2%    94.2%    4.6%    0.2%
examples of sound      Leadership
moral character        Academy
                                    88.1%   11.3%    0.0%    86.7%   12.1%    0.2%    63.5%   31.6%    0.2%
                       Faculty
Hold                   Senior
                                    91.9%    5.7%    0.9%    93.8%    4.7%    0.5%    95.2%    4.3%    0.0%
cadets/midshipmen      Leadership
accountable for        Academy
                       Faculty      83.0%   16.1%    0.2%    86.2%   12.3%    0.2%    63.2%   33.3%    0.5%
their conduct
Promote and            Senior
                                    84.1%   13.0%    0.9%    80.7%   16.0%    0.5%    91.1%    7.8%    0.0%
safeguard the          Leadership
welfare of             Academy
                       Faculty      83.3%   13.5%    0.2%    80.9%   16.0%    0.3%    55.5%   36.2%    1.2%
subordinates
Treat subordinate      Senior
                                    78.9%   15.8%    2.1%    70.9%   24.5%    1.0%    78.8%   16.7%    0.9%
cadets/midshipmen      Leadership
fairly regardless of   Academy
                       Faculty      81.9%   16.1%    0.0%    72.4%   26.0%    0.8%    58.3%   39.1%    0.3%
gender
Create a climate in    Senior
                                    89.1%    9.5%    0.3%    82.7%   13.3%    1.8%    81.4%   14.4%    0.2%
which sexual           Leadership
HARASSMENT is          Academy
                       Faculty      83.2%   12.6%    0.6%    75.4%   16.8%    1.0%    51.4%   26.5%    1.8%
not tolerated
Create a climate in    Senior
                                    91.6%    6.9%    0.2%    84.9%   10.3%    1.3%    87.0%    8.4%    0.3%
which sexual           Leadership
ASSAULT is not         Academy
                       Faculty      85.6%    7.5%    0.3%    80.2%   10.0%    0.5%    58.1%   18.4%    1.5%
tolerated




                                                    A-12
      Table A.10. Male Responses Regarding the Effect of Academy Senior Leaders and
                                        Faculty
                        Leaders           USAFA                    USMA                      USNA
                                       Level of Extent          Level of Extent          Level of Extent
                                    Very Moder- Not          Very Moder- Not          Very Moder- Not
                                    Large     ate      at    Large     ate      at    Large     ate      at
                                    Large Small        all   Large Small        all   Large Small        all
Demonstrate good       Senior
                                    84.2%   12.1%    2.3%    91.4%    5.5%    0.3%    95.3%    2.9%    0.1%
examples of sound      Leadership
moral character        Academy
                                    88.9%   10.0%    0.0%    91.2%    6.6%    0.1%    69.3%   24.1%    0.6%
                       Faculty
Hold                   Senior
                                    90.6%    7.0%    1.4%    94.3%    3.0%    0.2%    95.8%    2.5%    0.1%
cadets/midshipmen      Leadership
accountable for        Academy
                       Faculty      84.2%   14.1%    0.0%    90.0%    8.1%    0.2%    64.9%   28.6%    1.2%
their conduct
Promote and            Senior
                                    80.1%   14.2%    3.1%    84.3%   11.9%    0.9%    91.6%    5.7%    0.3%
safeguard the          Leadership
welfare of             Academy
                       Faculty      81.8%   14.9%    0.4%    84.6%   11.1%    0.1%    55.8%   31.6%    1.9%
subordinates
Treat subordinate      Senior
                                    68.1%   21.0%    7.5%    73.9%   18.2%    3.3%    70.6%   20.0%    4.1%
cadets/midshipmen      Leadership
fairly regardless of   Academy
                       Faculty      77.6%   19.0%    1.8%    77.0%   19.5%    1.0%    62.0%   31.0%    1.8%
gender
Create a climate in    Senior
                                    92.2%    5.1%    0.8%    92.0%    4.5%    0.1%    91.4%    4.9%    0.2%
which sexual           Leadership
HARASSMENT is          Academy
                       Faculty      88.7%    8.1%    0.0%    86.6%    7.4%    0.1%    62.8%   16.1%    1.4%
not tolerated
Create a climate in    Senior
                                    93.9%    3.8%    0.7%    92.1%    3.6%    0.0%    93.2%    3.3%    0.1%
which sexual           Leadership
ASSAULT is not         Academy
                       Faculty      89.8%    5.9%    0.0%    87.8%    5.1%    0.1%    65.4%   13.0%    1.6%
tolerated




                                                    A-13
  Table A.11. Female Responses Regarding Cadet/Midshipman Willingness to
                      Confront and Report Offenders
                          USAFA                     USMA                       USNA
                       Level of Extent           Level of Extent           Level of Extent
                    Very Moder- Not           Very Moder- Not          Very Moder-        Not
                    Large     ate      at     Large     ate      at    Large     ate     at all
                    Large Small        all    Large Small        all   Large Small
CONFRONT
other
cadets/midshipmen
who engage in
sexual
                    37.5%   52.4%    5.5%    21.3%    63.9%    8.8%    16.7%    62.7%    13.2%
HARASSMENT,
including
inappropriate
comments and
actions
REPORT other
cadets/midshipmen
who continue to
engage in sexual
                    33.7%   52.4%    6.4%    20.3%    60.4%    8.8%    14.6%    56.1%    15.3%
HARASSMENT
after having been
previously
confronted
REPORT other
cadets/midshipmen
                    53.9%   33.1%    3.8%    36.6%    43.9%    4.8%    28.4%    45.4%     8.3%
who commit sexual
ASSAULT




                                             A-14
   Table A.12. Male Responses Regarding their Willingness to Confront and
                             Report Offenders
                          USAFA                     USMA                      USNA
                       Level of Extent           Level of Extent          Level of Extent
                    Very Moder- Not           Very Moder- Not          Very Moder- Not
                    Large     ate      at     Large     ate      at    Large     ate      at
                    Large Small        all    Large Small        all   Large Small        all
CONFRONT
other
cadets/midshipmen
who engage in
sexual
                    51.0%   41.2%    2.4%     45.8%   43.0%    1.9%    34.5%   49.9%    3.5%
HARASSMENT,
including
inappropriate
comments and
actions
REPORT other
cadets/midshipmen
who continue to
engage in sexual
                    51.9%   37.1%    2.1%     50.3%   35.6%    1.2%    37.8%   43.1%    2.6%
HARASSMENT
after having been
previously
confronted
REPORT other
cadets/midshipmen
                    73.3%   16.2%    0.8%     67.7%   17.6%    0.8%    58.0%   21.4%    1.1%
who commit sexual
ASSAULT




                                             A-15
   Table A.13. Female Responses Regarding Personal Loyalties, Barriers to
                  Reporting, and Fraudulent Reporting
                        USAFA                      USMA                       USNA
                     Level of Extent            Level of Extent           Level of Extent
                 Very Moder-                Very Moder-                Very Moder- Not
                                    Not                        Not
                 Large     ate              Large     ate              Large     ate      at
                                   at all                     at all
                 Large Small                Large Small                Large Small        all
Allow
personal
loyalties to
affect           28.5%    50.2%     9.3%    35.4%    46.8%     3.0%    39.7%   41.7%    4.0%
reporting of
sexual
ASSAULT
Do NOT
report sexual
ASSAULT
out of
concern they
or others will
be punished      32.9%    47.3%     7.7%    52.4%    32.6%     2.7%    49.5%   34.7%    2.9%
for
infractions,
such as
fraternization
or underage
drinking
Consider
fraudulent
reporting of
sexual
ASSAULT          35.5%    42.7%    10.0%    17.0%    47.9%    16.8%    36.8%   40.6%    9.0%
incidents to
be a problem
at the
Academy




                                            A-16
Table A.14. Male Responses Regarding Personal Loyalties, Barriers to Reporting,
                         and Fraudulent Reporting
                         USAFA                      USMA                        USNA
                      Level of Extent            Level of Extent            Level of Extent
                  Very Moder-                Very Moder-                Very Moder-
                                     Not                        Not                        Not
                  Large     ate              Large     ate              Large     ate
                                    at all                     at all                     at all
                  Large Small                Large Small                Large Small
 Allow
 personal
 loyalties to
 affect           17.7%    54.2%    15.9%    16.7%    51.6%    11.4%    22.3%    48.7%     9.2%
 reporting of
 sexual
 ASSAULT
 Do NOT
 report sexual
 ASSAULT
 out of
 concern they
 or others will
 be punished      20.7%    48.7%    16.5%    21.9%    45.1%    13.2%    28.6%    41.9%    11.2%
 for
 infractions,
 such as
 fraternization
 or underage
 drinking
 Consider
 fraudulent
 reporting of
 sexual
 ASSAULT          45.9%    35.2%    10.5%    17.3%    42.5%    17.4%    43.2%    32.9%    10.0%
 incidents to
 be a problem
 at the
 Academy




                                              A-17
  Table A.15. Female Responses Regarding their Willingness to Report to Various
                                   Agencies
                                 USAFA                     USMA                      USNA
                                           Un-                       Un-                       Un-
                         Yes      No                Yes     No               Yes      No
                                         certain                   certain                   certain
Officer/NCO Chain of
command member
(i.e., AOC, MTL,         56.8%   23.9%   18.4%     52.9%   25.8%   21.3%     46.8%   28.7%   24.1%
TAC, Co Officer,
SEL)
Faculty member,
coaches, or Academy
                         71.4%   13.8%   13.9%     74.5%   14.8%   10.3%     62.1%   25.0%   12.9%
staff not in chain of
command
Academy hotline/help
                         60.5%   23.4%   14.9%     50.7%   29.6%   18.8%     42.0%   39.4%   15.3%
line
Person in
cadet/midshipman         47.2%   33.1%   18.8%     39.8%   40.1%   19.8%     46.3%   35.7%   17.5%
chain of command
Peer resource (e.g.,
SAVI GUIDE, CASIE
                         65.7%   21.6%   11.6%     13.1%   8.0%     4.7%     70.9%   19.5%    9.5%
Rep) [N/A for West
Point
Academy Counseling
or Development           59.4%   24.5%   15.3%     55.6%   23.3%   20.8%     47.4%   35.7%   16.9%
Center
Installation Medical
                         72.3%   15.8%   10.9%     75.0%   13.8%   11.1%     58.7%   24.2%   16.6%
Personnel
Criminal investigative
organizations (i.e.,     55.0%   25.3%   10.9%     57.4%   21.8%   20.6%     47.5%   28.8%   23.3%
AFOSI, CID, NCIS)
Security Forces,
Military Police or       49.5%   29.2%   20.2%     46.6%   30.0%   22.8%     32.5%   47.7%   19.3%
USNA Police
Academy Inspector
General Office [N/A      39.8%   31.7%   26.5%     38.8%   31.9%   26.5%     6.7%    13.3%    4.1%
for Naval Academy
Academy
                         77.6%   13.3%    8.3%     76.0%   13.1%    9.8%     61.5%   23.3%   15.2%
Chaplain/Clergy
Academy Response
Team (ART) [N/A for
                         57.0%   22.1%   19.0%     8.5%    7.8%     4.3%     5.7%    11.7%    4.3%
West Point and Naval
Academy]
SAVI
Advocate/Coordinator
                         14.7%   10.9%    6.6%     7.5%    7.2%     4.0%     62.9%   20.6%   15.6%
[N/A for USMA and
USAFA]
Service Inspector
General’s office or      30.6%   38.3%   29.2%     29.8%   39.3%   29.3%     16.1%   52.0%   27.1%
hotline
DoD Inspector
General’s office or      32.3%   37.8%   28.3%     30.9%   39.1%   28.3%     17.3%   54.0%   27.0%
DoD IG Hotline
Other                    12.7%   18.4%   14.9%     17.5%   25.0%   14.1%     15.3%   27.9%   11.7%



                                                 A-18
    Table A.16. Male Responses Regarding their Willingness to Report to Various
                                    Agencies
                                 USAFA                     USMA                      USNA
                                           Un-                       Un-                       Un-
                         Yes      No                Yes     No               Yes      No
                                         certain                   certain                   certain
Officer/NCO Chain of
command member
(i.e., AOC, MTL,         71.5%   15.1%   12.7%     77.5%   11.2%   10.9%     70.8%   16.5%   12.1%
TAC, Co Officer,
SEL)
Faculty member,
coaches, or Academy
                         70.1%   16.2%   12.7%     79.8%   10.7%    9.0%     57.7%   26.4%   14.8%
staff not in chain of
command
Academy hotline/help
                         73.5%   13.3%   12.2%     68.9%   17.3%   12.3%     55.2%   26.8%   14.7%
line
Person in
cadet/midshipman         53.8%   26.2%   18.9%     62.7%   21.5%   15.1%     54.4%   30.0%   15.1%
chain of command
Peer resource (e.g.,
SAVI GUIDE, CASIE
                         71.4%   16.1%   11.5%     29.6%   8.7%     5.0%     75.6%   16.3%    7.1%
Rep) [N/A for West
Point
Academy Counseling
or Development           68.9%   15.3%   14.9%     69.0%   16.9%   13.4%     60.0%   24.3%   14.7%
Center
Installation Medical
                         79.5%   9.2%    10.4%     79.7%   11.2%    8.6%     72.5%   16.5%   10.2%
Personnel
Criminal investigative
organizations (i.e.,     70.8%   14.4%   13.8%     75.8%   13.4%   10.2%     66.8%   18.4%   13.7%
AFOSI, CID, NCIS)
Security Forces,
Military Police or       64.7%   18.4%   15.8%     68.0%   17.7%   13.6%     47.9%   36.6%   14.8%
USNA Police
Academy Inspector
General Office [N/A      58.0%   19.9%   20.5%     62.4%   18.0%   17.7%     14.7%   8.9%     5.3%
for Naval Academy
Academy
                         84.2%   8.7%     6.0%     85.3%   7.6%     5.1%     81.5%   9.5%     7.9%
Chaplain/Clergy
Academy Response
Team (ART) [N/A for
                         66.8%   16.2%   14.8%     23.9%   8.6%     5.2%     11.9%   7.6%     5.4%
West Point and Naval
Academy]
SAVI
Advocate/Coordinator
                         21.0%   7.8%     7.6%     22.0%   8.6%     5.7%     72.4%   16.1%   10.1%
[N/A for West Point
and USAFA]
Service Inspector
General’s office or      47.5%   25.4%   25.7%     55.2%   22.5%   20.7%     37.2%   35.6%   24.2%
hotline
DoD Inspector
General’s office or      47.6%   26.7%   24.5%     55.4%   22.5%   20.7%     37.4%   37.5%   23.8%
DoD IG Hotline
Other                    11.6%   15.3%   16.5%     10.4%   26.3%   16.2%     9.1%    27.2%   17.3%



                                                 A-19
        Table A.17. Percentage of Female Cadets/Midshipmen Indicating
              Occurrence of Listed Behaviors Often or Very Often.
                                                              USAFA    USMA    USNA
                                                               Often   Often   Often
                                                               Very     Very   Very
                                                               Often   Often   Often
Repeatedly told stories or jokes of a sexual nature that
                                                               9.6%    21.0%   22.7%
were offensive to you
Made unwelcome attempts to draw you into a discussion
of sexual matters (for example, attempted to discuss or        5.1%    14.5%   11.0%
comment on your sex life)
Made offensive remarks about your appearance, body, or
                                                               6.0%    15.3%   14.6%
sexual activities
Made gestures or used body language of a sexual nature
                                                               4.0%    11.0%   9.8%
that embarrassed or offended you
Made unwanted attempts to establish a romantic sexual
                                                               2.9%    8.8%    4.8%
relationship with you despite your efforts to discourage it
Continued to ask you for dates, drinks, dinner, etc, even
                                                               2.6%    6.7%    3.5%
though you said “No”
Made you feel like you were being bribed with some sort
of reward or special treatment to engage in sexual             0.6%    1.3%    1.2%
behavior
Made you feel threatened with some sort of retaliation
for not being sexually cooperative (for example, by            0.6%    1.2%    0.8%
mentioning an upcoming review or evaluation)
Touched you in a way that made you feel uncomfortable          1.5%    2.2%    2.1%
Treated you badly for refusing to have sex                     0.5%    1.7%    0.9%
Implied better assignments or better treatment if you
                                                               0.3%    0.5%    0.2%
were sexually cooperative




                                              A-20
       Table A.18. Percentage of Male Cadets/Midshipmen Indicating
           Occurrence of Listed Behaviors Often or Very Often.
                                                        USAFA    USMA    USNA
                                                         Often   Often   Often
                                                         Very     Very   Very
                                                         Often   Often   Often
Repeatedly told stories or jokes of a sexual nature
                                                         5.0%    5.0%    5.1%
that were offensive to you
Made unwelcome attempts to draw you into a
discussion of sexual matters (for example, attempted     2.3%    3.0%    3.2%
to discuss or comment on your sex life)
Made offensive remarks about your appearance,
                                                         2.1%    2.2%    2.9%
body, or sexual activities
Made gestures or used body language of a sexual
                                                         1.2%    1.5%    1.1%
nature that embarrassed or offended you
Made unwanted attempts to establish a romantic
sexual relationship with you despite your efforts to     0.4%    0.7%    0.2%
discourage it
Continued to ask you for dates, drinks, dinner, etc,
                                                         0.4%    0.2%    0.2%
even though you said “No”
Made you feel like you were being bribed with some
sort of reward or special treatment to engage in         0.2%    0.1%    0.1%
sexual behavior
Made you feel threatened with some sort of
retaliation for not being sexually cooperative (for
                                                         0.2%    0.2%    0.0%
example, by mentioning an upcoming review or
evaluation)
Touched you in a way that made you feel
                                                         0.4%    0.5%    0.2%
uncomfortable
Treated you badly for refusing to have sex               0.3%    0.3%    0.2%
Implied better assignments or better treatment if you
                                                         0.2%    0.2%    0.2%
were sexually cooperative




                                          A-21
          Table A.19. Percentage of Female Respondents that Never
                       Experienced Listed Behaviors
                                                                USAFA    USMA     USNA
                                                                 Never   Never    Never
                                                                Female   Female   Female
Repeatedly told stories or jokes of a sexual nature that were
                                                                34.5%    18.0%    21.9%
offensive to you
Made unwelcome attempts to draw you into a discussion of
sexual matters (for example, attempted to discuss or            54.2%    31.3%    38.0%
comment on your sex life)
Made offensive remarks about your appearance, body, or
                                                                54.2%    34.8%    36.7%
sexual activities
Made gestures or used body language of a sexual nature that
                                                                59.0%    38.3%    40.8%
embarrassed or offended you
Made unwanted attempts to establish a romantic sexual
                                                                74.1%    53.2%    62.6%
relationship with you despite your efforts to discourage it
Continued to ask you for dates, drinks, dinner, etc, even
                                                                77.9%    60.2%    70.6%
though you said “No”
Made you feel like you were being bribed with some sort of
                                                                94.6%    87.7%    91.9%
reward or special treatment to engage in sexual behavior
Made you feel threatened with some sort of retaliation for
not being sexually cooperative (for example, by mentioning      96.8%    95.2%    96.5%
an upcoming review or evaluation)
Touched you in a way that made you feel uncomfortable           13.9%    27.5%    22.4%
Treated you badly for refusing to have sex                      94.0%    90.7%    92.3%
Implied better assignments or better treatment if you were
                                                                96.6%    95.5%    97.1%
sexually cooperative




                                          A-22
                    Table A.20. Percentage of Male Respondents Never
                              Experienced Listed Behaviors
                                                                          USAFA      USMA      USNA
                                                                           Never     Never     Never
                                                                           Male       Male     Male
     Repeatedly told stories or jokes of a sexual nature that were
                                                                           63.3%     60.9%     67.3%
     offensive to you
     Made unwelcome attempts to draw you into a discussion of
     sexual matters (for example, attempted to discuss or comment          76.0%     67.6%     68.4%
     on your sex life)
     Made offensive remarks about your appearance, body, or
                                                                           80.6%     74.7%     77.8%
     sexual activities
     Made gestures or used body language of a sexual nature that
                                                                           80.4%     80.0%     84.4%
     embarrassed or offended you
     Made unwanted attempts to establish a romantic sexual
                                                                           94.3%     93.0%     92.5%
     relationship with you despite your efforts to discourage it
     Continued to ask you for dates, drinks, dinner, etc, even
                                                                           96.4%     96.4%     96.4%
     though you said “No”
     Made you feel like you were being bribed with some sort of
                                                                           98.2%     97.8%     98.1%
     reward or special treatment to engage in sexual behavior
     Made you feel threatened with some sort of retaliation for not
     being sexually cooperative (for example, by mentioning an             98.5%     97.8%     97.9%
     upcoming review or evaluation)
     Touched you in a way that made you feel uncomfortable                  4.7%     4.3%       4.3%
     Treated you badly for refusing to have sex                            98.5%     98.0%     98.2%
     Implied better assignments or better treatment if you were
                                                                           98.6%     97.3%     98.6%
     sexually cooperative


                Table A.21.a. Scope of Recent Incidents Involving Female
                                Respondents as Victims.
               Experienced behavior against will without         USAFA      USMA       USNA
                                 consent1
             Total Incidents                                        92        1112       99
             Touched, stroked, or fondled private parts             54         60        62
             Attempted sexual intercourse                           30         45        25
             Attempted oral or anal sex                             5          9         13
             Had sexual intercourse                                 23         20        21
             Had oral sex                                           6          6         11
             Had anal sex                                           3          2          2
             Indicated 2 to 4 incidents                             13         11        16




1
    The respondents were instructed to check all behaviors that applied for each incident. Therefore, the
    number of behaviors indicated may exceed the total incidents listed
2
    100 respondents indicated “yes” to question 19; however, only 93 incidents were recorded due to data
    loss.



                                                  A-23
       Table A.21.b. Year of Incidents Involving Female
                   Respondents as Victims.
          Incident Occurred in:            USAFA    USMA   USNA
2000 or earlier                              7       14      4
2001                                         16      19     20
2002                                         21      19     19
2003                                         27      35     43
2004                                         10      13     11
Missing Data                                 11      11      2


           Table A.21.c. Class Year Status of Female
                    Respondents as Victims
     Class Rank of Respondent            USAFA     USMA    USNA
Cadet Basic Trainee                         0        3       2
Freshman                                   42       49      38
Sophomore                                  29       29      32
Junior                                      7       13      15
Senior                                      3        6       8
Not specified                              11       11       4

          Table A.21.d. Location of Incidents - Female
                    Respondents as Victims
         Location of Incident              USAFA    USMA   USNA
On Academy – in dorm/barracks                45      75     47
On Academy – not dorm/barracks               11      10      6
Off Academy - sponsored event                4        5      9
Off Academy - not sponsored event            26      12     35


              Table A.21.e. Offender Data - Female
                     Respondents as Victims
               Offender Data                USAFA   USMA   USNA
Cadet/midshipman senior to respondent       36      45     35
Cadet/midshipman - same class or below      40      58     52
Military person assigned Academy            0       0      1
Military person NOT assigned Academy        2       1      4
Civilian person NOT assigned Academy        6       0      4
Unidentified person                         4       1      1
Incidents involving multiple offenders      10      5      7




                                  A-24
                      Table A.21.f. Reporting to Authorities - Female
                                  Respondents as Victims
                        Reporting to Authorities                   USAFA       USMA        USNA
             Did not report incident to authorities                59          75          72
             Experienced retaliation for reporting incident        5           4           2
             Ostracism, harassment, or ridicule from other
                                                                   13          8           10
             cadets/midshipmen not in chain of command
             Ostracism, harassment, or ridicule from other
                                                                   5           3           5
             cadets/midshipmen in chain of command
             Ostracism, harassment, or ridicule from other
             cadets/midshipmen Academy staff or faculty            0           2           1
             members


         Table A.22.a. Scope of Recent Incidents Involving Male Respondents
                                     as Victims.
               Experienced behavior against will without           USAFA       USMA        USNA
                               consent3
             Total Incidents                                            12          16         26
             Touched, stroked, or fondled private parts                 11          12         17
             Attempted sexual intercourse                               1           0          4
             Attempted oral or anal sex                                 0           1          3
             Had sexual intercourse                                     1           3          7
             Had oral sex                                               0           2          5
             Had anal sex                                               0           0          0


                       Table A.22.b. Year of Incidents Involving Male
                                  Respondents as Victims.
             Incident Occurred in:                 USAFA               USMA              USNA
             2004                                              3                   3                6
             2003                                              6                   8                9
             2002                                              1                   2                7
             2001                                              1                   1                0
             2000 or earlier                                   1                   0                2
             Missing Data                                      0                   2                2

                           Table A.22.c. Class Year Status of Male
                                  Respondents as Victims
                  Class Rank of Respondent               USAFA               USMA         USNA
             Cadet Basic Trainee                                   1                0            1
             Freshman                                              3                7           10
             Sophomore                                             4                3            6
             Junior                                                2                2            6
             Senior                                                1                2            1
             Not specified                                         1                2            3



3
    The respondents were instructed to check all behaviors that applied for each incident. Therefore, the
    number of behaviors indicated may exceed the total incidents listed



                                                  A-25
           Table A.22.d. Location of Incidents - Male
                    Respondents as Victims
         Location of Incident               USAFA             USMA        USNA
On Academy – in dorm/barracks                    9               11          12
On Academy – not dorm/barracks                   0                3           3
Off Academy - sponsored event                    1                0           1
Off Academy - not sponsored event                2                1           6

                Table A.22.e. Offender Data - Male
                      Respondents as Victims
               Offender data                     USAFA        USMA        USNA
Cadet/midshipman senior to respondent                 0           3           3
Cadet/midshipman - same class or below               11          10          17
Military person NOT assigned Academy                  0           1           0
Civilian person NOT assigned Academy                  1           0           4
Unidentified person                                   0           1           0
Incidents involving multiple offenders                2           2           1


          Table A.22.f. Reporting to Authorities - Male
                    Respondents as Victims
            Reporting to Authorities              USAFA        USMA       USNA
Did not report incident to authorities                10          12         20
Experienced retaliation for reporting incident         0           1          0
Ostracized, harassed, or ridiculed by
                                                          0           1       0
cadets/midshipmen not in chain of command
Ostracized, harassed, or ridiculed by
                                                          0           1       0
cadets/midshipmen in chain of command
Ostracized, harassed, or ridiculed by academy
                                                          0           0       0
staff or faculty




                                  A-26
    Table A.23. Female Respondents - Authorities Sexual Assaults Reported To
           Authorities to which sexual assaults were
                                                              USAFA      USMA      USNA      Total
                            reported
       Officer/NCO chain of command (AOC, MTL,
                                                                 12         15        12      39
       TAX, Co Officer, SEL)
       Academy staff & faculty member not in chain of
                                                                  7         4         5       16
       command
       Academy hotline/helpline                                   6         0         0       6
       Academy Response Team (ART) [N/A for
                                                                  9         0         1       10
       USMA and USNA]
       Person in cadet/midshipman chain of command                6         7         5       18
       Peer resource (e.g., SAVI GUIDE, CASIE
                                                                  7         1         5       13
       Rep)[N/A for USMA]
       Academy Counseling or Development Center                   8         6         6       20
       SAVI Advocate/Coordinator [N/A for USMA
                                                                                      13      13
       and USAFA]
       Off-Installation Counseling Center                         0         1         1       2
       Installation Medical Personnel                             2         3         2       7
       Off-Installation Medical Personnel                         2         1         1       4
       Criminal Investigative Organizations (i.e.
                                                                  8         7         9       24
       AFOSI, CID, NCIS)
       Security Forces, Military Police, or USNA Police           3         1         0       4
       Academy Inspector General’s Office [N/A for
                                                                  0         1         0       1
       USNA]
       Academy Chaplain/Clergy                                    8         5         5       18
       Non-Installation Chaplain/Clergy                           0         0         0       0
       Civilian Law Enforcement Agency                            1         0         0       1
       Service or DoD Inspector General’s Office or
                                                                  0         0         0       0
       Hotline
       No one – I did not report this incident                   59         75        72     206
       Other (please explain)4                                   8          12        5      25




4
    Respondents indicated they told their boyfriends and “guy” friends about the incident.



                                                  A-27
Table A.24. Male Respondents - Authorities Sexual Assaults Reported To
     Authorities to which sexual assaults were
                                                    USAFA   USMA   USNA       Total
                      reported
 Officer/NCO chain of command (AOC, MTL,
                                                      0      1       1         2
 TAX, Co Officer, SEL)
 Academy staff & faculty member not in chain of
                                                      0      1       0         1
 command
 Academy hotline/helpline                             0      0       0         0
 Academy Response Team (ART) [N/A for West
                                                      0      0       0         0
 Point and Naval Academy]
 Person in cadet chain of command                     0      1       0         1
 Peer resource (e.g., SAVI GUIDE, CASIE
                                                      1      0       0         1
 Rep)[N/A for West Point]
 Academy Counseling or Development Center             0      0       0         0
 SAVI Advocate/Coordinator [N/A for West
                                                      0      0       1         1
 Point and USAFA]
 Off-Installation Counseling Center                   0      0       0         0
 Installation Medical Personnel                       0      0       1         1
 Off-Installation Medical Personnel                   0      0       0         0
 Criminal Investigative Organizations (i.e.
                                                      0      0       1         1
 AFOSI, CID, NCIS)
 Security Forces, Military Police, or USNA Police     0      0       0         0
 Academy Inspector General’s Office [N/A for
                                                      0      0       0         0
 Naval Academy]
 Academy Chaplain/Clergy                              1      0       1         2
 Non-Installation Chaplain/Clergy                     0      0       0         0
 Civilian Law Enforcement Agency                      0      0       1         1
 Service or DoD Inspector General’s Office or
                                                      0      0       0         0
 Hotline
 No one – I did not report this incident             10      12      20        42
 Other (please explain)                              2       0       3         5


         Table A.25. Written Comments to “Other” Questions by
                         Academy and Gender
                      USAFA              USMA             USNA
      Question    Female Male        Female Male      Female Male     Total
      16.p.         80     101        122     106      120     120     649
      20.f.          7      2          14      1        11      5      40
      20.i.          2      0          6       0        3       0      11
      20.m.          7      2          13      4        12      3      41
      20.n.          8      2          7       0        7       0      24
      21.f.          0      0          1       0        2       0       3
      21.i.          0      0          0       0        0       0       0
      21.m.          3      0          1       0        5       0       9
      21.n.          2      0          0       0        1       0       3
      22.f.          1      0          0       0        0       0       1
      22.i.          1      0          0       0        0       0       1
      22.m.          2      0          0       0        1       0       3




                                        A-28
Table A.26. Part V. Comments by Category, Academy and Gender
                     USAFA          USMA            USNA
Category             Female Male    Female   Male   Female   Male   Total
Sexual Harassment
                      58     51      116      96     108      45    474
Climate
Academy Leaders       37     72       49      45      19      36    258
Agenda for Change     91     80
Sexual Assault
                      26     32       31      44      57      86    276
Climate
Academy
                      25    104       13      63      33     190    428
Culture/Climate
Honor Code            11     33        6      19      11      48    128
Gender segregation    19     13       12       8      22      7     81
Gender issues         4      35       9       28      90     124    290
Training              12     26       12      30      14      14    108
VWAP                  7       3        6      10      18       2     46
Assess Potential
                       3     19          1    0       1       0      24
Cadets
Alcohol               6      7        17      10      8      25     73
Other                 88    149       64      51      77     187    616




                                  A-29
Appendix B. Survey Proctor Statement
Introduction
        Good morning/afternoon, my name is _____________ and I am a
representative of the Department of Defense Inspector General. Our office is
conducting an evaluation of the policies and practices regarding sexual assault
reporting, investigation, and related issues at the three Service Academies. In order
for us to assess the climate and identify issues and areas that need attention, it is
important for us to understand your views and experiences here at the Academy.

       While the press and others may claim to know what is going on at the
Academies, Secretary Rumsfeld, Senator Warner, and Inspector General Schmitz
want to know directly from cadets and midshipmen what they think. This survey is
your opportunity to help these senior leaders with straightforward feedback in an
anonymous forum.

    My purpose this morning/afternoon is to provide you general information about
the survey and instructions on how to complete the survey. I will summarize the
main points that you will later see in the survey introduction.

        In accordance with the Inspector General Act of 1978, the Inspector General
will use the information from this survey to help assess the way in which Academies
handle sexual and harassment in general, and will make recommendations on the
basis of that assessment to the Secretary of Defense and, as appropriate, to Congress
and to the leadership of the three Military Departments.

   You are part of a group of approximately 1700 male and female
cadets/midshipmen participating in our survey at your Academy. The survey asks if
you have experienced certain sexual behaviors that were without your consent and
against your will, and about issues related to sexual assault, sexual harassment, and
character development at your academy.


    Most people will consider some survey questions to be very personal. We ask
these questions to gain an understanding of your views and experiences regarding this
sensitive subject, in order to identify any areas that need attention and make
appropriate recommendations. Therefore, we ask that everyone answer all the
questions on the survey that apply to them, and do so honestly and completely.

   Your responses are anonymous. In order to preserve your anonymity, do not use
any personal or unit names anywhere on this survey.

    If you have any additional comments you would like to make after you answer the
survey questions, we strongly encourage you to use the comment section at the end of
the survey. Additionally, if you would like to speak to a representative from our


                                          B-1
office, contact information will be provided to you on a separate handout as you leave
the survey room.

SURVEY ACCESS AND INSTRUCTIONS
    When you checked-in outside the briefing room, you drew a randomly generated
access code that is required to access the survey. Only you know the access code you
picked; the code cannot be associated with you. Additionally, I’d like to point out
that we brought in the laptops you will be using, and they are directly connected to
our server located in the same room; your responses cannot be monitored or traced to
you.

    Because this survey will be administered to the three Service Academies, you
may see some terminology that you don’t recognize, since it is specific to another
military academy. In many instances where such items are listed, there is an
annotation in brackets that identifies which Academies the response is NOT
applicable to.

       It should take approximately 20 to 30 minutes to complete this
survey, depending on individual pace and the extent to which you choose
to provide written comments. There are about 20 questions, some with
sub-questions. You may not be asked all of the questions in numeric
sequence since some questions are linked to the various responses you
give.

        If multiple answers seem appropriate to you, please choose the one
that seems most accurate. Take care when clicking on your response to
each question to ensure you have activated the check-box or radio button.
We recommend you check your answers before proceeding to the next
screen. While taking the survey, you can return to items already answered
to modify your responses. Please note that to navigate through the survey,
you must use the buttons provided at the bottom of each screen, and NOT
the browser navigational tools. Also, do not hit the submit button at the
end of the survey UNTIL you are satisfied with the responses and
comments you provided. Once you click “Submit,” you can’t go back to
change answers or provide more information.

       In the survey room, you will find an instruction sheet with a list of
acronyms next to each workstation. This was printed for your reference
while you take the survey. Please leave that sheet behind for the next
survey taker.

      If you have questions while completing the survey, ask the proctor in the
computer room.

       Do you have any questions at this time? [Pause to see if there are questions]



                                           B-2
 Once again, your views are important to us and your responses count so please answer
each question honestly and completely and on behalf of Inspector General Schmitz, thank
                              you for helping us today.


   [Please proceed to the door of this briefing room and you will be directed to
   the survey




                                         B-3
Appendix C. Categories for Comment Analysis
                       Categories for written comments (Part V)


1. Sexual Harassment Climate
   1.1.Positive
       1.1.1. Cadets stop offensive behavior when confronted
       1.1.2. Sexual harassment climate improved
       1.1.3. Other
   1.2.Negative
       1.2.1. Female offensive behavior
           1.2.1.1. Jokes/comments
           1.2.1.2. Porn
           1.2.1.3. Touching
           1.2.1.4. Perception of dress/actions invite sexual harassment
           1.2.1.5. Other
       1.2.2. Male offensive behavior
           1.2.2.1. Jokes/comments
           1.2.2.2. Porn
           1.2.2.3. Touching
           1.2.2.4. Female cadets/midshipmen characterized as inferior to civilian
                  female
           1.2.2.5. Other
       1.2.3. Cadets don’t stop offensive behavior when confronted
       1.2.4. Sexual harassment climate not improved
       1.2.5. Not reported due to fear of reprisal
       1.2.6. Unreported due to peer pressure
       1.2.7. Tolerate violations
       1.2.8. Don’t take it seriously
       1.2.9. Other

2. Academy Leaders
   2.1.Doing a good job
   2.2.Not doing a good job
       2.2.1. Distrust of leaders
           2.2.1.1. AOC/TAC/Co Officers
           2.2.1.2. MTL/SEL
           2.2.1.3. Commandant
           2.2.1.4. Superintendent
           2.2.1.5. Cadet chain of command
           2.2.1.6. Other
   2.3.Other

3. Agenda for Change


                                          C-1
   3.1.ART
       3.1.1. Positive relationship to command
       3.1.2. Negative relationship to command
       3.1.3. Other
   3.2.Positive
       3.2.1. Other
   3.3.Negative
       3.3.1. Horizontal surfaces
       3.3.2. Hypersensitivity to sexual assault
       3.3.3. Gender segregated training
           3.3.3.1. Positive
           3.3.3.2. Negative
       3.3.4. Gender relationships deteriorated
       3.3.5. Less challenging military training environment
       3.3.6. Removal of tradition
       3.3.7. Other

4. Sexual Assault Climate
   4.1.Alcohol consumption leads to sexual exploitation
   4.2.In a college environment, it’s going to happen
   4.3.Unreported due to peer pressure
   4.4.Ostracize the victim
       4.4.1. Cadet
       4.4.2. Leadership
       4.4.3. Other
   4.5.Prevention
       4.5.1. Female dress/actions invite sexual assault
       4.5.2. Dorm configuration
       4.5.3. Don’t put yourself in a compromising position
       4.5.4. Other
   4.6.Accused assumed guilty by virtue of being male
   4.7.Falsely accuse to get out of trouble
   4.8.Other

5. Academy Culture/Climate
   5.1.Morale
       5.1.1. Good
       5.1.2. Bad
   5.2.Favoritism
       5.2.1. Women
           5.2.1.1. Policies favor women
           5.2.1.2. Cadet position
           5.2.1.3. Amnesty
           5.2.1.4. No punishment for false allegations
           5.2.1.5. Other
       5.2.2. Men



                                          C-2
           5.2.2.1. Policies favor men
           5.2.2.2. Cadet position
           5.2.2.3. Amnesty
           5.2.2.4. No punishment for false allegations
           5.2.2.5. Other
       5.2.3. --Athletes get preferential treatment

   5.3.Honor Code
       5.3.1. Tolerating violations
       5.3.2. No tolerance of violations
       5.3.3. Inconsistent application
       5.3.4. Conflict with loyalties
           5.3.4.1. To institution
           5.3.4.2. To friends
       5.3.5. Other

6. Gender segregation in the dorm
   6.1.Positive
   6.2.Negative

7. Gender issues
   7.1.Gender biased standards
   7.2.Believe females shouldn’t be at the academy
   7.3.Other

8. Training
   8.1.Effective
   8.2.Ineffective
   8.3.Other

9. Victim Assistance Programs
   9.1.Effective
   9.2.Ineffective
   9.3.Other

10. Improve assessment process of potential cadets/midshipmen

11. Alcohol
    11.1. Pervasive use
    11.2. Leads to poor decisions
    11.3. Underage
    11.4. Other

12. Other
    12.1. “sexual harassment/assault does happen in my academy”
“no comment” (capture the number of non-responses)



                                           C-3
Appendix D.1 – USAFA Female Survey Results

ABBREVIATIONS:
AOC - Air Officer Commanding
AFOSI - Air Force Office of Special Investigations
BCT - Basic Cadet Training
CASIE - Cadets Advocating Sexual Integrity and Education
CID - US Army Criminal Investigation Command
Co. Officer - Company Officer
DoD - Department of Defense
MTL - Miltary Training Leader
NCIS - Naval Criminal Investigative Service
OIG - Office of the Inspector General
SAVI - Sexual Assault Victim Intervention
SEL - Senior Enlisted Leader
TAC - Tactical Officer



Part I

Demographics

1. What is your gender?

         (a)   Male
         (b)   Female

2. What is your class year?

                  2004    137
                  2005    156
                  2006    169
                  2007    190
          Missing data     1
                 Total    653

3. Which Academy do you attend?

         (a)   Air Force Academy
         (b)   Naval Academy
         (c)   Military Academy



                                             D.1 [1]
Part II

Values




4. As a cadet/midshipman, which of the below listed values are most important to your professional
life at your Academy? Indicate top three in order of importance.

                         1st      2nd       3rd
Accountability            5        8         23
Achievement               16       20        23
Ambition                  7        14        30
Commitment                28       41        65
Courage                   13       19        30
Effectiveness             4        11        24
Efficiency                2        5         11
Excellence                32       77       113
Friendship                21       44        66
Honor                     57       65        31
Integrity                234      149        48
Loyalty to Country        22       18        24
Money                     0        0         3
Power                     0        1         0
Respect                   52       78        69
Selfless Service          25       75        55
Spiritual Faith          128       18        22
Tolerance                 1        2         7
Missing Data              6        8         9
Total                    653      653       653




                                            D.1 [2]
5. Based on your experience, to what extent do you AGREE or DISAGREE with the following
statements?


                                     Strongly                               Strongly Missing
                                      Agree     Agree   No Opinion Disagree Disagree Data      Totals
5.1. Cadets/ midshipmen at my
Academy adhere to the Honor
Code/Concept, even if they know
they won't get caught violating it     39       369        54        175      13        3       653
5.2.Cadets/midshipment adhere
to significant Academy rules and
regulations, even if they know
they won't get caught violating
them
                                       25       294        67        227      34        6       653
5.3.Cadets/midshipmen hold
other cadets/midshipmen
accountable to the Honor
Code/Concept
                                       47       375        94        120      10        7       653
5.4. Honesty in all things is
expected and reinforced at my
Academy                                170      379        46        32        2       24       653
5.5. I am morally obligated to
abide by the oath I took to
support and defend the
Constitution of the United States,
regardless of the consequences to
me.
                                       404      215        19         7        1        7       653
5.6. I have felt pressure from
others at my academy to
compromise moral standards
because of loyalty to
friends/peers
                                       31       210        83        247      75        7       653
 5.7. I have felt pressure from
others at my academy to
compromise moral standards in
order to meet academic or
training objectives
                                       19       136        68        298      123       9       653
5.8. Circumstances determine
whether it is right or wrong for a
cadet/midshipman to compromise
his or her moral standards             18       136        102       251      136      10       653




                                                 D.1 [3]
Question 5 Continued:




                                       Strongly                               Strongly Missing
                                        Agree     Agree   No Opinion Disagree Disagree Data      Totals
5.9. I am committed to living by
moral standards that exceed those
of society at large.                     350      266        24         4        0        9       653
5.10. As a cadet/midshipman, it
is important for me to meet the
same exemplary conduct and
leadership standards required of a
commissioned officer.                    355      259        18        12        0        9       653
5.11. My commitment to living
by exemplary conduct and
leadership standards has been
reinforced by attending the
Academy.                                 239      289        60        52        3       10       653
5.12. I believe commitment to
some form of ethical/spiritual/
religious beliefs is important to
an officer's character.                  329      227        52        25       15        5       653
5.13 I am strongly committed to
some form of
ethical/spiritual/religious beliefs
about what is right and wrong.
                                         359      213        43        18       11        9       653
5.14. My experiences at the
Academy have enhanced my
commitment to my
ethical/spiritual/religious beliefs.     225      221        83        84       30       10       653




                                                   D.1 [4]
6. To what extend do you AGREE or DISAGREE with the following
statements? The following behaviors would disrupt good order and
discipline at my Academy:


                                     Strongly                               Strongly Missing
                                      Agree     Agree   No Opinion Disagree Disagree Data      Total
6.1. Violating the Honor
Code/Concept                           239      326        37        40        6        5      653
6.2. Not reporting Honor
Code/Concept violations                132      278        113       107      15        8      653
6.3. Favoritism based on gender        348      258        15         13      13        6      653
6.4. Engaging in prohibited
relationships/ fraternization          175      263        91        88       25       11      653
6.5. Cadets/ midshipmen dating
each other at the same Academy         16        22        26        234      348       7      653
6.6 Consensual sex between
cadets/midshipmen ON Academy
grounds                                77       134        122       195      119       6      653
6.7. Consensual sex between
cadets/midshipmen OFF
Academy grounds                        16        44        58        219      308       8      653
6.8. Excessive use of
alcohol/drunkenness                    190      310        63        70       12        8      653
6.9.Illegal drug use, or the abuse
of prescription drugs                  432      177        12         8       15        9      653
6.10. Viewing pornography or
other sexually graphic content
(images or movies)                     221      191        112       80       38       11      653

Part III -

Academy Climate

7. To what extent do you AGREE or DISAGREE with the following statements about how men and
women are treated at your academy?

                                     Strongly                               Strongly Missing
                                      Agree     Agree   No Opinion Disagree Disagree Data      Total
(a) Men receive more favorable
treatment OVERALL.                     29       141        127       305      45        6      653
(b) Women receive more
favorable treatment OVERALL.            5        48        134       394      62       10      653
(c) Men and women are treated
fairly OVERALL.                        67       327        92        138      22        7      653

                                                 D.1 [5]
8. Do you AGREE or DISAGREE with the following statement? Cadets/Midshipmen
dormitory/barracks areas should be physically separated (i.e., different floors or buildings) by gender.




                                                No                    Missing
                                    Agree     Opinion      Disagree    Data      Total
                                     12         13           617        11        653




9. Do you understand the following?

                                                                                           Missing
                                                             Yes        No      Not Sure    Data     Total
9.1. The difference between sexual harassment and
sexual assault.                                              639        1          9         4       653
9.2. How to avoid situations that might increase the
risk of sexual assault.                                      643        1          5         4       653
9.3. How to report sexual assaults.
                                                             606        13        28         6       653
9.4. How to obtain medical care following a sexual
assault.                                                     602        7         36         8       653
9.5. How to obtain counseling following a sexual
assault.                                                     620        9         19         5       653
9.6. The services that your Academy's legal office can
provide to a victim in response to sexual assault.           520        51        75         7       653
9.7. The general responsibilities of law enforcement
and criminal investigative agencies in response to
sexual assaults.                                             565        29        53         6       653
9.8. The role of the chain of command in handling
sexual assaults.                                             522        48        76         7       653
9.9. Where to go if I need additional information on
the areas above.                                             582        21        39         11      653




                                                 D.1 [6]
10. At your Academy, to what extent do you think current cadet/midshipmen leaders ________?

                          Very
                          large   Large    Moderate    Small               No Basis Missing
                         extent   extent    extent     Extent   Not at all to Judge  Data     Total
10.1. Demonstrate
good examples of
sound moral character     83       329       195        36         2         3        5       653
10.2 Hold others
accountable for their
conduct                   77       257       226        75         7         3        8       653
10.3 Promote and
safeguard the welfare
of subordinates           107      315       161        49         9         3        9       653
10.4. Create a climate
in which sexual
HARASSMENT is not
tolerated                 140      259       160        74         12        3        5       653
10.5. Create a climate
in which
cadets/midshipmen are
encouraged to report
sexual
HARASSMENT                125      229       149        104        31        6        9       653
10.6. Create a climate
in which sexual
ASSAULT is not
tolerated                 255      274       80         28         5         5        6       653
10.7. Create a climate
in which
cadets/midshipmen are
encouraged to report a
sexual ASSAULT            211      262       103        38         20        8        11      653
10.8. Ensure those who
have reported sexual
harassment/assault are
treated with dignity
and respect
                          121      208       165        48         32       71        8       653
10.9. Provide an
appropriate level of
privacy to those who
have experienced
sexual ASSAULT            112      196       147        54         28       97        19      653




                                             D.1 [7]
11. At your Academy, to what extent do you think current commissioned officers directly in charge of
your unit (TAC, AOC, Co Offiers) ______?
                        Very
                        large   Large Moderate       Small              No Basis Missing
                       extent   extent    extent     Extent  Not at all to Judge    Data      Total
11.1 Demonstrate good
examples of sound
moral character          195     278       118         43        11         3         5        653
11. 2 Hold others
accountable for their
conduct                  240     280        90         23        7          2        11        653
11.3 Promote and
safeguard the welfare
of subordinates          241     237       102         51        11         4         7        653
11.4. Create a climate
in which sexual
HARASSMENT is not
tolerated                281     238        81         25        9          6        13        653
11.5 Create a climate
in which
cadets/midshipmen are
encouraged to report
sexual                   266     239        83         27        13        15        10        653
11.6 Create a climate
in which sexual
ASSAULT is not
tolerated                327     235        56         14        8          8         5        653
11.7 Create a climate
in which
cadets/midshipmen are
encouraged to report a
sexual ASSAULT           301     229        56         27        14        13        13        653
11.8 Ensure those who
have reported sexual
harassment/assault are
treated with dignity
and respect              239     207        84         28        13        75         7        653




                                            D.1 [8]
Question 11. Continued:




                         Very large   Large    Moderate                        No Basis   Missing
                          extent      extent    extent Small Extent Not at all to Judge    Data     Total
11.9 Provide an
appropriate level of
privacy to those who
have experienced
sexual ASSAULT
                            223       191        82          34         18       91         14      653
11.10. Provide
adequate information
to cadets/midshipmen
about policies,
procedures, and
consequences of sexaul
ASSAULT
                            249       235        88          31         12       24         14      653




                                                 D.1 [9]
12. At your Academy, to what extent do you think the current Academy Senior Leadership
(Superintendent, Commandant, Vice/Deputy Commandant, Dean) ____________?

                          Very
                          large   Large    Moderate    Small               No Basis Missing
                         extent   extent    extent     Extent   Not at all to Judge  Data     Total
12.1 Demonstrate good
examples of sound
moral character
                          352      230       51         10         3         3        4       653
12.2 Hold
cadets/midshipmen
accountable for their
conduct
                          375      225       34          3         6         4        6       653
12.3 Promote and
safeguard the welfare
of subordinates
                          336      213       67         18         6         5        8       653
12.4 Treat subordinate
cadets/midshipmen
fairly regardless of
gender
                          300      215       81         22         14       12        9       653
12.5 Create a climate
in which sexual
HARASSMENT is not
tolerated
                          399      183       48         14         2         1        6       653
12.6 Create a climate
in which sexual
ASSAULT is not
tolerated                 429      169       35         10         1         2        7       653




                                            D.1 [10]
13. At your Academy, to what extent do you think the current academic faculty _____________?


                          Very
                          large    Large    Moderate Small               No Basis Missing
                          extent   extent   extent   Extent   Not at all to Judge Data    Total
13.1 Demonstrate good
examples of sound
moral character             254      321       72         2      0         2        2       653
13.2 Should
cadets/midshipmen
accountable for their
conduct                     242      300       92        13      1         1        4       653
13.3 Promote and
safeguard the welfare
of subordinates             244      300       80         8      1         8        12      653
13.4 Treat subordinate
cadets/midshipmen
fairly regardless of
gender                      248      287       86        19      0         3        10      653
13.5 Create a climate
in which sexual
HARASSMENT is not
tolerated                   278      265       69        13      4        18        6       653
13.6 Create a climate
in which sexual assault
is not tolerated
                            314      245       45         4      2        24        19      653




                                              D.1 [11]
14. Based on the behavior you have observed, to what extent are cadets/midshipmen at your Academy
willing to _________?




                           Very
                           large   Large    Moderate    Small               No Basis Missing
                          extent   extent    extent     Extent   Not at all to Judge  Data     Total
14.1 CONFRONT
other
cadets/midshipmen
who engage in sexual
HARASSMENT,
including inappropriate
comments and actions       69       176       202        140        36       25            5     653
14.2 REPORT other
cadets/midshipment
who continue to
engage in sexual
HARASSMENT after
having been previously
confronted                 69       151       199        143        42       45            4     653
14.3 REPORT other
cadets/midshipmen
who commit sexual
ASSAULT                    159      193       137        79         25       56            4     653




                                             D.1 [12]
15. To what extent do you think cadets/midshipmen at your Academy ________?




                            Very
                            large   Large    Moderate    Small               No basis Missing
                           extent   extent    extent     Extent   Not at all to judge  Data     Total
15.1 Allow personal
loyalties to affect
reporting of sexual
ASSAULT                     47       139       160        168        61       74        4       653
15.2 Do NOT report
sexual ASSAULT out
of concern they or
others will be punished
for infractions, such as
fraternization or
underage drinking
                            75       140       164        145        50       72        7       653
15.3 Consider
fradulent reporting of
sexual ASSAULT
incidents to be a
problem at the
Academy
                            93       139       159        120        65       67        10      653




                                              D.1 [13]
16. Would you be willing to report a personal experience of sexual assault to the following
individuals/agencies?

                                                                            Service
                                                                             Not     Missing
                                             Yes         No      Uncertain Available  Data     Total
(a) Officer/NCO Chain of command
member (ie. AOC, MTL, TAC, Co Officer,
SEL)                                         371         156        120        0         6     653
(b) Faculty member, coaches, or Academy
staff not in chain of command                466         90          91        0         6     653
(c) Academy hotline/helpline                 395         153         97        2         6     653
(d) Person in cadet/midshipman chain of
command                                      308         216        123        0         6     653
(e) Peer resource (eg. SAVI GUIDE,
CASIE Rep) [N/A for West Point]              429         141         76        2         5     653
(f) Academy Counseling or Development
Center                                       388         160        100        0         5     653
(g) Installation Medical Personnel           472         103         71        0         7     653
(h) Criminal investigative orgainizations
(i.e., AFOSI, CID, NCIS)                     359         165         71        0        58     653
(i) Security Forces, Military Police or
USNA Police                                  323         191        132        0         7     653
(j) Academy Inspector General Office [N/A
for Naval Academy]                           260         207        173        6         7     653
(k) Academy Chaplain/Clergy
                                             507         87          54        0         5     653
(l) Academy Response Team (ART) [N/A
for West Point and Naval Academy]            372         144        124        5         8     653
(m) SAVI Advocate/Coordinator [N/A for
West Point and USAFA]                         93         69          42       357       92     653
(n) Service Inspector General's office or
hotline                                      200         250        191        3         9     653
(o) DoD Inspector General's office or DoD
IG Hotline                                   211         247        185        2         8     653
(p) Other (please explain)                    83         120         97       81        272    653




                                             D.1 [14]
17. In this question, you will be asked about sexual talk and/or beahviors that were both
UNINVITED AND UNWANTED, and in which you did not participate willingly. SINCE JUNE OF
2003, how frequently have you been in situations where persons assigned to your Academy
(cadets/midshipmen and/or other military or civilian personnel working at your Academy)_________?

                                             Once or     Several           Very    Missing
                                     Never    twice       times    Often   often    Data     Total
17.1 Repeatedly told stories or
jokes of a sexual nature that were
offensive to you                     225      262         100       41      22       3       653
17.2 Made unwelcome attempts
to draw you into a discussion of
sexual matters (for example,
attempted to discuss or comment
on your sex life)                    354      184          73       25      8        9       653
17.3 Made offensive remarks
about your appearance, body, or
sexual activities                    354      177          80       26      13       3       653
17.4 Made gestures or used body
language of a sexual nature that
embarrassed or offended you          385      172          61       19      7        9       653
17.5 Made unwanted attempts to
establish a romantic sexual
relationship with you despite
your efforts to discourage it        484      111          32       15      4        7       653
17.6 Continued to ask you for
dates, drinks, dinner, etc, even
though you said "No"                 509       87          33       9       8        7       653
17.7 Made you feel like you were
being bribed with some sort of
reward or special treatment to
engage in sexual behavior
                                     618       17          6        3       1        8       653
17.8 Made you feel threatened
with some sort of retaliation for
not being sexually cooperative
(for example, by mentioning an
upcoming review or evaluation)       632       10          1        2       2        6       653
17.9 Touched you in a way that
made you feel uncomfortable           91      528          17       7       3        7       653
17.10 Treated you badly for
refusing to have sex                 614       26          3        1       2        7       653
17.11 Implied better assignments
or better treatment if you were
sexually cooperative
                                     631       8           0        1       1        12      653

                                              D.1 [15]
18. How many of the behaviors listed above that YOU MARKED AS HAPPENING TO YOU do you
consider to have been sexual harassment?

(a) None were sexual harrassment                                244
(b) Some were sexual harassment                                 175
(c) Most were sexual harassment                                  52
(d) All were sexual harassment                                   49
(e) Does not apply (I marked "NEVER" in every item
in question #17)                                                128
Missing Data                                                      5
Total                                                           653

Part IV

Personal Experiences

The remaining questions apply to your total time at the Academy (EXCLUDING Prep School)

19. SINCE BECOMING A CADET/MIDSHIPMAN, has someone done any of the following to you
WITHOUT YOUR CONSENT AND AGAINST YOUR WILL?

Touched, stroked, or fondled your private parts
Physically attempted to have sexual intercourse with you, but was not successful
Physically attempted to have oral or anal sex with you, but was not successful
Had sexual intercourse with you?
Had oral sex with you?
Had anal sex with you?


Yes                            79
No                            571
Missing Data                    3
Totals                        653

20-23. If you answered Yes to Question 19, please describe up to four such incidents, focusing on
those you consider to be the most severe incidents.




                                                  D.1 [16]
 20-23 A. When did this incident occur? [calendar year, semester and your status/rank(BCT or Plebe
Summer/freshman/sophomore/junior/senior)] (Note: if you selected summer "semester," it assumes
that graduation has occurred and you have risen to the next rank)



                                Incident
       Year             First    Second    Third      Total
       2000               4         1        1          6
       2001              13         2        1         16
       2002              19         2        0         21
       2003              24         3        0         27
       2004               8         2        0         10
       1999               1         0        0          1
      Unknown            10         1        0         11
       Total             79        11        2         92

                                Incident
      Semester          First    Second    Third      Total
        Fall             31         1        1         33
       Spring            30         4        1         35
      Summer              8         4        0         12
      Unknown            10         2        0         12
        Total            79        11        2         92

                                Incident
       Status           First    Second    Third      Total
      Freshman           37         1        2         40
     Sophomore           25         3        0         28
       Junior             6         4        0         10
       Senior             1         1        0          2
      Unknown            10         2        0         12
       Total             79        11        2         92




                                           D.1 [17]
20-23 B. What did the offender do to you? (Check all that apply)
                                                                   Incident
                                                           First     Second   Third
Touched, stroked, or fondled your private parts?            46          7       1
Physically attempted to have sexual intercourse with
you, but was not successful?                                22         7        1
Physically attempted to have oral or anal sex with you,
but was not successful?                                     4          1       0
Had sexual intercourse with you?                            21         1       1
Had oral sex with you?                                      5          1       0
Had anal sex with you?                                      2          1       0

20-23 C. Where did the incident take place?
                                                                   Incident
                                                           First     Second   Third   Total
On installation in dorm/barracks                            38          6       1      45
On installation , NOT in dorm/barracks                      10          1       0      11
Off installation at an Academy-sponsored event               2          2       0      4
Off installation and NOT at an Academy-sponsored            23          2       1      26
Missing Data                                                 6          0       0      6
Total                                                       79         11       2      92

20-23 D. Did the incident involve MULTIPLE offenders?

                                   Incident
                          First     Second     Third       Total
Yes                         8          1         1          10
No                         64         10         1          75
I don't know                1          0         0           1
Missing Data                6          0         0           6
Total                      79         11         2          92

20-23 E. Who was the offender(s)? (Check all that apply)

                                                                   Incident
                                                           First     Second   Third
Cadet/midshipman who was senior to me                       29          5       2
Cadet/midshipman who was in same class as me or
below                                                       36         4        0
Military faculty or staff member                            0          0        0
Civilian faculty or staff member                            0          0        0
Military person NOT assigned to your academy                1          1        0
Civilian person NOT assigned to your academy                5          1        0
Unidentified person                                         4          0        0
Missing Data                                                4          0        0
Totals                                                      79        11        2

                                                D.1 [18]
20-23 F. To which authorities, if any, was this incident reported? (Check all that apply)

                                                                            Incident
                                                                    First    Second    Third
Officer/NCO chain of command (AOC, MTL, TAC, Co. Officer,
SEL)                                                                 11         1           0
Academy staff & faculty member not in chain of command                7         0           0
Academy hotline/helpline                                              6         0           0
Academy Response Team (ART) [N/A for USMA and USNA]                   9         0           0
Person in cadet/midshipman chain of command                           6         0           0
Peer resource (SAVI GUIDE, CASIE Rep) [N/A for USMA]                  7         0           0
Academy Counseling or Development Center                              8         0           0
SAVI Advocate/Coordinator [N/A for USMA and USAFA]                    0         0           0
Off-Installation Counseling Center                                    0         0           0
Installation Medical Personnel                                        2         1           0
Off-Installation Medical Personnel                                    1         0           0
Criminal investigative organizations (AFOSI, CID, NCIS)               8         0           0
Security Forces, Military Police, or USNA Police                      3         0           0
Academy Inspector General's Office [N/A for USNA]                     0         0           0
Academy Chaplain/Clergy                                               8         0           0
Non-Installation Chaplain/Clergy                                      0         0           0
Civilian Law Enforcement Agency                                       1         0           0
Service or DoD Inspector General's office or Hotline                  0         0           0
No one - I did not report this incident                              51         7           0
Other (please explain below)                                          6         1           1

20-23 G. Did anyone in a POSITION OF AUTHORITY retaliate against you for reporting this
incident (such as unwarranted punishment, demotion, or withholding a favorable duty position?



                                 Incident
                         First    Second    Third       Total
Yes                        4         0        1           5
No                        17         2        0          19
Don't know or not sure     1         1        0           2
Missing Data              57         8        1          66
Totals                    79        11        2          92




                                             D.1 [19]
20-23 H. Please indicate who retaliated against you (Check all that apply)

                                                                   Incident
                                                           First     Second    Third
Cadet/midshipman in my chain of command                      1          0        1
Upperclassmen NOT in my chain of command                     2          0        1
Commissioned Officer in my chain of command                  1          0        1
Other Academy staff or faculty                               1          0        0
Service officials outside your Academy                       0          0        0

20-23 I. Please indicate if you experienced any of the following OTHER repercussions for reporting
this incident? (Check all that apply)

                                                                              Incident
                                                                     First     Second    Third
Ostracism, harassment, or ridicule from other cadets/midshipmen
NOT in chain of command?                                              11         1        1
Ostracism, harassment, or ridicule from other cadets/midshipmen
NOT in chain of command?                                               3         1        1
Ostracism, harassment, or ridicule from Academy staff or faculty
members                                                                0         0        0
Other significant repercussions (Please specify below)                 1         0        1
No, I did not experience other repercussions.                         10         2        0
Total                                                                 25         4        3

20-23 J. Did a military criminal investigative organization (AFOSI, CID or NCIS) or a civilian law
enforcement agency conduct a criminal investigation?

                                   Incident
                          First     Second      Third      Total
Yes                        10          0          0         10
No                         10          3          1         14
I don't know                2          0          0          2
Missing Data               57          8          1         66
Total                      79         11          2         92

20-23 K. Why wasn't a criminal investigation conducted?

                                                                   Incident
                                                           First     Second    Third     Total
The incident was not reported to LAW
ENFORCEMENT officials                                       8          3         0        11
I declined to cooperate with an investigation               2          0         0        2
I don't know                                                0          0         1        1
Missing Data                                                69         8         1        78
Total                                                       79        11         2        92


                                                D.1 [20]
20-23 L. Were you informed of the final disposition of this matter?

                                                                      Incident
                                                            First       Second    Third     Total
Yes                                                           8            0        0        8
No, I was not informed                                        1            0        1        2
N/A - Offender was never identified.                          0            0        0        0
N/A - Not yet resolved (ie. On-going investigation or
legal proceedings                                             3           0         0        3
Missing Data                                                  67         11         1        79
Total                                                         79         11         2        92

20-23 M. If you did not report this incident to MILITARY OR ACADEMY AUTHORITIES, please
indicate the reasons that were the MOST IMPORTANT to you when you decided NOT to report?
(Check all that apply)

                                                                                 Incident
                                                                        First     Second    Third
(a) Does not apply, I reported it                                         2          0        0
(b) It was not serious enough to report                                  21          3        0
(c) I handled it myself                                                  31          2        0
(d) I thought I would be labled a trouble maker                           7          2        0
(e) I thought nothing would be done                                       9          4        0
(f) Threatened with some form of retaliation                              3          1        1
(g) not threatened with retaliation, but feared some form of
retaliation                                                               6         3         0
(h) Feared ostracism, harassment, or ridicule by peers                   12         5         1
(I) Feared loss of friends                                                7         4         1
(j) Feared I or others would be punished for infractions/violations
(such as underage drinking)                                              12         2        1
(k) Feared public disclosure of the assault                              12         3        0
(l) Feared my parents/family would find out                               8         2        2
(m) Pressured by someone in position of authority                         1         1        0
(n) Feared that my boyfriend/girlfriend would find out                    1         1        0
(o) Shame/embarrassment                                                  25         4        1
(p) Feared other repercussions                                            8         2        0
(q) Feared people would not believe me                                   12         4        0
(r) Not aware of reporting procedures                                     5         0        0
(s) I thought I could deal with it myself                                28         6        1
(t) Other (Explain below)                                                 5         1        1




                                                D.1 [21]
20N. How satisfied were you with how the following individuals/agencies handled this incident?

                                                                                N/A or I
                                                                                 did not
                                  Very                                Very Dis-    use     Missing
                      Incident   Satisfied   Satisfied   Dissatisfied satisfied resource    Data      Total
                      First         4           1            2           6        59           7       79
Investigative agencies Second
(OSI/ CID/NCIS)                     0           0            0           1         9           1       11
                       Third        0           0            0           0         1           1          2
                      First         2           3            4           2        60           8       79
Military lawyers      Second
handling your case                  0           0            0           1         9           1       11
                      Third         0           0            0           0         1           1          2
                      First         4           3            0           1        63           8       79
Victim Witness        Second
Assistance                          0           0            0           1         9           1       11
                      Third         0           0            0           0         1           1          2
SAVI                  First         3           5            1           2        60           8       79
Advocate/Coordinator Second
or Academy Response                 0           0            0           1         9           1       11
Team (ARTA) [N/A      Third         0           0            0           0         2           0          2
                      First         7           4            1           3        57           7       79
Academy Counseling Second
or Development Center               0           0            0           1         9           1       11
                      Third         0           0            0           0         2           0          2
Peer Resource (CASIE First          4           3            0           2        63           7       79
Rep/SAVI GUIDE)      Second         0           0            0           1         9           1       11
[N/A for West Point] Third
                                    0           0            0           0         2           0          2
                      First         3           4            2           5        56           9       79
Chain of Command      Second        0           0            1           1         8           1       11
                      Third         0           0            0           0         2           0          2


20-23 N. If you were NOT satisfied with any of the above, please explain why

Do you have another incident to describe?                                      Yes         X         No

Part V
Written Comments




                                               D.1 [22]
Appendix D.2 – USAFA Male Survey Results

ABBREVIATIONS:
AOC - Air Officer Commanding
AFOSI - Air Force Office of Special Investigations
BCT - Basic Cadet Training
CASIE - Cadets Advocating Sexual Integrity and Education
CID - US Army Criminal Investigation Command
Co. Officer - Company Officer
DoD - Department of Defense
MTL - Miltary Training Leader
NCIS - Naval Criminal Investigative Service
OIG - Office of the Inspector General
SAVI - Sexual Assault Victim Intervention
SEL - Senior Enlisted Leader
TAC - Tactical Officer



Part I

Demographics

1. What is your gender?

         (a)   Male
         (b)   Female

2. What is your class year?

                  2004    246
                  2005    231
                  2006    244
                  2007    268
          Missing data     3
                 Total    992

3. Which Academy do you attend?

         (a)   Air Force Academy
         (b)   Naval Academy
         (c)   Military Academy



                                             D.2 [1]
Part II

Values




4. As a cadet/midshipman, which of the below listed values are most important to your professional life
at your Academy? Indicate top three in order of importance.

                          1st      2nd       3rd
Accountability             5        17       17
Achievement                5        33       46
Ambition                   5        16       41
Commitment                 5        50       67
Courage                    5        55       74
Effectiveness             5         19        33
Efficiency                5         13        22
Excellence                5         60       192
Friendship                42        91        83
Honor                    126       137        65
Integrity                342       182        65
Loyalty to Country        53        63        71
Money                     1         8         8
Power                     4         4         4
Respect                   52        77        85
Selfless Service          20       134        69
Spiritual Faith          173        23        26
Tolerance                 2         2         11
Missing Data              3         8         13
Total                    858       992       992




                                              D.2 [2]
5. Based on your experience, to what extent do you AGREE or DISAGREE with the following
statements?


                                      Strongly                               Strongly Missing
                                       Agree     Agree   No Opinion Disagree Disagree  Data     Totals
5.1. Cadets/ midshipmen at my
Academy adhere to the Honor
Code/Concept, even if they know
they won't get caught violating it      95       588        98        184      23        4       992
5.2.Cadets/midshipment adhere to
significant Academy rules and
regulations, even if they know
they won't get caught violating
them                                    63       465        137       270      51        6       992
5.3.Cadets/midshipmen hold other
cadets/midshipmen accountable to
the Honor Code/Concept
                                        101      540        157       165      23        6       992
5.4. Honesty in all things is
expected and reinforced at my
Academy                                 334      503        57        62        9        7       972
5.5. I am morally obligated to
abide by the oath I took to support
and defend the Constitution of the
United States, regardless of the
consequences to me.
                                        700      256        19         6        3        8       992
5.6. I have felt pressure from
others at my academy to
compromise moral standards
because of loyalty to friends/peers
                                        64       250        133       391      150       4       992
 5.7. I have felt pressure from
others at my academy to
compromise moral standards in
order to meet academic or training
objectives                              41       169        115       432      222      13       992
5.8. Circumstances determine
whether it is right or wrong for a
cadet/midshipman to compromise
his or her moral standards
                                        36       192        162       343      250       9       992




                                                  D.2 [3]
Question 5 Continued:




                                       Strongly                               Strongly Missing
                                        Agree     Agree   No Opinion Disagree Disagree  Data     Totals
5.9. I am committed to living by
moral standards that exceed those
of society at large.                     514      409        49         7        5        8       992
5.10. As a cadet/midshipman, it is
important for me to meet the same
exemplary conduct and leadership
standards required of a
commissioned officer.                    508      383        58        32        5        6       992
5.11. My commitment to living by
exemplary conduct and leadership
standards has been reinforced by
attending the Academy.
                                         330      435        90        102      25       10       992
5.12. I believe commitment to
some form of ethical/spiritual/
religious beliefs is important to an
officer's character.                     481      319        90        52       37       13       992
5.13 I am strongly committed to
some form of
ethical/spiritual/religious beliefs
about what is right and wrong.           527      337        80        25       17        6       992
5.14. My experiences at the
Academy have enhanced my
commitment to my
ethical/spiritual/religious beliefs.     276      302        189       153      63        9       992




                                                   D.2 [4]
6. To what extend do you AGREE or DISAGREE with the following
statements? The following behaviors would disrupt good order and
discipline at my Academy:


                                     Strongly                               Strongly Missing
                                      Agree     Agree   No Opinion Disagree Disagree  Data     Total
6.1. Violating the Honor
Code/Concept                           422      408        67        74       16        5      992
6.2. Not reporting Honor
Code/Concept violations                228      382        179       164      33        6      992
6.3. Favoritism based on gender        560      341        43         25      14        9      992
6.4. Engaging in prohibited
relationships/ fraternization          270      375        146       144      51        6      992
6.5. Cadets/ midshipmen dating
each other at the same Academy         43        80        96        400      368       5      992
6.6 Consensual sex between
cadets/midshipmen ON Academy
grounds                                129      190        127       319      222       5      992
6.7. Consensual sex between
cadets/midshipmen OFF
Academy grounds                        43        63        86        315      480       5      992
6.8. Excessive use of
alcohol/drunkenness                    291      397        138       110      51        5      992
6.9.Illegal drug use, or the abuse
of prescription drugs                  703      209        30        16       23       11      992
6.10. Viewing pornography or
other sexually graphic content
(images or movies)                     113      179        206       322      167       5      992

Part III -

Academy Climate

7. To what extent do you AGREE or DISAGREE with the following statements about how men and
women are treated at your academy?

                                     Strongly                               Strongly Missing
                                      Agree     Agree   No Opinion Disagree Disagree  Data     Total
(a) Men receive more favorable
treatment OVERALL.                      4        26        148       536      272       6        992
(b) Women receive more
favorable treatment OVERALL.           163      338        156       265      62        8        992
(c) Men and women are treated
fairly OVERALL.                        97       394        141       263      86       11        992

                                                 D.2 [5]
D.2 [6]
8. Do you AGREE or DISAGREE with the following statement? Cadets/Midshipmen
dormitory/barracks areas should be physically separated (i.e., different floors or buildings) by gender.




                                                 No                   Missing
                                     Agree     Opinion     Disagree    Data      Total
                                      84         63          841        4        992




9. Do you understand the following?

                                                                                           Missing
                                                             Yes        No      Not Sure    Data     Total
9.1. The difference between sexual harassment and
sexual assault.                                              964        6         17         5       992
9.2. How to avoid situations that might increase the
risk of sexual assault.                                      977        3          5         7       992
9.3. How to report sexual assaults.
                                                             926        18        42         6       992
9.4. How to obtain medical care following a sexual
assault.                                                     893        35        56         8       992
9.5. How to obtain counseling following a sexual
assault.                                                     926        32        28         6       992
9.6. The services that your Academy's legal office can
provide to a victim in response to sexual assault.           810        78        95         9       992
9.7. The general responsibilities of law enforcement
and criminal investigative agencies in response to
sexual assaults.                                             855        54        77         6       992
9.8. The role of the chain of command in handling
sexual assaults.                                             800        81        100        11      992
9.9. Where to go if I need additional information on the
areas above.                                                 891        37        50         14      992




                                                 D.2 [7]
10. At your Academy, to what extent do you think current cadet/midshipmen leaders ________?


                            Very
                            large   Large    Moderate    Small               No Basis Missing
                           extent   extent    extent     Extent   Not at all to Judge  Data     Total
10.1. Demonstrate
good examples of
sound moral character       132      501       273        61         13        7        5         992
10.2 Hold others
accountable for their
conduct                     118      427       313        104        16        7        7         992
10.3 Promote and
safeguard the welfare
of subordinates             170      421       243        109        31        8        10        992
10.4. Create a climate
in which sexual
HARASSMENT is not
tolerated                   322      400       181        54         16       13        6         992
10.5. Create a climate
in which
cadets/midshipmen are
encouraged to report
sexual
HARASSMENT                  287      378       202        71         22       22        10        992
10.6. Create a climate
in which sexual
ASSAULT is not
tolerated                   547      334       71         15         7        12        6         992
10.7. Create a climate
in which
cadets/midshipmen are
encouraged to report a
sexual ASSAULT              434      359       124        37         10       21        7         992
10.8. Ensure those who
have reported sexual
harassment/assault are
treated with dignity and
respect
                            328      356       125        39         15       120       9         992
10.9. Provide an
appropriate level of
privacy to those who
have experienced
sexual ASSAULT              318      346       121        30         25       142       10        992




                                               D.2 [8]
11. At your Academy, to what extent do you think current commissioned officers directly in charge of
your unit (TAC, AOC, Co Offiers) ______?
                            Very
                            large   Large    Moderate    Small               No Basis Missing
                           extent   extent    extent     Extent   Not at all to Judge  Data     Total
11.1 Demonstrate good
examples of sound
moral character             324      391       161        75         31        5        5         992
11. 2 Hold others
accountable for their
conduct                     427      396       110        33         16        3        7         992
11.3 Promote and
safeguard the welfare
of subordinates             353      361       140        82         40        3        13        992
11.4. Create a climate
in which sexual
HARASSMENT is not
tolerated                   507      353       83         20         9        11        9         992
11.5 Create a climate in
which
cadets/midshipmen are
encouraged to report
                            465      357       109        18         12       19        12        992
sexual
11.6 Create a climate in
which sexual
ASSAULT is not
tolerated                   585      286       67         12         7        16        19        992
11.7 Create a climate in
which
cadets/midshipmen are
encouraged to report a
sexual ASSAULT              529      317       79         20         11       23        13        992
11.8 Ensure those who
have reported sexual
harassment/assault are
treated with dignity and
respect                     467      303       82         24         13       95        8         992




                                               D.2 [9]
Question 11. Continued:




                          Very large   Large    Moderate                        No Basis   Missing
                           extent      extent    extent Small Extent Not at all to Judge    Data     Total
11.9 Provide an
appropriate level of
privacy to those who
have experienced
sexual ASSAULT
                             450       288        78          25         17       121        13        992
11.10. Provide
adequate information to
cadets/midshipmen
about policies,
procedures, and
consequences of sexaul
ASSAULT
                             458       331        107         27         11        43        15        992




                                                  D.2 [10]
12. At your Academy, to what extent do you think the current Academy Senior Leadership
(Superintendent, Commandant, Vice/Deputy Commandant, Dean) ____________?

                            Very
                            large   Large    Moderate    Small               No Basis Missing
                           extent   extent    extent     Extent   Not at all to Judge  Data     Total
12.1 Demonstrate good
examples of sound
moral character
                            537      298       87         33         23       10        4         992
12.2 Hold
cadets/midshipmen
accountable for their
conduct
                            619      280       58         11         14        4        6         992
12.3 Promote and
safeguard the welfare
of subordinates
                            495      300       90         51         31        8        17        992
12.4 Treat subordinate
cadets/midshipmen
fairly regardless of
gender
                            420      256       126        82         74       22        12        992
12.5 Create a climate in
which sexual
HARASSMENT is not
tolerated
                            686      229       41         10         8         9        9         992
12.6 Create a climate in
which sexual
ASSAULT is not
tolerated                   720      211       30          8         7         9        7         992




                                              D.2 [11]
13. At your Academy, to what extent do you think the current academic faculty _____________?


                           Very
                           large    Large    Moderate Small               No Basis Missing
                           extent   extent   extent   Extent   Not at all to Judge Data      Total
13.1 Demonstrate good
examples of sound
moral character              381      501       91         8      0         6         5          992
13.2 Should
cadets/midshipmen
accountable for their
conduct                      364      471      120        20      0         5        12          992
13.3 Promote and
safeguard the welfare
of subordinates              379      432      123        25      4         15       14          992
13.4 Treat subordinate
cadets/midshipmen
fairly regardless of
gender                       399      371      146        42      18        7         9          992
13.5 Create a climate in
which sexual
HARASSMENT is not
tolerated                    497      383       72         8      0         25        7          992
13.6 Create a climate in
which sexual assault is
not tolerated
                             553      338       54         5      0         28       14          992




                                               D.2 [12]
14. Based on the behavior you have observed, to what extent are cadets/midshipmen at your Academy
willing to _________?




                           Very
                           large   Large    Moderate    Small               No Basis Missing
                          extent   extent    extent     Extent   Not at all to Judge  Data     Total
14.1 CONFRONT
other
cadets/midshipmen
who engage in sexual
HARASSMENT,
including inappropriate
comments and actions       189      317       276        133        24       48        5         992
14.2 REPORT other
cadets/midshipment
who continue to engage
in sexual
HARASSMENT after
having been previously
confronted                 203      312       227        141        21       82        6         992
14.3 REPORT other
cadets/midshipmen
who commit sexual
ASSAULT                    431      296       114        47         8        90        6         992




                                             D.2 [13]
15. To what extent do you think cadets/midshipmen at your Academy ________?




                            Very
                            large   Large    Moderate    Small               No basis Missing
                           extent   extent    extent     Extent   Not at all to judge  Data     Total
15.1 Allow personal
loyalties to affect
reporting of sexual
ASSAULT
                            41       135       216        322       158       114       6         992
15.2 Do NOT report
sexual ASSAULT out
of concern they or
others will be punished
for infractions, such as
fraternization or
underage drinking           57       148       212        271       164       131       9         992
15.3 Consider fradulent
reporting of sexual
ASSAULT incidents to
be a problem at the
Academy

                            221      234       204        145       104       78        6         992




                                              D.2 [14]
16. Would you be willing to report a personal experience of sexual assault to the following
individuals/agencies?

                                                                             Service
                                                                              Not     Missing
                                                 Yes        No    Uncertain Available  Data     Total
(a) Officer/NCO Chain of command
member (ie. AOC, MTL, TAC, Co Officer,
SEL)                                             709        150      126        0         7     992
(b) Faculty member, coaches, or Academy
staff not in chain of command                    695        161      126        2         8     992
(c) Academy hotline/helpline                     729        132      121        0        10     992
(d) Person in cadet/midshipman chain of
command                                          534        260      187        1        10     992
(e) Peer resource (eg. SAVI GUIDE, CASIE
Rep) [N/A for USMA]                              708        160      114        2         8     992
(f) Academy Counseling or Development
Center                                           683        152      148        0         9     992
(g) Installation Medical Personnel               789        91       103        0         9     992
(h) Criminal investigative orgainizations (ie.
AFOSI, CID, NCIS)                                702        143      137        2         8     992
(i) Security Forces, Military Police or USNA
Police                                           642        183      157        1         9     992
(j) Academy Inspector General Office [N/A
for USNA]                                        575        197      203        7        10     992
(k) Academy Chaplain/Clergy
                                                 835        86       60         0        11     992
(l) Academy Response Team (ART) [N/A
for USMA and USNA]                               663        161      147       10        11     992
(m) SAVI Advocate/Coordinator [N/A for
USMA and USAFA]                                  208        77       75        517       115    992
(n) Service Inspector General's office or
hotline                                          471        252      255        1        13     992
(o) DoD Inspector General's office or DoD
IG Hotline                                       472        265      243        1        11     992
(p) Other (please explain)                       115        152      164       170       391    992




                                                 D.2 [15]
17. In this question, you will be asked about sexual talk and/or beahviors that were both UNINVITED
AND UNWANTED, and in which you did not participate willingly. SINCE JUNE OF 2003, how
frequently have you been in situations where persons assigned to your Academy (cadets/midshipmen
and/or other military or civilian personnel working at your Academy)_________?


                                             Once or     Several           Very    Missing
                                     Never    twice       times    Often   often    Data     Total
17.1 Repeatedly told stories or
jokes of a sexual nature that were
offensive to you                     628      233          76       36      14        5         992
17.2 Made unwelcome attempts to
draw you into a discussion of
sexual matters (for example,
attempted to discuss or comment
on your sex life)                    754      161          47       18       5        7         992
17.3 Made offensive remarks
about your appearance, body, or
sexual activities
                                     800      127          38       17       4        6         992
17.4 Made gestures or used body
language of a sexual nature that
embarrassed or offended you
                                     798      141          30       10       2        11        992
17.5 Made unwanted attempts to
establish a romantic sexual
relationship with you despite your
efforts to discourage it             935       37          7        1        3        9         992
17.6 Continued to ask you for
dates, drinks, dinner, etc, even
though you said "No"                 956       24          2        0        4        6         992
17.7 Made you feel like you were
being bribed with some sort of
reward or special treatment to
engage in sexual behavior
                                     974       5           1        0        2        10        992
17.8 Made you feel threatened
with some sort of retaliation for
not being sexually cooperative
(for example, by mentioning an
upcoming review or evaluation)       977       4           0        0        2        9         992
17.9 Touched you in a way that
made you feel uncomfortable           47      929          7        0        4        5         992
17.10 Treated you badly for
refusing to have sex                 977       3           1        0        3        8         992
17.11 Implied better assignments
or better treatment if you were
sexually cooperative                 978       2           0        0        2        10        992

                                              D.2 [16]
D.2 [17]
18. How many of the behaviors listed above that YOU MARKED AS HAPPENING TO YOU do you
consider to have been sexual harassment?

(a) None were sexual harrassment                             390
(b) Some were sexual harassment                              82
(c) Most were sexual harassment                              18
(d) All were sexual harassment                               32
(e) Does not apply (I marked "NEVER" in every item
in question #17)                                             463
Missing Data                                                  7
Total                                                        992

Part IV

Personal Experiences

The remaining questions apply to your total time at the Academy (EXCLUDING Prep School)

19. SINCE BECOMING A CADET/MIDSHIPMAN, has someone done any of the following to you
WITHOUT YOUR CONSENT AND AGAINST YOUR WILL?

Touched, stroked, or fondled your private parts
Physically attempted to have sexual intercourse with you, but was not successful
Physically attempted to have oral or anal sex with you, but was not successful
Had sexual intercourse with you?
Had oral sex with you?
Had anal sex with you?


Yes                            12
No                            977
Missing Data                    3
Totals                        992




                                                  D.2 [18]
20-23. If you answered Yes to Question 19, please describe up to four such incidents, focusing on those
you consider to be the most severe incidents.

 20-23 A. When did this incident occur? [calendar year, semester and your status/rank(BCT or Plebe
Summer/freshman/sophomore/junior/senior)] (Note: if you selected summer "semester," it assumes
that graduation has occurred and you have risen to the next rank)



                                       Incident
       Year              First    Second Third          Fourth     Total
       2000                1                                        1
       2001                1                                        1
       2002                1                                        1
       2003                6                                        6
       2004                3                                        3
       1999                0                                        0
    Missing Data           0                                        0
       Total              12                                        12

                                       Incident
     Semester            First    Second Third          Fourth     Total
        Fall               4                                        4
      Spring               6                                        6
     Summer                1                                        1
    Missing Data           1                                        1
       Total              12                                        12

                                       Incident
       Status            First    Second Third          Fourth     Total
      Freshman             3                                        3
      Sophomore            4                                        4
       Junior              2                                        2
       Senior              1                                        1
        BCT                1                                        1
    Missing Data           1                                        1
        Total             12                                        12




                                             D.2 [19]
20-23 B. What did the offender do to you? (Check all that apply)
                                                                       Incident
                                                           First    Second Third   Fourth
Touched, stroked, or fondled your private parts?            11
Physically attempted to have sexual intercourse with
you, but was not successful?                                 1
Physically attempted to have oral or anal sex with you,
but was not successful?                                      0
Had sexual intercourse with you?                             1
Had oral sex with you?                                       0
Had anal sex with you?                                       0

20-23 C. Where did the incident take place?
                                                                       Incident
                                                           First    Second Third   Fourth   Total
On installation in dorm/barracks                             9                                9
On installation , NOT in dorm/barracks                       0                                0
Off installation at an Academy-sponsored event               1                                1
Off installation and NOT at an Academy-sponsored             2                                2
Missing Data                                                 0                                0
Total                                                       12                               12

20-23 D. Did the incident involve MULTIPLE offenders?

                                         Incident
                           First    Second Third           Fourth   Total
Yes                          2                                       2
No                          10                                       10
I don't know                 0                                       0
Missing Data                 0                                       0
Total                       12                                       12

20-23 E. Who was the offender(s)? (Check all that apply)

                                                                       Incident
                                                           First    Second Third   Fourth
Cadet/midshipman who was senior to me                        0
Cadet/midshipman who was in same class as me or
below                                                        11
Military faculty or staff member                             0
Civilian faculty or staff member                             0
Military person NOT assigned to your academy                 0
Civilian person NOT assigned to your academy                 1
Unidentified person                                          0
Missing Data                                                 0
Totals                                                       12


                                                D.2 [20]
20-23 F. To which authorities, if any, was this incident reported? (Check all that apply)

                                                                                Incident
                                                                     First   Second Third   Fourth
Officer/NCO chain of command (AOC, MTL, TAC, Co. Officer,
SEL)                                                                  0
Academy staff & faculty member not in chain of command                0
Academy hotline/helpline                                              0
Academy Response Team (ART) [N/A for USMA and USNA]                    0
Person in cadet/midshipman chain of command                            0
Peer resource (SAVI GUIDE, CASIE Rep) [N/A for USMA]                   1
Academy Counseling or Development Center                               0
SAVI Advocate/Coordinator [N/A for USMA and USAFA]                     0
Off-Installation Counseling Center                                     0
Installation Medical Personnel                                         0
Off-Installation Medical Personnel                                     0
Criminal investigative organizations (AFOSI, CID, NCIS)                0
Security Forces, Military Police, or USNA Police                       0
Academy Inspector General's Office [N/A for USNA]                      0
Academy Chaplain/Clergy                                                1
Non-Installation Chaplain/Clergy                                       0
Civilian Law Enforcement Agency                                        0
Service or DoD Inspector General's office or Hotline                   0
No one - I did not report this incident                               10
Other (please explain below)                                           2

20-23 G. Did anyone in a POSITION OF AUTHORITY retaliate against you for reporting this
incident (such as unwarranted punishment, demotion, or withholding a favorable duty position?



                                       Incident
                         First    Second Third           Fourth     Total
Yes                        0                                         0
No                         2                                         2
Don't know or not sure     0                                         0
Missing Data              10                                         10
Totals                    12                                         12




                                              D.2 [21]
20-23 H. Please indicate who retaliated against you (Check all that apply)

                                                                        Incident
                                                           First     Second Third    Fourth
Cadet/midshipman in my chain of command                      0
Upperclassmen NOT in my chain of command                     0
Commissioned Officer in my chain of command                  0
Other Academy staff or faculty                               0
Service officials outside your Academy                       0

20-23 I. Please indicate if you experienced any of the following OTHER repercussions for reporting
this incident? (Check all that apply)

                                                                                Incident
                                                                     First   Second Third      Fourth
Ostracism, harassment, or ridicule from other cadets/midshipmen
NOT in chain of command?                                               0
Ostracism, harassment, or ridicule from other cadets/midshipmen in
chain of command?                                                      0
Ostracism, harassment, or ridicule from Academy staff or faculty
members                                                                0
Other significant repercussions (Please specify below)                 0
No, I did not experience other repercussions.                          2
Total                                                                  2

20-23 J. Did a military criminal investigative organization (AFOSI, CID or NCIS) or a civilian law
enforcement agency conduct a criminal investigation?

                                         Incident
                           First    Second Third           Fourth    Total
Yes                          0                                        0
No                           2                                        2
I don't know                 0                                        0
Missing Data                10                                        10
Total                       12                                        12

20-23 K. Why wasn't a criminal investigation conducted?

                                                                        Incident
                                                           First     Second Third    Fourth     Total
The incident was not reported to LAW
ENFORCEMENT officials                                        2                                    2
I declined to cooperate with an investigation                0                                    0
I don't know                                                 0                                    0
Missing Data                                                 10                                  10
Total                                                        12                                  12


                                                D.2 [22]
20-23 L. Were you informed of the final disposition of this matter?

                                                                         Incident
                                                             First    Second Third   Fourth   Total
Yes                                                            0                               0
No, I was not informed                                         0                               0
N/A - Offender was never identified.                           0                               0
N/A - Not yet resolved (i.e., On-going investigation or
legal proceedings                                              0                                0
Missing Data                                                   1                                1
Total                                                          1                                1

20-23 M. If you did not report this incident to MILITARY OR ACADEMY AUTHORITIES, please
indicate the reasons that were the MOST IMPORTANT to you when you decided NOT to report?
(Check all that apply)

                                                                                 Incident
                                                                      First   Second Third    Fourth
(a) Does not apply, I reported it                                       0
(b) It was not serious enough to report                                 8
(c) I handled it myself                                                 6
(d) I thought I would be labled a trouble maker                         1
(e) I thought nothing would be done                                     1
(f) Threatened with some form of retaliation                            0
(g) not threatened with retaliation, but feared some form of
retaliation                                                             1
(h) Feared ostracism, harassment, or ridicule by peers                  1
(I) Feared loss of friends                                              1
(j) Feared I or others would be punished for infractions/violations
(such as underage drinking)                                             1
(k) Feared public disclosure of the assault                             1
(l) Feared my parents/family would find out                             1
(m) Pressured by someone in position of authority                       0
(n) Feared that my boyfriend/girlfriend would find out                  0
(o) Shame/embarrassment                                                 2
(p) Feared other repercussions                                          0
(q) Feared people would not believe me                                  2
(r) Not aware of reporting procedures                                   0
(s) I thought I could deal with it myself                               4
(t) Other (Explain below)                                               2




                                                 D.2 [23]
20N. How satisfied were you with how the following individuals/agencies handled this incident?

                                                                                 N/A or I
                                                                                  did not
                                   Very                                Very Dis-    use     Missing
                       Incident   Satisfied   Satisfied   Dissatisfied satisfied resource    Data      Total
                       First         0           0            0           1         10          1       12
Investigative agencies Second
(OSI/ CID/NCIS)        Third
                       Fourth
                       First         0           0            0           1         10          1       12
Military lawyers       Second
handling your case     Third
                       Fourth
                       First         0           0            0           1         10          1       12
Victim Witness         Second
Assistance             Third
                       Fourth
SAVI                   First         0           0            0           1         10          1       12
Advocate/Coordinator   Second
or Academy Response
                       Third
Team (ARTA) [N/A
for West Point]        Fourth
                       First         1           0            0           1         9           1       12
Academy Counseling     Second
or Development Center Third
                       Fourth
                       First         1           0            0           1         9           1       12
Peer Resource (CASIE Second
Rep/SAVI GUIDE)
                     Third
[N/A for West Point]
                     Fourth
                       First         0           1            0           1         9           1       12
                       Second
Chain of Command
                       Third
                       Fourth


20-23 N. If you were NOT satisfied with any of the above, please explain why

Do you have another incident to describe?                                       Yes         X         No

Part V
                                                D.2 [24]
Written Comments




                   D.2 [25]
Appendix D.3 – USMA Female Survey Results

ABBREVIATIONS:
AOC - Air Officer Commanding
AFOSI - Air Force Office of Special Investigations
BCT - Basic Cadet Training
CASIE - Cadets Advocating Sexual Integrity and Education
CID - US Army Criminal Investigation Command
Co. Officer - Company Officer
DoD - Department of Defense
MTL - Miltary Training Leader
NCIS - Naval Criminal Investigative Service
OIG - Office of the Inspector General
SAVI - Sexual Assault Victim Intervention
SEL - Senior Enlisted Leader
TAC - Tactical Officer



Part I

Demographics

1. What is your gender?

         (a)   Male
         (b)   Female

2. What is your class year?

                  2004    150
                  2005    143
                  2006    146
                  2007    160
          Missing data     2
                 Total    601

3. Which Academy do you attend?

         (a)   Air Force Academy
         (b)   Naval Academy
         (c)   Military Academy


                                              D.3 [1]
Part II

Values




4. As a cadet/midshipman, which of the below listed values are most important to your professional life
at your Academy? Indicate top three in order of importance.

                         1st       2nd       3rd
Accountability             1         4        10
Achievement               36        28        31
Ambition                  13        15        11
Commitment                37        46        86
Courage                   11        31        40
Effectiveness              7        17        23
Efficiency                 4        11        10
Excellence                26        30        37
Friendship                23        57        62
Honor                    103        87        35
Integrity                128       113        54
Loyalty to Country        21        22        22
Money                      0         2         1
Power                      0         1         1
Respect                   58        72        88
Selfless Service          36        44        59
Spiritual Faith           93        15        23
Tolerance                  4         5         7
Missing Data               0         1         1
Total                    601       601       601




                                              D.3 [2]
5. Based on your experience, to what extent do you AGREE or DISAGREE with the following
statements?


                                      Strongly                                  Strongly Missing
                                       Agree     Agree      No Opinion Disagree Disagree  Data      Totals
5.1. Cadets/ midshipmen at my
Academy adhere to the Honor
Code/Concept, even if they know
they won't get caught violating it      43       406           46        98        8        0      601
5.2.Cadets/midshipment adhere to
significant Academy rules and
regulations, even if they know
they won't get caught violating
them                                     5       241           66        258      31        0      601
5.3.Cadets/midshipmen hold other
cadets/midshipmen accountable to
the Honor Code/Concept
                                        68       394           85        43        7        4      601
5.4. Honesty in all things is
expected and reinforced at my
Academy                                 206      333           23        23        2       14      601
5.5. I am morally obligated to
abide by the oath I took to support
and defend the Constitution of the
United States, regardless of the
consequences to me.
                                        361      220           11         6        1        2      601
5.6. I have felt pressure from
others at my academy to
compromise moral standards
because of loyalty to friends/peers
                                        14       166           83        250      82        6      601
 5.7. I have felt pressure from
others at my academy to
compromise moral standards in
order to meet academic or training
objectives                               9        89           54        324      124       1      601
5.8. Circumstances determine
whether it is right or wrong for a
cadet/midshipman to compromise
his or her moral standards
                                        10       133           92        255      108       3      601




                                                  D.3 [3]
Question 5 Continued:




                                       Strongly                                  Strongly Missing
                                        Agree     Agree      No Opinion Disagree Disagree  Data      Totals
5.9. I am committed to living by
moral standards that exceed those
of society at large.                     269      295           27         6        2        2      601
5.10. As a cadet/midshipman, it is
important for me to meet the same
exemplary conduct and leadership
standards required of a
commissioned officer.                    294      277           16         8        1        5      601
5.11. My commitment to living by
exemplary conduct and leadership
standards has been reinforced by
attending the Academy.
                                         186      310           55        36       13        1      601
5.12. I believe commitment to
some form of ethical/spiritual/
religious beliefs is important to an
officer's character.                     270      256           37        25        9        4      601
5.13 I am strongly committed to
some form of
ethical/spiritual/religious beliefs
about what is right and wrong.           311      254           23         9        3        1      601
5.14. My experiences at the
Academy have enhanced my
commitment to my
ethical/spiritual/religious beliefs.     164      243           96        83       13        2      601




                                                   D.3 [4]
6. To what extend do you AGREE or DISAGREE with the following
statements? The following behaviors would disrupt good order and
discipline at my Academy:


                                     Strongly                                  Strongly Missing
                                      Agree     Agree      No Opinion Disagree Disagree  Data      Total
6.1. Violating the Honor
Code/Concept                           253      295           18        27        8        0      601
6.2. Not reporting Honor
Code/Concept violations                113      299           93        79       16        1      601
6.3. Favoritism based on gender        327      236           12        13       10        3      601
6.4. Engaging in prohibited
relationships/ fraternization          144      255           85        86       25        6      601
6.5. Cadets/ midshipmen dating
each other at the same Academy          5        19           29        278      266       4      601
6.6 Consensual sex between
cadets/midshipmen ON Academy
grounds                                90       168           103       173      65        2      601
6.7. Consensual sex between
cadets/midshipmen OFF
Academy grounds                        10        42           52        241      255       1      601
6.8. Excessive use of
alcohol/drunkenness                    216      284           49        42        8        2      601
6.9.Illegal drug use, or the abuse
of prescription drugs                  413      148            9        12       12        7      601
6.10. Viewing pornography or
other sexually graphic content         139      186           119       117      34        6      601
(i              i )
Part III -

Academy Climate

7. To what extent do you AGREE or DISAGREE with the following statements about how men and
women are treated at your academy?

                                     Strongly                                  Strongly Missing
                                      Agree     Agree      No Opinion Disagree Disagree  Data      Total
(a) Men receive more favorable
treatment OVERALL.                     61       195           113       220      10        2       601
(b) Women receive more
favorable treatment OVERALL.            0        37           116       399      48        1       601
(c) Men and women are treated
fairly OVERALL.                        15       288           104       154      37        3       601


                                                 D.3 [5]
8. Do you AGREE or DISAGREE with the following statement? Cadets/Midshipmen
dormitory/barracks areas should be physically separated (i.e., different floors or buildings) by gender.




                                                 No                    Missing
                                     Agree     Opinion      Disagree    Data      Total
                                      9          11           579        2        601




9. Do you understand the following?

                                                                                          Missing
                                                              Yes        No      Not Sure  Data     Total
9.1. The difference between sexual harassment and
sexual assault.                                               586        1         14        0      601
9.2. How to avoid situations that might increase the
risk of sexual assault.                                       598        0          3        0      601
9.3. How to report sexual assaults.
                                                              534        16        49        2      601
9.4. How to obtain medical care following a sexual
assault.                                                      534        16        49        2      601
9.5. How to obtain counseling following a sexual
assault.                                                      521        22        51        7      601
9.6. The services that your Academy's legal office can
provide to a victim in response to sexual assault.            418        68        113       2      601
9.7. The general responsibilities of law enforcement
and criminal investigative agencies in response to
sexual assaults.                                              432        60        105       4      601
9.8. The role of the chain of command in handling
sexual assaults.                                              454        50        95        2      601
9.9. Where to go if I need additional information on the
areas above.                                                  506        19        67        9      601




                                                  D.3 [6]
10. At your Academy, to what extent do you think current cadet/midshipmen leaders ________?


                            Very
                            large   Large    Moderate    Small               No Basis Missing
                           extent   extent    extent     Extent   Not at all to Judge  Data      Total
10.1. Demonstrate
good examples of
sound moral character       38       264       261        34         4         0        0       601
10.2 Hold others
accountable for their
conduct                     53       257       243        44         3         1        0       601
10.3 Promote and
safeguard the welfare
of subordinates             74       257       211        45         6         2        6       601
10.4. Create a climate
in which sexual
HARASSMENT is not
tolerated                   76       212       189        93         22        6        3       601
10.5. Create a climate
in which
cadets/midshipmen are
encouraged to report
sexual HARASSMENT
                            65       191       143        125        60       13        4       601
10.6. Create a climate
in which sexual
ASSAULT is not
tolerated                   192      236       98         47         13       15        0       601
10.7. Create a climate
in which
cadets/midshipmen are
encouraged to report a
sexual ASSAULT              137      179       147        72         42       20        4       601
10.8. Ensure those who
have reported sexual
harassment/assault are
treated with dignity and
respect
                            58       133       145        90         55       120       9       610
10.9. Provide an
appropriate level of
privacy to those who
have experienced
sexual ASSAULT              62       129       132        79         52       141       6       601




                                               D.3 [7]
11. At your Academy, to what extent do you think current commissioned officers directly in charge of
your unit (TAC, AOC, Co Offiers) ______?
                          Very
                          large  Large Moderate       Small              No Basis Missing
                         extent  extent    extent     Extent  Not at all to Judge     Data     Total
11.1 Demonstrate good
examples of sound
moral character            117    293       146        35          9         1         0      601
11. 2 Hold others
accountable for their
conduct                    204    295        85        12          3         2         0      601
11.3 Promote and
safeguard the welfare
of subordinates            161    273       122        32          5         0         8      601
11.4. Create a climate
in which sexual
HARASSMENT is not
tolerated                  183    253       109        34          5        11         6      601
11.5 Create a climate in
which
cadets/midshipmen are
encouraged to report
sexual HARASSMENT          178    241        98        46         18        18         2      601
11.6 Create a climate in
which sexual
ASSAULT is not
tolerated                  242     236       74         21          5        18        5     601
11.7 Create a climate in
which
cadets/midshipmen are
encouraged to report a
sexual ASSAULT             218     218       84         36         13        26        6     601
11.8 Ensure those who
have reported sexual
harassment/assault are
treated with dignity and
respect                    146     188      107         35         13       109        3     601




                                             D.3 [8]
Question 11. Continued:




                          Very large   Large    Moderate                        No Basis   Missing
                           extent      extent    extent Small Extent Not at all to Judge    Data      Total
11.9 Provide an
appropriate level of
privacy to those who
have experienced
sexual ASSAULT
                             132       182        92          45         13       129        8       601
11.10. Provide
adequate information to
cadets/midshipmen
about policies,
procedures, and
consequences of sexaul
ASSAULT
                             156       213        126         46         18        34        8       601




                                                  D.3 [9]
12. At your Academy, to what extent do you think the current Academy Senior Leadership
(Superintendent, Commandant, Vice/Deputy Commandant, Dean) ____________?

                            Very
                            large   Large    Moderate     Small               No Basis Missing
                           extent   extent    extent      Extent   Not at all to Judge  Data      Total
12.1 Demonstrate good
examples of sound
moral character
                            306      233       31           6         1        21        3       601
12.2 Hold
cadets/midshipmen
accountable for their
conduct
                            378      186       25           3         3         6        0       601
12.3 Promote and
safeguard the welfare
of subordinates
                            271      214       73          23         3         8        9       601
12.4 Treat subordinate
cadets/midshipmen
fairly regardless of
gender
                            220      206       106         41         6        19        3       601
12.5 Create a climate in
which sexual
HARASSMENT is not
tolerated
                            302      195       57          23         11       10        3       601
12.6 Create a climate in
which sexual
ASSAULT is not
tolerated                   324      186       52          10         8        14        7       601




                                               D.3 [10]
13. At your Academy, to what extent do you think the current academic faculty _____________?


                           Very
                           large    Large    Moderate Small               No Basis Missing
                           extent   extent   extent   Extent   Not at all to Judge Data      Total
13.1 Demonstrate good
examples of sound
moral character              197      324       69         4      1         4         2      601
13.2 Should
cadets/midshipmen
accountable for their
conduct                      226      292       64        10      1         5         3      601
13.3 Promote and
safeguard the welfare
of subordinates              206      280       78        18      2         13        4      601
13.4 Treat subordinate
cadets/midshipmen
fairly regardless of
gender                       158      277      124        32      5         2         3      601
13.5 Create a climate in
which sexual
HARASSMENT is not
tolerated                    205      248       72        29      6         35        6      601
13.6 Create a climate in
which sexual assault is
not tolerated
                             247      235       50        10      3         45       11      601




                                               D.3 [11]
14. Based on the behavior you have observed, to what extent are cadets/midshipmen at your Academy
willing to _________?




                           Very
                           large   Large    Moderate     Small               No Basis Missing
                          extent   extent    extent      Extent   Not at all to Judge  Data      Total
14.1 CONFRONT
other
cadets/midshipmen
who engage in sexual
HARASSMENT,
including inappropriate
comments and actions       25       103       195         189        53       35        1       601
14.2 REPORT other
cadets/midshipment
who continue to engage
in sexual
HARASSMENT after
having been previously
confronted                 33       89        184         179        53       59        4       601
14.3 REPORT other
cadets/midshipmen
who commit sexual
ASSAULT                    85       135       129         135        29       82        6       601




                                              D.3 [12]
15. To what extent do you think cadets/midshipmen at your Academy ________?




                            Very
                            large   Large    Moderate     Small               No basis Missing
                           extent   extent    extent      Extent   Not at all to judge  Data      Total
15.1 Allow personal
loyalties to affect
reporting of sexual
ASSAULT                     60       153       168         113        18       87        2       601
15.2 Do NOT report
sexual ASSAULT out
of concern they or
others will be punished
for infractions, such as
fraternization or
underage drinking

                            123      192       117         79         16       73        1       601
15.3 Consider fradulent
reporting of sexual
ASSAULT incidents to
be a problem at the
Academy

                            34       68        112         176       101       105       5       601




                                               D.3 [13]
16. Would you be willing to report a personal experience of sexual assault to the following
individuals/agencies?

                                                                             Service
                                                                              Not     Missing
                                                 Yes        No    Uncertain Available  Data     Total
(a) Officer/NCO Chain of command
member (ie. AOC, MTL, TAC, Co Officer,
SEL)                                             318        155      128        0         0     601
(b) Faculty member, coaches, or Academy
staff not in chain of command                    448        89       62         0         2     601
(c) Academy hotline/helpline                     305        178      113        2         3     601
(d) Person in cadet/midshipman chain of
command                                          239        241      119        1         1     601
(e) Peer resource (eg. SAVI GUIDE, CASIE
Rep) [N/A for West Point]                        79         48       28        427       19     601
(f) Academy Counseling or Development
Center                                           334        140      125        1         1     601
(g) Installation Medical Personnel               451        83       67         0         0     601
(h) Criminal investigative orgainizations (ie.
AFOSI, CID, NCIS)                                345        131      124        0         1     601
(i) Security Forces, Military Police or USNA
Police                                           280        180      137        2         2     601
(j) Academy Inspector General Office [N/A
for Naval Academy]                               233        192      159       13         4     601
(k) Academy Chaplain/Clergy
                                                 457        79       59         1         5     601
(l) Academy Response Team (ART) [N/A
for West Point and Naval Academy]                51         47       26        455       22     601
(m) SAVI Advocate/Coordinator [N/A for
West Point and USAFA]                            45         43       24        465       24     601
(n) Service Inspector General's office or
hotline                                          179        236      176        6         4     601
(o) DoD Inspector General's office or DoD
IG Hotline                                       186        235      170        6         4     601
(p) Other (please explain)                       105        150       85       114       147    601




                                                 D.3 [14]
17. In this question, you will be asked about sexual talk and/or beahviors that were both UNINVITED
AND UNWANTED, and in which you did not participate willingly. SINCE JUNE OF 2003, how
frequently have you been in situations where persons assigned to your Academy (cadets/midshipmen
and/or other military or civilian personnel working at your Academy)_________?
                                             Once or     Several           Very    Missing
                                     Never    twice       times    Often   often    Data      Total
17.1 Repeatedly told stories or
jokes of a sexual nature that were
offensive to you                     108      211         156       75      51        0         601
17.2 Made unwelcome attempts to
draw you into a discussion of
sexual matters (for example,
attempted to discuss or comment
on your sex life)                    188      202         123       58      29        1         601
17.3 Made offensive remarks
about your appearance, body, or
sexual activities                    209      194         105       60      32        1         601
17.4 Made gestures or used body
language of a sexual nature that
embarrassed or offended you
                                     230      194         108       43      23        3         601
17.5 Made unwanted attempts to
establish a romantic sexual
relationship with you despite your
efforts to discourage it             320      156          69       34      19        3         601
17.6 Continued to ask you for
dates, drinks, dinner, etc, even
though you said "No"                 362      137          60       23      17        2         601
17.7 Made you feel like you were
being bribed with some sort of
reward or special treatment to
engage in sexual behavior
                                     527       49          12       3        5        5         601
17.8 Made you feel threatened
with some sort of retaliation for
not being sexually cooperative
(for example, by mentioning an
upcoming review or evaluation)       572       13          6        3        4        3         601
17.9 Touched you in a way that
made you feel uncomfortable          165      389          34       7        6        0         601
17.10 Treated you badly for
refusing to have sex                 545       35          10       7        3        1         601
17.11 Implied better assignments
or better treatment if you were
sexually cooperative
                                     574       16          2        1        2        6         601

                                              D.3 [15]
18. How many of the behaviors listed above that YOU MARKED AS HAPPENING TO YOU do you
consider to have been sexual harassment?

(a) None were sexual harrassment                             208
(b) Some were sexual harassment                              239
(c) Most were sexual harassment                               46
(d) All were sexual harassment                                50
(e) Does not apply (I marked "NEVER" in every item
in question #17)                                             57
Missing Data                                                  1
Total                                                        601

Part IV

Personal Experiences

The remaining questions apply to your total time at the Academy (EXCLUDING Prep School)

19. SINCE BECOMING A CADET/MIDSHIPMAN, has someone done any of the following to you
WITHOUT YOUR CONSENT AND AGAINST YOUR WILL?

Touched, stroked, or fondled your private parts
Physically attempted to have sexual intercourse with you, but was not successful
Physically attempted to have oral or anal sex with you, but was not successful
Had sexual intercourse with you?
Had oral sex with you?
Had anal sex with you?


Yes                           100
No                            501
Missing Data                    0
Totals                        601

20-23. If you answered Yes to Question 19, please describe up to four such incidents, focusing on those
you consider to be the most severe incidents.




                                                  D.3 [16]
 20-23 A. When did this incident occur? [calendar year, semester and your status/rank(BCT or Plebe
Summer/freshman/sophomore/junior/senior)] (Note: if you selected summer "semester," it assumes
that graduation has occurred and you have risen to the next rank)



                                      Incident
       Year             First    Second Third          Fourth    Total
       1999               3         0                               3
       2000               9         2                              11
       2001              18         1                              19
       2002              17         2                              19
       2003              32         3                              35
       2004              11         2                              13
    Missing Data         10         1                              11
       Total            100        11                             111

                                      Incident
     Semester           First    Second Third          Fourth    Total
        Fall             42         3                              45
      Spring             39         7                              46
     Summer               9         0                               9
    Missing Data         10         1                              11
       Total            100        11                             111

                                      Incident
       Status           First    Second Third          Fourth    Total
      Freshman           46         3                              49
      Sophomore          28         3                              31
       Junior            10         1                              11
       Senior             3         3                               6
        BCT               3         0                               3
    Missing Data         10         1                              11
        Total           100        11                             111




                                            D.3 [17]
20-23 B. What did the offender do to you? (Check all that apply)
                                                                        Incident
                                                            First    Second Third   Fourth
Touched, stroked, or fondled your private parts?             55         5
Physically attempted to have sexual intercourse with
you, but was not successful?                                 39        6
Physically attempted to have oral or anal sex with you,
but was not successful?                                       8        1
Had sexual intercourse with you?                             20        0
Had oral sex with you?                                        6        0
Had anal sex with you?                                        2        0

20-23 C. Where did the incident take place?
                                                                        Incident
                                                            First    Second Third   Fourth   Total
On installation in dorm/barracks                             69         6                      75
On installation , NOT in dorm/barracks                       10         0                      10
Off installation at an Academy-sponsored event                4         1                       5
Off installation and NOT at an Academy-sponsored              9         3                      12
Missing Data                                                  8         1                       9
Total                                                       100        11                     111

20-23 D. Did the incident involve MULTIPLE offenders?

                                         Incident
                           First    Second Third            Fourth   Total
Yes                          5         0                                5
No                          83        10                               93
I don't know                 1         0                                1
Missing Data                11         1                               12
Total                      100        11                              111

20-23 E. Who was the offender(s)? (Check all that apply)

                                                                        Incident
                                                            First    Second Third   Fourth
Cadet/midshipman who was senior to me                        41         4
Cadet/midshipman who was in same class as me or
below                                                         52       6
Military faculty or staff member                               0       0
Civilian faculty or staff member                               0       0
Military person NOT assigned to your academy                   1       0
Civilian person NOT assigned to your academy                   0       0
Unidentified person                                            1       0
Missing Data                                                   7       1
Totals                                                       102      11

                                                 D.3 [18]
20-23 F. To which authorities, if any, was this incident reported? (Check all that apply)

                                                                                 Incident
                                                                     First    Second Third      Fourth
Officer/NCO chain of command (AOC, MTL, TAC, Co. Officer,
SEL)                                                                  15         0
Academy staff & faculty member not in chain of command                 4         0
Academy hotline/helpline                                               0         0
Academy Response Team (ART) [N/A for USMA and USNA]                    0         0
Person in cadet/midshipman chain of command                            6         1
Peer resource (SAVI GUIDE, CASIE Rep) [N/A for USMA]                   1         0
Academy Counseling or Development Center                               6         0
SAVI Advocate/Coordinator [N/A for USMA and USAFA]                     0
Off-Installation Counseling Center                                     1         0
Installation Medical Personnel                                         3         0
Off-Installation Medical Personnel                                     1         0
Criminal investigative organizations (AFOSI, CID, NCIS)                7         0
Security Forces, Military Police, or USNA Police                       1         0
Academy Inspector General's Office [N/A for USNA]                      1         0
Academy Chaplain/Clergy                                                5         0
Non-Installation Chaplain/Clergy                                       0         0
Civilian Law Enforcement Agency                                        0         0
Service or DoD Inspector General's office or Hotline                   0         0
No one - I did not report this incident                               66         9
Other (please explain below)                                          12         0

20-23 G. Did anyone in a POSITION OF AUTHORITY retaliate against you for reporting this
incident (such as unwarranted punishment, demotion, or withholding a favorable duty position?



                                       Incident
                         First    Second Third           Fourth     Total
Yes                        4         0                                 4
No                        15         1                                16
Don't know or not sure     5         0                                 5
Missing Data              76        10                                86
Totals                   100        11                               111




                                              D.3 [19]
20-23 H. Please indicate who retaliated against you (Check all that apply)

                                                                        Incident
                                                           First     Second Third     Fourth
Cadet/midshipman in my chain of command                      2          0
Upperclassmen NOT in my chain of command                     3          0
Commissioned Officer in my chain of command                  3          0
Other Academy staff or faculty                               3          0
Service officials outside your Academy                       1          0

20-23 I. Please indicate if you experienced any of the following OTHER repercussions for reporting
this incident? (Check all that apply)

                                                                                Incident
                                                                     First   Second Third      Fourth
Ostracism, harassment, or ridicule from other cadets/midshipmen
NOT in chain of command?                                               8       0
Ostracism, harassment, or ridicule from other cadets/midshipmen in
chain of command?                                                      3       0
Ostracism, harassment, or ridicule from Academy staff or faculty
members                                                                2       0
Other significant repercussions (Please specify below)                 5       0
No, I did not experience other repercussions.                         14       0
Total                                                                 32       0

20-23 J. Did a military criminal investigative organization (AFOSI, CID or NCIS) or a civilian law
enforcement agency conduct a criminal investigation?

                                         Incident
                           First    Second Third           Fourth    Total
Yes                          8         0                                8
No                          13         1                               14
I don't know                 3         0                                3
Missing Data                76        10                               86
Total                      100        11                              111

20-23 K. Why wasn't a criminal investigation conducted?

                                                                        Incident
                                                           First     Second Third     Fourth    Total
The incident was not reported to LAW
ENFORCEMENT officials                                        11        1                          12
I declined to cooperate with an investigation                 1        0                           1
I don't know                                                  1        0                           1
Missing Data                                                 87       10                          97
Total                                                       100       11                         111

                                                D.3 [20]
20-23 L. Were you informed of the final disposition of this matter?

                                                                         Incident
                                                             First    Second Third   Fourth   Total
Yes                                                            7         0                     7
No, I was not informed                                         4         0                     4
N/A - Offender was never identified.                           0         0                     0
N/A - Not yet resolved (ie. On-going investigation or
legal proceedings                                               1       0                        1
Missing Data                                                   88      11                       99
Total                                                         100      11                      111

20-23 M. If you did not report this incident to MILITARY OR ACADEMY AUTHORITIES, please
indicate the reasons that were the MOST IMPORTANT to you when you decided NOT to report?
(Check all that apply)

                                                                                  Incident
                                                                      First   Second Third    Fourth
(a) Does not apply, I reported it                                       7        0
(b) It was not serious enough to report                                28        3
(c) I handled it myself                                                43        3
(d) I thought I would be labled a trouble maker                        28        1
(e) I thought nothing would be done                                    16        1
(f) Threatened with some form of retaliation                            5        0
(g) not threatened with retaliation, but feared some form of
retaliation                                                            18       2
(h) Feared ostracism, harassment, or ridicule by peers                 40       4
(I) Feared loss of friends                                             20       2
(j) Feared I or others would be punished for infractions/violations
(such as underage drinking)                                            18       1
(k) Feared public disclosure of the assault                            31       3
(l) Feared my parents/family would find out                            17       1
(m) Pressured by someone in position of authority                       2       0
(n) Feared that my boyfriend/girlfriend would find out                  5       1
(o) Shame/embarrassment                                                41       6
(p) Feared other repercussions                                         23       2
(q) Feared people would not believe me                                 23       2
(r) Not aware of reporting procedures                                   4       0
(s) I thought I could deal with it myself                              30       5
(t) Other (Explain below)                                              10       0




                                                  D.3 [21]
20N. How satisfied were you with how the following individuals/agencies handled this incident?

                                                                                    N/A or I
                                                                                     did not
                                     Very                                 Very Dis-    use     Missing
                         Incident   Satisfied   Satisfied    Dissatisfied satisfied resource    Data      Total
                         First         2           1             3           4         79          4       93
Investigative agencies   Second        0           0             0           0         9           2       11
(OSI/ CID/NCIS)          Third
                         Fourth
                         First         2           1             1           3         82          4       93
Military lawyers         Second        0           0             0           0         9           2       11
handling your case       Third
                         Fourth
                         First         1           2             2           0         82          6       93
Victim Witness           Second        0           0             0           0         9           2       11
Assistance               Third
                         Fourth
SAVI                     First         0           1             0           0         86          6       93
Advocate/Coordinator     Second        0           0             0           0         9           2       11
or Academy Response
                         Third
Team (ARTA) [N/A
for West Point]          Fourth
                         First         4           6             0           1         78          4       93
Academy Counseling       Second        0           0             0           0         9           2       11
or Development Center Third
                         Fourth
                         First         2           0             0           0         83          8       93
Peer Resource (CASIE Second
                                       0           0             0           0         9           2       11
Rep/SAVI GUIDE)
                     Third
[N/A for West Point]
                     Fourth
                         First         5           3             2           5         74          4       93
                         Second        0           0             0           0         9           2       11
Chain of Command
                         Third
                         Fourth


20-23 N. If you were NOT satisfied with any of the above, please explain why

Do you have another incident to describe?                                          Yes         X         No


                                                  D.3 [22]
Part V
Written Comments




                   D.3 [23]
Appendix D.4 – USMA Male Survey Results

ABBREVIATIONS:
AOC - Air Officer Commanding
AFOSI - Air Force Office of Special Investigations
BCT - Basic Cadet Training
CASIE - Cadets Advocating Sexual Integrity and Education
CID - US Army Criminal Investigation Command
Co. Officer - Company Officer
DoD - Department of Defense
MTL - Miltary Training Leader
NCIS - Naval Criminal Investigative Service
OIG - Office of the Inspector General
SAVI - Sexual Assault Victim Intervention
SEL - Senior Enlisted Leader
TAC - Tactical Officer



Part I

Demographics

1. What is your gender?

         (a)   Male
         (b)   Female

2. What is your class year?

                  2004     262
                  2005     263
                  2006     263
                  2007     279
          Missing data      2
                 Total    1069

3. Which Academy do you attend?

         (a)   Air Force Academy
         (b)   Naval Academy
         (c)   Military Academy


                                             D.4 [1]
Part II

Values




4. As a cadet/midshipman, which of the below listed values are most important to your professional life
at your Academy? Indicate top three in order of importance.

                          1st       2nd       3rd
Accountability             11        19        21
Achievement                47        34        61
Ambition                   15        15        22
Commitment                 41        59        86
Courage                    33        62        89
Effectiveness              26        34        40
Efficiency                  9        33        24
Excellence                 49        63        93
Friendship                 71        82        90
Honor                     268       182        94
Integrity                 193       218       107
Loyalty to Country         65        73        62
Money                       4         7        10
Power                       2         7         7
Respect                    40        89       117
Selfless Service           49        62        99
Spiritual Faith           141        17        30
Tolerance                   2         8        14
Missing Data                3         5         3
Total                    1069      1069      1069




                                              D.4 [2]
5. Based on your experience, to what extent do you AGREE or DISAGREE with the following
statements?


                                      Strongly                               Strongly Missing
                                       Agree     Agree   No Opinion Disagree Disagree  Data     Totals
5.1. Cadets/ midshipmen at my
Academy adhere to the Honor
Code/Concept, even if they know
they won't get caught violating it      194      718        70        82        5        0      1069
5.2.Cadets/midshipment adhere to
significant Academy rules and
regulations, even if they know
they won't get caught violating
them                                    49       529        174       283      31        3      1069
5.3.Cadets/midshipmen hold other
cadets/midshipmen accountable to
the Honor Code/Concept
                                        196      650        130       82        3        8      1069
5.4. Honesty in all things is
expected and reinforced at my
Academy                                 487      502        45        15        2       18      1069
5.5. I am morally obligated to
abide by the oath I took to support
and defend the Constitution of the
United States, regardless of the
consequences to me.
                                        713      314        30         6        1        5      1069
5.6. I have felt pressure from
others at my academy to
compromise moral standards
because of loyalty to friends/peers
                                        36       231        144       483      172       3      1069
 5.7. I have felt pressure from
others at my academy to
compromise moral standards in
order to meet academic or training
objectives                              25       132        115       524      268       5      1069
5.8. Circumstances determine
whether it is right or wrong for a
cadet/midshipman to compromise
his or her moral standards
                                        26       193        201       408      236       5      1069




                                                  D.4 [3]
Question 5 Continued:




                                       Strongly                               Strongly Missing
                                        Agree     Agree   No Opinion Disagree Disagree  Data     Totals
5.9. I am committed to living by
moral standards that exceed those
of society at large.                     515      482        54        12        3        3      1069
5.10. As a cadet/midshipman, it is
important for me to meet the same
exemplary conduct and leadership
standards required of a
commissioned officer.                    517      463        52        26        1       10      1069
5.11. My commitment to living by
exemplary conduct and leadership
standards has been reinforced by
attending the Academy.
                                         373      507        108       61       16        4      1069
5.12. I believe commitment to
some form of ethical/spiritual/
religious beliefs is important to an
officer's character.                     456      417        112       46       31        7      1069
5.13 I am strongly committed to
some form of
ethical/spiritual/religious beliefs
about what is right and wrong.           484      443        78        36       22        6      1069
5.14. My experiences at the
Academy have enhanced my
commitment to my
ethical/spiritual/religious beliefs.     271      385        219       138      47        9      1069




                                                   D.4 [4]
6. To what extend do you AGREE or DISAGREE with the following
statements? The following behaviors would disrupt good order and
discipline at my Academy:


                                     Strongly                               Strongly Missing
                                      Agree     Agree   No Opinion Disagree Disagree  Data     Total
6.1. Violating the Honor
Code/Concept                           484      480        44        48       13        0      1069
6.2. Not reporting Honor
Code/Concept violations                258      494        164       125      24        4      1069
6.3. Favoritism based on gender        556      401         63        34      10        5      1069
6.4. Engaging in prohibited
relationships/ fraternization          272      459        156       137      40        5      1069
6.5. Cadets/ midshipmen dating
each other at the same Academy         43       119        182       479      243       3      1069
6.6 Consensual sex between
cadets/midshipmen ON Academy
grounds                                160      285        188       298      137       1      1069
6.7. Consensual sex between
cadets/midshipmen OFF
Academy grounds                        42        85        123       438      379       2      1069
6.8. Excessive use of
alcohol/drunkenness                    262      466        153       137      43        8      1069
6.9.Illegal drug use, or the abuse
of prescription drugs                  705      266        36        19       29       14      1069
6.10. Viewing pornography or
other sexually graphic content
(images or movies)                     81       152        203       366      261       6      1069

Part III -

Academy Climate

7. To what extent do you AGREE or DISAGREE with the following statements about how men and
women are treated at your academy?

                                     Strongly                               Strongly Missing
                                      Agree     Agree   No Opinion Disagree Disagree  Data     Total
(a) Men receive more favorable
treatment OVERALL.                     11        77        162       608      203       8       1069
(b) Women receive more
favorable treatment OVERALL.           170      410        153       297      34        5       1069
(c) Men and women are treated
fairly OVERALL.                        64       396        195       330      81        3       1069
                                                 D.4 [5]
D.4 [6]
8. Do you AGREE or DISAGREE with the following statement? Cadets/Midshipmen
dormitory/barracks areas should be physically separated (i.e., different floors or buildings) by gender.




                                                 No                   Missing
                                     Agree     Opinion     Disagree    Data      Total
                                      118       100          843        8        1069




9. Do you understand the following?

                                                                                         Missing
                                                             Yes        No      Not Sure  Data     Total
9.1. The difference between sexual harassment and
sexual assault.                                             1036        5         27        1      1069
9.2. How to avoid situations that might increase the
risk of sexual assault.                                     1043        7         13        6      1069
9.3. How to report sexual assaults.
                                                            1000        21        44        4      1069
9.4. How to obtain medical care following a sexual
assault.                                                     960        50        56        3      1069
9.5. How to obtain counseling following a sexual
assault.                                                     949        43        67       10      1069
9.6. The services that your Academy's legal office can
provide to a victim in response to sexual assault.           851        83        130       5      1069
9.7. The general responsibilities of law enforcement
and criminal investigative agencies in response to
sexual assaults.                                             861        74        131       3      1069
9.8. The role of the chain of command in handling
sexual assaults.                                             926        62        77        4      1069
9.9. Where to go if I need additional information on the
areas above.                                                 952        37        68       12      1069




                                                 D.4 [7]
10. At your Academy, to what extent do you think current cadet/midshipmen leaders ________?


                            Very
                            large   Large    Moderate    Small               No Basis Missing
                           extent   extent    extent     Extent   Not at all to Judge  Data     Total
10.1. Demonstrate
good examples of
sound moral character       125      564       311        57         3         8        1        1069
10.2 Hold others
accountable for their
conduct                     153      533       296        67         7         9        4        1069
10.3 Promote and
safeguard the welfare
of subordinates             176      519       246        84         28        8        8        1069
10.4. Create a climate
in which sexual
HARASSMENT is not
tolerated                   275      521       182        48         12       25        6        1069
10.5. Create a climate
in which
cadets/midshipmen are
encouraged to report
sexual HARASSMENT
                            248      476       224        68         14       35        4        1069
10.6. Create a climate
in which sexual
ASSAULT is not
tolerated                   534      397       83         21         7        25        2        1069
10.7. Create a climate
in which
cadets/midshipmen are
encouraged to report a
sexual ASSAULT              436      420       125        34         9        35        10       1069
10.8. Ensure those who
have reported sexual
harassment/assault are
treated with dignity and
respect
                            280      392       134        36         5        221       1        1069
10.9. Provide an
appropriate level of
privacy to those who
have experienced
sexual ASSAULT              289      358       125        21         19       251       6        1069




                                               D.4 [8]
11. At your Academy, to what extent do you think current commissioned officers directly in charge of
your unit (TAC, AOC, Co Offiers) ______?
                          Very
                          large  Large Moderate       Small              No Basis Missing
                         extent  extent    extent     Extent  Not at all to Judge     Data     Total
11.1 Demonstrate good
examples of sound
moral character            318    481       190        48         19         11         2        1069
11. 2 Hold others
accountable for their
conduct                    472    441       112        20          7         13         4        1069
11.3 Promote and
safeguard the welfare
of subordinates            382    415       182        47         24         12         7        1069
11.4. Create a climate
in which sexual
HARASSMENT is not
tolerated                  513    402        95        15          7         26        11        1069
11.5 Create a climate in
which
cadets/midshipmen are
encouraged to report
sexual HARASSMENT
                           493    388       108        26          4         37        13        1069
11.6 Create a climate in
which sexual
ASSAULT is not
tolerated                  598    338        78        10          3         31        11        1069
11.7 Create a climate in
which
cadets/midshipmen are
encouraged to report a
sexual ASSAULT             537    358        97        24          4         38        11        1069
11.8 Ensure those who
have reported sexual
harassment/assault are
treated with dignity and
respect                    433    325        87        23          2        188        11        1069




                                             D.4 [9]
Question 11. Continued:




                          Very large   Large    Moderate                        No Basis   Missing
                           extent      extent    extent Small Extent Not at all to Judge    Data     Total
11.9 Provide an
appropriate level of
privacy to those who
have experienced
sexual ASSAULT
                             419       322        75          20         9        212        12       1069
11.10. Provide
adequate information to
cadets/midshipmen
about policies,
procedures, and
consequences of sexaul
ASSAULT
                             444       359        122         41         7         87        9        1069




                                                  D.4 [10]
12. At your Academy, to what extent do you think the current Academy Senior Leadership
(Superintendent, Commandant, Vice/Deputy Commandant, Dean) ____________?

                            Very
                            large   Large    Moderate     Small               No Basis Missing
                           extent   extent    extent      Extent   Not at all to Judge  Data     Total
12.1 Demonstrate good
examples of sound
moral character
                            639      338       47          12         3        28        2        1069
12.2 Hold
cadets/midshipmen
accountable for their
conduct
                            719      289       27           5         2        20        7        1069
12.3 Promote and
safeguard the welfare
of subordinates
                            594      307       88          39         10       24        7        1069
12.4 Treat subordinate
cadets/midshipmen
fairly regardless of
gender
                            490      300       126         69         35       40        9        1069
12.5 Create a climate in
which sexual
HARASSMENT is not
tolerated
                            708      275       41           7         1        31        6        1069
12.6 Create a climate in
which sexual
ASSAULT is not
tolerated                   740      245       34           5         0        31        14       1069




                                               D.4 [11]
13. At your Academy, to what extent do you think the current academic faculty _____________?


                           Very
                           large    Large    Moderate Small               No Basis Missing
                           extent   extent   extent   Extent   Not at all to Judge Data      Total
13.1 Demonstrate good
examples of sound
moral character              458      517       65         6      1         14        8         1069
13.2 Should
cadets/midshipmen
accountable for their
conduct                      503      459       77        10      2         12        6         1069
13.3 Promote and
safeguard the welfare
of subordinates              448      456       92        27      1         28       17         1069
13.4 Treat subordinate
cadets/midshipmen
fairly regardless of
gender                       394      429      157        51      11        13       14         1069
13.5 Create a climate in
which sexual
HARASSMENT is not
tolerated                    529      397       70         9      1         53       10         1069
13.6 Create a climate in
which sexual assault is
not tolerated
                             583      356       49         6      1         59       15         1069




                                               D.4 [12]
14. Based on the behavior you have observed, to what extent are cadets/midshipmen at your Academy
willing to _________?




                           Very
                           large   Large    Moderate     Small               No Basis Missing
                          extent   extent    extent      Extent   Not at all to Judge  Data     Total
14.1 CONFRONT
other
cadets/midshipmen
who engage in sexual
HARASSMENT,
including inappropriate
comments and actions       148      342       318         142        20       97        2        1069
14.2 REPORT other
cadets/midshipment
who continue to engage
in sexual
HARASSMENT after
having been previously
confronted                 194      344       269         112        13       132       5        1069
14.3 REPORT other
cadets/midshipmen
who commit sexual
ASSAULT                    421      303       145         43         9        144       4        1069




                                              D.4 [13]
15. To what extent do you think cadets/midshipmen at your Academy ________?




                            Very
                            large   Large    Moderate     Small               No basis Missing
                           extent   extent    extent      Extent   Not at all to judge  Data     Total
15.1 Allow personal
loyalties to affect
reporting of sexual
ASSAULT                     36       142       256         296       122       211       6        1069
15.2 Do NOT report
sexual ASSAULT out
of concern they or
others will be punished
for infractions, such as
fraternization or
underage drinking
                            64       170       222         260       141       205       7        1069
15.3 Consider fradulent
reporting of sexual
ASSAULT incidents to
be a problem at the
Academy

                            64       121       205         249       186       236       8        1069




                                               D.4 [14]
16. Would you be willing to report a personal experience of sexual assault to the following
individuals/agencies?

                                                                             Service
                                                                              Not     Missing
                                                 Yes        No    Uncertain Available  Data     Total
(a) Officer/NCO Chain of command
member (ie. AOC, MTL, TAC, Co Officer,
SEL)                                             829        120      117        1         2     1069
(b) Faculty member, coaches, or Academy
staff not in chain of command                    853        114      96         2         4     1069
(c) Academy hotline/helpline                     737        185      131        8         8     1069
(d) Person in cadet/midshipman chain of
command                                          670        230      161        3         5     1069
(e) Peer resource (eg. SAVI GUIDE, CASIE
Rep) [N/A for USMA]                              316        93       53        587       20     1069
(f) Academy Counseling or Development
Center                                           738        181      143        2         5     1069
(g) Installation Medical Personnel               852        120      92         1         4     1069
(h) Criminal investigative orgainizations (ie.
AFOSI, CID, NCIS)                                810        143      109        3         4     1069
(i) Security Forces, Military Police or USNA
Police                                           727        189      145        1         7     1069
(j) Academy Inspector General Office [N/A
for USNA]                                        667        192      189       15         6     1069
(k) Academy Chaplain/Clergy
                                                 912        81       55         4        17     1069
(l) Academy Response Team (ART) [N/A
for USMA and USNA]                               256        92       56        639       26     1069
(m) SAVI Advocate/Coordinator [N/A for
USMA and USAFA]                                  235        92       61        653       28     1069
(n) Service Inspector General's office or
hotline                                          590        240      221        6        12     1069
(o) DoD Inspector General's office or DoD
IG Hotline                                       592        241      221        5         10    1069
(p) Other (please explain)                       111        281      173       236       268    1069




                                                 D.4 [15]
17. In this question, you will be asked about sexual talk and/or beahviors that were both UNINVITED
AND UNWANTED, and in which you did not participate willingly. SINCE JUNE OF 2003, how
frequently have you been in situations where persons assigned to your Academy (cadets/midshipmen
and/or other military or civilian personnel working at your Academy)_________?
                                             Once or     Several           Very    Missing
                                     Never    twice       times    Often   often    Data      Total
17.1 Repeatedly told stories or
jokes of a sexual nature that were
offensive to you                     651      256         107       34      19        2        1069
17.2 Made unwelcome attempts to
draw you into a discussion of
sexual matters (for example,
attempted to discuss or comment
on your sex life)                    723      226          80       18      14        8        1069
17.3 Made offensive remarks
about your appearance, body, or
sexual activities                    799      193          51       14       9        3        1069
17.4 Made gestures or used body
language of a sexual nature that
embarrassed or offended you
                                     855      150          41       9        7        7        1069
17.5 Made unwanted attempts to
establish a romantic sexual
relationship with you despite your
efforts to discourage it             994       57          8        5        2        3        1069
17.6 Continued to ask you for
dates, drinks, dinner, etc, even
though you said "No"                 1031      24          8        0        2        4        1069
17.7 Made you feel like you were
being bribed with some sort of
reward or special treatment to
engage in sexual behavior
                                     1045      18          2        0        1        3        1069
17.8 Made you feel threatened
with some sort of retaliation for
not being sexually cooperative
(for example, by mentioning an
upcoming review or evaluation)       1046      13          2        0        2        6        1069
17.9 Touched you in a way that
made you feel uncomfortable           46      1007         7        1        4        4        1069
17.10 Treated you badly for
refusing to have sex                 1048      11          2        1        2        5        1069
17.11 Implied better assignments
or better treatment if you were
sexually cooperative
                                     1040      7           2        0        2        18       1069


                                              D.4 [16]
18. How many of the behaviors listed above that YOU MARKED AS HAPPENING TO YOU do you
consider to have been sexual harassment?


(a) None were sexual harrassment                             490
(b) Some were sexual harassment                               66
(c) Most were sexual harassment                               17
(d) All were sexual harassment                                18
(e) Does not apply (I marked "NEVER" in every item
in question #17)                                             469
Missing Data                                                   9
Total                                                        1069

Part IV

Personal Experiences


The remaining questions apply to your total time at the Academy (EXCLUDING Prep School)

19. SINCE BECOMING A CADET/MIDSHIPMAN, has someone done any of the following to you
WITHOUT YOUR CONSENT AND AGAINST YOUR WILL?

Touched, stroked, or fondled your private parts
Physically attempted to have sexual intercourse with you, but was not successful
Physically attempted to have oral or anal sex with you, but was not successful
Had sexual intercourse with you?
Had oral sex with you?
Had anal sex with you?


Yes                         16
No                         1053
Missing Data                 0
Totals                     1069

20-23. If you answered Yes to Question 19, please describe up to four such incidents, focusing on those you
consider to be the most severe incidents.




                                                  D.4 [17]
 20-23 A. When did this incident occur? [calendar year, semester and your status/rank(BCT or Plebe
Summer/freshman/sophomore/junior/senior)] (Note: if you selected summer "semester," it assumes that
graduation has occurred and you have risen to the next rank)



                                       Incident
       Year              First    Second Third          Fourth      Total
        2000                                                          0
        2001              1                                           1
        2002               2                                          2
        2003               8                                          8
        2004               3                                          3
        1999               0                                          0
      Unknown             2                                           2
       Total              16                                         16

                                       Incident
      Semester           First    Second Third          Fourth      Total
        Fall               7                                          7
       Spring              6                                          6
      Summer               1                                          1
      Unknown              2                                          2
        Total             16                                         16

                                       Incident
       Status            First    Second Third          Fourth      Total
      Freshman             7                                          7
      Sophomore            3                                          3
       Junior              2                                          2
       Senior              2                                          2
      Unknown              2                                          2
        Total             16                                         16




                                             D.4 [18]
20-23 B. What did the offender do to you? (Check all that apply)
                                                                       Incident
                                                           First    Second Third   Fourth
Touched, stroked, or fondled your private parts?            12
Physically attempted to have sexual intercourse with
you, but was not successful?                                 0
Physically attempted to have oral or anal sex with you,
but was not successful?                                      1
Had sexual intercourse with you?                             3
Had oral sex with you?                                       2
Had anal sex with you?                                       0

20-23 C. Where did the incident take place?
                                                                       Incident
                                                           First    Second Third   Fourth   Total
On installation in dorm/barracks                            11                               11
On installation , NOT in dorm/barracks                       3                                3
Off installation at an Academy-sponsored event               0                                0
Off installation and NOT at an Academy-sponsored             1                                1
Missing Data                                                 1                                1
Total                                                       16                               16

20-23 D. Did the incident involve MULTIPLE offenders?

                                         Incident
                           First    Second Third           Fourth   Total
Yes                          2                                        2
No                          12                                       12
I don't know                 1                                        1
Missing Data                 1                                        1
Total                       16                                       16

20-23 E. Who was the offender(s)? (Check all that apply)

                                                                       Incident
                                                           First    Second Third   Fourth
Cadet/midshipman who was senior to me                        3
Cadet/midshipman who was in same class as me or
below                                                       10
Military faculty or staff member                             0
Civilian faculty or staff member                             0
Military person NOT assigned to your academy                 1
Civilian person NOT assigned to your academy                 0
Unidentified person                                          1
Missing Data                                                 1
Totals                                                      16
                                                D.4 [19]
20-23 F. To which authorities, if any, was this incident reported? (Check all that apply)

                                                                                 Incident
                                                                     First    Second Third   Fourth
Officer/NCO chain of command (AOC, MTL, TAC, Co. Officer,
SEL)                                                                   1
Academy staff & faculty member not in chain of command                 1
Academy hotline/helpline                                               0
Academy Response Team (ART) [N/A for USMA and USNA]                    0
Person in cadet/midshipman chain of command                            1
Peer resource (SAVI GUIDE, CASIE Rep) [N/A for USMA]                   0
Academy Counseling or Development Center                               0
SAVI Advocate/Coordinator [N/A for USMA and USAFA]                     0
Off-Installation Counseling Center                                     0
Installation Medical Personnel                                         0
Off-Installation Medical Personnel                                     0
Criminal investigative organizations (AFOSI, CID, NCIS)                0
Security Forces, Military Police, or USNA Police                       0
Academy Inspector General's Office [N/A for USNA]                      0
Academy Chaplain/Clergy                                                0
Non-Installation Chaplain/Clergy                                       0
Civilian Law Enforcement Agency                                        0
Service or DoD Inspector General's office or Hotline                   0
No one - I did not report this incident                               12
Other (please explain below)                                           0

20-23 G. Did anyone in a POSITION OF AUTHORITY retaliate against you for reporting this incident
(such as unwarranted punishment, demotion, or withholding a favorable duty position?



                                       Incident
                         First    Second Third           Fourth     Total
Yes                        1                                          1
No                         1                                          1
Don't know or not sure     0                                          0
Missing Data              14                                         14
Totals                    16                                         16




                                              D.4 [20]
20-23 H. Please indicate who retaliated against you (Check all that apply)

                                                                         Incident
                                                           First      Second Third        Fourth
Cadet/midshipman in my chain of command                      1
Upperclassmen NOT in my chain of command                     1
Commissioned Officer in my chain of command                  0
Other Academy staff or faculty                               0
Service officials outside your Academy                       0

20-23 I. Please indicate if you experienced any of the following OTHER repercussions for reporting this
incident? (Check all that apply)

                                                                                   Incident
                                                                       First    Second Third         Fourth
Ostracism, harassment, or ridicule from other cadets/midshipmen
NOT in chain of command?                                                 1
Ostracism, harassment, or ridicule from other cadets/midshipmen in
chain of command?                                                        1
Ostracism, harassment, or ridicule from Academy staff or faculty
members                                                                  0
Other significant repercussions (Please specify below)                   0
No, I did not experience other repercussions.                            0
Total                                                                    2

20-23 J. Did a military criminal investigative organization (AFOSI, CID or NCIS) or a civilian law
enforcement agency conduct a criminal investigation?

                                         Incident
                           First    Second Third           Fourth     Total
Yes                          0                                          0
No                           1                                          1
I don't know                 0                                          0
Missing Data                15                                         15
Total                       16                                         16

20-23 K. Why wasn't a criminal investigation conducted?

                                                                         Incident
                                                           First      Second Third        Fourth     Total
The incident was not reported to LAW
ENFORCEMENT officials                                        1                                         1
I declined to cooperate with an investigation                0                                         0
I don't know                                                 0                                         0
Missing Data                                                15                                        15
Total                                                       16                                        16

                                                D.4 [21]
20-23 L. Were you informed of the final disposition of this matter?

                                                                         Incident
                                                             First    Second Third   Fourth   Total
Yes                                                            0                               0
No, I was not informed                                         0                               0
N/A - Offender was never identified.                           0                               0
N/A - Not yet resolved (ie. On-going investigation or
legal proceedings                                              0                                0
Missing Data                                                                                    0
Total                                                          0                                0

20-23 M. If you did not report this incident to MILITARY OR ACADEMY AUTHORITIES, please indicate
the reasons that were the MOST IMPORTANT to you when you decided NOT to report? (Check all that
apply)

                                                                                 Incident
                                                                      First   Second Third    Fourth
(a) Does not apply, I reported it                                       0
(b) It was not serious enough to report                                 5
(c) I handled it myself                                                 5
(d) I thought I would be labled a trouble maker                         1
(e) I thought nothing would be done                                     1
(f) Threatened with some form of retaliation                            0
(g) not threatened with retaliation, but feared some form of
retaliation                                                             0
(h) Feared ostracism, harassment, or ridicule by peers                  0
(I) Feared loss of friends                                              1
(j) Feared I or others would be punished for infractions/violations
(such as underage drinking)                                             1
(k) Feared public disclosure of the assault                             1
(l) Feared my parents/family would find out                             0
(m) Pressured by someone in position of authority                       0
(n) Feared that my boyfriend/girlfriend would find out                  0
(o) Shame/embarrassment                                                 1
(p) Feared other repercussions                                          1
(q) Feared people would not believe me                                  0
(r) Not aware of reporting procedures                                   0
(s) I thought I could deal with it myself                               1
(t) Other (Explain below)                                               2




                                                 D.4 [22]
20N. How satisfied were you with how the following individuals/agencies handled this incident?

                                                                                   N/A or I
                                                                                    did not
                                     Very                                Very Dis-    use     Missing
                         Incident   Satisfied   Satisfied   Dissatisfied satisfied resource    Data      Total
                         First         0           0            0           0         12          4       16
Investigative agencies   Second
(OSI/ CID/NCIS)          Third
                         Fourth
                         First         0           0            0           0         11          5       16
Military lawyers         Second
handling your case       Third
                         Fourth
                         First         0           0            0           0         12          4       16
Victim Witness           Second
Assistance               Third
                         Fourth
SAVI                     First         0           0            0           0         12          4       16
Advocate/Coordinator     Second
or Academy Response
                         Third
Team (ARTA) [N/A
for West Point]          Fourth
                         First         0           0            0           0         12          4       16
Academy Counseling       Second
or Development Center Third
                         Fourth
                         First         0           0            0           0         11          5       16
Peer Resource (CASIE Second
Rep/SAVI GUIDE)
                     Third
[N/A for West Point]
                     Fourth
                         First         0           0            1           0         11          4       16
                         Second
Chain of Command
                         Third
                         Fourth


20-23 N. If you were NOT satisfied with any of the above, please explain why

Do you have another incident to describe?                                         Yes         X         No


                                                  D.4 [23]
Part V
Written Comments




                   D.4 [24]
Appendix D.5 – USNA Female Survey Results

ABBREVIATIONS:
AOC - Air Officer Commanding
AFOSI - Air Force Office of Special Investigations
BCT - Basic Cadet Training
CASIE - Cadets Advocating Sexual Integrity and Education
CID - US Army Criminal Investigation Command
Co. Officer - Company Officer
DoD - Department of Defense
MTL - Miltary Training Leader
NCIS - Naval Criminal Investigative Service
OIG - Office of the Inspector General
SAVI - Sexual Assault Victim Intervention
SEL - Senior Enlisted Leader
TAC - Tactical Officer



Part I

Demographics

1. What is your gender?

         (a)   Male
         (b)   Female

2. What is your class year?

                  2004    150
                  2005    148
                  2006    164
                  2007    190
          Missing data     0
                 Total    652

3. Which Academy do you attend?

         (a)   Air Force Academy
         (b)   Naval Academy
         (c)   Military Academy


                                             D.5 [1]
Part II

Values




4. As a cadet/midshipman, which of the below listed values are most important to your professional life
at your Academy? Indicate top three in order of importance.

                         1st       2nd       3rd
Accountability            12        24        28
Achievement               25        24        36
Ambition                  18        17        22
Commitment                47        63       119
Courage                   15        49        45
Effectiveness              9        12        23
Efficiency                 3        12        11
Excellence                30        31        29
Friendship                27        40        68
Honor                    140       106        53
Integrity                122       119        54
Loyalty to Country        27        24        29
Money                      2         0         1
Power                      0         1         0
Respect                   64        67        59
Selfless Service          24        42        46
Spiritual Faith           84        12         9
Tolerance                  2         8        19
Missing Data               1         1         1
Total                    652       652       652




                                              D.5 [2]
5. Based on your experience, to what extent do you AGREE or DISAGREE with the following
statements?


                                      Strongly                               Strongly Missing
                                       Agree     Agree   No Opinion Disagree Disagree  Data     Totals
5.1. Cadets/ midshipmen at my
Academy adhere to the Honor
Code/Concept, even if they know
they won't get caught violating it       7       352        63        211      18        1       652
5.2.Cadets/midshipment adhere to
significant Academy rules and
regulations, even if they know
they won't get caught violating
them                                     6       233        57        303      50        3       652
5.3.Cadets/midshipmen hold other
cadets/midshipmen accountable to
the Honor Code/Concept
                                        17       311        120       184      15        5       652
5.4. Honesty in all things is
expected and reinforced at my
Academy                                 138      383        57        45        4       25       652
5.5. I am morally obligated to
abide by the oath I took to support
and defend the Constitution of the
United States, regardless of the
consequences to me.
                                        426      201        15         5        0        5       652
5.6. I have felt pressure from
others at my academy to
compromise moral standards
because of loyalty to friends/peers
                                        37       244        74        231      62        4       652
 5.7. I have felt pressure from
others at my academy to
compromise moral standards in
order to meet academic or training
objectives                              20       149        70        312      98        3       652
5.8. Circumstances determine
whether it is right or wrong for a
cadet/midshipman to compromise
his or her moral standards
                                        14       160        91        264      118       5       652




                                                  D.5 [3]
Question 5 Continued:




                                       Strongly                               Strongly Missing
                                        Agree     Agree   No Opinion Disagree Disagree  Data     Totals
5.9. I am committed to living by
moral standards that exceed those
of society at large.                     277      314        46        11        1        3       652
5.10. As a cadet/midshipman, it is
important for me to meet the same
exemplary conduct and leadership
standards required of a
commissioned officer.                    317      301        14        14        2        4       652
5.11. My commitment to living by
exemplary conduct and leadership
standards has been reinforced by
attending the Academy.
                                         146      343        70        79       11        3       652
5.12. I believe commitment to
some form of ethical/spiritual/
religious beliefs is important to an
officer's character.                     284      273        51        22       18        4       652
5.13 I am strongly committed to
some form of
ethical/spiritual/religious beliefs
about what is right and wrong.           296      287        34        23       10        2       652
5.14. My experiences at the
Academy have enhanced my
commitment to my
ethical/spiritual/religious beliefs.     154      258        113       94       30        3       652




                                                   D.5 [4]
6. To what extend do you AGREE or DISAGREE with the following
statements? The following behaviors would disrupt good order and
discipline at my Academy:


                                     Strongly                               Strongly Missing
                                      Agree     Agree   No Opinion Disagree Disagree  Data     Total
6.1. Violating the Honor
Code/Concept                           230      335        34        42       10        1      652
6.2. Not reporting Honor
Code/Concept violations                 98      315        101       125      10        3      652
6.3. Favoritism based on gender        359      246         14        18      13        2      652
6.4. Engaging in prohibited
relationships/ fraternization          104      264        124       134      24        2      652
6.5. Cadets/ midshipmen dating
each other at the same Academy         15        22        39        262      311       3      652
6.6 Consensual sex between
cadets/midshipmen ON Academy
grounds                                137      225        105       135      47        3      652
6.7. Consensual sex between
cadets/midshipmen OFF
Academy grounds                        14        49        50        265      272       2      652
6.8. Excessive use of
alcohol/drunkenness                    209      282        74        72        9        6      652
6.9.Illegal drug use, or the abuse
of prescription drugs                  441      163        14         9       20        5      652
6.10. Viewing pornography or
other sexually graphic content
(images or movies)                     156      212        126       122      33        3      652

Part III -

Academy Climate

7. To what extent do you AGREE or DISAGREE with the following statements about how men and
women are treated at your academy?

                                     Strongly                               Strongly Missing
                                      Agree     Agree   No Opinion Disagree Disagree  Data     Total
(a) Men receive more favorable
treatment OVERALL.                     74       229        111       218      18        2        652
(b) Women receive more
favorable treatment OVERALL.            8        47        100       395      100       2        652
(c) Men and women are treated
fairly OVERALL.                        15       272        88        208      65        4        652
                                                 D.5 [5]
D.5 [6]
8. Do you AGREE or DISAGREE with the following statement? Cadets/Midshipmen
dormitory/barracks areas should be physically separated (i.e., different floors or buildings) by gender.




                                                 No                   Missing
                                     Agree     Opinion     Disagree    Data      Total
                                      14         12          624        2        652




9. Do you understand the following?

                                                                                         Missing
                                                             Yes        No      Not Sure  Data     Total
9.1. The difference between sexual harassment and
sexual assault.                                              628        4         19        1      652
9.2. How to avoid situations that might increase the
risk of sexual assault.                                      641        2          9        0      652
9.3. How to report sexual assaults.
                                                             568        28        54        2      652
9.4. How to obtain medical care following a sexual
assault.                                                     520        54        78        0      652
9.5. How to obtain counseling following a sexual
assault.                                                     558        34        56        4      652
9.6. The services that your Academy's legal office can
provide to a victim in response to sexual assault.           364       149        138       1      652
9.7. The general responsibilities of law enforcement
and criminal investigative agencies in response to
sexual assaults.                                             365       140        147       0      652
9.8. The role of the chain of command in handling
sexual assaults.                                             341       160        149       2      652
9.9. Where to go if I need additional information on the
areas above.                                                 547        39        65        1      652




                                                 D.5 [7]
10. At your Academy, to what extent do you think current cadet/midshipmen leaders ________?

                            Very
                            large   Large    Moderate    Small               No Basis Missing
                           extent   extent    extent     Extent   Not at all to Judge  Data     Total
10.1. Demonstrate
good examples of
sound moral character       32       278       281        46         10        5        0         652
10.2 Hold others
accountable for their
conduct                     35       238       281        80         10        7        1         652
10.3 Promote and
safeguard the welfare
of subordinates             71       279       206        71         15        6        4         652
10.4. Create a climate
in which sexual
HARASSMENT is not
tolerated                   65       188       211        120        45       20        3         652
10.5. Create a climate
in which
cadets/midshipmen are
encouraged to report
sexual HARASSMENT
                            57       137       168        165        87       36        2         652
10.6. Create a climate
in which sexual
ASSAULT is not
tolerated                   162      250       130        64         19       27        0         652
10.7. Create a climate
in which
cadets/midshipmen are
encouraged to report a
sexual ASSAULT              99       201       166        89         57       35        5         652
10.8. Ensure those who
have reported sexual
harassment/assault are
treated with dignity and
respect                     41       125       138        128        89       131       0         652
10.9. Provide an
appropriate level of
privacy to those who
have experienced
sexual ASSAULT              54       115       123        112        76       171       1         652




                                               D.5 [8]
11. At your Academy, to what extent do you think current commissioned officers directly in charge of
your unit (TAC, AOC, Co Offiers) ______?
                          Very
                          large  Large Moderate       Small              No Basis Missing
                         extent  extent    extent     Extent  Not at all to Judge     Data     Total
11.1 Demonstrate good
examples of sound
moral character            107    304       181        38         11        11         0          652
11. 2 Hold others
accountable for their
conduct                    195    326       105        16          1         7         2          652
11.3 Promote and
safeguard the welfare
of subordinates            148    279       166        39         12         5         3          652
11.4. Create a climate
in which sexual
HARASSMENT is not
tolerated                  177    261       116        48         17        30         3          652
11.5 Create a climate in
which
cadets/midshipmen are
encouraged to report
sexual HARASSMENT
                           132     238      126         76         27        48        5         652
11.6 Create a climate in
which sexual
ASSAULT is not
tolerated                  233     244       90         34         10        38        3         652
11.7 Create a climate in
which
cadets/midshipmen are
encouraged to report a
sexual ASSAULT             170     248      103         51         22        54        4         652
11.8 Ensure those who
have reported sexual
harassment/assault are
treated with dignity and
respect                    123     202      100         51         23       152        1         652




                                             D.5 [9]
Question 11. Continued:




                          Very large   Large    Moderate                        No Basis   Missing
                           extent      extent    extent Small Extent Not at all to Judge    Data     Total
11.9 Provide an
appropriate level of
privacy to those who
have experienced
sexual ASSAULT
                             123       178        95          59         22       171        4         652
11.10. Provide
adequate information to
cadets/midshipmen
about policies,
procedures, and
consequences of sexaul
ASSAULT
                             127       210        152         75         23        62        3         652




                                                  D.5 [10]
12. At your Academy, to what extent do you think the current Academy Senior Leadership
(Superintendent, Commandant, Vice/Deputy Commandant, Dean) ____________?

                            Very
                            large   Large    Moderate     Small               No Basis Missing
                           extent   extent    extent      Extent   Not at all to Judge  Data     Total
12.1 Demonstrate good
examples of sound
moral character
                            423      191       27           3         1         7        0         652
12.2 Hold
cadets/midshipmen
accountable for their
conduct
                            433      188       25           3         0         3        0         652
12.3 Promote and
safeguard the welfare
of subordinates
                            403      191       48           3         0         4        3         652
12.4 Treat subordinate
cadets/midshipmen
fairly regardless of
gender
                            336      178       84          25         6        22        1         652
12.5 Create a climate in
which sexual
HARASSMENT is not
tolerated
                            367      164       71          23         1        24        2         652
12.6 Create a climate in
which sexual
ASSAULT is not
tolerated                   410      157       43          12         2        27        1         652




                                               D.5 [11]
13. At your Academy, to what extent do you think the current academic faculty _____________?


                           Very
                           large    Large    Moderate Small               No Basis Missing
                           extent   extent   extent   Extent   Not at all to Judge Data      Total
13.1 Demonstrate good
examples of sound
moral character               90      324      185        21      1         30        1          652
13.2 Should
cadets/midshipmen
accountable for their
conduct                      112      300      182        35      3         19        1          652
13.3 Promote and
safeguard the welfare
of subordinates               93      269      183        53      8         42        4          652
13.4 Treat subordinate
cadets/midshipmen
fairly regardless of
gender                       109      271      190        65      2         11        4          652
13.5 Create a climate in
which sexual
HARASSMENT is not
tolerated                    108      227      135        38      12       127        5          652
13.6 Create a climate in
which sexual assault is
not tolerated
                             141      238       99        21      10       141        2          652




                                               D.5 [12]
14. Based on the behavior you have observed, to what extent are cadets/midshipmen at your Academy
willing to _________?




                           Very
                           large   Large    Moderate     Small               No Basis Missing
                          extent   extent    extent      Extent   Not at all to Judge  Data     Total
14.1 CONFRONT
other
cadets/midshipmen
who engage in sexual
HARASSMENT,
including inappropriate
comments and actions       29       80        150         259        86       48        0         652
14.2 REPORT other
cadets/midshipment
who continue to engage
in sexual
HARASSMENT after
having been previously
confronted                 21       74        135         231       100       90        1         652
14.3 REPORT other
cadets/midshipmen
who commit sexual
ASSAULT                    69       116       129         167        54       112       5         652




                                              D.5 [13]
15. To what extent do you think cadets/midshipmen at your Academy ________?




                            Very
                            large   Large    Moderate     Small               No basis Missing
                           extent   extent    extent      Extent   Not at all to judge  Data     Total
15.1 Allow personal
loyalties to affect
reporting of sexual
ASSAULT                     74       185       185         87         26       93        2         652
15.2 Do NOT report
sexual ASSAULT out
of concern they or
others will be punished
for infractions, such as
fraternization or
underage drinking

                            123      200       141         85         19       80        4         652
15.3 Consider fradulent
reporting of sexual
ASSAULT incidents to
be a problem at the
Academy

                            109      131       126         139        59       84        4         652




                                               D.5 [14]
16. Would you be willing to report a personal experience of sexual assault to the following
individuals/agencies?

                                                                             Service
                                                                              Not     Missing
                                                 Yes        No    Uncertain Available  Data     Total
(a) Officer/NCO Chain of command
member (ie. AOC, MTL, TAC, Co Officer,
SEL)                                             305        187      157        0         3     652
(b) Faculty member, coaches, or Academy
staff not in chain of command                    405        163      84         0         0     652
(c) Academy hotline/helpline                     274        257      100       21         0     652
(d) Person in cadet/midshipman chain of
command                                          302        233      114        0         3     652
(e) Peer resource (eg. SAVI GUIDE, CASIE
Rep) [N/A for USMA]                              462        127      62         1         0     652
(f) Academy Counseling or Development
Center                                           309        233      110        0         0     652
(g) Installation Medical Personnel               383        158      108        2         1     652
(h) Criminal investigative orgainizations (ie.
AFOSI, CID, NCIS)                                310        188      152        2         0     652
(i) Security Forces, Military Police or USNA
Police                                           212        311      126        0         3     652
(j) Academy Inspector General Office [N/A
for USNA]                                        44         87       27        441       53     652
(k) Academy Chaplain/Clergy
                                                 401        152      99         0         0     652
(l) Academy Response Team (ART) [N/A
for West Point and Naval Academy]                37         76       28        441       70     652
(m) SAVI Advocate/Coordinator [N/A for
USMA and USAFA]                                  410        134      102        2         4     652
(n) Service Inspector General's office or
hotline                                          105        339      177       24         7     652
(o) DoD Inspector General's office or DoD
IG Hotline                                       113        352      176        7         4     652
(p) Other (please explain)                       100        182       76       100       194    652




                                                 D.5 [15]
17. In this question, you will be asked about sexual talk and/or beahviors that were both UNINVITED
AND UNWANTED, and in which you did not participate willingly. SINCE JUNE OF 2003, how
frequently have you been in situations where persons assigned to your Academy (cadets/midshipmen
and/or other military or civilian personnel working at your Academy)_________?
                                             Once or     Several           Very    Missing
                                     Never    twice       times    Often   often    Data      Total
17.1 Repeatedly told stories or
jokes of a sexual nature that were
offensive to you                     143      228         131       93      55        2         652
17.2 Made unwelcome attempts to
draw you into a discussion of
sexual matters (for example,
attempted to discuss or comment
on your sex life)                    248      218         110       43      29        4         652
17.3 Made offensive remarks
about your appearance, body, or
sexual activities                    239      210         108       60      35        0         652
17.4 Made gestures or used body
language of a sexual nature that
embarrassed or offended you
                                     266      222          97       38      26        3         652
17.5 Made unwanted attempts to
establish a romantic sexual
relationship with you despite your
efforts to discourage it             408      163          49       21      10        1         652
17.6 Continued to ask you for
dates, drinks, dinner, etc, even
though you said "No"                 460      122          45       16       7        2         652
17.7 Made you feel like you were
being bribed with some sort of
reward or special treatment to
engage in sexual behavior
                                     599       33          12       5        3        0         652
17.8 Made you feel threatened
with some sort of retaliation for
not being sexually cooperative
(for example, by mentioning an
upcoming review or evaluation)       629       11          5        3        2        2         652
17.9 Touched you in a way that
made you feel uncomfortable          146      460          31       9        5        1         652
17.10 Treated you badly for
refusing to have sex                 602       38          4        2        4        2         652
17.11 Implied better assignments
or better treatment if you were
sexually cooperative
                                     633       14          2        0        1        2         652

                                              D.5 [16]
18. How many of the behaviors listed above that YOU MARKED AS HAPPENING TO YOU do you
consider to have been sexual harassment?

(a) None were sexual harrassment                             220
(b) Some were sexual harassment                              262
(c) Most were sexual harassment                               63
(d) All were sexual harassment                                44
(e) Does not apply (I marked "NEVER" in every item
in question #17)                                             61
Missing Data                                                  2
Total                                                        652

Part IV

Personal Experiences

The remaining questions apply to your total time at the Academy (EXCLUDING Prep School)

19. SINCE BECOMING A CADET/MIDSHIPMAN, has someone done any of the following to you
WITHOUT YOUR CONSENT AND AGAINST YOUR WILL?

Touched, stroked, or fondled your private parts
Physically attempted to have sexual intercourse with you, but was not successful
Physically attempted to have oral or anal sex with you, but was not successful
Had sexual intercourse with you?
Had oral sex with you?
Had anal sex with you?


Yes                            83
No                            568
Missing Data                    1
Totals                        652

20-23. If you answered Yes to Question 19, please describe up to four such incidents, focusing on those you
consider to be the most severe incidents.




                                                  D.5 [17]
 20-23 A. When did this incident occur? [calendar year, semester and your status/rank(BCT or Plebe
Summer/freshman/sophomore/junior/senior)] (Note: if you selected summer "semester," it assumes that
graduation has occurred and you have risen to the next rank)



                                       Incident
       Year              First    Second Third          Fourth      Total
        1999               1         0        0           0           1
        2000               3         0        0           0           3
        2001              15         4        1           0          20
        2002              16         1        1           1          19
        2003              38         4        1           0          43
        2004               9         2        0           0          11
      Unknown              1         1        0           0           2
       Total              83        12        3           1          99

                                       Incident
      Semester           First    Second Third          Fourth      Total
        Fall              41         4        0           0           4
       Spring             27         3        2           1          47
      Summer              13         3        1           0          32
      Unknown              2         2        0           0          16
        Total             83        12        3           1          99

                                       Incident
       Status            First    Second Third          Fourth      Total
      Freshman            32         3        2           1          38
      Sophomore           27         5        0           0          32
       Junior             13         1        1           0          15
       Senior              7         1        0           0           8
        PLB                1         0        0           0           1
        BCT                1         0        0           0           1
      Unknown              2         2        0           0           4
        Total             83        12        3           1          99




                                             D.5 [18]
20-23 B. What did the offender do to you? (Check all that apply)
                                                                       Incident
                                                           First    Second Third    Fourth
Touched, stroked, or fondled your private parts?            54         6        2     0
Physically attempted to have sexual intercourse with
you, but was not successful?                                22        2       1       1
Physically attempted to have oral or anal sex with you,
but was not successful?                                      9        3       0       0
Had sexual intercourse with you?                            21        3       0       0
Had oral sex with you?                                      10        1       0       0
Had anal sex with you?                                       1        1       0       0

20-23 C. Where did the incident take place?
                                                                       Incident
                                                           First    Second Third    Fourth   Total
On installation in dorm/barracks                            36         8        2     1       47
On installation , NOT in dorm/barracks                       6         0        0     0        6
Off installation at an Academy-sponsored event               7         2        0     0        9
Off installation and NOT at an Academy-sponsored            32         2        1     0       35
Missing Data                                                 2         0        0     0        2
Total                                                       83        12        3     1       99

20-23 D. Did the incident involve MULTIPLE offenders?

                                         Incident
                           First    Second Third           Fourth   Total
Yes                          7         0        0            0        7
No                          70        12        3            1       86
I don't know                 3         0        0            0        3
Missing Data                 3         0        0            0        3
Total                       83        12        3            1       99

20-23 E. Who was the offender(s)? (Check all that apply)

                                                                       Incident
                                                           First    Second Third    Fourth
Cadet/midshipman who was senior to me                       26         6        2     1
Cadet/midshipman who was in same class as me or
below                                                       47        4       1       0
Military faculty or staff member                             1        0       0       0
Civilian faculty or staff member                             0        0       0       0
Military person NOT assigned to your academy                 3        1       0       0
Civilian person NOT assigned to your academy                 3        1       0       0
Unidentified person                                          1        0       0       0
Missing Data                                                 2        0       0       0
Totals                                                      83       12       3       1

                                                D.5 [19]
D.5 [20]
20-23 F. To which authorities, if any, was this incident reported? (Check all that apply)

                                                                                 Incident
                                                                     First    Second Third      Fourth
Officer/NCO chain of command (AOC, MTL, TAC, Co. Officer,
SEL)                                                                  10         2          0      0
Academy staff & faculty member not in chain of command                 5         0          0      0
Academy hotline/helpline                                               0         0          0      0
Academy Response Team (ART) [N/A for USMA and USNA]                    1         0          0      0
Person in cadet/midshipman chain of command                            5         0          0      0
Peer resource (SAVI GUIDE, CASIE Rep) [N/A for USMA]                   5         0          0      0
Academy Counseling or Development Center                               5         1          0      0
SAVI Advocate/Coordinator [N/A for USMA and USAFA]                    13         0          0      0
Off-Installation Counseling Center                                     1         0          0      0
Installation Medical Personnel                                         2         0          0      0
Off-Installation Medical Personnel                                     1         0          0      0
Criminal investigative organizations (AFOSI, CID, NCIS)                9         0          0      0
Security Forces, Military Police, or USNA Police                       0         0          0      0
Academy Inspector General's Office [N/A for USNA]                      0         0          0      0
Academy Chaplain/Clergy                                                5         0          0      0
Non-Installation Chaplain/Clergy                                       0         0          0      0
Civilian Law Enforcement Agency                                        0         0          0      0
Service or DoD Inspector General's office or Hotline                   0         0          0      0
No one - I did not report this incident                               59         9          3      1
Other (please explain below)                                           4         1          0      0

20-23 G. Did anyone in a POSITION OF AUTHORITY retaliate against you for reporting this incident
(such as unwarranted punishment, demotion, or withholding a favorable duty position?



                                       Incident
                         First    Second Third           Fourth     Total
Yes                        2         0        0            0          2
No                        14         3        0            0         17
Don't know or not sure     4         0        0            0          4
Missing Data              63         9        3            1         76
Totals                    83        12        3            1         99




                                              D.5 [21]
20-23 H. Please indicate who retaliated against you (Check all that apply)

                                                                         Incident
                                                           First      Second Third        Fourth
Cadet/midshipman in my chain of command                      0           0        0         0
Upperclassmen NOT in my chain of command                     0           0        0         0
Commissioned Officer in my chain of command                  0           0        0         0
Other Academy staff or faculty                               2           0        0         0
Service officials outside your Academy                       0           0        0         0

20-23 I. Please indicate if you experienced any of the following OTHER repercussions for reporting this
incident? (Check all that apply)

                                                                                   Incident
                                                                       First    Second Third         Fourth
Ostracism, harassment, or ridicule from other cadets/midshipmen
NOT in chain of command?                                                 9         1         0            0
Ostracism, harassment, or ridicule from other cadets/midshipmen in
chain of command?                                                        5         0         0            0
Ostracism, harassment, or ridicule from Academy staff or faculty
members                                                                  1         0         0            0
Other significant repercussions (Please specify below)                   1         0         0            0
No, I did not experience other repercussions.                            7         2         0            0
Total                                                                   23         3         0            0

20-23 J. Did a military criminal investigative organization (AFOSI, CID or NCIS) or a civilian law
enforcement agency conduct a criminal investigation?

                                         Incident
                           First    Second Third           Fourth     Total
Yes                         10         1        0            0         11
No                           9         2        0            0         11
I don't know                 1         0        0            0          1
Missing Data                63         9        3            1         76
Total                       83        12        3            1         99

20-23 K. Why wasn't a criminal investigation conducted?

                                                                         Incident
                                                           First      Second Third        Fourth     Total
The incident was not reported to LAW
ENFORCEMENT officials                                        4           0         0         0         4
I declined to cooperate with an investigation                3           1         0         0         4
I don't know                                                 1           1         0         0         2
Missing Data                                                75          10         3         1        89
Total                                                       83          12         3         1        99

                                                D.5 [22]
D.5 [23]
20-23 L. Were you informed of the final disposition of this matter?

                                                                         Incident
                                                             First    Second Third    Fourth   Total
Yes                                                            8         1        0     0       9
No, I was not informed                                         0         0        0     0       0
N/A - Offender was never identified.                           1         0        0     0       1
N/A - Not yet resolved (ie. On-going investigation or
legal proceedings                                               3       1       0        0       4
Missing Data                                                   71      10       3        1      85
Total                                                          83      12       3        1      99

20-23 M. If you did not report this incident to MILITARY OR ACADEMY AUTHORITIES, please indicate
the reasons that were the MOST IMPORTANT to you when you decided NOT to report? (Check all that
apply)

                                                                                  Incident
                                                                      First   Second Third     Fourth
(a) Does not apply, I reported it                                      12        1         0     0
(b) It was not serious enough to report                                27        3         2     0
(c) I handled it myself                                                37        0         2     0
(d) I thought I would be labled a trouble maker                        16        0         0     0
(e) I thought nothing would be done                                     7        0         0     0
(f) Threatened with some form of retaliation                            1        0         0     0
(g) not threatened with retaliation, but feared some form of
retaliation                                                             8       0        0       0
(h) Feared ostracism, harassment, or ridicule by peers                 26       3        0       0
(I) Feared loss of friends                                             12       2        0       0
(j) Feared I or others would be punished for infractions/violations
(such as underage drinking)                                            15       1       0        0
(k) Feared public disclosure of the assault                            20       3       0        0
(l) Feared my parents/family would find out                            14       2       0        0
(m) Pressured by someone in position of authority                       1       0       0        0
(n) Feared that my boyfriend/girlfriend would find out                  3       1       0        0
(o) Shame/embarrassment                                                34       4       0        0
(p) Feared other repercussions                                          7       1       0        0
(q) Feared people would not believe me                                 18       3       0        0
(r) Not aware of reporting procedures                                   3       2       1        0
(s) I thought I could deal with it myself                              29       5       1        1
(t) Other (Explain below)                                               9       2       1        0




                                                 D.5 [24]
20N. How satisfied were you with how the following individuals/agencies handled this incident?

                                                                                   N/A or I
                                                                                    did not
                                     Very                                Very Dis-    use     Missing
                         Incident   Satisfied   Satisfied   Dissatisfied satisfied resource    Data      Total
                         First         2           6            2           3         62          8       83
Investigative agencies   Second        4           0            0           0         11          1       16
(OSI/ CID/NCIS)          Third         0           0            0           0         3           0          3
                         Fourth        0           0            0           0         1           0          1
                         First         3           2            1           2         66          9       83
Military lawyers         Second        0           0            0           0         11          1       12
handling your case       Third         0           0            0           0         3           0          3
                         Fourth        0           0            0           0         1           0          1
                         First         1           2            0           0         71          9       83
Victim Witness           Second        0           0            0           0         10          2       12
Assistance               Third         0           0            0           0         3           0          3
                         Fourth        0           0            0           0         1           0          1
SAVI                     First         7           7            0           1         59          9       83
Advocate/Coordinator     Second        0           0            0           0         11          1       12
or Academy Response
                         Third         0           0            0           0         3           0          3
Team (ARTA) [N/A
for West Point]          Fourth        0           0            0           0         1           0          1
                         First         4           6            2           0         63          8       83
Academy Counseling       Second        0           0            0           1         10          1       12
or Development Center Third            0           0            0           0         3           0          3
                         Fourth        0           0            0           0         1           0          1
                         First         3           4            0           1         66          9       83
Peer Resource (CASIE Second
                                       0           0            0           0         11          1       12
Rep/SAVI GUIDE)
                     Third             0           0            0           0         3           0          3
[N/A for West Point]
                     Fourth            0           0            0           0         1           0          1
                         First         3           5            5           2         59          9       83
                         Second        0           0            0           1         10          1       12
Chain of Command
                         Third         0           0            0           0         3           0          3
                         Fourth        0           0            0           0         1           0          1


20-23 N. If you were NOT satisfied with any of the above, please explain why

Do you have another incident to describe?                                         Yes         X         No


                                                  D.5 [25]
Part V
Written Comments




                   D.5 [26]
Appendix D.6 – USNA Male Survey Results

ABBREVIATIONS:
AOC - Air Officer Commanding
AFOSI - Air Force Office of Special Investigations
BCT - Basic Cadet Training
CASIE - Cadets Advocating Sexual Integrity and Education
CID - US Army Criminal Investigation Command
Co. Officer - Company Officer
DoD - Department of Defense
MTL - Miltary Training Leader
NCIS - Naval Criminal Investigative Service
OIG - Office of the Inspector General
SAVI - Sexual Assault Victim Intervention
SEL - Senior Enlisted Leader
TAC - Tactical Officer



Part I

Demographics

1. What is your gender?

         (a)   Male
         (b)   Female

2. What is your class year?

                  2004     256
                  2005     259
                  2006     265
                  2007     266
          Missing data      0
                 Total    1046

3. Which Academy do you attend?

         (a)   Air Force Academy
         (b)   Naval Academy
         (c)   Military Academy


                                              D.6 [1]
Part II

Values




4. As a cadet/midshipman, which of the below listed values are most important to your professional life
at your Academy? Indicate top three in order of importance.

                          1st       2nd       3rd
Accountability             22        35        40
Achievement                48        36        52
Ambition                   13        19        31
Commitment                 43        81       196
Courage                    27       139        93
Effectiveness              27        39        32
Efficiency                 14        19        26
Excellence                 60        35        72
Friendship                 49        74       107
Honor                     289       200        74
Integrity                 140       154        90
Loyalty to Country         99        74        58
Money                       2         6        12
Power                       0         3         3
Respect                    34        55        80
Selfless Service           36        54        47
Spiritual Faith           135        15        17
Tolerance                   6         6        15
Missing Data                2         2         1
Total                    1046      1046      1046




                                              D.6 [2]
5. Based on your experience, to what extent do you AGREE or DISAGREE with the following
statements?


                                      Strongly                                  Strongly Missing
                                       Agree     Agree      No Opinion Disagree Disagree  Data     Totals
5.1. Cadets/ midshipmen at my
Academy adhere to the Honor
Code/Concept, even if they know
they won't get caught violating it      71       669           85        203      16        2      1046
5.2.Cadets/midshipment adhere to
significant Academy rules and
regulations, even if they know
they won't get caught violating
them                                    36       508           115       334      52        1      1046
5.3.Cadets/midshipmen hold other
cadets/midshipmen accountable to
the Honor Code/Concept
                                        71       578           175       197      19        6      1046
5.4. Honesty in all things is
expected and reinforced at my
Academy                                 309      575           69        70        7       16      1046
5.5. I am morally obligated to
abide by the oath I took to support
and defend the Constitution of the
United States, regardless of the
consequences to me.
                                        755      253           21        10        1        6      1046
5.6. I have felt pressure from
others at my academy to
compromise moral standards
because of loyalty to friends/peers
                                        59       348           117       398      121       3      1046
 5.7. I have felt pressure from
others at my academy to
compromise moral standards in
order to meet academic or training
objectives                              33       224           94        507      186       2      1046
5.8. Circumstances determine
whether it is right or wrong for a
cadet/midshipman to compromise
his or her moral standards              33       227           178       401      203       4      1046




                                                  D.6 [3]
Question 5 Continued:




                                       Strongly                                  Strongly Missing
                                        Agree     Agree      No Opinion Disagree Disagree  Data     Totals
5.9. I am committed to living by
moral standards that exceed those
of society at large.                     472      484           54        27        4        5      1046
5.10. As a cadet/midshipman, it is
important for me to meet the same
exemplary conduct and leadership
standards required of a
commissioned officer.                    493      449           54        41        7        2      1046
5.11. My commitment to living by
exemplary conduct and leadership
standards has been reinforced by
attending the Academy.
                                         293      536           98        91       27        1      1046
5.12. I believe commitment to
some form of ethical/spiritual/
religious beliefs is important to an
officer's character.                     461      369           94        67       47        8      1046
5.13 I am strongly committed to
some form of
ethical/spiritual/religious beliefs
about what is right and wrong.           473      432           62        41       32        6      1046
5.14. My experiences at the
Academy have enhanced my
commitment to my
ethical/spiritual/religious beliefs.     216      375           217       159      72        7      1046




                                                   D.6 [4]
6. To what extend do you AGREE or DISAGREE with the following
statements? The following behaviors would disrupt good order and
discipline at my Academy:


                                     Strongly                                  Strongly Missing
                                      Agree     Agree      No Opinion Disagree Disagree  Data     Total
6.1. Violating the Honor
Code/Concept                           407      502           60        61       15        1      1046
6.2. Not reporting Honor
Code/Concept violations                157      501           176       190      20        2      1046
6.3. Favoritism based on gender        607      347            40        29      20        3      1046
6.4. Engaging in prohibited
relationships/ fraternization          268      453           137       157      28        3      1046
6.5. Cadets/ midshipmen dating
each other at the same Academy         112      148           147       422      213       4      1046
6.6 Consensual sex between
cadets/midshipmen ON Academy
grounds                                312      331           129       202      71        1      1046
6.7. Consensual sex between
cadets/midshipmen OFF
Academy grounds                        103      125           119       401      296       2      1046
6.8. Excessive use of
alcohol/drunkenness                    243      471           124       157      46        5      1046
6.9.Illegal drug use, or the abuse
of prescription drugs                  733      226           35        23       17       12      1046
6.10. Viewing pornography or
other sexually graphic content         73       170           193       366      241       3      1046
(i              i )
Part III -

Academy Climate

7. To what extent do you AGREE or DISAGREE with the following statements about how men and
women are treated at your academy?

                                     Strongly                                  Strongly Missing
                                      Agree     Agree      No Opinion Disagree Disagree  Data     Total
(a) Men receive more favorable
treatment OVERALL.                     12        95           124       572      237       6      1046
(b) Women receive more
favorable treatment OVERALL.           271      371           105       264      30        5      1046
(c) Men and women are treated
fairly OVERALL.                        38       304           161       393      140      10      1046


                                                 D.6 [5]
8. Do you AGREE or DISAGREE with the following statement? Cadets/Midshipmen
dormitory/barracks areas should be physically separated (i.e., different floors or buildings) by gender.




                                                 No                    Missing
                                     Agree     Opinion      Disagree    Data      Total
                                      175        62           804        5        1046




9. Do you understand the following?

                                                                                          Missing
                                                              Yes        No      Not Sure  Data     Total
9.1. The difference between sexual harassment and
sexual assault.                                              1006        5         33        2      1046
9.2. How to avoid situations that might increase the
risk of sexual assault.                                      1021        8         15        2      1046
9.3. How to report sexual assaults.
                                                              943        42        57        4      1046
9.4. How to obtain medical care following a sexual
assault.                                                      864        90        90        2      1046
9.5. How to obtain counseling following a sexual
assault.                                                      924        63        53        6      1046
9.6. The services that your Academy's legal office can
provide to a victim in response to sexual assault.            675       204        163       4      1046
9.7. The general responsibilities of law enforcement
and criminal investigative agencies in response to
sexual assaults.                                              729       166        148       3      1046
9.8. The role of the chain of command in handling
sexual assaults.                                              667       205        169       5      1046
9.9. Where to go if I need additional information on the
areas above.                                                  911        62        62       11      1046




                                                  D.6 [6]
10. At your Academy, to what extent do you think current cadet/midshipmen leaders ________?

                            Very
                            large   Large    Moderate    Small               No Basis Missing
                           extent   extent    extent     Extent   Not at all to Judge  Data     Total
10.1. Demonstrate
good examples of
sound moral character       72       481       383        74         18       17        1       1046
10.2 Hold others
accountable for their
conduct                     102      451       369        96         11       11        6       1046
10.3 Promote and
safeguard the welfare
of subordinates             135      459       293        105        33       16        5       1046
10.4. Create a climate
in which sexual
HARASSMENT is not
tolerated                   198      445       238        93         24       43        5       1046
10.5. Create a climate
in which
cadets/midshipmen are
encouraged to report
sexual HARASSMENT
                            166      381       275        108        37       74        5       1046
10.6. Create a climate
in which sexual
ASSAULT is not
tolerated                   412      407       121        42         10       53        1       1046
10.7. Create a climate
in which
cadets/midshipmen are
encouraged to report a
sexual ASSAULT              301      396       176        56         27       82        8       1046
10.8. Ensure those who
have reported sexual
harassment/assault are
treated with dignity and
respect
                            188      319       177        72         32       253       5       1046
10.9. Provide an
appropriate level of
privacy to those who
have experienced
sexual ASSAULT              207      285       159        52         29       309       5       1046




                                               D.6 [7]
11. At your Academy, to what extent do you think current commissioned officers directly in charge of
your unit (TAC, AOC, Co Offiers) ______?



                            Very
                            large   Large    Moderate    Small               No Basis Missing
                           extent   extent    extent     Extent   Not at all to Judge  Data     Total
11.1 Demonstrate good
examples of sound
moral character             257      477       202        75         14       20        1       1046
11. 2 Hold others
accountable for their
conduct                     401      482       113        27         6        11        6       1046
11.3 Promote and
safeguard the welfare
of subordinates             285      438       200        79         25       10        9       1046
11.4. Create a climate
in which sexual
HARASSMENT is not
tolerated                   411      416       118        29         12       51        9       1046
11.5 Create a climate in
which
cadets/midshipmen are
encouraged to report
sexual HARASSMENT
                            380      386       153        35         14       72        6       1046
11.6 Create a climate in
which sexual
ASSAULT is not
tolerated                   496      368       87         22         8        59        6       1046
11.7 Create a climate in
which
cadets/midshipmen are
encouraged to report a
sexual ASSAULT              417      375       111        38         10       80        15      1046
11.8 Ensure those who
have reported sexual
harassment/assault are
treated with dignity and
respect                     343      340       97         25         10       226       5       1046




                                               D.6 [8]
Question 11. Continued:




                          Very large   Large    Moderate                        No Basis   Missing
                           extent      extent    extent Small Extent Not at all to Judge    Data     Total
11.9 Provide an
appropriate level of
privacy to those who
have experienced
sexual ASSAULT
                             324       314        93          30         8        273        4       1046
11.10. Provide
adequate information to
cadets/midshipmen
about policies,
procedures, and
consequences of sexaul
ASSAULT
                             323       350        172         76         17       101        7       1046




                                                  D.6 [9]
12. At your Academy, to what extent do you think the current Academy Senior Leadership
(Superintendent, Commandant, Vice/Deputy Commandant, Dean) ____________?

                            Very
                            large   Large    Moderate     Small               No Basis Missing
                           extent   extent    extent      Extent   Not at all to Judge  Data     Total
12.1 Demonstrate good
examples of sound
moral character
                            743      254       21           9         1        17        1       1046
12.2 Hold
cadets/midshipmen
accountable for their
conduct
                            757      245       21           5         1        12        5       1046
12.3 Promote and
safeguard the welfare
of subordinates
                            706      252       45          15         3        12        13      1046
12.4 Treat subordinate
cadets/midshipmen
fairly regardless of
gender
                            524      214       129         80         43       51        5       1046
12.5 Create a climate in
which sexual
HARASSMENT is not
tolerated
                            707      249       45           6         2        31        6       1046
12.6 Create a climate in
which sexual
ASSAULT is not
tolerated                   742      233       30           4         1        32        4       1046




                                               D.6 [10]
13. At your Academy, to what extent do you think the current academic faculty _____________?


                           Very
                           large    Large    Moderate Small               No Basis Missing
                           extent   extent   extent   Extent   Not at all to Judge Data      Total
13.1 Demonstrate good
examples of sound
moral character              193      532      218        34      6         58        5        1046
13.2 Hold
cadets/midshipmen
accountable for their
conduct                      227      452      256        43      13        48        7        1046
13.3 Promote and
safeguard the welfare
of subordinates              185      399      258        73      20        94       17        1046
13.4 Treat subordinate
cadets/midshipmen
fairly regardless of
gender                       219      429      242        82      19        43       12        1046
13.5 Create a climate in
which sexual
HARASSMENT is not
tolerated                    303      354      138        30      15       195       11        1046
13.6 Create a climate in
which sexual assault is
not tolerated
                             343      341      115        21      17       196       13        1046




                                               D.6 [11]
14. Based on the behavior you have observed, to what extent are cadets/midshipmen at your Academy
willing to _________?




                           Very
                           large   Large    Moderate     Small               No Basis Missing
                          extent   extent    extent      Extent   Not at all to Judge  Data     Total
14.1 CONFRONT
other
cadets/midshipmen
who engage in sexual
HARASSMENT,
including inappropriate
comments and actions       118      243       298         224        37       121       5       1046
14.2 REPORT other
cadets/midshipment
who continue to engage
in sexual
HARASSMENT after
having been previously
confronted                 118      277       272         179        27       166       7       1046
14.3 REPORT other
cadets/midshipmen
who commit sexual
ASSAULT                    309      298       148         76         12       197       6       1046




                                              D.6 [12]
15. To what extent do you think cadets/midshipmen at your Academy ________?




                            Very
                            large   Large    Moderate     Small               No basis Missing
                           extent   extent    extent      Extent   Not at all to judge  Data     Total
15.1 Allow personal
loyalties to affect
reporting of sexual
ASSAULT                     74       159       258         251        96       201       7       1046
15.2 Do NOT report
sexual ASSAULT out
of concern they or
others will be punished
for infractions, such as
fraternization or
underage drinking           93       206       216         222       117       186       6       1046
15.3 Consider fradulent
reporting of sexual
ASSAULT incidents to
be a problem at the
Academy
                            260      192       187         157       105       138       7       1046




                                               D.6 [13]
16. Would you be willing to report a personal experience of sexual assault to the following
individuals/agencies?

                                                                             Service
                                                                              Not     Missing
                                                 Yes        No    Uncertain Available  Data     Total
(a) Officer/NCO Chain of command
member (ie. AOC, MTL, TAC, Co Officer,
SEL)                                             741        173      127        1         4     1046
(b) Faculty member, coaches, or Academy
staff not in chain of command                    604        276      155        2         9     1046
(c) Academy hotline/helpline                     577        280      154       29         6     1046
(d) Person in cadet/midshipman chain of
command                                          569        314      158        1         4     1046
(e) Peer resource (eg. SAVI GUIDE, CASIE
Rep) [N/A for West Point]                        791        170      74         1        10     1046
(f) Academy Counseling or Development
Center                                           628        254      154        1         9     1046
(g) Installation Medical Personnel               758        173      107        1         7     1046
(h) Criminal investigative orgainizations (ie.
AFOSI, CID, NCIS)                                699        192      143        4         8     1046
(i) Security Forces, Military Police or USNA
Police                                           501        383      155        1         6     1046
(j) Academy Inspector General Office [N/A
for Naval Academy]                               154        93       55        669       75     1046
(k) Academy Chaplain/Clergy
                                                 852        99       83         2        10     1046
(l) Academy Response Team (ART) [N/A
for West Point and Naval Academy]                124        79       57        698       88     1046
(m) SAVI Advocate/Coordinator [N/A for
West Point and USAFA]                            757        168      106        6         9     1046
(n) Service Inspector General's office or
hotline                                          389        372      253       23         9     1046
(o) DoD Inspector General's office or DoD
IG Hotline                                       391        392      249        8         6     1046
(p) Other (please explain)                        95        284      181       211       275    1046




                                                 D.6 [14]
17. In this question, you will be asked about sexual talk and/or beahviors that were both UNINVITED
AND UNWANTED, and in which you did not participate willingly. SINCE JUNE OF 2003, how
frequently have you been in situations where persons assigned to your Academy (cadets/midshipmen
and/or other military or civilian personnel working at your Academy)_________?
                                             Once or     Several           Very    Missing
                                     Never    twice       times    Often   often    Data      Total
17.1 Repeatedly told stories or
jokes of a sexual nature that were
offensive to you                     704      212          74       37      16        3       1046
17.2 Made unwelcome attempts to
draw you into a discussion of
sexual matters (for example,
attempted to discuss or comment
on your sex life)                    715      220          71       25       8        7       1046
17.3 Made offensive remarks
about your appearance, body, or
sexual activities                    814      144          52       22       8        6       1046
17.4 Made gestures or used body
language of a sexual nature that
embarrassed or offended you
                                     883      117          27       9        3        7       1046
17.5 Made unwanted attempts to
establish a romantic sexual
relationship with you despite your
efforts to discourage it             968       55          14       1        1        7       1046
17.6 Continued to ask you for
dates, drinks, dinner, etc, even
though you said "No"                 1008      28          4        2        0        4       1046
17.7 Made you feel like you were
being bribed with some sort of
reward or special treatment to
engage in sexual behavior
                                     1026      10          1        1        0        8       1046
17.8 Made you feel threatened
with some sort of retaliation for
not being sexually cooperative
(for example, by mentioning an
upcoming review or evaluation)       1024      7           3        0        0        12      1046
17.9 Touched you in a way that
made you feel uncomfortable           45      986          10       0        2        3       1046
17.10 Treated you badly for
refusing to have sex                 1027      9           3        0        2        5       1046
17.11 Implied better assignments
or better treatment if you were
sexually cooperative
                                     1031      4           0        0        2        9       1046

                                              D.6 [15]
18. How many of the behaviors listed above that YOU MARKED AS HAPPENING TO YOU do you
consider to have been sexual harassment?

(a) None were sexual harrassment                                 402
(b) Some were sexual harassment                                   84
(c) Most were sexual harassment                                   13
(d) All were sexual harassment                                    25
(e) Does not apply (I marked "NEVER" in every item
in question #17)                                                 516
Missing Data                                                       6
Total                                                           1046

Part IV

Personal Experiences

The remaining questions apply to your total time at the Academy (EXCLUDING Prep School)

19. SINCE BECOMING A CADET/MIDSHIPMAN, has someone done any of the following to you
WITHOUT YOUR CONSENT AND AGAINST YOUR WILL?


Touched, stroked, or fondled your private parts
Physically attempted to have sexual intercourse with you, but was not successful
Physically attempted to have oral or anal sex with you, but was not successful
Had sexual intercourse with you?
Had oral sex with you?
Had anal sex with you?


Yes                            26
No                           1017
Missing Data                    3
Totals                       1046

20-23. If you answered Yes to Question 19, please describe up to four such incidents, focusing on those you
consider to be the most severe incidents.




                                                  D.6 [16]
 20-23 A. When did this incident occur? [calendar year, semester and your status/rank(BCT or Plebe
Summer/freshman/sophomore/junior/senior)] (Note: if you selected summer "semester," it assumes that
graduation has occurred and you have risen to the next rank)



                                       Incident
       Year              First    Second Third           Fourth     Total
        1999               1         0        0            0          1
        2000               1         0        0            0          1
        2001               1         0        0            0          1
        2002               7         0        0            0          7
        2003               9         0        0            0          9
        2004               5         1        0            0          6
      Unknown              2         0        0            0          2
       Total              26         1        0            0         27

                                       Incident
      Semester           First    Second Third           Fourth     Total
        Fall              10         0        0            0         10
       Spring              9         1        0            0         10
      Summer               4         0        0            0          4
      Unknown              3         0        0            0          3
        Total             26         1        0            0         27

                                       Incident
       Status            First    Second Third           Fourth     Total
      Freshman            10         0        0            0         10
      Sophomore            6         0        0            0          6
       Junior              5         1        0            0          6
       Senior              1         0        0            0          1
        BCT                1         0        0            0          1
      Unknown              3         0        0            0          3
        Total             26         1        0            0         27




                                              D.6 [17]
20-23 B. What did the offender do to you? (Check all that apply)
                                                                        Incident
                                                            First    Second Third    Fourth
Touched, stroked, or fondled your private parts?             17         0        0     0
Physically attempted to have sexual intercourse with
you, but was not successful?                                  4        0       0       0
Physically attempted to have oral or anal sex with you,
but was not successful?                                       3        0       0       0
Had sexual intercourse with you?                              7        0       0       0
Had oral sex with you?                                        5        0       0       0
Had anal sex with you?                                        0        0       0       0
Missing Data                                                           1

20-23 C. Where did the incident take place?
                                                                        Incident
                                                            First    Second Third    Fourth   Total
On installation in dorm/barracks                             12         0        0     0       12
On installation , NOT in dorm/barracks                        3         0        0     0        3
Off installation at an Academy-sponsored event                1         0        0     0        1
Off installation and NOT at an Academy-sponsored              6         0        0     0        6
Missing Data                                                  4         1        0     0        5
Total                                                        26         1        0     0       27

20-23 D. Did the incident involve MULTIPLE offenders?

                                         Incident
                           First    Second Third            Fourth   Total
Yes                          1         0        0             0        1
No                          20         0        0             0       20
I don't know                 1         0        0             0        1
Missing Data                 4         1        0             0        5
Total                       26         1        0             0       27




                                                 D.6 [18]
20-23 E. Who was the offender(s)? (Check all that apply)

                                                                   Incident
                                                       First    Second Third    Fourth
Cadet/midshipman who was senior to me                    3         0        0     0
Cadet/midshipman who was in same class as me or
below                                                      17     0       0       0
Military faculty or staff member                            0     0       0       0
Civilian faculty or staff member                            0     0       0       0
Military person NOT assigned to your academy                0     0       0       0
Civilian person NOT assigned to your academy                4     0       0       0
Unidentified person                                         0     0       0       0
Missing Data                                                5     1       0       0
Totals                                                     29     1       0       0




                                            D.6 [19]
20-23 F. To which authorities, if any, was this incident reported? (Check all that apply)

                                                                                 Incident
                                                                     First    Second Third      Fourth
Officer/NCO chain of command (AOC, MTL, TAC, Co. Officer,
SEL)                                                                   1         0          0      0
Academy staff & faculty member not in chain of command                 0         0          0      0
Academy hotline/helpline                                               0         0          0      0
Academy Response Team (ART) [N/A for USMA and USNA]                    0         0          0      0
Person in cadet/midshipman chain of command                            0         0          0      0
Peer resource (SAVI GUIDE, CASIE Rep) [N/A for USMA]                   0         0          0      0
Academy Counseling or Development Center                               0         0          0      0
SAVI Advocate/Coordinator [N/A for USMA and USAFA]                     1         0          0      0
Off-Installation Counseling Center                                     0         0          0      0
Installation Medical Personnel                                         1         0          0      0
Off-Installation Medical Personnel                                     0         0          0      0
Criminal investigative organizations (AFOSI, CID, NCIS)                1         0          0      0
Security Forces, Military Police, or USNA Police                       0         0          0      0
Academy Inspector General's Office [N/A for USNA]                      0         0          0      0
Academy Chaplain/Clergy                                                1         0          0      0
Non-Installation Chaplain/Clergy                                       0         0          0      0
Civilian Law Enforcement Agency                                        1         0          0      0
Service or DoD Inspector General's office or Hotline                   0         0          0      0
No one - I did not report this incident                               20         0          0      0
Other (please explain below)                                           3         0          0      0

20-23 G. Did anyone in a POSITION OF AUTHORITY retaliate against you for reporting this incident
(such as unwarranted punishment, demotion, or withholding a favorable duty position?



                                       Incident
                         First    Second Third           Fourth     Total
Yes                        0         0        0            0          0
No                         3         0        0            0          3
Don't know or not sure     0         0        0            0          0
Missing Data              23         1        0            0         24
Totals                    26         1        0            0         27




                                              D.6 [20]
20-23 H. Please indicate who retaliated against you (Check all that apply)

                                                                         Incident
                                                           First      Second Third        Fourth
Cadet/midshipman in my chain of command                      0           0        0         0
Upperclassmen NOT in my chain of command                     0           0        0         0
Commissioned Officer in my chain of command                  0           0        0         0
Other Academy staff or faculty                               0           0        0         0
Service officials outside your Academy                       0           0        0         0

20-23 I. Please indicate if you experienced any of the following OTHER repercussions for reporting this
incident? (Check all that apply)

                                                                                   Incident
                                                                       First    Second Third         Fourth
Ostracism, harassment, or ridicule from other cadets/midshipmen
NOT in chain of command?                                                 0         0         0            0
Ostracism, harassment, or ridicule from other cadets/midshipmen in
chain of command?                                                        0         0         0            0
Ostracism, harassment, or ridicule from Academy staff or faculty
members                                                                  0         0         0            0
Other significant repercussions (Please specify below)                   0         0         0            0
No, I did not experience other repercussions.                            2         0         0            0
Total                                                                    2         0         0            0

20-23 J. Did a military criminal investigative organization (AFOSI, CID or NCIS) or a civilian law
enforcement agency conduct a criminal investigation?

                                         Incident
                           First    Second Third           Fourth     Total
Yes                          0         0        0            0          0
No                           1         0        0            0          1
I don't know                 1         0        0            0          1
Missing Data                24         1        0            0         25
Total                       26         1        0            0         27

20-23 K. Why wasn't a criminal investigation conducted?

                                                                         Incident
                                                           First      Second Third        Fourth     Total
The incident was not reported to LAW
ENFORCEMENT officials                                        1           0         0         0         1
I declined to cooperate with an investigation                0           0         0         0         0
I don't know                                                 0           0         0         0         0
Missing Data                                                25           1         0         0        26
Total                                                       26           1         0         0        27

                                                D.6 [21]
20-23 L. Were you informed of the final disposition of this matter?

                                                                         Incident
                                                             First    Second Third    Fourth   Total
Yes                                                            0         0        0     0       0
No, I was not informed                                         1         0        0     0       1
N/A - Offender was never identified.                           0         0        0     0       0
N/A - Not yet resolved (ie. On-going investigation or
legal proceedings                                               0       0       0        0       0
Missing Data                                                   25       1       0        0      26
Total                                                          26       1       0        0      27

20-23 M. If you did not report this incident to MILITARY OR ACADEMY AUTHORITIES, please indicate
the reasons that were the MOST IMPORTANT to you when you decided NOT to report? (Check all that
apply)

                                                                                  Incident
                                                                      First   Second Third     Fourth
(a) Does not apply, I reported it                                       0        0         0     0
(b) It was not serious enough to report                                 9        0         0     0
(c) I handled it myself                                                 8        0         0     0
(d) I thought I would be labled a trouble maker                         1        0         0     0
(e) I thought nothing would be done                                     2        0         0     0
(f) Threatened with some form of retaliation                            1        0         0     0
(g) not threatened with retaliation, but feared some form of
retaliation                                                             1       0        0       0
(h) Feared ostracism, harassment, or ridicule by peers                  2       0        0       0
(I) Feared loss of friends                                              1       0        0       0
(j) Feared I or others would be punished for infractions/violations
(such as underage drinking)                                             3       0       0        0
(k) Feared public disclosure of the assault                             1       0       0        0
(l) Feared my parents/family would find out                             0       0       0        0
(m) Pressured by someone in position of authority                       0       0       0        0
(n) Feared that my boyfriend/girlfriend would find out                  1       0       0        0
(o) Shame/embarrassment                                                 3       0       0        0
(p) Feared other repercussions                                          1       0       0        0
(q) Feared people would not believe me                                  4       0       0        0
(r) Not aware of reporting procedures                                   0       0       0        0
(s) I thought I could deal with it myself                               3       0       0        0
(t) Other (Explain below)                                               3       0       0        0




                                                  D.6 [22]
20N. How satisfied were you with how the following individuals/agencies handled this incident?

                                                                                    N/A or I
                                                                                     did not
                                     Very                                 Very Dis-    use     Missing
                         Incident   Satisfied   Satisfied    Dissatisfied satisfied resource    Data      Total
                         First         0           0             0           0         21          5       26
Investigative agencies   Second        0           0             0           0         0           1          1
(OSI/ CID/NCIS)          Third
                         Fourth
                         First         0           0             0           0         21          5       26
Military lawyers         Second        0           0             0           0         0           1          1
handling your case       Third
                         Fourth
                         First         0           0             0           0         21          5       26
Victim Witness           Second        0           0             0           0         0           1          1
Assistance               Third
                         Fourth
SAVI                     First         0           1             0           1         18          6       26
Advocate/Coordinator     Second        0           0             0           0         0           1          1
or Academy Response
                         Third
Team (ARTA) [N/A
for West Point]          Fourth
                         First         0           0             0           1         20          5       26
Academy Counseling       Second        0           0             0           0         0           1          1
or Development Center Third
                         Fourth
                         First         0           0             0           0         21          5       26
Peer Resource (CASIE Second
                                       0           0             0           0         0           1          1
Rep/SAVI GUIDE)
                     Third
[N/A for West Point]
                     Fourth
                         First         1           0             1           0         18          6       26
                         Second        0           0             0           0         0           1          1
Chain of Command
                         Third
                         Fourth


20-23 N. If you were NOT satisfied with any of the above, please explain why

Do you have another incident to describe?                                          Yes         X         No


                                                  D.6 [23]
Part V

Written Comments




                   D.6 [24]
Appendix E. Report Distribution

Office of the Secretary of Defense
Secretary of Defense
Under Secretary of Defense for Personnel and Readiness
Under Secretary of Defense (Comptroller)
General Counsel, Department of Defense
Deputy Comptroller (Program Budget)
Deputy General Counsel (Inspector General)
Assistant Secretary of Defense (Public Affairs)

Department of the Army
Secretary of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Manpower and Reserve Affairs)
General Counsel, Department of the Army
Auditor General, Department of the Army
Superintendent, US Military Academy
Inspector General, Department of the Army
Commander, US Army Criminal Investigation Command

Department of the Navy
Secretary of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
General Counsel, Department of the Navy
Naval Audit Service
Superintendent, US Naval Academy
Inspector General, Department of the Navy
Counsel for the Commandant (Marine Corps)
Director, Naval Criminal Investigative Service
Deputy Naval Inspector General for Marine Corps Matters/Inspector General of the
   Marine Corps

Department of the Air Force
Secretary of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
General Counsel, Department of the Air Force
Superintendent, US Air Force Academy
Inspector General, Department of the Air Force


                                        E-1
Commander, Air Force Office of Special Investigations

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                        E-2
